<html>
<title> - CLIMATE CHANGE: EXAMINING THE PROCESSES USED TO CREATE SCIENCE AND POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  CLIMATE CHANGE: EXAMINING THE PROCESSES USED TO CREATE SCIENCE AND 

                                 POLICY

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, MARCH 31, 2011

                               __________

                           Serial No. 112-09

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-306                  WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY

                            C O N T E N T S

                        Thursday, March 31, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................    10

                               Witnesses:

Dr. J. Scott Armstrong, Professor of Marketing, the Wharton 
  School, University of Pennsylvania.
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. Richard Muller, Professor of Physics, University of 
  California, Berkeley and Faculty Senior Scientist, Lawrence 
  Berkeley Laboratory
    Oral Statement...............................................    40
    Written Statement............................................    41

Dr. John Christy, Director, Earth System Science Center, 
  University of Alabama in Huntsville
    Oral Statement...............................................    45
    Written Statement............................................    46

Mr. Peter Glaser, Partner, Troutman Sanders, LLP
    Oral Statement...............................................    83
    Written Statement............................................    84

Dr. Kerry Emanuel, Professor of Atmospheric Science, 
  Massachusetts Institute of Technology
    Oral Statement...............................................    96
    Written Statement............................................    97

Dr. W. David Montgomery, Economist
    Oral Statement...............................................   101
    Written Statement............................................   103

             Appendix I: Answers to Post-Hearing Questions

Dr. J. Scott Armstrong, Professor of Marketing, the Wharton 
  School, University of Pennsylvania.............................   154

Dr. Richard Muller, Professor of Physics, University of 
  California, Berkeley and Faculty Senior Scientist, Lawrence 
  Berkeley Laboratory............................................   160

Dr. John Christy, Director, Earth System Science Center, 
  University of Alabama in Huntsville............................   167

Mr. Peter Glaser, Partner, Troutman Sanders, LLP.................   175

Dr. Kerry Emanuel, Professor of Atmospheric Science, 
  Massachusetts Institute of Technology..........................   183

Dr. W. David Montgomery, Economist...............................   196

            Appendix II: Additional Material for the Record

Material submitted by Representative Ralph M. Hall, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   202

Material submitted by Mr. Peter Glaser, Partner, Troutman 
  Sanders, LLP...................................................   212

Material submitted by Representative Dana Rohrabacher, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   256


                     CLIMATE CHANGE: EXAMINING THE



                    PROCESSES USED TO CREATE SCIENCE



                               AND POLICY

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                Climate Change: Examining the Processes

                   Used to Create Science and Policy

                        thursday, march 31, 2011
                        10:00 a.m. to 12:00 p.m.
                   2318 rayburn house office building

PURPOSE

    On Thursday, March 31, 2011 at 10:00 a.m. the House Committee on 
Science, Space, andTechnology will hold a hearing to examine processes 
used to generate key climate change science and information used to 
inform policy development and decision-making.

WITNESSES

    <bullet>  Dr. J. Scott Armstrong, Professor of Marketing, the 
Wharton School, University of Pennsylvania.

    <bullet>  Dr. Richard Muller, Professor of Physics, University of 
California, Berkeley and Faculty Senior Scientist, Lawrence Berkeley 
Laboratory

    <bullet>  Dr. John Christy, Director, Earth System Science Center, 
University of Alabama in Huntsville

    <bullet>  Mr. Peter Glaser, Partner, Troutman Sanders, LLP

    <bullet>  Dr. Kerry Emanuel, Professor of Atmospheric Science, 
Massachusetts Institute of Technology

    <bullet>  Dr. W. David Montgomery, Economist

BACKGROUND

    All aspects of modern life operate within a known range of climate 
conditions. That range of variability requires that all sectors, from 
agriculture to transportation, have a measure of resiliency built into 
them. Our ability to adapt to changing climate conditions is predicated 
on our ability to better account for risk and prepare proportionate 
responses to those risks. Advancements in climate science may reduce 
uncertainty and provide a better idea about the risks we face, thus 
allowing for more informed decisions to be made that impact the quality 
of our lives.

Weather and Climate

    Weather is defined as the state of the atmosphere with respect to 
wind, temperature, cloud cover, moisture, pressure, etc. at a given 
point in time. Climate is defined as the composite or generally 
prevailing weather conditions of a region averaged over a period of 
years or more. \1\ In addition, spatial elements such as latitude, 
terrain, altitude, proximity to water and ocean currents affect the 
climate. The difference between weather and climate is a measure of 
time. Whereas weather consists of short-term changes in the atmosphere, 
climate is determined by cycles of variability that operate within 
timescales that span from millennia (i.e. ice ages) to months (i.e. 
seasons).
---------------------------------------------------------------------------
    \1\  http://www.nws.noaa.gov/glossary/

---------------------------------------------------------------------------
Scientific Process, Integrity, and Debate

    Since the dawn of science, man has tried to describe and measure 
the natural world. Through an iterative process of data collection, 
formulation of hypotheses, and testing and refining these hypotheses, a 
knowledge base of information is built that yield theories and allow 
for predictive models to be built that describe them. Experiments are 
conducted to test these hypotheses, theories and models. As new 
observations are incorporated throughout the process, the theories must 
be able to assimilate these new data or change to accommodate new 
facts. Confidence in a theory grows only if it is able to survive a 
rigorous testing process, it is supported by multiple and independent 
lines of evidence, and competing explanations can be ruled out. The 
American Physical Society statement on ethics and values states that:

``The success and credibility of science are anchored in the 
willingness of scientists to:

    1.  Expose their ideas and results to independent testing and 
replication by others. This requires the open exchange of data, 
procedures and materials.
    2.  Abandon or modify previously accepted conclusions when 
confronted with more complete or reliable experimental or observational 
evidence.
    Adherence to these principles provides a mechanism for self-
correction that is the foundation of the credibility of science. \2\
---------------------------------------------------------------------------
    \2\  http://www.aps.org.policy/statements/99_6.cfm
---------------------------------------------------------------------------
    The creation of government regulations is dictated by several 
statutes, including the law that provides agencies the authority 
regulate some chemical or action as well as the Administrative 
Procedure Act (APA). While the APA provides guidelines as to what steps 
should be taken by agencies when promulgating rules, the statutes that 
give specific authority may also require additional measures to ensure 
a fair and impartial process. Furthermore, agencies have the discretion 
to allow for greater public participation, longer public comment 
periods, or even a greater burden of proof depending on the level of 
impact a given rule is projected to have.
    Whether it is scientific method or regulatory procedure, process is 
defined as a systematic series of actions that are broadly known and 
well understood. Given the potential widespread impacts on the U.S. 
economy, climate change policy has received a level of scrutiny and 
analysis that rival some of the most important debates the U.S. has 
engaged in. As such, it is vital that the processes upon which climate 
change science and policy are based be widely accepted, understood, and 
adhered to.
    In November of 2009, thousands of emails were leaked from the 
University of East Anglia's Climate Research Unit (CRU). These emails-
many of which involved world-leading scientists in positions of 
influence with respect to key scientific assessments relied upon by 
policymakers-revealed significant communications suggesting a lack of 
adherence to basic principles of scientific conduct, openness, and 
information sharing. The controversy regarding the leaked emails-dubbed 
``ClimateGate'' in the media-called into question the processes used in 
the Intergovernmental Panel on Climate Change (IPCC) as well as the 
processes used to create models and data that support claims that 
anthropogenic emissions of greenhouse gases have caused changes in the 
Earth's climate that is beyond natural variability. The significance of 
and concern regarding the emails has been heightened by the fact that 
CRU is one of the primary institutions that provide data and 
information to the IPCC, raising questions regarding the integrity of 
the models, data and processes, and ultimately the key scientific 
conclusions upon which climate policies are based.

Modeling Uncertainty

    Increased computing capacity, a greater understanding of the 
atmosphere, and access to better data has allowed weather forecasting 
to evolve over the last century to become a vital part of daily life. 
The ability to forecast hours and days into the future is constantly 
improved as models used are validated by the observational data. 
Climate models, however, are not just weather models run for longer 
periods of time. Generally, climate models are more complex since they 
are dealing with longer time scales, larger geographic areas, and a 
greater number of complicated and interactive factors.
    General circulation models (GCMs) are mathematical models of the 
general circulation of a planetary atmosphere or ocean. GCMs that model 
the climate as a whole are actually an amalgamation of several 
different models, including atmospheric models, ocean circulation 
models, land surface models, and sea ice models . \3\ Each one of these 
models is built with mathematical equations that describe the physical 
world as it is understood. However, not all the observable physical 
processes are able to be described or explained by an equation. For 
example, clouds are not well modeled in the GCM, creating a very large 
question of uncertainty regarding climate sensitivities, \4\ i.e. could 
higher temperatures result in more clouds that then reflect more 
incoming radiation or do the clouds act as an additional warming layer 
preventing radiation from escaping the Earth's atmosphere.
---------------------------------------------------------------------------
    \3\  U.S. Climate Change Science Program, Synthesis and Assessment 
Product 3.1. Climate Models: An Assessment of Strengths and 
Limitations. July 2008.
    \4\  Zhang, Y., Klein, S.A., Boyle, J. and Mace, G.G. 2010. 
Evaluation of tropical cloud and precipitation statistics of Community 
Atmosphere Model version 3 using CloudSat and CALIPSO data. Journal of 
Geophysical Research 115: doi:10.1029/2009JD012006.
---------------------------------------------------------------------------
    While it has been well known for years that climate change modeling 
is difficult, imprecise and yielding results that are subject to 
interpretation, there has been increasing evidence that these models 
have not been developed and used according to accepted modeling and 
forecasting processes and tenants. As mentioned above, the scientific 
method requires that models be subjected to rigorous testing and 
experimentation in order to validate their results. Such testing and 
validation is necessary to generate confidence in the models as useful 
projective tools.

Data quality

    Although the U.S. government began collecting weather data as early 
as 1814, the first systematic collection of data and issuance of 
warnings began in 1870 after President Ulysses S. Grant signed into law 
a bill that established what is now the National Weather Service. 
Technology has advanced from individual measurements of temperature and 
wind to the current use of satellites to measure many aspects of 
Earth's climate. This continuous data record provides the ability to 
observe the changes in weather patterns over time, and contributes to 
efforts to better predict future changes.
    In any scientific pursuit, data is the key ingredient that informs 
scientists as to whether or not the hypothesis being tested is 
supported or wrong. Bad quality data may demonstrate a hypothesis is 
supported, when in fact, the data may obscure the fact that the 
hypothesis is incorrect. High quality data, however, generates 
confidence that the results of an experiment represent the truth of the 
scientific inquiry. Therefore, the quality of data is paramount to 
production of good science.
    In recent years, there have been questions regarding not only the 
quality of the data collected but also the processes used for 
normalization (in order to compare ``apples to apple''). The quality of 
data collected from instruments that have not been maintained or whose 
placement violates government positioning procedures has not been 
established. Furthermore, the process used for quality assurance has 
come under question as well, prompting several data quality projects 
across the country to test the quality of the data used in climate 
change science.

IPCC Process

    The IPCC was established by the United Nations Environment 
Programme and the World Meteorological Organization to provide the 
world with scientific assessments of the current state of knowledge in 
climate change. Although billed as a scientific organization, the IPCC 
does not conduct science; it only compiles science from existing 
scientific literature.
    The issuance of the third (2001) and fourth (2007) assessment 
reports have been accompanied by increasing questions regarding the 
process used by the IPCC. Specifically, transparency, conflicts of 
interest, political interference, the characterization of uncertainty, 
and the use of non-peer reviewed data and information are all areas of 
the IPCC process that have caused concern among scientists, academics 
and policy makers. \5\ Although there have been many recommendations as 
to how to reform the process in order to restore confidence in the 
assessment results, and the IPCC has stated it would adopt many of 
these reforms, there has been no evidence as of yet whether or not 
these reforms will sufficiently address the shortcomings in the 
process.
---------------------------------------------------------------------------
    \5\  InterAcademy Council, Committee to Review the 
Intergovernmental Panel on Climate Change. Climate Change Assessments: 
Review of the processes and procedures of the IPCC. October, 2010. 
http://reviewipcc.interacedemycouncil.net/report/Climate %20Change 
%20Assessments, %20Review%20of%20the%20Process%20&%20Procedures%20of 
%20the%20IPCC.pdf
---------------------------------------------------------------------------
    If the IPCC assessments are to be used in the U.S. as a resource 
for the U.S. Climate Change Science Program and as a justification for 
changing U.S. government policies, the processes and procedures 
employed by the IPCC must meet the rigorous standards for integrity, 
objectivity and quality control that is imposed on other scientific 
information (i.e., requirements under the Data Quality Act). The 
aforementioned process issues mentioned and the questions raised about 
them demonstrate a need to determine whether or not the IPCC standards 
meet the necessary threshold to qualify as a resource for the U.S. 
government. Questions remain as to whether or not the reforms adopted 
by the IPCC will actually meet those standards.

EPA Endangerment

    In December 2009, the Environmental Protection Agency (EPA) 
finalized its endangerment finding, officially declaring the emission 
of greenhouse gases by mankind to be a danger to public health and 
welfare. Upon making this determination, the EPA became obligated under 
the Clean Air Act to regulate greenhouse gases, particularly carbon 
dioxide, under other parts of the bill, namely, the Prevention of 
Significant Deterioration (PSD) and Title V permitting of stationary 
sources.
    The process used to make the endangerment finding under section 
202(a) of the Clean Air Act allows for significant agency discretion. 
The scientific basis the Agency used for its determination is detailed 
in the Technical Support Document (TSD). More than half of the 
references in the TSD are from the IPCC or from government reports that 
relied heavily on the IPCC as a resource. The concerns mentioned above 
regarding the integrity of the modeling results, the quality of the 
data used, and the IPCC process itself, raise questions about the 
robustness of the information used to make the endangerment 
determination, thus calling the finding into question.
    Chairman Hall. Okay. The Committee on Science, Space, and 
Technology will come to order. And I say to all of you good 
morning and welcome to today's hearing entitled Climate Change: 
Examining the Processes Used to Create Science and Policy. In 
front of you are packets containing the written testimony, 
biographies and Truth in Testimony Disclosures for today's 
witnesses. I recognize myself for five minutes for an opening 
statement.
    I want to welcome everyone here today for this hearing on 
climate change processes.
    When I became Chairman of this Committee, I stated that I 
wanted to bring up folks to testify on climate change science 
and policy because I believe there have been a lot more 
questions than answers. The current Administration has been 
moving full speed ahead with regulations and policy initiatives 
that it justifies based on the available science. Since these 
actions have the potential to severely damage our economy, 
there should be extra care in making sure they are truly 
necessary and appropriate.
    Science is not perfect. It is a process of trial and error. 
And scientists are not infallible; they are just as human as 
any of us. As policy makers, we are tasked with making 
difficult decisions, sometimes when not all the answers are 
known. In cases such as these, we must rely upon the processes 
by which the information we do have is generated, and we must 
rely upon the fact that the people generating that information 
have adhered to these processes.
    The leaked emails from the University of East Anglia's 
Climate Research Unit in November of 2009 revealed that the 
scientists most vocal about the effects humans were having on 
the climate were not following accepted scientific practices. 
When these emails came to light, the Administration proclaimed 
that the science generated by a corrupt process was still 
robust and still justified the policy measures it was taking.
    For many of us here, these emails were evidence that the 
trust in the underlying process was misplaced. I may not be a 
scientist, but as a politician, I can tell you when someone is 
trying to pull the wool over our eyes.
    There is an old saying. Caesar's wife must be beyond 
reproach. This is to say that even if there has been no 
evidence of wrongdoing, the supposition of wrongdoing is enough 
to undermine the trust in an entire enterprise.
    The legitimate questions that have been raised about the 
processes used to generate climate change science and policy 
have thus far been cast aside. The reluctance to engage in 
conversations with people who have doubts or question the 
veracity of climate science is at the heart of the wrongdoing 
that undermines trust in climate change science.
    In a hearing last November, I stated that reasonable people 
have serious questions about our knowledge of the state of the 
science, the evidence, and what constitutes a proportional 
response. The hearing today will explore how basic and widely 
accepted scientific processes have been applied in building the 
foundation of climate science that we rely upon to make 
decisions. I look forward to returning the debate back to the 
methodical, deliberative, balanced and transparent discussion 
it ought to be.
    I thank the witnesses for being here.
    [The prepared statement of Mr. Hall follows:]
               Prepared Statement of Chairman Ralph Hall
    I want to welcome everyone here today for this hearing on climate 
change processes.
    When I became Chairman of this Committee, I stated that I wanted to 
bring up folks to testify on climate change science and policy because 
I believe there have been a lot more questions than answers. The 
current Administration has been moving full speed ahead with 
regulations and policy initiatives that it justifies based on the 
available science. Since these actions have the potential to severely 
damage our economy, there should be extra care in making sure they are 
truly necessary and appropriate.
    Science is not perfect. It is a process of trial and error. And 
scientists are not infallible; they are just as human as any of us. As 
policy makers, we are tasked with making difficult decisions, sometimes 
when not all the answers are known.
    In cases such as these, we must rely upon the processes by which 
the information we do have is generated. And we must rely upon the fact 
that the people generating that information have adhered to those 
processes.
    The leaked emails from the University of East Anglia's Climate 
Research Unit in November of 2009 revealed that the scientists most 
vocal about the effects humans were having on the climate were not 
following accepted scientific practices. When these emails came to 
light, the Administration proclaimed that the science generated by a 
corrupt process was still robust, and still justified the policy 
measures it was taking.
    For many of us here, these emails were evidence that the trust in 
the underlying process was misplaced. I may not be a scientist, but as 
a politician, I can tell when someone is trying to pull the wool over 
my eyes.
    There is an old saying--Caesar's wife must be beyond reproach. That 
is to say that even if there has been no evidence of wrong doing, the 
supposition of wrong doing is enough to undermine the trust in an 
entire enterprise.
    The legitimate questions that have been raised about the processes 
used to generate climate change science and policy have thus far been 
cast aside. The reluctance to engage in conversations with people who 
have doubts or question the veracity of climate science is at the heart 
of the wrong doing that undermines trust in climate change science.
    In a hearing last November, I stated that reasonable people have 
serious questions about our knowledge of the state of the science, the 
evidence, and what constitutes a proportional response. The hearing 
today will explore how basic and widely accepted scientific processes 
have been applied in building the foundation of climate science that we 
rely upon to make decisions. I look forward to returning the debate 
back to the methodical, deliberative, balanced and transparent 
discussion it ought to be.
    I thank the witnesses for being here, and I now recognize Ranking 
Member Johnson for five minutes for an opening statement.

    Chairman Hall. I now recognize Ranking Member Johnson for 
five minutes for an opening statement. The Chair now recognizes 
Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. Mr. 
Chairman, am I to assume that these witnesses are under oath 
today?
    Chairman Hall. I didn't understand you.
    Ms. Johnson. Are the witnesses under oath today?
    Chairman Hall. They are.
    Ms. Johnson. Thank you. Thank you very much. I appreciate 
you holding this hearing today. Political opinions on climate 
change vary greatly and nowhere more than here in the U.S. 
Congress. As one who accepts the overwhelming scientific 
consensus around climate change, I welcome the opportunity for 
this Committee to hear a number of perspectives on climate 
change.
    However, I believe this hearing will fall far short of 
providing a meaningful discourse on the subject. I am 
disappointed in the very broad scope of this hearing which 
arguably ranges beyond the jurisdiction of this Committee 
without sufficient numbers of witnesses to do the topics 
justice.
    I believe that a subject as complex as we are attempting to 
cover today warrants at the very least multiple panels, if not 
multiple hearings. To hope to adequately cover everything from 
basic science to regulatory policy in one 2-hour hearing 
strikes me as too ambitious if not a little negligent.
    Likewise I am disappointed by the makeup of the panel 
today. By that I mean, no disrespect to these men or the 
quality of their work. However, we Democrats have been accused 
of ignoring a large subset of the climate science community 
that in varying degrees does not subscribe to the conclusions 
of the IPCC or otherwise does not accept the climate is 
changing, and that it is largely due to human activity.
    We have been told that these scientists' voices have been 
squashed by a wide-ranging conspiracy and that under the new 
House leadership, they would finally have a platform to dispel 
the alarmists' mistruth about the science of global climate 
change.
    I look at this panel today and I must ask, well, where are 
they? Where are the masses of legitimate expert witnesses that 
will corroborate to the assertion that climate change is an 
unproven theory or worse yet a hoax? I don't see them today. 
Instead the witnesses before the Science, Space, and Technology 
today include a business school professor of marketing, an 
economist, and an energy industry lawyer. We also have three 
legitimate scientists, but it is worth noting that not one of 
them refutes the notion that the global climate is changing and 
that humans are a factor.
    The necessary oversight can be done right. For instance, in 
the last Congress, Energy and Environment Subcommittee Chairman 
Baird sensed that time was running out in the waning days of 
the 111th Congress to have a balanced hearing on the subject 
and held a 4-hour hearing with three panels covering three 
separate issues within climate change and with a Republican 
witness on each panel.
    We could have reasonable discussions and disagree on the 
monetary costs of taking action and the devastating impacts of 
complacency, but science will not allow us to run from the 
facts no matter how inconvenient these facts may be. To be 
fair, there is a danger in saying that science is settled and 
that our knowledge of climate change is conclusive. On the 
contrary, with the risk of this magnitude, the job of science 
will never be done. It will continue to evolve. We know that 
climate is changing and that we have our hand on the 
thermostat, but we must always keep looking for new answers, 
replacing opinions with data and projections and observations.
    We must continue to innovate in how we predict, measure, 
prevent, and adapt to climate change. That is the nature of 
science and of the stewardship of our planet. Congress should 
acknowledge that we are not experts and that allowing partisan 
politics to dictate the scientific understanding of climate 
change is cynical, short-sighted, and by definition, ignorant.
    I implore my colleagues to recognize the value of research 
and resist efforts to defund and destroy the very scientific 
community that will give us answers. We may not agree as to 
where the uncertainties within climate science lie, but we can 
all understand that vast and avoidable uncertainties will 
remain if we stop the progress of climate science.
    This may be the scientific and policy challenge of the 
millennium, and we have a responsibility to the Nation and to 
the world to lead.
    The former Ranking Member, Republican Member of Energy and 
Environment Subcommittee, Bob Inglis, eloquently conveyed his 
dismay at the recklessness of climate skepticism by comparing 
it to the diagnosis of a sick child. If 98 doctors prescribe 
one treatment and two doctors prescribe a different treatment, 
who are you going to follow?
    This Committee has to decide between two choices when it 
comes to global climate change. We can allow the world's 
scientists to continue to conduct extensive research and 
improve our knowledge of this phenomenon, or we can just wait 
and watch it happen and hope for the best. Climate change is a 
cancer, and we don't cure cancer by refusing to test for it, 
calling the doctor a liar, and refusing to consider any 
treatment. We would never stop looking for the cure.
    While I look forward to today's testimony and what will 
undoubtedly be a lively discussion, I must say that I sincerely 
hope that this Committee is not beginning and ending its record 
on climate science in the 112th Congress with this hearing. We 
have so much more work to do.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you, Mr. Chairman. I appreciate you holding this hearing 
today. Political opinions on climate change vary greatly, and nowhere 
more than here in the U.S. Congress. As one who accepts the 
overwhelming scientific consensus around climate change, I welcome the 
opportunity for this committee to hear a number of perspectives on 
climate science. However, I believe this hearing will fall far short of 
providing a meaningful discourse on the subject.
    I am disappointed in the very broad scope of this hearing, which 
arguably ranges beyond the jurisdiction of this Committee, without 
sufficient numbers of witnesses to do the topics justice. I believe 
that a subject as complex as we are attempting to cover today warrants, 
at the very least, multiple panels, if not multiple hearings. To hope 
to adequately cover everything from basic science to regulatory policy 
in one 2-hour hearing strikes me as too ambitious, if not a little 
negligent.
    Likewise I am disappointed by the makeup of the panel today. By 
that I mean no disrespect to these men or the quality of their work. 
However, for years we, Democrats, have been accused of ignoring a large 
subset of the climate science community that, in varying degrees, does 
not subscribe to the conclusions of the IPCC or otherwise does not 
accept that the climate in changing, and that is largely due to human 
activity. We have been told that these scientists' voices have been 
quashed by a wide-ranging conspiracy, and that under the new House 
leadership they would finally have a platform to dispel the alarmists' 
mistruths about the science of global climate change.
    I look at this panel today and I must ask, "Well, where are they?" 
Where are the masses of legitimate expert witness that will corroborate 
the assertion that climate change is an unproven theory, or worse, a 
hoax? I don't see them here today.
    Instead, the witnesses before the Science, Space and Technology 
Committee include a Business School professor of Marketing, an 
Economist, and an energy industry Lawyer. We also have three legitimate 
scientists, but it is worth noting that not one of them refutes the 
notion that the global climate is changing and that humans are a 
factor.
    The necessary oversight can be done right. For instance, in the 
last Congress, Energy and Environment Subcommittee Chairman Baird 
sensed that time was running out in the waning days of the 111th 
Congress to have a balanced hearing on the subject and held a 4-hour 
hearing with three panels covering three separate issues within climate 
change, and with a Republican witness on each panel.
    We can have reasonable discussions and disagree on the monetary 
costs of taking action and the devastating impacts of complacency. But 
Science will not allow us to run from the facts, no matter how 
inconvenient these facts may be.
    To be fair, there is a danger in saying that the science is 
settled, and that our knowledge of climate change is conclusive. On the 
contrary, with a risk of this magnitude, the job of science will never 
be done. It will continue to evolve.
    We know that the climate is changing, and that we have our hand on 
the thermostat. But we must always keep looking for new answers, 
replacing opinions with data, and projections with observations. We 
must continue to innovate in how we predict, measure, prevent and adapt 
to climate change. That is the nature of science and of our stewardship 
of our planet.
    Congress should acknowledge that we are not the experts, and that 
allowing partisan politics to dictate the scientific understanding of 
climate change is cynical, short-sighted, and, by definition, ignorant. 
I implore my colleagues to recognize the value of research, and resist 
efforts to defund and destroy the very scientific community that will 
give us answers. We may not agree as to where the uncertainties within 
climate science lie, but we can all understand that vast and avoidable 
uncertainties will remain if you stop the progress of climate science.
    This may be the scientific and policy challenge of the millennium, 
and we have a responsibility to the nation and the world to lead.
    The former Ranking Republican Member of the Energy and Environment 
Subcommittee, Bob Inglis, eloquently conveyed his dismay at the 
recklessness of climate skepticism by comparing it to the diagnosis of 
a sick child - if 98 doctors prescribe one treatment, and 2 doctors 
prescribe a different treatment, who are you going to follow?
    This Committee has to decide between two choices when it comes to 
global climate change: we can allow the world's scientists to continue 
to conduct extensive research and improve our knowledge of phenomenon, 
or we can just wait to watch it happen and hope for the best. Climate 
changes is a cancer, and we don't cure cancer by refusing to test for 
it, calling the doctor a liar, and refusing to consider any treatment. 
We never stop looking for the cure.
    While I look forward to today's testimony and what will undoubtedly 
be lively discussion, I must say that I sincerely hope that this 
Committee is not beginning and ending its record on climate science in 
the 112th Congress with this hearing. We have so much more work to do.

    Chairman Hall. Okay. At this time, first, if there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The information follows:]
    Chairman Hall. And I want to introduce the witnesses that 
we don't consider anything but legitimate and witnesses that 
haven't been here before because we have asked them to be here 
before and that has been turned down.
    Our first witness is Dr. J. Scott Armstrong, Professor of 
Marketing at the Wharton School, University of Pennsylvania. 
Dr. Armstrong is an expert in forecasting and has literally 
written the book on the principles of forecasting. He is the 
founder of several and currently serves as editor more than 
half-a-dozen peer review journals.
    Our second witness is Dr. Richard Muller, a Professor of 
Physics at the University of California, Berkeley and is a 
Faculty Senior Scientist at the Lawrence Berkeley Laboratory. 
Dr. Muller is the author of over 100 peer-reviewed publications 
and views of particle physics, geophysics, applied physics and 
astrophysics. He is currently chair of the Berkeley Earth 
Surface Temperature Project which is attempting to create a new 
global surface temperature data set.
    Our third witness is Dr. John Christy, Director of the 
Earth System Science Center and Distinguished Professor of 
Atmospheric Science at the University of Alabama in Huntsville. 
Dr. Christy is the Alabama State climatologist where he has 
built his own climate data sets. Dr. Christy was the lead 
author in the Intergovernmental Panel on Climate Change Third 
Assessment Report in 2001 and a contributing author in 1992, 
1994, 1995 and 2007.
    Our fourth witness is Mr. Peter Glaser, a partner with 
Troutman Sanders, LLP. He practices in the energy and 
environmental law fields and is the chair of the firm's climate 
change practice team. He specializes in environmental 
regulation and litigation, particularly in the area of air 
quality and global climate change.
    Our fifth witness is Dr. Kerry Emanuel, a Professor of 
Atmospheric Science in the Massachusetts Institute of 
Technology. Dr. Emanuel's research interests focus on tropical 
meteorology and climate with a specialty in hurricane physics. 
He is the author or co-author of over 100 peer-reviewed 
publications and was elected to the National Academies of 
Science in 2007.
    Our final witness is Dr. David Montgomery, an independent 
economist and consultant and formerly the co-head of the Energy 
and Environment Practice at Charles River Associates. Dr. 
Montgomery is an expert on economic issues associated with 
climate change policy, and he was the principal lead author of 
the Second Assessment Report of the Intergovernmental Panel on 
Climate Change. He was also Assistant Director of the U.S. 
Congressional Budget Office--Assistant Secretary for Policy in 
the U.S. Department of Energy. He also taught economics at 
California Institute of Technology and Stanford University.
    As our witnesses should know, spoken testimony is limited 
to five minutes. Do your best to stay there. You are not held 
there, and if you need to go a little further, you need to cut 
it a little short, that is up to you, after which the Members 
of the Committee are going to have five minutes each. We will 
hold ourselves to that five minutes. You have leeway of course 
because we appreciate you being here. You have prepared 
yourself to come here. You are here, and we want to accord you 
everything that we can to get the benefit from your appearance 
here, and the Members of the Committee get their chance to ask 
you questions about where you come from, how you got there, and 
what you have for us.
    So I recognize our first witness, Dr. J. Scott Armstrong, 
Professor at the Wharton School, University of Pennsylvania.

              STATEMENT OF DR. J. SCOTT ARMSTRONG,

          PROFESSOR OF MARKETING, THE WHARTON SCHOOL,

                   UNIVERSITY OF PENNSYLVANIA

    Dr. Armstrong. Thank you, Chairman Hall, and Ranking Member 
Hall and Ranking Member Johnson. It is a pleasure to be here to 
testify. That is odd. This worked perfectly before we started 
here.
    Chairman Hall. Is it not working now?
    Dr. Armstrong. Not working. If everybody has a copy of it, 
I can just go through while you look on your copy.
    Chairman Hall. You got an expert looking over your shoulder 
right now.
    Dr. Armstrong. All right. Here we go again. I am back to 
five minutes, am I? No, it is not working.
    Chairman Hall. No, we haven't even started you yet. When I 
say go, you go.
    Dr. Armstrong. All right. Thank you. Thanks for talking 
about my credentials. I started in 1968 when I graduated from 
MIT and specialized in forecasting methods, and it wound up 
recently as you mentioned with Principles of Forecasting, a 
handbook I did with 39 other experts around the world. So it is 
50 years of experience so far. If everybody can just get out 
the slides, I will just go through from that. The slides aren't 
going to be as good because I had some fly-ins here, but the 
first thing is to start out with what we all agree with, and 
what we agree with is that climate changes. What we aren't sure 
about is what is the optimal temperature?
    In conclusion, the most appropriate evidence-based forecast 
is that there will be no long-term warming claim. Secondly, 
even if we have a scientific forecasting approach that 
supported global warming on a long-term basis, there is no 
logical basis for action.
    Now, I am going to tell you how I got there. To adopt 
policies related to global warming, you need three things. The 
first is to show the forecast that there is a substantial, 
dangerous, long-term temperature change, absent with any 
regulations. Second is to show that this long-term change is 
going to cause harmful effects versus alternative policies such 
as doing nothing. Third is that you have cost-effective 
policies that will deal with any harmful effects. It is like a 
three-legged stool so that if any one of these legs is missing, 
then you have a problem.
    The next slide, and again it would be much nicer if we 
could get this system working here--no, it is not working. 
Forget it. The next slide shows the support that we have for 
these three elements of the leg, and I put them in that little 
box. You know, it is an important problem. We have been 
searching, we are trying to find what evidence we have on each 
of those three legs identified, and that little box contains 
all of the scientific forecasts we have been able to find. It 
is an empty box.
    So the warming alarm is based on faulting forecasting 
method. The IPCC forecast uses judgments to develop a model. 
They then run the model. They make judgments on the outcomes, 
and basically they are known as scenarios. Scenarios are not an 
appropriate method for forecasting. They have a role, but 
forecasting is not one of them. There are stories about the 
future, whether told in text or whether told by computer.
    We did an audit of the 2007 IPCC forecasting procedures 
using the principles from this book. There are 140 of them. We 
concluded that the IPCC violated 72 of the 89 relevant 
principles. Some of them were pretty serious, like using biased 
procedures to collect data. You should use unbiased procedures 
and to be conservative when you have uncertainty.
    An example of the policy section, you know, making policy 
based on global warming, we looked at the polar bear population 
forecasting. Two government reports indicated there would be a 
sharp decline in the population of polar bears. Our forecasting 
audit revealed failure to use 87 percent of the relevant 
principles. They failed to provide, for example, full 
disclosure of the data. Long-term forecasts were used with only 
five years of data. They want to make long-term forecasts.
    The global warming forecast models have not been validated 
for predictability. We couldn't find any evidence on that, so 
we did it ourselves. We used the period from 1850 through 2007, 
and we found that--we used a method called successive updating. 
We compared the error of our method, which is that there will 
be no change, with the IPCC forecast. And how large was the 
IPCC forecast? Well, on average, over the 10,750 forecasts that 
we checked, the IPCC forecast was 7.7 times larger. For the 
long-term forecast, 91 to 100 years, it had 12.6 times larger 
error than we have from assuming no change.
    So forecasting global warming lacks any scientific basis. 
Now, given that the critical legs of the stool cannot be 
supported and that improper procedures have been used, in 
particular the lack of objectivity and the lack of full 
disclosure, we have concluded that this is basically an anti-
scientific political movement. Has anything happened like this 
before, an anti-scientific political movement? So we started 
what we call the analogous project. We are looking for alarms 
over serious things that are happening that might be averted at 
great cost. The analogous study, some of the alarms we got were 
things like DDT and cancer, eugenics movement, population 
growth and famine starting with Malthus and then moving through 
computer models at MIT and global warming--it was global 
cooling alarm.
    Government intervention was called for in 25 of the 26 
analogous situations that we identified. They called for 
increased taxes, increased spending and restrictions on 
individual liberties. Now how accurate were these analogous 
forecasts? Well, of the 26 analogous situations, 19 of the 
forecasts were categorically wrong, seven were wrong in degree 
and we were yet to find an analogous situation where the 
forecasts were correct.
    Next thing we asked was does government intervention help? 
Actually, there were 23 cases where they used government 
intervention, and harm was caused in 20 of those cases, and the 
policies were ineffective in three of the cases. And we found 
no cases in which the policies were effective.
    Summary of findings from the studies on alarming forecasts 
of dangerous manmade global warming are the temperature 
forecasting procedures are improper, the policy forecasting 
procedures are improper, the forecast failed in a validation 
study and none of the analogous alarms have been found to be 
correct. The thing about these alarming forecasts, it goes way 
back. It goes way back to Macaulay in 1930. Julian Simon, my 
friend and colleague in 1990 talked about all these alarms, 
that the manmade is going to cause the end of the civilization, 
and he forecasted in the early '90s that this global warming 
thing will blow over quickly. So that was one of his bad 
forecasts.
    The conclusion then is that the--I have to get to this last 
slide.
    [Slide]
    Dr. Armstrong. The conclusions were again--one more.
    Chairman Hall. Just move along with it. You didn't have a 
fair opportunity because of the malfunction, and that is our 
fault. But we let you go well over. I would hope you could 
conclude.
    Dr. Armstrong. Okay. Thanks. Recommendation number one is 
end government funding for climate change research. 
Recommendation number two is end government funding for 
research associated with global warming, things like 
alternative energy, CO<INF>2</INF> reduction, habitat loss, 
things like that. Recommendation number three, end government 
programs and repeal regulations predicated on global warming. 
Recommendation number four, end global support for 
organizations that lobby or campaign predicated on global 
warming.
    Thank you for giving me extra time.
    [The prepared statement of Mr. Armstrong follows:]
 Prepared Statement of Dr. J. Scott Armstrong, Professor of Marketing, 
             the Wharton School, University of Pennsylvania
 With Kesten C. Green, University of South Australia, and Willie Soon, 
              Harvard-Smithsonian Center for Astrophysics

Abstract

    The validity of the manmade global warming alarm requires the 
support of scientific forecasts of (1) a substantive long-term rise in 
global mean temperatures in the absence of regulations, (2) serious net 
harmful effects due to global warming, and (3) cost-effective 
regulations that would produce net beneficial effects versus 
alternatives policies, including doing nothing.
    Without scientific forecasts for all three aspects of the alarm, 
there is no scientific basis to enact regulations. In effect, the 
warming alarm is like a three-legged stool: each leg needs to be 
strong. Despite repeated appeals to global warming alarmists, we have 
been unable to find scientific forecasts for any of the three legs.
    We drew upon scientific (evidence-based) forecasting principles to 
audit the forecasting procedures used to forecast global mean 
temperatures by the Intergovernmental Panel on Climate Change (IPCC)--
leg ``1'' of the stool. This audit found that the IPCC procedures 
violated 81% of the 89 relevant forecasting principles.
    We also audited forecasting procedures, used in two papers, that 
were written to support regulation regarding the protection of polar 
bears from global warming--leg ``3'' of the stool. On average, the 
forecasting procedures violated 85% of the 90 relevant principles.
    The warming alarmists have not demonstrated the predictive validity 
of their procedures. Instead, their argument for predictive validity is 
based on their claim that nearly all scientists agree with the 
forecasts. This count of ``votes'' by scientists is not only an 
incorrect tally of scientific opinion, it is also, and most 
importantly, contrary to the scientific method.
    We conducted a validation test of the IPCC forecasts that were 
based on the assumption that there would be no regulations. The errors 
for the IPCC model long-term forecasts (for 91 to 100 years in the 
future) were 12.6 times larger than those from an evidence-based ``no 
change'' model.
    Based on our own analyses and the documented unscientific behavior 
of global warming alarmists, we concluded that the global warming alarm 
is the product of an anti-scientific political movement.
    Having come to this conclusion, we turned to the ``structured 
analogies'' method to forecast the likely outcomes of the warming 
alarmist movement. In our ongoing study we have, to date, identified 26 
similar historical alarmist movements. None of the forecasts behind the 
analogous alarms proved correct. Twenty-five alarms involved calls for 
government intervention and the government imposed regulations in 23. 
None of the 23 interventions was effective and harm was caused by 20 of 
them.

    Our findings on the scientific evidence related to global warming 
forecasts lead to the following recommendations:

        1.  End government funding for climate change research.

        2.  End government funding for research predicated on global 
        warming (e.g., alternative energy; CO2 reduction; habitat 
        loss).

        3.  End government programs and repeal regulations predicated 
        on global warming.

        4.  End government support for organizations that lobby or 
        campaign predicated on global warming.

Introduction

    Knowledge of Roman vineyards in Britain and Viking diary farms in 
Greenland together with plots of temperature proxy data over hundreds, 
thousands, and hundreds-of-thousands of years provide evidence that the 
Earth's climate varies, so the existence of climate change is not a 
matter of dispute. Global warming alarmist analysis is concentrated on 
the years from 1850, a period of widespread direct temperature 
measurement, increasing industrialization, and increasing 
concentrations of carbon dioxide in the atmosphere. As with other 
periods, during this period one can retrospectively identify upward 
trends and downward trends, depending on the starting and ending dates 
one chooses. Over the whole period that we examined, 1850 through 2007, 
global annual temperature proxy series constructed for the 
Intergovernmental Panel on Climate Change (IPCC) show a small upward 
trend of about 0.004+C per year. There is some dispute over the 
veracity of the proxy temperature series (Christy, et al. 2010). For 
our analyses, however, we treat the data as if they were correct. In 
particular, we use the U.K. Hadley Centre's ``best estimate'' series, 
HadCRUt3 \1\ as described in Brohan et al. (2006).
---------------------------------------------------------------------------
    \1\  Obtained from http://hadobs.metoffice.com/hadcrut3/
diagnostics/global/nh+sh/annual; notes on series at http://
www.metoffice.gov.uk/hadobs/hadcrut3/.
---------------------------------------------------------------------------
    We approach the issue of alarm over dangerous manmade global 
warming as a problem of forecasting temperatures over the long term. 
The global warming alarm is not based on what has happened, but on what 
will happen. In other words, it is a forecasting problem. And it is a 
very complex problem.
    To address this forecasting problem we first describe the basis of 
the scientific principles behind forecasting. We then examine the 
processes that have been used to forecast the onset of dangerous 
manmade global warming and the validation procedures used to 
demonstrate predictive validity. We then summarize our validation 
study.
    We limit our discussion to forecasting. Those who are interested in 
the relevant aspects of climate science can find summaries in Robinson, 
Robinson and Soon (2007) and in Idso and Singer (2009).
    Based on our analyses, especially with respect to the violations of 
the principles regarding objectivity and full disclosure, we conclude 
that the manmade global warming alarm is an anti-scientific political 
movement. In an ongoing study, we identified analogous alarms and 
report on the forecasts behind the alarms and outcomes.

The basis of scientific forecasting

    Research on proper forecasting methods has been conducted for 
roughly a century. Progress increased over the past four decades, as 
researchers emphasized experiments that were designed to test the 
effectiveness of alternative methods under varied conditions. 
Forecasting research has led to many surprising conclusions.
    To make this knowledge useful to forecasters in all domains, I, 
along with an international and inter-disciplinary group of 39 co-
authors and 123 reviewers, expert in various aspects of forecasting, 
summarized the evidence as a set of principles. A principle is a 
conditional action, such as ``forecast conservatively in situations of 
uncertainty.'' There are now 140 forecasting principles. The principles 
are described and the evidence for them is fully disclosed in the 
Principles of Forecasting handbook (Armstrong 2001). The principles are 
also provided on the forecastingprinciples.com site (ForPrin.com), on 
which we invite researchers to contribute evidence either for or 
against the principles.
    In practice, nearly everyone believes that their situation is 
different and that the principles do not apply. I suggest to such 
people that they conduct experiments for their own situation and 
publish their findings, especially if they contradict the principles, 
and by doing so advance the science of forecasting. There can never be 
enough situation-specific evidence for some people but, given the 
evidence that many common forecasting practices are invalid, it would 
be in unwise to reject the principles without strong evidence for doing 
so.

Conditions that apply in forecasting climate change

    The global warming alarm is based on a chain of three linked 
elements, each depending on the preceding element, and each element is 
highly complex due to the number of variables and the types of 
relationships. It is much like a three-legged stool. Each leg involves 
much uncertainty (Idso and Singer 2009). The alarm requires:

        1. a substantive long-term rise in global mean temperatures in 
        the absence of regulations,

        2. serious net harmful effects due to global warming, and

        3. cost-effective regulations that would produce net beneficial 
        effects versus alternatives such as doing nothing.

    Effective policy-making requires scientific forecasts for all three 
elements. Without proper forecasts, there can be no sound basis for 
making policy decisions. Surprisingly, then, despite repeated appeals 
to global warming alarmists, we have been unable to find scientific 
forecasts for any of the three elements.
    Of course, there have been many forecasts based on what we refer to 
as unaided expert judgment (i.e., judgments made without the use of 
evidence-based forecasting principles). For example, in 1896 the 
Swedish Nobel Prize winner in chemistry, Svante Arrhenius, speculated 
about the effect of increases in atmospheric carbon dioxide (C02) and 
concluded that higher concentrations would cause warming. His 
conclusion was drawn from an extrapolation of observational data. \2\ 
Arrhenius's idea attracted little attention at the time, perhaps 
because he expected benefits from warming, rather than an impending 
disaster.
---------------------------------------------------------------------------
    \2\  See description on Wikipedia and original paper at 
globawarmingart.com/images/1/18/Arrhenius.pdf.
---------------------------------------------------------------------------
    As noted, the forecasting principles provide advice about how to 
forecast given the conditions. Here the evidence yields a finding that 
is surprising to many researchers: use simple methods when forecasting 
in a complex and uncertain situation. This was a central theme in my 
1978 book, Long-range Forecasting. Those involved in forecasting 
dangerous manmade global warming have violated the ``simple methods'' 
principle.

Audit of methods used to forecast dangerous manmade global warming

    Kesten Green surveyed climate experts (many of whom were IPCC 
authors and editors) to find the most credible source for forecasts on 
climate change. Most respondents referred to the IPCC report and some 
specifically to Chapter 8, the key IPCC chapter on forecasting (Randall 
et at. 2007).
    Kesten Green and I examined the references to determine whether the 
authors of Chapter 8 were familiar with the evidence-based literature 
on forecasting. We found that none of their 788 references related to 
that body of literature. We could find no references that validated 
their choice of forecasting procedures. In other words, the IPCC report 
contained no evidence that the forecasting procedures they used were 
based on evidence of their predictive ability.
    We then conducted an audit of the forecasting procedures using 
Forecasting Audit Software, which is freely available on forprin.com. 
Kesten Green and I independently coded the IPCC procedures against the 
140 forecasting principles, and then we discussed differences in order 
to reach agreement. We also invited comments and suggestions from the 
authors of the IPCC report that we were able to contact in hope of 
filling in missing information. None of them replied with suggestions 
and one threatened to lodge a complaint if he received any further 
correspondence. We described the coding procedures we used for our 
audit in Green and Armstrong (2007a).
    We concluded from our audit that invalid procedures were used for 
forecasting global mean temperatures. Our findings, described in Green 
and Armstrong (2007a), are summarized in Exhibit 1. Based on the 
available information, 81% of the 89 relevant principles were violated. 
There were an additional 38 relevant principles, but the IPCC chapter 
provided insufficient information for coding and the IPCC authors did 
not supply the information that we requested.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Much of the problem revolves around the use of computer modelers' 
scenarios as a forecasting method. As stated correctly by Trenberth 
(2007), a leading spokesperson for the IPCC researchers, the IPCC 
provides scenarios, not forecasts. Scenarios are not a valid 
forecasting method (Gregory & Duran 2001), but simply descriptions of 
their authors' speculations about what might happen in the future.

Warming forecasts and polar bears

    We also examined two forecasts that were developed to support 
proposed policy changes. The reports assumed that there would be global 
warming as predicted by the IPCC. We examined the two reports that 
presented forecasts in line with the stated goal, mentioned on the 
first page of the report ``to support US Fish and Wildlife Service 
Polar Bear Listing decision''--which we coded as a violation of 
objectivity. Our procedures were similar to those in our audit of the 
IPCC forecasts except that we also obtained coding by a climate 
scientist who has published papers on climate change in the Arctic. On 
average, these two reports violated 85% of the 90 relevant principles. 
For example, long-term forecasts were made using only five years of 
selected data (Armstrong, Green & Soon 2008).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One key violation was that they did not provide full disclosure of 
the data in their paper, and they refused our requests for the data. 
They also refused to answer our questions about key aspects of their 
procedures, which were not fully described in their papers. They 
refused to provide peer review of our paper prior to publication. At 
our request, the editor of the journal invited them to provide 
commentary. They missed the deadline and our paper was published with 
commentary by other authors and with our replies to the commentaries. 
We were surprised when their commentary appeared in the journal some 
months later without us having being offered an opportunity to respond. 
In their commentary, the polar bear scientists claimed ``every major 
point in Armstrong et al. (2008) was wrong or misleading.'' You can 
read their commentary in Amstrup, et al. (2009) and form your own 
opinion.

Tests of predictive validity by global warming alarmists

    For important problems, it is important to test the predictive 
validity of the forecasting methods used. Validation tests are normally 
done by simulating the conditions involved in making actual forecasts 
(called ex ante forecasts) by, for example, withholding some data and 
forecasting what that data will be. Thus, if one wanted to test the 
accuracy of a method for forecasting 50 years from now, one would make 
a series of 50-year-ahead forecasts using the method of interest and 
one or more competitive alternative methods, in order to compare the 
accuracy of the forecasts from the different methods.
    We were unable to find any ex ante comparisons of forecasts by the 
alarmists.
    In the spirit of doing a systematic evaluation of forecasts, in 
2007 I invited former Vice President Gore to join with me in a test as 
to the whether forecasts by manmade global warming alarmists would be 
more accurate than forecasts from a no-change model. Each of us would 
contribute $10,000 to go to the winner's favorite charity. The period 
of the bet was to be 10 years so that I would be around to see the 
outcome. Note that this is a short time period, such that the 
probability of my winning is only about 70%, based on our simulations. 
Had we used 100 years for the term of the bet, I would have been almost 
certain to win. Mr. Gore eventually refused to take the bet (the 
correspondence is provided on theclimatebet.com). So we proceeded to 
track the bet on the basis of ``What if Mr. Gore had taken the bet'' by 
using the IPCC 0.03+C per-year projection as his forecast and the 
global average temperature in 2007 as mine. The status of this bet is 
being reported on theclimatebet.com.

Claims of predictive validity by alarmists

    The claim by alarmists that nearly all scientists agree with the 
dangerous manmade global warming forecasts is not a scientific way to 
validate forecasts. In addition, the alarmists are either 
misrepresenting the facts or they are unaware of the literature. 
International surveys of climate scientists from 27 countries, obtained 
by Bray and von Storch in 1996 and 2003, summarized by Bast and Taylor 
(2007), found that many scientists were skeptical about the predictive 
validity of climate models. Of more than 1,060 respondents, 35% agreed 
with the statement ``Climate models can accurately predict future 
climates,'' while 47% percent disagreed. More recently, nearly 32,000 
scientists have disputed the claim of ``scientific consensus'' by 
signing the ``Oregon Petition.'' \3\
---------------------------------------------------------------------------
    \3\  See petitionproject.org for details.
---------------------------------------------------------------------------
    Perhaps in recognition that alarmist claims of predictive validity 
cannot sustain scrutiny, expressions of doubt about the alarm are often 
parried with an appeal to the so-called precautionary principle. The 
precautionary principle is an anti-scientific principle designed to 
silence people who have reached different conclusions. Alarmists, such 
as James Hansen of NASA, have even suggested publicly that people who 
reach different conclusions about global warming have committed crimes 
against the state (reported in Revkin 2008). Such attempts to suppress 
contrary evidence were ridiculed by George Orwell in his book 1984: The 
Ministry of Truth building was inscribed with the motto ``Ignorance is 
truth.'' For a closer examination of the precautionary principle from a 
forecasting perspective, see Green and Armstrong (2009).
    Experts' opinions about what will happen have repeatedly been shown 
by research to be of no value in situations that are complex and 
uncertain. In 1980, I surveyed the evidence on the accuracy of experts' 
judgmental forecasts and found that experts were no better at 
forecasting about complex and uncertain situations than were novices 
(Armstrong 1980). Bemused at the resistance to this evidence, I 
proposed my Seer-sucker Theory: ``No matter how much evidence exists 
that seers do not exist, seers will find suckers.'' More recently, 
Tetlock (2005) presented the findings of 20 years of research over the 
course of which he obtained over 82,000 forecasts from 284 experts on 
``commenting or offering advice on political and economic trends,'' 
which represented complex and uncertain problems. Consistent with 
earlier research, he found that the experts' forecasts were no more 
accurate than novices' and naive model forecasts.

Our validation test of IPCC forecasting model

    We conducted a validation test of the IPCC forecast of 0.03+C per-
year increase in global mean temperatures. We did this starting roughly 
with the date used for the start of the Industrial Revolution, 1850. As 
it happens, that was also the start of the collecting of temperature 
from weather stations around the world. We used the U.K. Met Office 
Hadley Centre's annual average thermometer data from 1850 through 2007. 
Note that the IPCC forecast had the benefit of using these data in 
preparing the forecasts. Thus, it had an advantage over the no-change 
model.
    To simulate the forecasting situation, we needed unconditional (ex 
ante) forecasts. We obtained these for the years from 1851 through 
2007. The period was one of exponentially increasing atmospheric 
CO<INF>2</INF> concentrations, which are the conditions that the IPCC 
modelers assumed for their ``business as usual'' model forecasts of 
0.03+C per-year increase in global mean temperatures. We used the 
process of ``successive updating'' to obtain a total of 10,750 
forecasts for horizons from 1 to 100 years ahead starting with 
forecasts for 1851 through 1950, then for 1852 through 1951, and so on. 
Relative forecasting errors are provided in Exhibit 3.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Note that the errors do not differ substantially in the short term 
(e.g., forecasting horizons from 1 through 10 years). As a consequence, 
the chances that I will win my l0-year bet with former Vice President 
Gore are not overwhelming. The IPCC model forecast errors for forecasts 
91 to 100 years in the future, however, were 12.6 times larger than 
those for our evidence-based ``no change'' model forecasts. \4\ In an 
extension, we also examined a no-change model that used ten-year 
periods (instead of annual data) to forecast subsequent ten-year 
periods, updating this to make a forecast each year. The results were 
quite similar to those in Exhibit 3.
---------------------------------------------------------------------------
    \4\  Note that, had adjustments been made to reflect the heat 
island effect, the shifting base of weather stations, unsubstantiated 
revisions in historical temperature records, the error ratio of the 
IPCC forecasts (relative to our no-change model) would have been much 
higher.
---------------------------------------------------------------------------
    Exhibit 3 shows relative errors, but it is also important for 
policy makers to look at absolute errors. Absolute errors for the no-
change model are presented in Exhibit 4. The accuracy of forecasts from 
the no-change model is such that even perfectly accurate forecasts of 
global mean temperatures would not provide much help to policymakers. 
For example, the mean absolute errors for 50-year-ahead no-change 
forecasts averaged only 0.24+C.
    The alarmists claim that validation tests cannot be done because 
things have changed. Such claims are commonly, but illogically, made by 
people who believe that their situation is new or so different from 
other situations, and cannot be related to the past.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Conclusions from our analysis of the procedures used to forecast 
                    alarming manmade global warming

    Global warming alarmists have used improper procedures and, most 
importantly, have violated the general scientific principles of 
objectivity and full disclosure. They also fail to correct their errors 
or to cite relevant literature that reaches unfavorable conclusions. 
They also have been deleting information from Wikipedia that is 
unfavorable to the alarmists' viewpoint \5\ (e.g., my entry has been 
frequently revised by them). These departures from the scientific 
method are apparently intentional. Some alarmists claim that there is 
no need for them to follow scientific principles. For example, the late 
Stanford University biology professor Stephen Schneider said, ``each of 
us has to decide what is the right balance between being effective and 
being honest.'' He also said, ``we have to offer up scary scenarios'' 
(October 1989, Discover Magazine interview). Interestingly, Schneider 
had been a leader in the 1970s movement to get the government to take 
action to prevent global cooling. ClimateGate also documented many 
violations of objectivity and full disclosure committed by some of the 
climate experts that were in one way or another associated with the 
IPCC.
---------------------------------------------------------------------------
    \5\  http://network.nationalpost.com/np/blogs/fullcomment/archive/
2009/12/18/370719.aspx.
---------------------------------------------------------------------------
    The alarmists' lack of interest in scientific forecasting 
procedures \6\ and the evidence from opinion polls (Pew Research Center 
2008) have led us to conclude that global warming is a political 
movement in the U.S. and elsewhere (Klaus 2009). It is a product of 
advocacy, rather than of the scientific testing of multiple hypotheses.
---------------------------------------------------------------------------
    \6\  http://blogs.telegraph.co.uk/news/jamesdelingpole/l00017393/
climategate-the-final-nail-in-the-coffin-of-anthropogenic-global-
warming/ and http://wattsupwiththat.com/2010/lO/15/another-wikipedia-
editor-has-been-climate-topic-banned/.
---------------------------------------------------------------------------

Forecasts of outcomes of the manmade global warming alarmist movement

    Using a process known as ``structured analogies,'' we predicted the 
likely outcome of the global warming movement. Our validation test of 
structured analogies method was provided in Green and Armstrong 
(2007b).
    Global warming alarmism has the characteristics of a political 
movement In an ongoing study, we have been searching for situations 
that are ``alarms over predictions of serious environmental harm that 
could only be averted at great cost.'' We have searched the literature, 
contacted various researchers--especially those who believe in the 
global warming alarm. We have also posted appeals on email lists and on 
websites such as publicpolicyforecasting.com. We repeat this appeal 
here.
    To date, we have identified 26 analogous alarmist situations in the 
past Kesten Green and I independently coded the alarms. We coded them 
for:

        1. Forecasting method.

        2. Did the proposed action involve substantive government 
        intervention?

        3. Accuracy of forecasts was rated on a -1 to +1 scale (-1 = 
        wrong direction,
        0 = no, or minor, effect; +I = accurate)

        4. Did substantive government intervention take place, or not?

        5. Outcome of government policies to date on the value of their 
        net benefit on a -I to +I scale

        6. Persistence of government policies, to-date, on a 0 to 2 
        scale (0 = reversed; I = no or little change; 2 = strengthened)

    We will be preparing descriptions of the analogies that will 
include the following elements and references to sources of 
information:

        1. Forecasts of impending catastrophe

        2. Methods used to forecast the catastrophe

        3. Actions called for (actions by government or by others)

        4. Salient endorsements of the forecast by scientists and 
        politicians

        5. Challenges to the forecast

        6. Outcomes of each conflict over the alarming forecast and 
        calls for action, including forecast accuracy

    We have posted full disclosure of our procedures at 
publicpolicyforecasting.com, and have sent announcements to websites 
and individual requests to people to comment. Thumbnail descriptions 
are available for nine of the 26 situations (indicated by italics in 
Exhibit 5) at publicpolicyforecasting.com.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here are our preliminary findings. None of these alarming forecasts 
were correct. Twenty-five of them called for government intervention. 
In the 23 cases where interventions occurred, none were effective. The 
policy changes caused harm in 20 of the cases.
    The findings will change as the project progresses and as we 
identify new analogies, provide more and better description of the 
analogies, and obtain codings from others, especially from experts in 
the various areas.
    We were not surprised by the outcomes, as none of the alarms were 
based on scientific forecasts. They typically began with stories and 
progressed from there with appeals to scientific support. Another 
reason that we were not surprised is that others had anticipated our 
findings. For example, after compiling a list of analogous situations 
in 1990, Julian Simon said, ``As soon as one predicted disaster doesn't 
occur, the doomsayers skip to another, why don't [they] see that, in 
the aggregate, things are getting better? Why do they always think 
we're at a turning point--or at the end of the road?'' And considerably 
earlier, in 1830, Thomas Babington Macaulay concluded, ``On what 
principle is it that when we see nothing but improvement behind us, we 
are to expect nothing but deterioration before us?''
    As with our other publications related to climate change, we have 
received no funding, so we expect this study to drag on. The good news 
is that it will allow an opportunity for researchers to provide peer 
review and to suggest further improvements in our study--or, better, to 
conduct independent studies of analogies.

Recommendations

    To help ensure objectivity, government funding should not be 
provided for climate-change forecasting. Kealey (1996) summarized 
evidence on the dangers of bias in government-funded research. The 
government should instead rely on independent forecasters.
    As we have noted, simple methods are appropriate for forecasting 
for climate change. Large budgets are therefore not necessary. Private 
individuals have been willing to invest much time and effort in 
examining the global warming alarm without external rewards. In fact, a 
number of them have engaged in research on the global warming alarm at 
great personal cost. The cost has been at least in part because 
governments have almost universally sponsored scientists who have 
supported the manmade global warming alarm and these scientists have, 
as a consequence, attained considerable power over learned societies, 
journals, funding, and universities. With the power has come influence 
over news media that, by nature, are attracted to stories such as 
environmentalist alarms that grab the attention of audiences.
    The burden rightly falls on government to obtain scientific proof 
that a policy will lead to superior outcomes before increasing the 
burden of laws and regulations. It is not defensible to use anti-
scientific procedures such as asking scientists or scientific 
organizations to ``vote'' on policy recommendations, even when the 
experts are provided with excellent information. This is especially 
true, given the evidence that expert opinions are useless for complex 
problems such as climate change.
    Instead, government should look for strict standards of objectivity 
in the evidence. Thus, we suggest that government should use 
information for each of the legs on the three-legged stool that 
underlies the global warming alarm: warming, effects of warming, and 
outcomes of alternative proposed policy changes, including ``don't just 
do something, stand there!'' The following should be included for each 
leg:


        1.  evidence, rather than experts' opinions,

        2.  research from scientists with diverse views,

        3.  research that involves testing of multiple reasonable 
        hypotheses,

        4.  use of scientific (evidence-based) forecasting methods

        5.  full disclosure of data and research methods,

        6.  criticism, replications, and extensions, and

        7.  testimony from scientists who have nothing to gain from the 
        acceptance of their evidence.

References

    Amstrup, Steven C., et al. (2009), ``Rebuttal of ``Polar bear 
population forecasts: A public-policy forecasting audit'' Interfaces, 
39 (4), 353-369. Amstrup, S. C., B. G. Marcot, D. C. Douglas (2007), 
Forecasting the rangewide status of polar bears at selected times in 
the 21st Century. Administrative Report, USGS Alaska Science Center, 
Anchorage, AK. Armstrong, J. S. (1978; 1985), Long-Range Forecasting: 
From Crystal Ball to Computer. New York: Wiley-Interscience.
    Armstrong, J. S. (1980), ``The Seer-sucker Theory: The value of 
experts in forecasting,'' Technology Review, 83 (June/July), 18-24. 
Armstrong, J. S (2001), Principles of forecasting. Norwell, MA: Kluwer 
Academic Publishers.
    Armstrong, J. S., Green, K. C., & Soon, W. (2008), ``Polar bear 
population forecasts: A public-policy forecasting audit,'' Interfaces, 
38, No.5, 382--405. [Includes commentary and response]
    Bray, D. & von Storch, H. (2007). Climate scientists' perceptions 
of climate change science. GKSS--Forschungszentrum Geesthacht GmbH.
    Brohan, P., Kennedy, J. J., Hartis, I., Tett, S.F.R & Jones, P.D. 
(2006). Uncertainty estimates in regional and global observed 
temperature changes: a new dataset from 1850. J. Geophys. Res, 111, 
D12106, doi: 10.1 029/2005JD006548.
    Christy, J. R., B. Hennan, R. Pielke, Sr., P. Klotzbach, R. T. 
McNider, J. J. Hnilo, R. W. Spencer, T. Chase and D. Douglass, 2010: 
What do observational datasets say about modeled tropospheric 
temperature trends since 1979? Remote Sensing, 2(9), 2148-2169.
    Edwards, J. Gordon (2004), ``DDT: A case study in scientific 
fraud,'' Journal of American Physicians and Surgeons, 9 (3), 83-88.
    Green, K. C. & Armstrong, J. S. (2007a), ``Global warming: 
Forecasts by scientists versus scientific forecasts,'' Energy and 
Environment, 18, No. 7+8,995-1019.
    Green, K. C. & Armstrong, J. S. (2007b), ``Structured analogies for 
forecasting,'' International Journal of Forecasting, 23, 365-376.
    Green, K. C. & Armstrong, J. S. (2008), ``Uncertainty, the 
precautionary principle and climate change,'' Available on-line at 
publicpolicyforecasting.com and other web sites.
    Green, K. C. & Armstrong J. S. (2011), ``Effects of the global 
warming alarm: A forecasting project using the structured analogies 
method,'' Working Paper. Latest version available at http://
kestencgreen.com/green&armstrong-agw-analogies.pdf.
    Green, K. C., Armstrong, J. S. & Soon W. (2009), ``Validity of 
Climate Change Forecasting for Public Policy Decision Making,'' 
International Journal of Forecasting, 25,826-832.
    Gregory, W. L. & Duran, A. (2001), ``Scenarios and acceptance of 
furecasts.'' In J.S. Armstrong, Principles of Forecasting. Kluwer 
Academic Publishers (Springer).
    Hunter, C. M., H. Caswell, M. C. Runge, S. C. Amstrup, E. V. 
Regehr, I. Stirling (2007), ``Polar bears in the Southern Beaufort Sea 
II: Demography and population growth in relation to sea ice 
conditions.'' Administrative Report, USGS Alaska Science Center, 
Anchorage, AK.
    Idso, C. & Singer, S. F. (2009). Climate Change Reconsidered: The 
Report of the Nongovernmental International Panel on Climate Change. 
Chicago: The Heartland Institute.
    Kealey, Terence (1996), The Economic Laws of Scientific Research. 
Hampshire, UK: Macmillan Press.
    Randall, D. A., et al eds. (2007). Climate Change 2007: The 
Physical Science Basis. Contribution of Working Group I to the Fourth 
Assessment Report of the Intergovernmental Panel on Climate Change. 
Cambridge, UK and New York, NY, USA: Cambridge University Press.
    Revkin, A. (2008). ``Are big oil and big coal climate criminals?'' 
The New York Times: Dot Earth, June 23. Available from http://
dotearth.blogs.nytimes.com/2008/06/23/are-big-oil-and-big-coal-climate-
criminals/
    Robinson, A. B, Robinson, N. E., and Soon, W. (2007). Environmental 
effects of increased carbon dioxide. Journal of American Physicians and 
Surgeons, 12, 79-90.
    Schneider, S. H. (1989). As quoted in an interview in Discover 
Magazine, October. Available at http://stephenscbneider.stanford.edu/
Publications/PDF_PaperslDetroitNews.pdf
    Tetlock, P. E. (2005), Expert Political Judgment. Princeton, NJ: 
Princeton University Press. Trenberth, Kevin E. (2007), ``Global 
warming and forecasts of climate change'', Nature.com's Climate 
Feedback: the climate change blog. Available at http://
blogs.nature.com/climatefeedback/2007/07/
global_warming_and_forecasts_o.html.
    Waite, Donald E. (1994). ``Myths and facts about DDT,'' in D. E. 
Waite, Environmental Health Hazards, Environmental Health Consultant; 
Columbus, Ohio.

Author and collaborators

    J. Scott Armstrong (Ph.D., MIT, 1968), a Professor at the Wharton 
School of Management, University of Pennsylvania, is the author of 
Long-range Forecasting, the creator of forecastingptinciples.com, and 
editor of Principles of Forecasting (Kluwer 2001), an evidence-based 
summary of knowledge on forecasting methods. He is a founder of the 
Journal of Forecasting, the International Journal of Forecasting, and 
the International Symposium on Forecasting. He has spent 50 years doing 
research and consulting on forecasting (details at http://
jscottarmstrong.com). Dr. Armstrong has also published over 30 papers 
on peer review and the scientific method. He can be reached at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6322110e1017110c0d0423140b0211170c0d4d1613060d0d4d0607164d">[email&#160;protected]</a>

    Contributions to this report were made by:
    Kesten C. Green (PhD.) of the International Graduate School of 
Business at the University of South Australia is a Director of the 
International Institute of forecasters and is co-director with Scott 
Armstrong of the Forecasting Principles public service Internet site 
(ForPrin.com). He has been responsible for the development of two 
forecasting methods that provide forecasts that are substantially more 
accurate than commonly used methods. (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d09bb5a3a4b5befe97a2b5b5be90a5beb9a3b1feb5b4a5feb1a5">[email&#160;protected]</a>)
    Willie Soon (PhD.) is an astrophysicist and a geoscientist at the 
Solar, Stellar, and Planetary Sciences division of the Harvard-
Smithsonian Center for Astrophysics. He is also the receiving editor in 
the area of solar and stellar physics fur the journal New Astronomy. He 
has 20 years of active researching and publishing in the area of 
climate change and all views expressed are strictly his own. 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1462757a787d717a54717566607c787d7a7f3a7a7160">[email&#160;protected]</a>)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Hall. Thank you, and I apologize for this 
scientific organization not to have the facility that you 
needed. Maybe we will do better next time.
    At this time I recognize Dr. Richard Muller, Professor at 
the University of California, Berkeley, and a Senior Scientist 
at the Lawrence Berkeley Laboratory to present your testimony. 
You have five minutes, sir. Thank you.

         STATEMENT OF DR. RICHARD MULLER, PROFESSOR OF

          PHYSICS, UNIVERSITY OF CALIFORNIA, BERKELEY,

   AND FACULTY SENIOR SCIENTIST, LAWRENCE BERKELEY LABORATORY

    Dr. Muller. Thank you Chairman Hall and Ranking Member 
Johnson. In addition to those organizations, I am the founder 
of the Berkeley Earth study, and my testimony today does not 
represent the views of those organizations but are my personal 
views.
    I begin talking about my view of global warming. Prior 
groups at NOAA, NASA, and in the UK estimate about a 1.2 degree 
Celsius land temperature rise from the early 1900s to the 
present. That 1.2 degree rise is what we call global warming. 
Their work is excellent, and the Berkeley Earth project strives 
to build on it.
    Human caused global warming is somewhat smaller. According 
to the most recent IPCC report, the human component became 
apparent only after 1957, and it amounts to most of the 0.7 
degree rise since then. I am not denying that there may have 
been human rise before that. Let us assume that by most human-
caused global warming is about 0.6 degrees. I am not endorsing 
this number, I am simply stating it as a working number. The 
magnitude of this is a key scientific and public policy 
concern. Just a 0.2 degree uncertainty puts the human component 
between 0.4 and 0.8 degrees. It is a factor of two 
uncertainties. This number needs to be improved, and Berkeley 
Earth is working to improve the accuracy of it by using a more 
complete set of data and looking at biases in a new way.
    Let me talk about one of these potential biases, bias in 
data selection. The prior groups selected for their analysis 
from 12 to 22 percent of the roughly 39,000 stations available. 
They believe their selection was unbiased. Outside groups have 
questioned that and claimed that the choice preferred records 
with large temperature increases. Such biases could be 
inadvertent, for example, a result of choosing long, continuous 
records. This needs to be looked at carefully. To avoid station 
selection bias, Berkeley Earth has developed techniques to work 
with all the available stations.
    In an initial test of our software and our analysis 
program, Berkeley Earth chose stations just randomly from the 
complete sets. Such a selection of stations avoids station 
selection bias.
    In our preliminary analysis of these stations, we found a 
warming trend that is shown in the figure. Berkeley Earth is 
the black curve, the other three groups are in color. Our 
result is very similar to that reported by the prior groups: a 
rise of about 0.7 degrees Celsius since 1957.
    The Berkeley Earth agreement with the prior analysis 
surprised us, since our preliminary results don't yet address 
many of the known biases. When they do, it is possible that 
corrections could bring our current agreement into 
disagreement. Why such close agreement between our uncorrected 
data and their adjusted data? One possibility is that the 
systematic corrections applied by the other groups turn out to 
be small. We don't yet know. We will find out.
    Now let me address another issue, poor quality 
measurements. Many temperature stations in the United States 
are located near buildings, in parking lots, or close to heat 
sources. Anthony Watts and his team have shown that most of the 
current stations in the U.S. Historical Climatology Network 
would be ranked poor by NOAA's own standards, with error 
uncertainties up to 5 degrees Celsius.
    Did such poor station quality exaggerate the estimates of 
global warming? Berkeley Earth has studied this issue, and we 
have a preliminary answer and the answer is no. Our analysis 
shows that over the past 50 years the poor stations in the U.S. 
network do not show greater warming than do the good stations. 
Thus, although poor station quality might affect absolute 
temperature, or variance in temperature, it does not appear to 
affect trends, and for global warming estimates, it is the 
trend that is important.
    Without the efforts of Anthony Watts and his team, we would 
have only a series of anecdotal images of poor temperature 
stations, and we would not be able to evaluate the integrity of 
the data. This is a case in which scientists receiving no 
government funding did work crucial to understanding climate 
change. Similarly for the work done by Steve McIntyre. Their 
``amateur'' science is not amateur in quality. It is true 
science, conducted with integrity and high standards.
    I was asked how legislation could advance our knowledge of 
climate change. After some consideration I felt the creation of 
a Climate Advanced Research Project Agency or Climate-ARPA 
could help. Government policy needs to encourage work such as 
that of Watts and McIntyre. Climate-ARPA could be an 
organization that provides quick funding to worthwhile projects 
without regard to whether they support or challenge current 
understanding.
    In summary, despite potential biases in the data, methods 
of analysis can be used to reduce bias effects well-enough to 
enable us to measure long-term Earth temperature changes. Data 
integrity is adequate. Based on our initial work at Berkeley 
Earth, I believe that some of the most worrisome biases are 
less of a problem than I had previously thought. Thank you.
    [The prepared statement of Mr. Muller follows:]
    Prepared Statement of Dr. Richard Muller, Professor of Physics, 
   University of California, Berkeley, and Faculty Senior Scientist, 
                      Lawrence Berkeley Laboratory

Executive Summary

    The Berkeley Earth Surface Temperature project was created to make 
the best possible estimate of global temperature change using as 
complete a record ofmeasurements as possible and by applying novel 
methods for the estimation and elimination ofsystematic biases. It was 
organized under the auspices of Novim, a non-profit public interest 
group. Our approach builds on the prior work ofthe groups at NOAA, 
NASA, and in the UK (Hadley Center--Climate Research Unit, or HadCRU).
    Berkeley Earth has assembled 1.6 billion temperature measurements, 
and will soon make these publicly available in a relatively easy to use 
format. The difficult issues for understanding global warming are the 
potential biases. These can arise from many technical issues, including 
data selection, substandard temperature station quality, urban vs rural 
effects, station moves, and changes in the methods and times of 
measurement.
    We have done an initial study of the station selection issue. 
Rather than pick stations with long records (as done by the prior 
groups) we picked stations randomly from the complete set. This 
approach eliminates station selection bias. Our results are shown in 
the Figure; we see a global warming trend that is very similar to that 
previously reported by the other groups.
    We have also studied station quality. Many US stations have low 
quality rankings according to a study led by Anthony Watts. However, we 
find that the warming seen in the ``poor'' stations is virtually 
indistinguishable from that seen in the ``good'' stations.
    We are developing statistical methods to address the other 
potential biases.
    I suggest that Congress consider the creation of a Climate-ARPA to 
facilitate the study of climate issues.
    Based on the preliminary work we have done, I believe that the 
systematic biases that are the cause for most concern can be adequately 
handled by data analysis techniques. The world temperature data has 
sufficient integrity to be used to determine global temperature trends.

Testimony of Richard A. Muller

    Thank you Chairman Hall and Ranking Member Johuson for this 
opportunity to testify before the Committee.
    I am a Professor of Physics at DC Berkeley and Faculty Senior 
Scientist at the Lawrence Berkeley Laboratory. I founded the Berkeley 
Earth Surface Temperature project under the auspices of Novim, a non-
profit public interest group. My testimony represents my personal views 
and not those of the above organizations.

[[Italic part for written statement only, not to be read aloud]]
I've published papers on climate change in Science, Nature, and other 
refereed journals; I am the author of a technical book on the subject. 
My papers on climate change have appeared in Nature, Science, 
Paleoceanography, and the Journal of Geophysical Research. I wrote a 
technical book on the Earth's past temperature changes: ``Ice Ages and 
Astronomical Causes'', Springer 2000. I am the author of ``Physics for 
Future Presidents'', a popular book which describes many misuses of 
data in climate. I was a cited referee on the report of the NRC on the 
hockey stick controversy. For two years I wrote an online column for 
MIT's Technology Review. My major awards for scientific achievement 
include the Alan T. Waterman Award of the National Science Foundation, 
the Texas Instruments Founders Prize, a MacArthur Prize Fellowship, and 
election to the American Academy of Arts and Sciences and to the 
California Academy of Sciences.

The Berkeley Earth Surface Temperature study has received a total of 
$623,087 in financial support from:
The Lee and Juliet Folger Fund ($20,000)
Lawrence Berkeley National Laboratory ($188,587)
William K. Bowes, Jr. Foundation ($100,000)
Fund for Innovative Climate and Energy Research (created by Bill Gates) 
($100,000)
Charles G. Koch Charitable Foundation ($150,000)
The Ann & Gordon Getty Foundation ($50,000)
We have also received funding from a number of private individuals, 
totaling $14,500.

For more information on Berkeley Earth, see www.BerkeleyEarth.org. For 
more information on Novim, see www.Novim.org.

    I begin by talking about

Global Warming

    Prior groups at NOAA, NASA, and in the UK (HadCRU) estimate about a 
1.2 degree C land temperature rise from the early 1900s to the present. 
This 1.2 degree rise is what we call global warming. Their work is 
excellent, and the Berkeley Earth project strives to build on it.
    Human caused global warming is somewhat smaller. According to the 
most recent IPCC report (2007), the human component became apparent 
only after 1957, and it amounts to ``most'' of the 0.7 degree rise 
since then. Let's assume the human-caused warming is 0.6 degrees.
    The magnitude of this temperature rise is a key scientific and 
public policy concern. A 0.2 degree uncertainty puts the human 
component between 0.4 and 0.8 degrees--a factor of two uncertainty. 
Policy depends on this number. It needs to be improved.
    Berkeley Earth is working to improve on the accuracy of this key 
number by using a more complete set of data, and by looking at biases 
in a new way.
    The project has already merged 1.6 billion land surface temperature 
measurements from 16 sources, most of them publicly available, and is 
putting them in a simple format to allow easy use by scientists around 
the world. By using all the data and new statistical approaches that 
can handle short records, and by using novel approaches to estimation 
and avoidance of systematic biases, we expect to improve on the 
accuracy of the estimate of the Earth's temperature change.

    I'll now talk about potential.

Bias in Data Selection

    Prior groups (NOAA, NASA, HadCRU) selected for their analysis 12% 
to 22% of the roughly 39,000 available stations. (The number of 
stations they used varied from 4,500 to a maximum of 8,500.)
    They believe their station selection was unbiased. Outside groups 
have questioned that, and claimed that the selection picked records 
with large temperature increases. Such bias could be inadvertent, for 
example, a result of choosing long continuous records. (A long record 
might mean a station that was once on the outskirts and is now within a 
city.)
    To avoid such station selection bias, Berkeley Earth has developed 
techniques to work with all the available stations. This requires a 
technique that can include short and discontinuous records.
    In an initial test, Berkeley Earth chose stations randomly from the 
complete set of 39,028 stations. Such a selection is free of station 
selection bias.
    In our preliminary analysis of these stations, we found a warming 
trend that is shown in the figure. It is very similar to that reported 
by the prior groups: a rise of about 0.7 degrees C since 1957. (Please 
keep in mind that the Berkeley Earth curve, in black, does not include 
adjustments designed to eliminate systematic bias.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure: Land average temperatures from the three major programs, 
compared with an initial test of the Berkeley Earth dataset and 
analysis process. Approximately 2 percent of the available sites were 
chosen randomly from the complete set of 39,028 sites. The Berkeley 
data are marked as preliminary because they do not include treatments 
for the reduction of systematic bias.

    The Berkeley Earth agreement with the prior analysis surprised us, 
since our preliminary results don't yet address many of the known 
biases. When they do, it is possible that the corrections could bring 
our current agreement into disagreement.
    Why such close agreement between our uncorrected data and their 
adjusted data? One possibility is that the systematic corrections 
applied by the other groups are small. We don't yet know.
    The main value of our preliminary result is that it demonstrates 
the Berkeley Earth ability to use all records, including those that are 
short or fragmented. When we apply our approach to the complete data 
collection, we will largely eliminate the station selection bias, and 
significantly reduce statistical uncertainties.

    Let me now address the problem of

Poor Temperature Station Quality

    Many temperature stations in the U.S. are located near buildings, 
in parking lots, or close to heat sources. Anthony Watts and his team 
has shown that most of the current stations in the U.S. Historical 
Climatology Network would be ranked ``poor'' by NOAA's own standards, 
with error uncertainties up to 5 degrees C.
    Did such poor station quality exaggerate the estimates of global 
warming? We've studied this issue, and our preliminary answer is no.
    The Berkeley Earth analysis shows that over the past 50 years the 
poor stations in the U.S. network do not show greater warming than do 
the good stations.
    Thus, although poor station quality might affect absolute 
temperature, it does not appear to affect trends, and for global 
warming estimates, the trend is what is important.
    Our key caveat is that our results are preliminary and have not yet 
been published in a peer reviewed journal. We have begun that process 
of submitting a paper to the Bulletin ofthe American Meteorological 
Society, and we are preparing several additional papers for publication 
elsewhere.
    NOAA has already published a similar conclusion--that station 
quality bias did not affect estimates of global warming--based on a 
smaller set of stations, and Anthony Watts and his team have a paper 
submitted, which is in late stage peer review, using over 1000 
stations, but it has not yet been accepted for publication and I am not 
at liberty to discuss their conclusions and how they might differ. We 
have looked only at average temperature changes, and additional data 
needs to be studied, to look at (for example) changes in maximum and 
minimum temperatures.
    In fact, in our preliminary analysis the good stations report more 
warming in the U.S. than the poor stations by 0.009 <plus-minus>0.009 
degrees per decade, opposite to what might be expected, but also 
consistent with zero. We are currently checking these results and 
performing the calculation in several different ways. But we are 
consistently finding that there is no enhancement of global warming 
trends due to the inclusion of the poorly ranked US stations.
    Berkeley Earth hopes to complete its analysis including systematic 
bias avoidance in the next few weeks. We are now studying new 
approaches to reducing biases from:

1.  Urban heat island effects. Some stations in cities show more rapid 
warming than do stations in rural areas.

2.  Time of observation bias. When the time of recording temperature is 
changed, stations will typically show different mean temperatures than 
they did previously. This is sometimes corrected in the processes used 
by existing groups. But this cannot be done easily for remote stations 
or those that do not report times of observations.

3.  Station moves. If a station is relocated, this can cause a ``jump'' 
in its temperatures. This is typically corrected in the adjustment 
process used by other groups. Is the correction introducing another 
bias? The corrections are sometimes done by hand, making replication 
difficult.

4.  Change of instrumentation. When thermometer type is changed, there 
is often an offset introduced, which must be corrected 

Potential Legislation 

    I was asked what legislation could advance our knowledge of climate 
change. After some consideration, I felt that the creation of a Climate 
Advanced Research Project Agency, or Climate-ARPA, could help.
    Without the efforts of Anthony Watts and his team, we would have 
only a series of anecdotal images of poor temperature stations, and we 
would not be able to evaluate the integrity of the data.
    This is a case in which scientists receiving no government funding 
did work crucial to understanding climate change. Similarly for the 
work done by Steve McIntyre. Their ``amateur'' science is not amateur 
in quality; it is true science, conducted with integrity and high 
standards. Government policy needs to encourage such work. Climate-ARPA 
could be an organization that provides quick funding to worthwhile 
projects without regard to whether they support or challenge current 
understanding.

In Summary

     Despite potential biases in the data, methods of analysis can be 
used to reduce bias effects well enough to enable us to measure long-
term Earth temperature changes. Data integrity is adequate. Based on 
our initial work at Berkeley Earth, I believe that some ofthe most 
worrisome biases are less of a problem than I had previously thought.

    Chairman Hall. Thank you, sir. I want to say to Dr. 
Armstrong that your testimony will be in the record as you 
submitted it as will all the testimony. The malfunction won't 
cost you there.
    Dr. Armstrong. Thank you.
    Chairman Hall. Thank you, Dr. Muller. Now I recognize Dr. 
Christy, Director of the Earth System Science Center at the 
University of Alabama in Huntsville for five minutes to present 
his testimony.

            STATEMENT OF DR. JOHN CHRISTY, DIRECTOR,

 EARTH SYSTEM SCIENCE CENTER, UNIVERSITY OF ALABAMA, HUNTSVILLE

    Dr. Christy. Thank you, Chairman Hall, Ranking Member 
Johnson, Committee Members and my Congressman Brooks over here 
for this opportunity to be here.
    I am here to address issues regarding the process by which 
major climate assessments have led to problems for you, our 
policymakers. I am John Christy, Alabama State Climatologist 
from the University of Alabama in Huntsville.
    My research deals specifically with climate science. I am 
one of those few people who actually builds climate data sets 
from scratch to answer questions about climate variability and 
to test assertions people make about climate change. I was the 
lead author of the IPCC 2001 report and a secondary author of 
the others which doesn't really mean much at all when you read 
my written testimony.
    Climate assessments like the IPCC use a process in which 
IPCC's selected lead authors are given significant control over 
the text, including the authority to judge their own work 
against the work of their critics. You might call this a 
conflict of interest. This process has led to the propagation 
of incorrect and misleading information in the assessments and 
thus should lead you to question the IPCC's general support for 
a catastrophic view of climate change. These reports do not 
represent a full-range of scientific evidence on climate, and I 
have three examples.
    In the first case, I address the icon of the IPCC 2001, the 
hockey stick, and show that the hockey stick's author was the 
same IPCC lead author who, in my opinion, worked with a small 
group of cohorts and misrepresented the temperature record of 
the past 1,000 years by promoting his own result and neglecting 
studies that contradicted his and allowing amputation of a 
disagreeable result and the splicing of unrelated data to hide 
the decline. Thus, in my view, conflicting data were eliminated 
or massaged, and real uncertainties were not acknowledged.
    In the second example from the recent IPCC 2007 report, 
evidence was presented by Dr. Ross McKitrick and others that 
indicated the popular surface temperature data sets were 
affected by warming, not likely to be caused by greenhouse 
gases. This has raised serious doubts about using surface 
temperatures for evidence for greenhouse warming. The IPCC 
authors were themselves producers of these data sets, yet as 
final say authors, they sat in judgment over the controversy, 
eventually denying McKitrick's evidence with what turned out to 
be apparently their own fabricated claim. I discuss more about 
surface temperatures in my written testimony.
    In the third example, I demonstrate that in the EPA finding 
which declared greenhouses gas as a dangerous threat, key 
evidence regarding the evaluation of climate models and their 
ability to depict the real atmosphere was misrepresented. In 
IPCC-like fashion, the EPA relied on establishment scientists, 
giving them authority to respond to evidence which contradicted 
the EPA finding with assertions that were not based on reliable 
data or methods. The evidence shows the EPA overstated the 
agreement between models and observations, when in fact there 
was significant disagreement.
    Finally, this issue has policy implications that may 
potentially raise the price of energy a lot and thus 
essentially the price of everything else. As such, in my 
opinion, the U.S. Congress and EPA should not rely exclusively 
on the United Nations' IPCC assessments and their sister 
assessments exclusively because the process by which they were 
written has been shown to produce bias, false, over-confident 
or misleading information about one of the most murky of 
sciences, climate. As I stated in my IAC testimony last year, 
climate science needs adult supervision, but Congress needs at 
least one second opinion--talking about medical ideas here--one 
second opinion produced by expert climate scientists but 
overseen by a non-activist team which includes those with 
experience in the scientific method, such as physicists, and 
those who simply understand what is important for people, such 
as engineers, and then those who understand the legal aspects 
of admissible evidence and discovery, such as attorneys.
    I refer you to my written testimony submitted here and from 
the Energy and Power hearing three weeks ago where these points 
were fleshed out. Thank you for your consideration. I await 
your questions.
    [The prepared statement of Mr. Christy follows:]
   Prepared Statement of Dr. John R. Christy, Director, Earth System 
          Science Center, University of Alabama in Huntsville

One Page Summary

1.  Climate assessments like the IPCC have to date been written through 
a process in which IPCC-selected authors are given significant 
authority over the text, including judging their own work against work 
of their critics. This has led to biased information in the assessments 
and thus raises questions about a catastrophic view of climate change 
because the full range of evidence is not represented. Three examples 
follow.

1.A.  Regarding the Hockey Stick of IPCC 2001 evidence now indicates, 
in my view, that an IPCC Lead Author working with a small cohort of 
scientists, misrepresented the temperature record of the past 1000 
years by (a) promoting his own result as the best estimate, (b) 
neglecting studies that contradicted his, and (c) amputating another's 
result so as to eliminate conflicting data and limit any serious 
attempt to expose the real uncertainties of these data.

1.B.  In the IPCC 2007 report, Dr. Ross McKitrick presented evidence 
that indicated warming processes other than greenhouse gas warming 
affected the popular surface temperature data sets. The IPCC authors 
were themselves producers of these data sets, yet as ``final-say'' 
authors they sat in judgment over this controversy, eventually denying 
McKitrick's evidence with what turned out be (apparently) their own 
fabricated claim.

1.C.  The EPA Finding misrepresented key evidence on the evaluation of 
climate models against real data. In IPCC-like fashion, the EPA gave 
authority to its hand-picked author team to respond to evidence which 
contradicted the Finding with assertions that were not based on 
reliable data or methods. The evidence shows the EPA overstated the 
agreement between models and observations when in fact there was 
disagreement.

2.  Warming in surface temperatures is caused by many factors other 
that greenhouse gases, one reason they are poor proxies to depict 
greenhouse warming. Bulk atmospheric temperatures, a more direct proxy, 
show much less warming that models predict.

3.  Because this issue has policy implications that may potentially 
raise the price of energy significantly (and thus essentially the price 
of everything else), the U.S. Congress should not rely exclusively on 
the U.N. assessments because the process by which they were written 
includes biased, false, and/or misleading information about one of the 
most murky of sciences--climate. In my opinion, the Congress needs at 
least one second-opinion produced by well-credentialed climate 
scientists but overseen by a non-activist team which includes those 
with experience in the scientific method, the legal aspects of 
``discovery,'' and who simply know what is important in answering the 
questions at hand.
 A House Science, Space and Technology Committee Examining the Process 
                 concerning Climate Change Assessments
                             31 March 2011

        John R. Christy, The University of Alabama in Huntsville

Written Testimony

    I am John R. Christy, Professor of Atmospheric Science and Director 
of the Earth System Science Center at the University of Alabama in 
Huntsville. I am also Alabama's State Climatologist. My training and 
research have been almost exclusively in the area of climate studies. I 
built my first climate dataset when I was 15 in an attempt to 
understand and predict the interannual variations of rainfall in the 
San Joaquin Valley of California. It didn't work. Even so, climate 
science has been a passion of mine for almost 50 years.
    I have served as Lead Author of the Third Intergovernmental Panel 
on Climate Change (2001) and a ``Key'' or ``Contributing'' Author on 
the others. I was chosen to receive a Special Award by the American 
Meteorological Society and NASA's Medal Exceptional Scientific 
Achievement for my work with Dr. Roy Spencer regarding the development 
of satellite-based climate datasets. I was elected a Fellow of the AMS 
in 2002. My main research deals with building climate datasets from 
scratch to understand what the climate has been doing and to test 
assertions made about the climate system.
    I normally speak to congressional committees regarding the science 
of climate change as I did three weeks ago to the House subcommittee on 
Energy and Power. Those interested in that testimony are encouraged to 
access it (8 March 2011.) The question I was asked to address today 
relates to the process by which past climate change assessments were 
generated and how the final products of such efforts may be 
compromised. This is the same basic topic I addressed before the Inter-
Academy Council (of Sciences) or IAC in Montreal last June. Some of the 
discussion below is contained in that testimony (Appendix A.) 
Additionally, Dr. Ross McKitrick provided information to the same House 
subcommittee three weeks ago and I wish to attach that as well 
(Appendix B) since I refer to it below. Finally, one of my responses to 
the EPA Endangerment Finding is discussed below and thus my full 
comment to EPA is attached as Appendix C.
    In the following I will provide some general remarks on the 
shortcomings of the assessment process as I've experienced it, then 
provide three examples of how the process led to inaccurate information 
provided to policymakers, followed by a comment on temperature records 
and I will close with some concluding remarks.

1.  General Remarks

    The first basic problem with the entire issue here is that climate 
science is a murky science, not a classic, experimental science. As an 
emerging science of a complex, chaotic atmospheric and oceanic system, 
it is plagued by uncertainty and ambiguity in both observations and 
theory. Lacking classic, laboratory results, it easily becomes hostage 
to opinion, groupthink, arguments-from-authority, overstatement of 
confidence, and even Hollywood movies. (For a formalized discussion of 
the uncertainties and ignorance in climate science see Curry 2011.)
    The most prominent assessment of climate change science is produced 
through the Intergovernmental Panel on Climate Change or IPCC. These 
U.N. reports have appeared every few years, with the main reports 
coming out in 1990, 1995, 2001 and 2007. Understanding the selection 
and role of the authors is important for policymakers who want to 
understand the process.
    In simplified terms, IPCC Lead Authors are nominated by their 
countries, and down-selected by the IPCC bureaucracy with help from 
others (the process is still not transparent to me--who really performs 
this down-select?) The basic assumption is that the scientists so 
chosen as Lead Authors (L.A.s) represent the highest level of expertise 
in particular fields of climate science (or some derivative aspect such 
as agricultural impacts) and so may be relied on to produce the most 
up-to-date and accurate assessment of the science. When these 
assessments are done, government organizations such as the U.S. EPA 
often adopt the reports in total, without investigation, to guide their 
agendas.
    In one sense, the authors of these reports are volunteers since 
they are not paid. However, they do not go without salaries. Government 
scientists make up a large portion of the author teams and can be 
assigned to do such work, and in effect are paid to work on the IPCC by 
their governments. University scientists aren't so lucky but can 
consider their IPCC effort as being so close to their normal research 
activities that salary charges to the university or grants occur. 
Travel expenses were paid by the IPCC for trips, in my case, to 
Australia, Paris, Tanzania, New Zealand, Hawaii, and Victoria, Canada. 
Perhaps it goes without saying that such treatment might give one the 
impression he or she is an important authority on climate.
    As these small groups of L.A.s travel the world, they tend to form 
close communities which often re-enforce a view of the climate system 
that can be very difficult to penetrate with alternative ideas 
(sometimes called ``confirmation bias'' or ``myside bias''.) They 
become an ``establishment'' as I call them. With such prominent 
positions as IPCC L.A.s on this high profile topic, especially if they 
support the view that climate change is an unfolding serious disaster, 
they would be honored with wide exposure in the media (and other 
sympathetic venues) as well as rewarded with repeated appointments to 
the IPCC process. In my case, evidently, one stint as an L.A. was 
enough.
    The second basic problem (the first was the murkiness of our 
science) with these assessments is the significant authority granted 
the L.A.s. This is key to understanding the IPCC process. In essence, 
the L.A.s have virtually total control over the material and, as 
demonstrated below, behave in ways that can prevent full disclosure of 
the information that contradicts their own pet findings and which has 
serious implications for policy in the sections they author. While the 
L.A.s must solicit input for several contributors and respond to 
reviewer comments, they truly have the final say.
    In preparing the IPCC text, L.A.s sit in judgment of material of 
which they themselves are likely to be a major player. Thus they are in 
the position to write the text that judges their own work as well as 
the work of their critics. In typical situations, this would be called 
a conflict of interest. Thus L.A.s, being human, are tempted to cite 
their own work heavily and neglect or belittle contradictory evidence 
(see examples below.)
    In the beginning, the scientists who wrote the IPCC assessment were 
generally aware of the new responsibility, the considerable 
uncertainties of climate science, and that consequences of their 
conclusions could generate burdensome policies. The first couple of 
reports were relatively cautious and rather equivocal.
    In my opinion, as further assessments were created, a climate 
``establishment'' came into being, dominating not only the IPCC but 
many other aspects of climate science, including peer-review of 
journals. Many L.A.s became essentially permanent fixtures in the IPCC 
process and rose to positions of prominence in their institutions as a 
side benefit. As a result, in my view, they had a vested interest in 
preserving past IPCC claims and affirming evermore confident new claims 
to demonstrate that the science was progressing under their watch and 
that financial support was well spent. Speaking out as I do about this 
process assured my absence of significant contribution on recent and 
future reports.
    Political influence cannot be ignored. As time went on, nations 
would tend to nominate only those authors whose climate change opinions 
were in line with a national political agenda which sought perceived 
advantages (i.e. political capital, economic gain, etc.) by promoting 
the notion of catastrophic human-induced climate change. Scientists 
with well-known alternative views would not be nominated or selected. 
Indeed, it became more and more difficult for dissention and skepticism 
to penetrate the process now run by this establishment. As noted in my 
IAC testimony, I saw a process in which L.A.s were transformed from 
serving as Brokers of science (and policy-relevant information) to 
Gatekeepers of a preferred point of view.
    A focus evolved in the IPCC that tended to see enhanced greenhouse 
gas concentrations as the cause for whatever climate changes were being 
observed, particularly in the 2001 (Third Assessment Report or TAR) 
which was further solidified in 2007, (the Fourth Assessment Report or 
AR4.) The IAC 2010 report on the IPCC noted this overconfidence when it 
stated that portions of the AR4 contained ``many vague statements of 
`high confidence' that are not supported sufficiently in the 
literature, not put into perspective, or are difficult to refute.''' 
(This last claim relates to the problem of generating ``unfalsifiable 
hypotheses'' discussed in my recent House testimony.)
    With an understanding of the power of the L.A.s in determining the 
content of the IPCC and thus EPA reports, I shall describe three 
situations, about which I am quite familiar, to support the claims made 
above.

1.A.  An Example from IPCC Third Assessment Report (TAR 2001)--the 
Hockey Stick

    My experience as Lead Author in the IPCC TAR, Chapter 2 ``Observed 
Climate Variability and Change'', allowed me to observe how a key 
section of this chapter, which produced the famous Hockey Stick icon, 
was developed. My own topic was upper air temperature changes that 
eventually drew little attention, even though the data clearly 
indicated potentially serious inconsistencies for those who would 
advocate considerable confidence in climate model projections.
    First, note these key points about the IPCC process: the L.A. is 
allowed (a) to have essentially complete control over the text, (b) sit 
in judgment of his/her own work as well as that of his/her critics and 
(c) to have the option of arbitrarily dismissing reviewer comments 
since he/she is granted the position of ``authority'' (unlike peer-
review.) Add to this situation the rather unusual fact that the L.A. of 
this particular section had been awarded a PhD only a few months before 
his selection by the IPCC. Such a process can lead to a biased 
assessment of any science. But, problems are made more likely in 
climate science, because, as noted, ours is a murky field of research--
we still can't explain much of what happens in weather and climate.
    The Hockey Stick curve depicts a slightly meandering Northern 
Hemisphere cooling trend from 1000 A.D. through 1900, which then 
suddenly swings upward in the last 80 years to temperatures warmer than 
any of the millennium when smoothed. To many, this appeared to be a 
``smoking gun'' of temperature change proving that the 20th century 
warming was unprecedented and therefore likely to be the result of 
human emissions of greenhouse gases.
    I will not debate the quality of the Hockey Stick--that has been 
effectively done elsewhere (and indeed there is voluminous discussion 
on this issue), so, whatever one might think of the Hockey Stick, one 
can readily understand that its promotion by the IPCC was problematic 
given the process outlined above. Indeed, with the evidence contained 
in the Climategate emails, we have a fairly clear picture of how this 
part of the IPCC TAR went awry. For a more detailed account of this 
incident with documentation, see http://climateaudit.org/2009/12/10/
ipcc-and-the-trick/.
    We were appointed L.A.s in 1998. The Hockey Stick was prominently 
featured during IPCC meetings from 1999 onward. I can assure the 
committee that those not familiar with issues regarding reconstructions 
of this type (and even many who should have been) were truly enamored 
by its depiction of temperature and sincerely wanted to believe it was 
truth. Skepticism was virtually non-existent. Indeed it was described 
as a ``clear favourite'' for the overall Policy Makers Summary 
(Folland, 0938031546.txt).
    In our Sept. 1999 meeting (Arusha, Tanzania) we were shown a plot 
containing more temperature curves than just the Hockey Stick including 
one from K. Briffa that diverged significantly from the others, showing 
a sharp cooling trend after 1960. It raised the obvious problem that if 
tree rings were not detecting the modern warming trend, they might also 
have missed comparable warming episodes in the past. In other words, 
absence of the Medieval warming in the Hockey Stick graph might simply 
mean tree ring proxies are unreliable, not that the climate really was 
relatively cooler.
    The Briffa curve created disappointment for those who wanted ``a 
nice tidy story'' (Briffa 0938031546.txt). The L.A. remarked in emails 
that he did not want to cast ``doubt on our ability to understand 
factors that influence these estimates'' and thus, ``undermine faith in 
paleoestimates'' which would provide ``fodder'' to ``skeptics'' (Mann 
0938018124.txt). One may interpret this to imply that being open and 
honest about uncertainties was not the purpose of this IPCC section. 
Between this email (22 Sep 1999) and the next draft sent out (Nov 1999, 
Fig. 2.25 Expert Review) two things happened: (a) the email referring 
to a ``trick'' to ``hide the decline'' for the preparation of report by 
the World Meteorological Organization was sent (Jones 0942777075.txt, 
``trick'' is apparently referring to a splicing technique used by the 
L.A. in which non-paleo data were merged to massage away a cooling dip 
at the last decades of the original Hockey Stick) and (b) the cooling 
portion of Briffa's curve had been truncated for the IPCC report (it is 
unclear as to who performed the truncation.)
    In retrospect, this disagreement in temperature curves was simply 
an indication that such reconstructions using tree ring records contain 
significant uncertainties and may be unreliable in ways we do not 
currently understand or acknowledge. This should have been explained to 
the readers of the IPCC TAR and specifically our chapter. Highlighting 
that uncertainty would have been the proper scientific response to the 
evidence before us, but the emails show that some L.A.'s worried it 
would have diminished a sense of urgency about climate change (i.e. 
``dilutes the message rather significantly'', Folland, 0938031546.txt.)
    When we met in February 2000 in Auckland NZ, the one disagreeable 
curve, as noted, was not the same anymore because it had been modified 
and truncated around 1960. Not being aware of the goings-on behind the 
scenes, I had apparently assumed a new published time series had 
appeared and the offensive one had been superceded (I can't be certain 
of my actual thoughts in Feb. 2000). Now we know, however, that the 
offensive part of Briffa's curve had simply been amputated after a new 
realization was created three months before. (It appears also that this 
same curve was apparently a double amputee, having its first 145 years 
chopped off too, see http://climateaudit.org/2011/03/23/13321/.) So, at 
this point, data which contradicted the Hockey Stick, whose creator was 
the L.A., had been eliminated. No one seemed to be alarmed (or in my 
case aware) that this had been done.
    Procedures to guard against such manipulation of evidence are 
supposed to be in place whenever biases and conflicts of interest 
interfere with duties to report the whole truth, especially in 
assessments that have such potentially drastic policy implications. 
That the IPCC allowed this episode to happen shows, in my view, that 
the procedures were structurally deficient.
    Even though the new temperature chart appeared to agree with the 
Hockey Stick, I still expressed my skepticism in this reconstruction as 
being evidence of actual temperature variations. Basically, this result 
relied considerably on a type of western U.S. tree-ring not known for 
its fidelity in reproducing large-scale temperatures (NRC 2006, pg. 
52).
    At the L.A. meetings, I indicated that there was virtually no 
inter-century precision in these measurements, i.e. they were not good 
enough to tell us which century might be warmer than another in the 
pre-calibration period (1000 to 1850.)
    In one Climategate email, a Convening L.A., who wanted to feature 
the Hockey Stick at the time (though later was less enthusiastic), 
mentions ``The tree ring results may still suffer from lack of 
multicentury time scale variance'' and was ``probably the most 
important issue to resolve in Chapter 2'' (Folland, 0938031546.txt). 
This, in all likelihood, was a reference to (a) my expressed concern 
(see my 2001 comments to NRC below) as well as to (b) the prominence to 
which the Hockey Stick was pre-destined.
    To compound this sad and deceptive situation, I had been quite 
impressed with some recent results by Dahl-Jensen et al., (Science 
1998), in which Greenland ice-borehole temperatures had been 
deconvolved into a time series covering the past 20,000 years. This 
measurement indeed presented inter-century variations. Their result 
indicated a clear 500-year period of temperatures, warmer than the 
present, centered about 900 A.D.--commonly referred to as the Medieval 
Warm Period, a feature noticeably absent in the Hockey Stick. What is 
important about this is that whenever any mid to high-latitude location 
shows centuries of a particularly large temperature anomaly, the 
spatial scale that such a departure represents is also large. In other 
words, long time periods of warmth or coolness are equivalent to large 
spatial domains of warmth or coolness, such as Greenland can represent 
for the Northern Hemisphere (the domain of the Hockey Stick.)
    I discussed this with the paleo-L.A. at each meeting, asking that 
he include this exceptional result in the document as evidence for 
temperature fluctuations different from his own. To me Dahl-Jensen et 
al.'s reconstruction was a more robust estimate of past temperatures 
than one produced from a certain set of western U.S. tree-ring proxies. 
But as the process stood, the L.A. was not required to acknowledge my 
suggestions, and I was not able to convince him otherwise. It is 
perhaps a failure of mine that I did not press the issue even harder or 
sought agreement from others who might have been likewise aware of the 
evidence against the Hockey Stick realization.
    As it turned out, this exceptional paper by Dahl-Jensen et al. was 
not even mentioned in the appropriate section (TAR 2.3.2). There was a 
brief mention of similar evidence indicating warmer temperatures 1000 
years ago from the Sargasso Sea sediments (TAR 2.3.3), but the text 
then quickly asserts, without citation, that this type of anomaly is 
not important to the hemisphere as a whole.
    Thus, we see a situation where a contradictory data set from 
Greenland, which in terms of paleoclimate in my view was quite 
important, was not offered to the readers (the policymakers) for their 
consideration. In the end, the Hockey Stick appeared in Figure 1 of the 
IPCC Summary for Policymakers, without any other comparisons, a 
position of prominence that speaks for itself.
    So, to summarize, an L.A. was given final say over a section which 
included as its (and the IPCC's) featured product, his very own chart, 
and which allowed him to leave out not only entire studies that 
presented contrary evidence, but even to use another strategically 
edited data set that had originally displayed contrary evidence. This 
led to problems that have only recently been exposed. This process, in 
my opinion, illustrates that the IPCC did not provide policymakers with 
an unbiased evaluation of the science, whatever one thinks about the 
Hockey Stick as a temperature reconstruction.
    This story had a couple of postscripts regarding my involvement. 
First, The National Academy of Sciences contacted me shortly after the 
TAR appeared in 2001 for my views on the IPCC process. I indicated that 
the process was generally a pleasant experience, but that some things 
still bothered me. In my written submission to the NRC I stated that I 
believed too much emphasis was placed on the Hockey Stick.

        21 May 2001
        To: Vaughan Turekian (NAS)
        Subject: Question about IPCC

        1000-year temperature record

        This first concern arises from our chapter (2) for which I must 
        accept as much blame as anyone. We (chapter 2 authors) are 
        guilty of omitting information that indicated the temperature 
        history of the past 1000 years is not as well known as is 
        implied by the prominent figure in the SPM [Summary for 
        Policymakers] (Fig. 1) and TS [Technical Summary] (Fig.5). At 
        each of the Lead Authors meetings I pointed out that we should 
        include mention of publications which strongly suggest the 
        medieval warm period was warmer than the current century. In 
        particular I mentioned the Dahl-Jensen et al. 1998 Science 
        paper which I believe presents the most direct measurement of 
        temperature and thus should be highlighted. Broeker (2001, 
        SCIENCE) echoed the very concerns I had put forward in our 
        meetings. In the final version of the text the Dahl-Jensen 
        paper was not even cited in Section 2.3 -a fact I did not 
        realize until last week when I read the report in detail (2.3 
        is the section on the temperature record of the past 1000 
        years.) Thus, its [Greenland's temperature] information was not 
        carried forward in the TS or SPM. (The paper is only mentioned 
        in passing regarding the warming 8 kybp in the TAR [Third 
        Assessment Report].) I should point out that the final wording 
        concerning the warmth of the 1990's and 1998 as ``likely'' the 
        warmest of the past millennium (i.e. only 2/3 chance of being 
        correct) tried to account for the lack of certainty in our 
        knowledge of past temperatures. However, the very prominent 
        placement of the time series of the last 1000 years in the TS 
        and SPM overrules what tentativeness some of us actually 
        intended. This is my personal view.

        John R. Christy
        University of Alabama in Huntsville

    Secondly, I served on the 2006 NRC panel that took another look at 
the temperatures of the past 2000 years and noted several findings 
about the Hockey Stick that had come to light since I wrote the above 
in 2001. That report stated that it was inappropriate to use the 
particular type of tree rings which dominated the early part of the 
Hockey Stick (p. 52), and that a key step in its mathematical method 
was so biased that even when a collection of random numbers were used 
for input, hockey stick shapes were produced (p. 91.) Overall, the NAS 
report concluded that methodological problems in reconstructions mean 
that ``uncertainties of the published reconstructions have been 
underestimated'' (p. 113.) For further critical analysis see the 
``Wegman Report'' (Wegman et al. 2006). It is clear now, in my view, 
that the prominence accorded the Hockey Stick was inappropriate and 
that the IPCC failed to provide an accurate depiction of the state of 
climate science in this area.
    Finally, you may hear that certain ad-hoc panels were assembled 
which examined these events and were claimed to have ``exonerated'' the 
scientists from major wrong doing. Please note that these reports have 
no true legal standing as the legal process was not followed, i.e. 
determining admissible evidence, discovery, cross-examination of the 
evidence and witnesses, the full inclusion of testimony by witnesses 
denigrated by these scientists, etc. A summary of this whole 
``exoneration'' affair is given by Dr. Ross McKitrick in ``response to 
climategate inquiries'' at http://rossmckitrick.weebly.com/
submissionsresponses-to-govt-inquiries.html.

1.B.  IPCC apparent fabrication of claims regarding surface temperature

    The next two examples are well-described in the attached document 
supplied by Dr. Ross McKitrick of the University of Guelph, Ontario, 
sent to the House subcommittee on Energy and Power in relation to their 
hearing three weeks ago (Appendix B). The first situation I describe 
deals with an apparent fabrication of information regarding surface 
temperatures contained in the most recent IPCC AR4 (2007) and the 
subsequent usage of the information by the EPA in their endangerment 
finding. This is a situation encountered by McKitrick himself (Appendix 
B.1). The second incident focuses more on EPA's mishandling of 
information, and I relate my own experience here (Appendix C.3.1a), but 
I direct you to McKitrick's commentary in Appendix B.3 as an 
independent analysis of the same issue.
    In the first case, a point of contention arose between McKitrick, 
an IPCC reviewer, and the IPCC L.A.s concerning evidence published by 
two independent groups which documented the contamination of the 
surface temperature record by industrialization and land-use change (De 
Laat and Maurellis 2004, 2006, McKitrick and Michaels 2004.) Numerous 
papers, including some by myself (e.g. Christy et al. 2009), have been 
published in this arena, but the two groups' papers cited here 
specifically found patterns of warming over land that were 
statistically associated with patterns of socio-economic development, a 
correlation not predicted in model simulations of greenhouse warming. 
This of course would call into question the use of these surface 
datasets (maintained by some of the aforementioned L.A.s) as indicators 
of greenhouse warming of the planet.
    After the close of peer review, the L.A.s inserted text into the 
IPCC report that described the findings pointed out by McKitrick, but 
then dismissed them by asserting that the correlations were due to 
natural circulation patterns, not industrialization, concluding that 
the ``correlation of warming with industrial and socioeconomic 
development ceases to be statistically significant.'' This claim was 
subsequently quoted by the EPA Finding, and thus, as demonstrated 
below, tarnishes that document as well. The problem? There was no 
evidence to support this claim made by the L.A.s--it was simply an 
assertion (perhaps a belief?) evidently invented to dismiss the 
offensive results.
    McKitrick (2010) was later published which specifically tested the 
IPCC claim about the role of circulation patterns as the cause of the 
observed distribution of warming and found the IPCC claim to be false. 
Thus, the IPCC assertion had evidently been a fabrication. The key 
point here is that the IPCC process failed policymakers by not 
providing the complete picture of an issue and unfortunately produced 
not just misleading, but false information. Given that the IPCC L.A. 
team (a) exerted almost total control over the text, (b) were sitting 
in judgment of criticisms of datasets they themselves produced, and (c) 
were not required to accommodate alternate views, it is not difficult 
to see how such a failure could occur--a failure that can have 
significance for climate change policy. This, again, is an example of 
L.A.s acting as Gatekeepers, not as Brokers. Furthermore, the 
Climategate emails also shed light on the behind-the-scenes attempts by 
the L.A.s to squelch this important information--hardly the activity 
associated with an open and transparent process (see Appendix B.1).

1.C.  EPA ``Finding'' relied on an IPCC-like review process

    In its Finding (Part III.C.), the EPA essentially relies on climate 
model output to make claims about current and future climate changes 
being potentially dangerous and being caused by increases in greenhouse 
gases. The report, fundamentally, assumes that climate models are so 
precise in their depiction of the real climate that they are reliable 
for predictions and thus policy. In the public comment period, I was 
one of several who responded to this assertion with evidence to 
demonstrate that basic and fundamental features of climate model 
simulations do not effectively represent the real world.
    A prominent signature of global warming due to greenhouse gases in 
climate models is a warming of the tropical upper atmosphere, generally 
between 8 and 12 km, that is much greater than the warming which models 
project for the surface. The signature in models is so prominent that 
it provides a relatively easy test against observations. Several 
studies have indicated that observations do not show this feature, 
which in turn casts doubt on climate model theory as representing 
greenhouse warming properly and on which the EPA Finding relied (e.g. 
Christy et al. 2007, Douglass et al. 2007).
    In the review of the EPA draft, several responders, including me, 
informed the EPA that the EPA's statement about agreement between 
observations and models had been improperly reported. We backed up our 
claims with published information. However, in their response to us, 
the EPA's ``authors'' (themselves part of the establishment) in IPCC-
like fashion claimed ``when uncertainties in models and observations 
are properly accounted for, newer observational datasets are in 
agreement with climate model results.'' As far as we could tell, they 
did not give any serious consideration to contradictory evidence. This 
was another example of authors, who were utilized by the EPA, having 
the authority to ignore evidence that was clearly against their 
assertions. Rather than providing the range of views in the Finding, or 
at a minimum pointing out significant model uncertainty suggested by 
our results, the EPA authors acted as gatekeepers and mislead the 
readers (See Appendix C for my full review comments.)
    In their response to our reviews, the EPA cited three papers which 
purportedly offered ``new observations'' to support their model vs. 
observations ``agreement'', relying mainly on Santer et al. 2008. 
However, these ``new'' upper air data sets (RAOBCORE 1.3, 1.4, and 
Allen and Sherwood (2005) thermal wind derivation) and two of the 
``new'' surface data sets (ERSST v2 and v3) had been shown to contain 
spurious trends when tested for accuracy and these versions are not 
used for trend estimation any longer. Santer et al., the EPAs key 
citation, had done no testing of the observations as we had done. In my 
review, I went through the details of why Santer et al. 2008 had been 
incorrect in both their hypothesis test (where they neglected the pre-
condition of surface trend agreement between models and observations--
see bracketed note below) and with the data they used. However, the EPA 
simply allowed its own hand-picked authors to assert their conclusion. 
They did not objectively assess the conclusions of these contradictory 
studies or even acknowledge at a minimum that significant controversy 
continued on this issue. Further studies support the original comments 
of my review (e.g. Sakamoto and Christy, 2009, Klotzbach et al. 2009, 
Christy et al. 2010, McKitrick et al. 2010).
    [I note here some technical points. Douglass et al. tested a 
hypothesis that depended on a specific condition. We addressed the 
question, ``If models and observations have the same surface 
temperature trend, then do the models and observations have the same 
upper air trend?'' In other words, we were testing the relationship 
between surface and upper air temperatures. For data 1979-2004, the 
answer was no. McKitrick et al. 2010 (and Santer et al. 2008) tested a 
broader question without the condition of surface agreement. Their 
question was simply, ``Do upper air trends of models and observations 
agree?'' (i.e. without the requirement that surface trends agree). 
Santer et al. used 1979-99, McKitrick et al. used 1979-99 and 1979-
2009. Ending in 1999 was a clever way to tilt observations upward, to 
help them match the models' warming, due to the massive 1998 El Nino 
whose impact fades as the time series is lengthened to 2004 and 2009. 
Even on this more general question, McKitrick et al. 2010 found the 
answer to be no, i.e. models and observations do not agree, and noted 
the difference in methodologies in their Supplementary Note 5.]
    In my comments to the EPA on this issue I knew the agency would 
rely on the ``establishment'' in IPCC-like fashion to write its 
response, giving their hand-picked ``authors'' control of the process. 
So I included the following paragraph:

        Warning: The EPA will be tempted to rely on scientists/
        appointees who are well-entrenched into a particular view of 
        the issue of global warming to review documents such as this, 
        and who will (a) develop clever sounding rebuttals, and (b) are 
        afforded the luxury of the ``last word'' to protect the current 
        EPA consensus. Basic scientific inquiry should encourage EPA to 
        listen to those of us who actually build these datasets (from 
        scratch) as our message has equal if not greater credibility.

    This plea to be objective and avoid an IPCC-like process (i.e. 
relying on hand-picked authors to give the last word) was to no avail. 
Again, this demonstrates that consensus reports like the IPCC and EPA 
can be resistant to dissenting scientific information in a science that 
is already murky. In this last case, not only were policymakers misled 
by the EPA's consensus document, but the promised expensive regulations 
that are to follow must be viewed as being based, at least in part, on 
misleading or flawed information. This situation occurs when an 
institution follows a process that accords authors with veto-oversight 
of scientific information, who hold one type of perspective, and who 
are given total control over the output in a field plagued by 
uncertainty.
    There are other examples of the shortcomings of the assessment 
process (see for example, McKitrick's Appendix B.2 and my Appendix C.1, 
C.2 and C.3b), but these above are sufficient to show the problems with 
the process of generating consensus documents.
    Before providing concluding remarks I will briefly address an issue 
requested by the committee regarding surface temperature datasets.

2.  Temperature data sets

    I have built temperature data sets for climate studies from 
satellite microwave sensors, balloon soundings, and traditional surface 
thermometers. My research as well as my experience as State 
Climatologist exposed me to problems with traditional surface 
measurements and led me to establish a new network of stations in 
Alabama with high quality, modernized instrumentation. However, these 
older stations provide the bulk of the measurements that are the basis 
of the popular surface temperature datasets today. My studies (and many 
others) have shown that popular land-surface temperature measurements 
are affected by many influences, most of them causing warming, which 
are unrelated to greenhouse gas increases (Christy 2002, Christy et al. 
2006.) This is especially true for the daily low temperature which is 
utilized in the popular surface temperature datasets today (Christy et 
al. 2006, 2009.) As a result, these measurements, as used, are not 
adequate to detect what might be happening to the global climate as a 
result of greenhouse gas increases. (This is also related to the 
contamination issue raised by McKitrick described above and in my 
Appendix C.3.2.)
    Two of the major problems with the traditional datasets today are 
determining the provenance of the raw data and reproducing the 
methodology that created the processed temperature products used in 
assessments. In the past, raw data were often held close to the 
product-producer and so results were difficult to independently 
investigate. ``Just trust me'' seemed to be the basis for acceptance by 
the IPCC.
    There is an effort underway to create a data bank for surface 
temperatures that will be open and transparent, with the capability to 
trace the data to the original sources. From a data bank that is this 
comprehensive, many useful applications can be created (addressing not 
just climate change) with the full traceability of the product--from 
its original measurement with site photographs, to the final 
adjustments. In this way, for example, methods designed to deal with 
the contamination issues described above can be better studied and 
addressed by the community. Much of the effort of this project is led 
out of the National Climatic Data Center in Asheville NC.
    Bulk atmospheric temperatures measured by satellites and balloons, 
from the surface to 35,000 ft., form a more robust parameter than 
surface measurements for detecting changes that might be caused by the 
enhanced greenhouse effect. These temperatures are also affected by 
transient events, like volcanoes, that tend to confuse the detection of 
what these extra greenhouse gases are doing to the climate. As 
described in my recent testimony, when these extraneous features are 
removed from the global bulk atmospheric temperatures, we find a rising 
temperature trend since 1979 that is significantly lower than what is 
being predicted from climate models as they try to quantify the effect 
of those greenhouse gases. To me, this demonstrates that the real 
atmosphere is not as sensitive to greenhouse gases as the climate 
models suggest.

3.  Concluding remarks

    While there are many examples of problems with the process of 
producing climate change assessments, I am not suggesting everything in 
these assessments is wrong. The point I raise here is that the process 
by which these assessments were created, whether intended or not, did 
not provide an expression of the full range of scientific information 
(and in some cases provided incorrect information) for some key 
conclusions. These conclusions were then adopted without question by 
regulatory authorities such as the U.S. EPA. These suspect conclusions 
include but are not limited to, (a) the notion that the popular surface 
temperature datasets can serve is a detection variable of the impact of 
enhanced greenhouse-gas concentrations (and that it is accurately 
measured), (b) the belief that climate models have precisely replicated 
natural, unforced variability (so natural variations can be ruled out 
as the cause for changes that occur), and (c) an overconfident view of 
how sensitive the climate is to human forcing.
    With the IPCC process to date, we see Lead Authors sitting in 
judgment of information regarding their very own scientific results and 
those of their critics. This creates an unhealthy conflict-of-interest 
situation that unfortunately shortchanges the policymakers. To make 
well-informed decisions, policymakers depend on receiving the full 
range of scientific thought and evidence on any issue, especially one 
as contentious, murky, and as potentially expensive as climate change. 
The committee should understand that the IPCC presents one version of 
climate change science generated by an establishment that has evolved 
to largely reflect a particular point of view. As shown above, this 
point of view attempts to dismiss information that questions the belief 
that greenhouse gases are the dominant cause of observed climate change 
(as represented mainly by a rather poor surface temperature data set) 
with little effort expended on (a) other explanations for change such 
as natural, unforced variability, (b) a critical assessment of the 
climate change variables utilized (including paleoclimate) or (c) a 
rigorous assessment of model sensitivity and fidelity to observations.
    In my IAC testimony (Appendix A), I indicated that the climate 
``establishment'' is so entrenched now, that our science is in need of 
``adult supervision.'' If a new and independent report is called for, 
one idea is to use a leadership team composed of non-activists that 
includes, (a) physicists who understand that science advances by 
testing falsifiable hypotheses (and not by accepting popularized, 
untestable sentiments), (b) research engineers who understand what's 
important to the issue at hand and (c) attorneys who understand the 
meaning of language, admissible evidence, and the legal process of 
discovery (transparency). With, hopefully, such objective eyes 
overseeing the process, the result may be much more humble and honest--
revealing the lack of confidence and understanding we have on most 
climate issues, the lack of dramatic events attributable to humans now 
occurring in the climate, and the resilience of the Earth to human 
inputs.

References

    Allen, R.J. and S.C. Sherwood. Warming maximum in the tropical 
upper troposphere deduced from thermal winds. Nature Geoscience. 2008. 
Published online 25 May 2008: doi: 10.1038/ngeo208.

    Christy, J.R., B. Herman, R. Pielke, Sr., P. Klotzbach, R.T. 
McNider, J.J. Hnilo, R.W. Spencer, T. Chase and D. Douglass, 2010: What 
do observational datasets say about modeled tropospheric temperature 
trends since 1979? Remote Sens. 2, 2138-2169. Doi:10.3390/rs2092148.

    Christy, J.R., W.B. Norris and R.T. McNider, 2009: Surface 
temperature variations in East Africa and possible causes. J. Clim. 22, 
DOI: 10.1175/2008JCLI2726.1.

    Christy, J.R., W.B. Norris, R.W. Spencer, and J.J. Hnilo, 2007: 
Tropospheric temperature change since 1979 from tropical radiosonde and 
satellite measurements, J. Geophys. Res., 112, D06102, doi:10.1029/
2005JD006881.

    Curry, J. 2011: Reasoning about climate uncertainty. Climatic 
Change, submitted. (see draft: http://judithcurry.com/2011/03/24/
reasoning-about-climate-uncertainty-draft/#more-2743).

    Dahl-Jensen, D., K. Mosegaard, N. Gundestrup, G.D. Clow, S.J. 
Johnsen, A.W. Hansen and N. Balling, 1998: Past temperatures directly 
from the Greenland ice sheet. Science, 282, 268-271.

    De Laat, A.T.J. and A.N. Maurellis, 2004: Industrial CO2 emissions 
as a proxy for anthropogenic influence on lower tropospheric 
temperature trends. Geophys. Res. Lett., 31, L05204, doi:1029/
2003GL019024.

    De Laat, A.T.J. and A.N. Maurellis, 2006: Evidence for influence of 
anthropogenic surface processes on lower tropospheric and surface 
temperature trends. Int. J. Climatol., 26, 897-913.

    Douglass, D.H., J.R. Christy, B.D. Pearson and S.F. Singer, 2007: A 
comparison of tropical temperature trends with model predictions. 
International J. Climatology, DOI: 10.1002/joc.1651.

    IAC 2010: Interacademy Council Review of the IPCC. http://
reviewipcc.interacademycouncil.net/report.html.

    Klotzbach, P.J., R.A. Pielke Sr., R.A. Pielke Jr., J.R. Christy, 
and R.T. McNider (2009), An alternative explanation for differential 
temperature trends at the surface and in the lower troposphere, J. 
Geophys. Res., 114, D21102, doi:10.1029/2009JD011841.

    McKitrick, R., 2011: Atmospheric oscillations do not explain the 
temperature-industrialization correlation. Statistics, Politics and 
Policy, Vol 1, No. 1, July 2010.

    McKitrick, R.R., S. McIntyre and C. Herman, 2010: Panel and 
multivariate methods for tests of trend equivalence in climate data 
sets. Atmos. Sci. Lett., doi:10.1002/asl.290.

    McKitrick, R.R. and P.J. Michaels, 2004: A test of corrections for 
extraneous signals in gridded surface temperature data. Clim. Res., 
26(2), 15-173, Erratum, Clim. Res. 27(3), 265-268.

    NRC 2006: Surface temperature reconstructions for the last 2,000 
years. National Academies Press, Washington DC, www.nap.edu. 155pp.

    Sakamoto, M. and J.R. Christy, 2009: The influences of TOVS 
radiance assimilation on temperature and moisture tendencies in JRA-25 
and ERA-40. J. Atmos. Oc. Tech., doi:10.1175/2009JTECHA1193.1.

    Santer, B.D., P.W. Thorne, L. Haimberger, et al. Consistency of 
modeled and observed temperature trends in the tropical troposphere. 
Int. J. Climatol. 2008. DOI:1002/joc.1756.

    Wegman, E.J., D.W. Scott and Y.H. Said, 2006: Ad hoc committee 
report on the `Hockey Stick' global climate reconstruction. 
www.uoguelph.ca/rmckitri/research/WegmanReport.pdf.
[GRAPHIC] [TIFF OMITTED] 65306.281

[GRAPHIC] [TIFF OMITTED] 65306.282

[GRAPHIC] [TIFF OMITTED] 65306.283

[GRAPHIC] [TIFF OMITTED] 65306.284

[GRAPHIC] [TIFF OMITTED] 65306.285

[GRAPHIC] [TIFF OMITTED] 65306.286

[GRAPHIC] [TIFF OMITTED] 65306.287

[GRAPHIC] [TIFF OMITTED] 65306.288

[GRAPHIC] [TIFF OMITTED] 65306.289

[GRAPHIC] [TIFF OMITTED] 65306.290

[GRAPHIC] [TIFF OMITTED] 65306.291

[GRAPHIC] [TIFF OMITTED] 65306.292

[GRAPHIC] [TIFF OMITTED] 65306.293

[GRAPHIC] [TIFF OMITTED] 65306.294

[GRAPHIC] [TIFF OMITTED] 65306.295

[GRAPHIC] [TIFF OMITTED] 65306.296

[GRAPHIC] [TIFF OMITTED] 65306.297

[GRAPHIC] [TIFF OMITTED] 65306.298

[GRAPHIC] [TIFF OMITTED] 65306.299

[GRAPHIC] [TIFF OMITTED] 65306.300

[GRAPHIC] [TIFF OMITTED] 65306.301

[GRAPHIC] [TIFF OMITTED] 65306.302

[GRAPHIC] [TIFF OMITTED] 65306.303

[GRAPHIC] [TIFF OMITTED] 65306.304

[GRAPHIC] [TIFF OMITTED] 65306.305

[GRAPHIC] [TIFF OMITTED] 65306.306

    Chairman Hall. I thank you very much, and let us assume the 
testimony that has been withheld until the liberal press hadn't 
reported it. I am going to be watching how they report your 
testimony. I thank you very much, sir.
    At this time, I recognize Dr. Peter Glaser, a partner at 
Troutman Sanders for five minutes to present his testimony, and 
I thank you, Dr. Christy, for staying within the five minutes.

            STATEMENT OF MR. PETER GLASER, PARTNER,

                     TROUTMAN SANDERS, LLP

    Dr. Glaser. Thank you, Chairman Hall, Ranking Member 
Johnson, for the opportunity to appear today. My name is Peter 
Glaser. I am not a doctor. I am a partner with the law firm of 
Troutman Sanders.
    Let me emphasize at the outset that I am not appearing 
before this Subcommittee on behalf of any of my clients. The 
views I present here are my own and do not necessarily 
represent those of my clients, and I am not being compensated 
by them for this testimony.
    I have been asked to comment on the process EPA used to 
prepare its greenhouse gas endangerment finding, and that 
process suffered from a number of flaws in my opinion that 
undermine confidence in the substantive conclusions reached in 
that finding. These flaws are identified at more length in my 
written testimony, and I will provide a brief summary here.
    In the first place, EPA did not consider the societal 
health and welfare benefits created by the energy sources that 
produce greenhouse gas emissions. The EPA's decision to limit 
its analysis in this fashion caused it to miss an obvious fact 
and that is that over the last century as anthropogenic 
greenhouse gas emissions have increased and in EPA's view, the 
public health and welfare danger from these emissions has 
accelerated, every relevant indicator of public health and 
welfare has improved dramatically around the world, rather than 
deteriorated.
    Moreover, EPA pre-judged the principal issue on which the 
public was asked to comment when EPA proposed the endangerment 
finding which was whether anthropogenic greenhouse gas emitted 
from new light-duty motor vehicles may reasonably be 
anticipated to endanger public health or welfare. Even before 
the comment period began, EPA had already made up its mind that 
it would issue the proposed finding, and indeed the President 
had already agreed to the motor vehicle greenhouse gas 
regulations for which the endangerment finding was the 
necessary predicate.
    Other process flaws include the Administrator's failure to 
exercise independent judgment in determining the endangerment 
question. Instead, as the Administrator conceded, she relied 
almost exclusively on what she referred to as third-party 
assessment literature. In particular, on the critical question 
of whether anthropogenic greenhouse gas emissions are causing 
deleterious climate change, the Administrator relied most 
heavily on the work of the Intergovernmental Panel on Climate 
Change, or the IPCC.
    The failure by her to exercise her own judgment is a 
violation in my view of the statutory provision under which the 
endangerment finding was made.
    The endangerment finding also violated various provisions 
of the Information Quality Act, or the IQA and EPA's own IQA 
guidelines. For instance, EPA's IQA guidelines require to 
ensure the quality, integrity and transparency of information 
on which EPA relies for scientific reports. Despite relying so 
heavily on the IPCC, however, EPA never examined the quality, 
integrity and transparency of the data and studies on which the 
IPCC itself relied. EPA decided instead that it could satisfy 
its IQA obligations as to the IPCC material by examining the 
IPCC's own information quality standards and procedures. EPA's 
rationale, however, does not pass muster on the IQA, but in any 
event, that rationale was undermined by the so-called 
Climategate revelations.
    Climategate showed that either EPA's investigation of the 
IPCC's procedures was wanting or the IPCC had departed from 
those procedures. Either way, given the Climategate material, 
EPA should have at least afforded the public an opportunity to 
comment on whether EPA's reliance on the IPCC was justified in 
light of this new information, but EPA refused to do so. And 
the Climategate issue is discussed in more detail in a petition 
that is attached to my written testimony and is in the public 
record in the EPA docket.
    My testimony addresses a number of other process flaws and 
contrasts the abbreviated and expedited endangerment finding 
proceeding with the measured and methodical process that EPA 
uses to develop national ambient air quality standards, a 
process that unlike the GHG endangerment finding process 
involves numerous opportunities for public comment on 
successive draft scientific and policy assessments.
    I appreciate the opportunity to provide my testimony to you 
today, and I look forward to questions. Thank you.
    [The prepared statement of Mr. Glaser follows:]
 Prepared statement of Mr. Peter Glaser, Partner, Troutman Sanders, LLP
Analytical and Process Flaws in EPA's Greenhouse Gas Endangerment 
Finding

    INTRODUCTION

    My testimony \1\ addresses analytical and process flaws in the 
finding of the U.S. Environmental Protection Agency (EPA or the Agency) 
that anthropogenic emissions of greenhouse gases (GHGs) ``may 
reasonably be anticipated to endanger the public health and welfare'' 
within the meaning of Section 202(a) of the Clean Air Act (CAA). \2\ 
This finding is commonly referred to as the Endangerment Finding.
---------------------------------------------------------------------------
    \1\  Although I represent clients in the case now pending before 
the United States Court of Appeals for the D.C. Circuit in which the 
Endangerment Finding is on appeal, Coalition for Responsible Regulation 
v. EPA, No. 09-1322, I am not appearing before this subcommittee on 
behalf of those or any other clients. The views I present here are my 
own and do not necessarily represent those of my clients, and I am not 
being compensated by them for this testimony.
    \2\  Endangerment and Cause or Contribute Findings for Greenhouse 
Gases under Section 202(a) of the Clean Air Act published at 74 Fed. 
Reg. 66,496 (Dec. 15, 2009).
---------------------------------------------------------------------------
    In my view, EPA failed to observe basic requirements set forth in 
applicable law as to how a regulatory determination such as the 
Endangerment Finding should be made. These flaws are not technical. 
They go to the fundamental fairness and transparency of the way EPA 
arrived at its Endangerment Finding and the quality of the information 
on which EPA relied. The procedures EPA failed to observe are designed 
to ensure the integrity both of the decision-making process and the 
ultimate result an agency reaches. EPA's failure to observe these basic 
requirements therefore undermines confidence in the substantive 
scientific conclusions in the Endangerment Finding.
    One particular analytical flaw in the Endangerment Finding stands 
out, which is that EPA only examined the danger to public health and 
welfare from GHGs emissions as they accumulate in the atmosphere and 
did not examine the danger to public health and welfare that would 
occur if society did not emit GHGs. As I discuss, EPA's one-sided 
analytical approach caused the Agency to miss an obvious fact--that 
over the last century, as anthropogenic greenhouse emissions have 
increased, every relevant indicator of public health and welfare has 
improved dramatically rather than deteriorated. A new report by the 
Centers for Disease Control (CDC) finds that the U.S. death rate 
(number of deaths per 100,000 population) fell for the tenth straight 
year and is now at an all-time low, continuing a decade-over-decade 
pattern of improved mortality rates over the 20th century. \3\
---------------------------------------------------------------------------
    \3\  CDC, Deaths: Preliminary Data for 2009 (March 16, 2011).
---------------------------------------------------------------------------
    This relationship between increasing GHG emissions and improved 
public health and welfare is not an accident. As I will discuss, the 
direct cause of both the increased emissions and the improvements in 
health and welfare is society's use of energy, particularly 
electricity, which has inevitably produced GHGs. A complete analysis of 
whether society's emissions of GHGs endanger public health and welfare, 
as EPA should have conducted, would include not only whether the 
accumulation of anthropogenic GHGs in the atmosphere may be causing 
deleterious climate change but also whether the processes that produce 
those GHGs produce countervailing public health and welfare benefits.
    My testimony is divided into two sections. I first discuss EPA's 
one-sided analytical approach in more depth. I then describe the 
process EPA used to formulate the Endangerment Finding and discuss how 
that process violated fundamental obligations EPA has under the 
Administrative Procedure Act, the rulemaking provisions of the CAA, the 
Information Quality Act, and other applicable authority. I further 
contrast the highly expedited and abbreviated Endangerment Finding 
process with the much more deliberative and open process that EPA uses 
when it formulates a National Ambient Air Quality Standard (NAAQS).

    DISCUSSION

    I. One-Sided Analytical Approach

    The question that the Endangerment Finding attempts to answer is 
whether society's emission of GHGs endangers the public health or 
welfare. But EPA's answer only addresses one side of that question--the 
effect of the emissions on health and welfare once they enter the 
atmosphere. There is another side of the question, however--the effect 
on public health and welfare of the activity that produces those 
emissions.
    Obviously, the emission of GHGs does not occur in a vacuum. GHGs 
are emitted across the economy for many reasons, the principal of which 
is that various residential, commercial and industrial processes 
utilize fossil fuels for energy and because C0<INF>2</INF>, the most 
ubiquitous GHG, is the inevitable byproduct of combusting such fuels. 
These processes produce fundamental health and welfare benefits without 
which modern life would be impossible. As stated above, a new report by 
the Centers for Disease Control (CDC) finds that the U.S. death rate 
(number of deaths per 100,000 population) fell for the ``10th straight 
year'' and is now at ``a record low.'' \4\ The chief reason is a 
decline in mortality rates related to heart disease, stroke, malignant 
tumors, Alzheimer's disease, diabetes, pneumonia/influenza, and other 
illnesses. As the CDC report and related publications clearly show, 
U.S. death rates have declined, decade by decade, since 1900, even as 
GHG emissions have increased.
---------------------------------------------------------------------------
    \4\  CDC, Deaths: Preliminary Data for 2009 at 5.
---------------------------------------------------------------------------
    This relationship between increasing GHG emissions and improved 
public health and welfare is not an accident. The direct cause of both 
the increased emissions and the improvements in health and welfare is 
society's use of energy, particularly electricity, as has been shown by 
a variety of publications. As the National Academy of Engineers noted 
in 2000 in naming electrification as the number one engineering 
achievement of the 20th century:

        One hundred years ago, life was a constant struggle against 
        disease, pollution, deforestation, treacherous working 
        conditions, and enormous cultural divides unbreachable with 
        current communications technologies. By the end of the 20th 
        century, the world had become a healthier, safer, and more 
        productive place, primarily because of engineering 
        achievements. \5\
---------------------------------------------------------------------------
    \5\  http://www .nationalacademies.org/greatachievements/
Feb22Release.PDF.

    EPA's decision to limit its analysis to the perceived detrimental 
impact of emissions after they enter the atmosphere--as opposed to the 
positive impacts of the processes that create the emissions--is based 
on EPA's overly narrow interpretation of its mandate under Section 
202(a) (and in other endangerment finding provisions in other parts of 
the CAA) and the intent of these provisions. Logically, when EPA 
assesses whether the emission of GHGs endanger public health and 
welfare, EPA must assess the dangers and benefits on both sides of the 
point where the emissions occur: in the atmosphere where the emissions 
lodge and, on the other side of the emitting stack or structure, in the 
processes that create the emissions. Otherwise, EPA will not be able to 
accurately assess whether the fact that society emits GHGs is a benefit 
or a detriment.
    Without belaboring EPA's legal interpretation of its 
responsibilities here, I would simply note that a full analysis of the 
dangers to the public health and welfare posed both by emitting GHGs 
and not emitting GHGs makes sense from a policy perspective. And EPA 
admitted that policy played a role in its Endangerment Finding. As EPA 
stated:

        [t]hroughout this Notice the judgments on endangerment and 
        cause or contribute are described as a finding or findings. 
        This is for ease of reference and is not intended to imply that 
        the Administrator's exercise of judgment in applying the 
        scientific information to the statutory criteria is solely a 
        factual finding; while grounded squarely in the science of 
        climate change, these judgments also embody policy 
        considerations. \6\
---------------------------------------------------------------------------
    \6\  Endangerment Finding, 74 Fed. Reg. at 18,892, n.10 (emphasis 
supplied).

    The necessity for exercising policy judgment in acting in a 
precautionary fashion reflects the fact that determining the proper 
quantum of precaution in a particular case requires a balancing of 
risks and benefits in a broad sense. Obviously, over-caution creates 
its own health and welfare risks. As Justice Breyer stated in his 
concurring opinion in Whitman v. Am. Trucking Ass'ns, 531 U.S. 457, 
495-496 (2001) (Breyer, concurring), ``a world that is free of all 
risk--[would be] an impossible and undesirable objective.'' And as the 
Endangerment Finding Proposal preamble states, the purpose of such a 
finding is to review ``the totality of the circumstances'' to determine 
``whether the emissions `justify regulation' under the CAA.'' \7\
---------------------------------------------------------------------------
    \7\  Id. at 18,892/3 (emphasis supplied).
---------------------------------------------------------------------------
    If, as EPA says, the basic purpose of the Endangerment Finding is 
to assess all risks and benefits of emissions in order to arrive at a 
policy judgment of the proper amount of precaution that justifies 
regulation in a particular case, that purpose cannot be fulfilled if 
EPA only looks at the atmospheric impacts of emissions, and ignores the 
health and welfare reasons why the emissions occur in the first place. 
Without a full view of the balance of health and welfare factors that 
relate to emissions, EPA could find that society would be better off 
without GHG emissions, when a balanced analysis might yield the 
opposite conclusion.
    The GHG regulation that EPA has already undertaken and further GHG 
regulation that EPA is likely to undertake in the future provides a 
particularly compelling illustration of the need for a balanced 
approach in assessing possible endangerment. As the regulatory preamble 
to the Endangerment Finding proposal stated, in somewhat of an 
understatement, ``[t]he Administrator recognizes that the context for 
this action is unique.'' \8\ As the IPCC has noted, ``[e]missions of 
GHGs are associated with an extraordinary array of human activities.'' 
\9\ Eighty-five percent of energy in the United States is derived from 
the combustion of fossil fuel. As a result, according to EPA, 
``[v]irtually every sector of the U.S. economy is either directly or 
indirectly a source of GHG emissions.'' \10\
---------------------------------------------------------------------------
    \8\  Id. at 18,890/3.
    \9\  IPCC, Climate Change 2001: Mitigation (``IPCC 2001''), at 608, 
available at http://www.ipcc.ch/.
    \10\  Proposed Consent Decree, Clean Air Act Citizens Suit, 68 Fed. 
Reg. 52,922, 52,928 (Sep. 8,2003).
---------------------------------------------------------------------------
    Because GHG emissions, particularly CO<INF>2</INF> emissions, are 
so closely tied with all facets of modern life, a finding that GHG 
emissions endanger public health and welfare is akin to saying that 
modern life endangers public health or welfare. That may be true in 
some sense, but the necessary rejoinder is: compared to what? Certainly 
not as compared with pre-industrial society with pre-industrial levels 
ofatmospheric GHG concentrations. To again quote Justice Breyer's 
concurring opinion in Am. Trucking Ass'ns, ``[p]reindustrial society 
was not a very healthy society; hence a standard demanding the return 
of the Stone Age would not prove `requisite to protect the public 
health.''' \11\ Thus, although EPA would presumably conclude that pre-
industrial society would not pose a health and welfare danger in terms 
of GHG emissions, the lack of industrial activity that causes GHG 
emissions would pose other, almost certainly more serious health and 
welfare consequences.
---------------------------------------------------------------------------
    \11\  531 U.S. at 496.
---------------------------------------------------------------------------
    Finally, the broader assessment of health and welfare impacts that 
I discuss here does not mean that EPA is without power to conduct a 
full assessment of the health and welfare impacts caused by potential 
climate change. To the contrary, such an assessment is a fundamental 
part of endangerment analysis. Nor do I maintain that, on balance, EPA 
could not find that GHG emissions endanger the public health or 
welfare. EPA, for instance, might find that the risks of what EPA might 
see as potentially catastrophic climate change outweigh the benefits 
accruing from energy production and other processes that result in the 
emission of GHGs. Or EPA might find that the risks to society of 
unabated GHG emissions outweigh the risks to society of some level of 
abated GHG emissions.
    But what EPA cannot do is to ignore the public health and welfare 
benefits that cause society to emit GHGs--to, in effect, pretend that a 
possible scenario exists where GHGs are not emitted at all and modern 
life continues. Such a scenario does not exist, and to assume that it 
does is to ignore the purpose for which EPA is called on to assess 
endangerment, which is to duly protect society against real-world risk.

    II. Process Flaws

A. Process that Led to Endangerment Finding

    Proposed Endangerment Finding

    When the current Administration took office in January 2009, it 
brought with it a firm conviction that a scientific consensus existed 
that anthropogenic GHG emissions were the cause of significant 
deleterious global climate change and that continued emissions would 
make the situation far worse. A central plank of President Obama's 
campaign position on energy and environmental issues was the need to 
reduce GHG emissions by 80 percent by 2050. \12\ And considerable 
frustration was felt over what was believed to be the Bush 
Administration's failure to pursue GHG regulation under the CAA 
following the Supreme Court's decision in Massachusetts v. EPA, 549 
U.S. 497 (2007). Indeed, Carol A. Browner, who would become director of 
the White House Office of Energy and Climate Change Policy, testified 
in hearings immediately following the Court decision that EPA should 
begin regulating GHG emissions from motor vehicles and powerplants at 
once and that ``climate change is real, it is caused by human 
activities, it is rapidly getting worse, and it will transform both our 
planet and humanity if action is not taken now.'' \13\
---------------------------------------------------------------------------
    \12\  http://my.barackobama.com/page/content/newenergy_more.
    \13\  Testimony of Carol A. Browner in hearings before the Senate 
Environment and Public Works Committee (Apr. 27, 2007).
---------------------------------------------------------------------------
    The new Administration did not wait long before taking action. In 
one of her first acts, EPA Administrator Lisa P. Jackson issued a 
January 23, 2009 ``Opening Memo to EPA employees'' discussing her 
overall views on environmental regulation that set forth ``five 
priorities that will receive my personal attention.'' Her first 
priority was ``[r]educing greenhouse gas emissions,'' including through 
regulation under the CAA:

        The President has pledged to make responding to the threat of 
        climate change a high priority of his administration. He is 
        confident that we can transition to a low-carbon economy while 
        creating jobs and making the investment we need to emerge from 
        the current recession and create a strong foundation for future 
        growth. I share this vision. EPA will stand ready to help 
        Congress craft strong, science-based climate legislation that 
        fulfills the vision of the President. As Congress does its 
        work, we will move ahead to comply with the Supreme Court's 
        decision recognizing EPA's obligation to address climate change 
        under the Clean Air Act. \14\
---------------------------------------------------------------------------
    \14\  (Emphasis supplied.) The memorandum can be found at http://
blog.epa.gov/administrator/2009/01/26/opening-memo-to-epa-employees/.

    Consistent with this view, EPA proposed the Endangerment Finding on 
April 17, 2009, less than three months after the Administration took 
office. Although the proposed Endangerment Finding was ostensibly 
issued as a formal rulemaking document on which public comment was 
sought on all issues, including whether the Administration should make 
the Endangerment Finding at all, there was little doubt that the 
Administrator had already pre-judged that issue. Apart from her 
previous public statements on climate science and those of others 
senior to her in the Administration, the President announced in May 
2009, just one month after the proposed Endangerment Finding was 
published in the Federal Register and before the comment period even 
closed, that he had committed EPA to issuing motor vehicle GHG 
regulations that were premised on EPA making the Endangerment Finding. 
\15\ The President's announcement was based on an agreement that 
resulted from private negotiations among the Administration, 
automakers, environmental parties, and representatives of the State of 
California, and these negotiations had commenced before EPA had even 
proposed the Endangerment Finding.
---------------------------------------------------------------------------
    \15\  President Obama Announces New Fuel Efficiency Policy, http://
www.whitehouse.gov/the_press--office/President-Obama-Announces-
National-Fuel-Efficiency-Policy/.
---------------------------------------------------------------------------
    Despite the Administration's commitment to unparalleled 
transparency in Agency decision-making--the Administrator had issued an 
April 23, 2009 memorandum on ``Transparency in EPA's Operations'' that 
promised that EPA would operate ``in a fishbowl'' and declared that 
``[i]t is crucial that we apply the principles of transparency and 
openness to the rulemaking process''--no public record of these 
negotiations exist. Press reports, including in The New York Times, 
quoted the senior California representative in the negotiations as 
saying that she and Carol Browner, who coordinated the negotiations, 
specifically required that no written records of the negotiations be 
kept by any party. \16\
---------------------------------------------------------------------------
    \16\  Colin Sullivan, Vow of Silence Key to White Hause-Calif. Fuel 
Economy Talks, THE NEW YORK TIMES, May 20, 2009.
---------------------------------------------------------------------------
    The agreement provided for imposition of GHG standards for model 
year 2012 automobiles and light duty trucks. In order to provide the 
automakers sufficient lead time to comply with the new standards, EPA 
needed to propose and then finalize the standards by the Spring of 
2010. (It was also decided to coordinate the EPA GHG standards with 
Corporate Average Fuel Economy (CAFE) standards to be issued by the 
National Highway Traffic Safety Administration (NHTSA), and NHTSA is 
statutorily obligated to provide certain defined advance notice of new 
CAFE standards.) Given the agreement to put these new standards in 
place by model year 2012, there was now no doubt that the Endangerment 
Finding. without which the EPA standards could not be promulgated, 
would need to be issued soon.

    Final Endangerment Finding and the Administrator's Failure to 
Exercise Her Own Judgment

    The final Endangerment Finding was issued on December 7, 2009 and 
published in the Federal Register shortly thereafter. Despite the 
requirement of Section 202(a) that the Administrator exercise her own 
judgment as to whether GHGs endanger public health and welfare, the 
Endangerment Finding was not the product of the Administrator's or her 
Agency's independent review of climate science. Instead, as the 
Administrator readily conceded, the Endangerment Finding was based 
almost exclusively on reports produced by third parties summarizing 
their views of global climate change science, reports that the 
Endangerment Finding referred to as ``assessment literature.'' \17\ As 
the Endangerment Finding stated, `` . . . the Administrator is relying 
on the major assessments of the USGCRP, the IPCC, and the NRC as the 
primary scientific and technical basis of her endangerment decision.'' 
\18\ The Administrator's statement of her primary reliance on these 
reports is repeated throughout the Endangerment Finding, the Technical 
Support Document (TSD) (which was the detailed document prepared by EPA 
in connection with the Endangerment Finding that discussed climate 
science), and the document EPA prepared to respond to rulemaking 
comments (the Response to Public Comments). For instance, the TSD 
stated that it ``relies most heavily'' on this ``assessment 
literature.'' \19\ The Response to Comments stated:
---------------------------------------------------------------------------
    \17\  See, e.g, Endangennent Finding, 74 Fed. Reg. at 66,498/2.
    \18\  Endangerment Finding, 74 Fed. Reg. at 66,510. The USGCRP 
refers to the United States Global Change Research Program. USGCRP 
subsumed the work of the U.S. Climate Change Science Program (``CCSP 
''), which had previously coordinated such research. As ofJanuary 16, 
2009, the CCSP had produced 21 synthesis and assessment reports (``SAPs 
''), and these reports, along with the IPCC reports, became the 
principal basis for the June USGCRP report GLOBAL CLIMATE CHANGE 
IMPACTS IN THE UNITED STATES. The IPCC is a body that was established 
by the United Nations Environment Programme and the World Meteorlogical 
Organization to ``provide the world with a clear scientific view on the 
current state of climate change and its potential environmental and 
socio-economic consequences.'' Among other things, the IPCC releases 
Assessment Reports. The NRC is National Research Council.
    \19\  TSD at 4.

        The endangerment analysis for greenhouse gases under the CAA 
        requires that EPA examine the extent to which the GHGs 
        constitute the air pollution that may be reasonably anticipated 
        to endanger public health or welfare . . . The Findings discuss 
        in detail the information that is relevant to the determination 
        and how the Administrator has interpreted it in deciding 
        whether the air pollution is reasonably anticipated to endanger 
        public health or welfare. The scientific literature as 
        synthesized in the TSD provides exactly the kind of information 
        that can help inform these issues. For example, the TSD 
        summarizes the conclusions of the assessment reports with 
        respect to: 1) current emissions of GHG emissions; 2) how these 
        emissions are changing the composition of the atmosphere; 3) 
        how such changes in the atmosphere are affecting the global and 
        regional climate; and 4) the potential impacts of such changes 
        in climate on human health and welfare, for current and future 
        generations. In its scope and quality, the assessment 
        literature is relevant and appropriate for addressing the 
        scientific issues under the CAA. \20\
---------------------------------------------------------------------------
    \20\  Endangerment Finding Response to Public Comments, VoL 1 at 5 
(emphasis supplied.)

---------------------------------------------------------------------------
    Similarly, EPA stated that:

        EPA disagrees that review of the scientific and technical 
        information contained in the TSD was inadequate. EPA did not 
        develop new science as part of this action and instead 
        summarized the existing peer-reviewed assessment literature. 
        \21\
---------------------------------------------------------------------------
    \21\  Id. at 7 (emphasis supplied).

    Importantly, although EPA says it relied on reports of the USGCRP, 
the IPCC, and the NRC, EPA relied almost exclusively on the work of the 
IPCC on the critical ``attribution'' issue: whether changes to the 
climate system that EPA says are occurring and will accelerate in the 
future can be attributed to anthropogenic GHG emissions and not natural 
forces. Most of the TSD examines observed and projected climate and the 
effect on public health and welfare. Only eight pages of the TSD are 
devoted to the attribution issue. \22\ I count 67 citations in this 
section, with 47 to the IPCC. All the graphics in this section are 
taken from the IPCC, as is the introduction. Plainly, the principal 
authority for EPA's central conclusion that anthropogenic GHG emissions 
are causing deleterious climate change is the IPCC.
---------------------------------------------------------------------------
    \22\  TSD at 47-54.

---------------------------------------------------------------------------
    Limited Comment Period

    EPA allowed only a sixty-day comment period on the Endangerment 
Finding, a period that was not sufficient to address the vast volume of 
material cited in the ``assessment literature'' on which EPA was 
relying--as well as the voluminous material that such literature 
ignored or which had been published after the ``assessment literature'' 
itself was published. Nevertheless, given the time pressure to make the 
Endangerment Finding that resulted from the Administration's agreement 
to promulgate GHG standards for model year 2012, requests to EPA to 
extend the sixty-day comment deadline were denied.
    EPA's publicly-stated rationale for denying requests for more time 
to comment on the proposed Endangerment Finding is interesting because 
it amounts to a further admission that the Administrator did not 
exercise her own judgment in making that finding and instead relied on 
the ``assessment literature.'' She said that:

        the major scientific assessments that the EPA relied upon in 
        the TSD released with the ANPR had previously each gone through 
        their own public review processes and have been publicly 
        available for some time. In other words, EPA has provided ample 
        time for review, particularly with regard to the technical 
        support for the Findings. \23\
---------------------------------------------------------------------------
    \23\  Endangerment Finding, 74 Fed. Reg. at 66,503.

    Thus, according to EPA, the ability of the public to comment on the 
``assessment literature'' during the processes in which that literature 
was developed guided EPA's decision in determining how much time the 
public should be given to comment on the proposed Endangerment Finding. 
\24\ EPA's logic makes sense only if one accepts that the Administrator 
has authority to essentially delegate her obligation to exercise her 
own judgment to third party institutions and that comments to these 
third party institutions as they exercise their judgment are tantamount 
to comments to EPA. But Section 202(a) does not permit the 
Administrator to delegate her obligation to exercise judgment to third 
parties, and the public has a right to comment on her exercise of 
judgment to EPA.
---------------------------------------------------------------------------
    \24\  In denying the extension requests, EPA also said that it had 
provided a 120-day comment period in the Advance Notice of Proposed 
Rulemaking (``ANPR '') regarding potential GHG regulation (Advance 
Notice of Proposed Rulemaking: Regulating Greenhouse Gas Emissions 
under the Clean Air Act, 73 Fed. Reg. 44,353 (JuL 30, 2008) (ANPR). The 
ANPR, however, did not contain any proposed Endangerment Finding or 
indeed any meaningful discussion of conclusions that might be drawn 
from the draft TSD that was included with the ANPR. Moreover, although 
the TSD in the ANPR was similar to the TSD in the proposed Endangerment 
Finding, there were important differences between the two. 
Additionally, a number of the CCSP assessment reports on which the ANPR 
TSD relied had not been through the public comment period for those 
reports and were not final at the time of the ANPR comment period. 
Thus, the 120-day conunent period on the ANPR did not provide an 
opportunity for the public to comment on these reports to EPA.

---------------------------------------------------------------------------
    Lack of Independent and Objective Peer Review

    The Administrator's near-total reliance on the third-party 
assessments is also shown in EPA's failure to provide for objective 
peer review of the Endangerment Finding. EPA's Information Quality Act 
(IQA) guidelines, \25\ which are discussed in more detail below, 
incorporate a ``Peer Review Policy'' that ``provides that major 
scientifically and technically based work products (including 
scientific, engineering, economic, or statistical documents) related to 
Agency decisions should be peer-reviewed.'' During the Endangerment 
Finding comment period, a number of commenters questioned the 
independence and objectivity of the personnel EPA selected to peer 
review the Endangerment Finding, which is plainly a major 
scientifically based work product requiring peer review under EPA's IQA 
guidelines. As these comments pointed out, all of the peer reviewers 
were government scientists and many had worked directly on the 
``assessment literature'' on which EPA relied. 1A\26\
---------------------------------------------------------------------------
    \25\  The IQA was enacted as Section 515 of the Consolidated 
Appropriations Act, 2001 (pub.L. 106-554). EPA's IQA Guidelines are 
Guidelines for Ensuring and Minimizing the Quality, Objectivity, 
Utility, and Integrity of Information Disseminated by the Environmental 
Protection Agency (Oct. 2002). http://epa.gov/quality/
informationguidelines/documents/EPA_InfoQualityGuidelines.pdf.
    \26\  See comments responded to at Endangerment Finding Response to 
Public Co1D.Irients, Vol. 1 at 7.
---------------------------------------------------------------------------
    In responding to this comment, the Administrator recognized that 
she was obligated to provide for independent peer review. She 
nevertheless maintained that her near complete reliance on the 
``assessment literature'' meant that she was justified in selecting 
peer reviewers not on the basis of their independence from EPA or the 
``assessment literature'' but on the basis of their familiarity with 
that literature. As she stated, ``[g]iven our approach to the 
scientific literature . . . the purpose of the federal expert review 
was to ensure that the TSD accurately summarized the conclusions and 
associated uncertainties from the assessment reports.'' \27\ In other 
words, it was not important to the Administrator that she receive an 
independent critique of her own Endangerment Finding; her concern was 
merely to ensure that she had accurately summarized the conclusions of 
the ``assessment literature'' on which she was relying.
---------------------------------------------------------------------------
    \27\  27 Id. at 7.

---------------------------------------------------------------------------
    Failure to Docket Information Relied On

    Another example of the Administrator's near total reliance on the 
``assessment literature'' in lieu of making her own judgment is EPA's 
failure to include in the official Endangerment Finding record the 
publications and scientific information relied on by the ``assessment 
literature.'' Docketing all of the information on which the 
Administrator relies is not a procedural formality. It is the key way 
in which the public is informed of the basis of the Agency's decision 
and therefore is a critical part of the public's ability to comment on 
the action the Agency is taking. As explained in the Administrator's 
April 23, 2009 ``Memo to EPA Employees'' cited above, EPA can only 
ensure that the principles of transparency and openness are observed in 
the rulemaking process ``if EPA clearly explains the basis for its 
decisions and the information considered by the Agency appears in the 
rulemaking record.'' (Emphasis supplied.)
    Recognizing that she was required to include in the Endangerment 
Finding record the information on which she relied, \28\ the 
Administrator nevertheless maintained that since she is ``reasonably 
relying on the major assessments of the USGCRP, IPCC, and NRC as the 
primary scientific and technical basis of her endangerment decision,'' 
she is not required to docket material that these reports themselves 
relied on. \29\ She took the position that ``[i]nformation regarding 
the underlying data, models, and studies used by the IPCC, USGCRP, 
CCSP, and NRC in developing their assessment reports can be accessed by 
consulting these reports.'' \30\ Similarly, the Administrator stated 
that she ``did not conduct new research or modeling in developing the 
TSD, and instead relied upon the findings of the assessment literature, 
including data and modeling studies presented in those reports. The 
information mentioned by the Commenter can be accessed by consulting 
these assessment reports and the underlying studies.'' \31\ She went on 
to say that ``[o]ur comprehensive referencing of the assessment 
literature ensures transparency regarding the source of the data used . 
. .'' \32\
---------------------------------------------------------------------------
    \28\  Endangerment Finding Response to Comments, Vol. 1 at 54.
    \29\  Id.
    \30\  Id.
    \31\  Id.
    \32\  Id.
---------------------------------------------------------------------------
    The Administrator's rationale, however, is wrong in at least two 
respects. In the first place, if (as she admitted) she relied on the 
``assessment literature,'' then presumably Agency personnel read the 
studies and data cited in that literature and were persuaded that the 
conclusions reached by that literature are correct. If that is the 
case, then those underlying studies and data must be included in EPA's 
record, since ultimately it is that information that forms the basis of 
the Administrator's conclusion that anthropogenic GHGs endanger public 
health and welfare. Additionally, as the so-called ``climategate,'' 
revelations showed (see below), the data underlying the IPCC 
conclusions, in fact, were not made publicly available by the IPPC or 
by the authors of the IPCC reports and indeed were withheld even when 
asked for under freedom of information law. Thus, the Administrator was 
incorrect in saying that the information cited in the ``assessment 
literature'' can be ``accessed by consulting these assessment reports 
and the underlying studies.''

    Refusal to Allow the Public to Comment on Climategate

    Just weeks before EPA issued its Endangerment Finding, a 
considerable body of email and other information from the University of 
East Anglia (UEA) Climatic Research Unit (CRU) became available on the 
Internet. The emails are primarily those of American and British 
scientists who had critical roles in writing the IPCC reports.
    The CRU information undermines a number of the central pillars on 
which the Endangerment Finding rests, particularly the work of the 
IPCC. The CRU information reveals that many of the principal scientists 
who authored key chapters of the IPCC scientific assessments were 
driven by a policy agenda that caused them to cross the line from 
neutral science to advocacy. They went far beyond even what is 
acceptable as advocacy, as they actively suppressed information that 
was contrary to, in their words, the ``nice, tidy story'' that they 
wished to present, they refused to disclose underlying data concerning 
the studies in which they were involved to third parties who might use 
the information to critique those studies--even when asked for that 
information in freedom of information requests and even to the extent 
of deleting emails--, they engaged in a wide variety of improper and 
indeed unethical tactics to manipulate the type of scientific 
information that appeared both in the IPCC reports and in the peer-
reviewed scientific journals upon which the IPCC largely relied, and 
they relied on inaccurate and unverified information from secondary 
source material that was produced by advocacy groups, information that 
the authors apparently knew was unverified but included anyway to 
advance the authors' advocacy agenda. A comprehensive discussion of the 
climategate material can be found in the attached Petition for 
Reconsideration. \33\
---------------------------------------------------------------------------
    \33\  Petition for Reconsideration of Peabody Energy Company (Feb. 
11, 2010). I am submitting both the Petition and the Executive Summary 
of the Petition for the record. If the Petition is considered too long 
to be included in the record, I ask that the Executive Summary be 
included instead.
---------------------------------------------------------------------------
    The climategate revelations (at least) created significant doubt as 
to the heavy reliance the Administrator had placed in the IPCC reports. 
As discussed below, the IQA obligates EPA to ensure the reliability and 
transparency of the information on which it relies for important 
decisions. In responding to comments on the proposed Endangerment 
Finding, however, the Administrator stated that she had not made her 
own expert determination as to the quality and transparency of the 
information used in the ``assessment literature'' despite her relying 
so much on that literature. Instead, she said that she had satisfied 
her obligations to ensure the reliability and transparency of the 
information underlying the ``assessment literature'' by reviewing the 
procedures used by the entities that prepared the that literature to 
confirm that those entities, in her view, had adequately taken steps to 
ensure information quality and transparency. She stated that ``[o]ur 
approach is consistent with these [EPA's IQA] guidelines because we 
thoroughly reviewed and evaluated the author selection, report 
preparation, expert review, public review, information quality, and 
approval procedures of IPCC, USGCRP/CCSP, and NRC to ensure the 
information adhered ``to a basic standard of quality, including 
objectivity, utility and integrity.'' \34\
---------------------------------------------------------------------------
    \34\  Response to Comments, Vol. 1 at 57.
---------------------------------------------------------------------------
    There are at least two problems with the Administrator's rationale 
in this regard. In the first place, it is by no means certain that the 
Administrator can satisfy her IQA obligations as to information quality 
and transparency without examining the transparency and quality of the 
information cited in the ``assessment literature'' given her heavy 
reliance on that literature to fulfill her statutory obligations. But 
even if she could satisfy her IQA obligations solely by examining the 
procedures used by the authors of the ``assessment literature'' to 
ensure reliability and quality, climategate undermined her conclusion 
that the IPCC's procedures, in fact, had conformed with U.S. norms for 
scientific objectivity, integrity, and transparency.
    A number of parties asked EPA to reconsider the Endangerment 
Finding in light of the climategate material and, in particular, to 
take public comment on this new information since it had not been 
available at the time comments were submitted on the proposed 
Endangennent Finding. These reconsideration petitions maintained that 
the climategate information and its implication for EPA's reliance on 
the IPCC was at least important enough that EPA should allow the public 
an opportunity to comment on the impact of this information on the 
Endangerment Finding.
    EPA, however, refused to even take public comment on climategate, 
dismissing the new infonnation as essentially irrelevant to whether EPA 
had properly relied on the IPCC. Oddly, however, the Agency's 
decisional documents needed more than five hundred pages to reach the 
conclusion that the climategate material was not important enough to 
warrant input from the public. \35\
---------------------------------------------------------------------------
    \35\  See the Response to Petitions at http://www.epa.gov/
climatechange/ endangerment/petitions.html.

B. The Process EPA Conducted to Formulate the Endangerment Finding 
---------------------------------------------------------------------------
Failed to Meet Basic Requirements for Fairness and Transparency

    The above discussion reveals basic process flaws in the manner in 
which the Endangerment Finding was developed. American law sets forth a 
number of procedural requirements that administrative agencies like EPA 
must observe in rulemaking proceedings and in making scientific 
determinations like the Endangennent Finding that become the basis for 
regulatory policy. These include rulemaking requirements set forth in 
the CAA and the Administrative Procedure Act (APA), information quality 
and transparency requirements set forth in the IQA, and a number of 
analytical requirements set forth in various statutes and executive 
orders, such as the Unfunded Mandates Reform Act and Executive Order 
12866 and President Obama's new Executive Order 13563 on ``Improving 
Regulation and Regulatory Review.''
    As stated above, these process flaws are not mere technicalities 
that have no relevance to the substance of the Endangerment Finding. 
The reason that the law sets forth required procedures for 
administrative decision-making and scientific determinations is to 
ensure the integrity of the ultimate decision made.
    Some of the most important flaws are as follows: \36\
---------------------------------------------------------------------------
    \36\  This discussion is not intended to be a complete discussion 
of the process and other flaws of the Endangerment Finding but instead 
is intended to illustrate some of the flaws.
---------------------------------------------------------------------------
    First, the most basic flaw is the Administrator having prejudged 
the Endangerment Finding, which is an obvious violation of the 
Administrative Procedure Act and the rulemaking provisions of the CAA. 
As discussed, even before the Endangerment Finding was proposed, the 
President had already undertaken negotiations to commit EPA to 
regulations that the Agency could not issue unless it made the 
Endangerment Finding, and these negotiations resulted in an agreement 
even before the comment period on the proposed Endangerment Finding 
expired. As to the basic issue of whether or not anthropogenic GHG 
emissions endanger the public health or welfare, the comment period and 
indeed the rulemaking process was largely a formality.
    Second, in contravention of Section 202(a), the Administrator 
failed to exercise her own judgment and instead adopted the findings of 
the ``assessment literature.'' I can think of no instance where, on a 
matter of such overriding national importance, EPA relied so heavily 
and deferred so much to the judgment of third parties.
    Third, apart from the pre-judgment issue, and whether or not 
limiting the comment period to sixty days is strictly a violation of 
law, sixty days was wholly insufficient for public input into the 
Endangerment Finding. This limited comment period contrasts 
dramatically with the numerous and often lengthy comment periods that 
inform EPA promulgation of the National Ambient Air Quality Standards 
(NAAQS), as will be further discussed below. Moreover, the Agency's 
rationale that the public had an opportunity to submit comments during 
preparation of the ``assessment literature'' lacks merit. Public 
comments were not taken in preparation of the IPCC science reports, and 
the public could not have been expected to know that comments on the 
USGCRP reports were necessary on the theory that EPA would later decide 
to use those reports as the basis for the Endangerment Finding and for 
the ensuing regulation (and, indeed, in contrast to the numerous public 
comments on the Endangerment Finding, relatively few public comments 
were submitted on those reports). More fundamentally, the right to 
comment on the Endangerment Finding is a right to comment to EPA, in 
order to influence EPA action, not a right to comment to third parties.
    Fourth, climategate destroyed EPA's basis for concluding that it 
could rely on the IPCC's procedures for ensuring the quality, integrity 
and transparency of the information on which the IPCC relied. 
Climategate showed that either EPA's investigations of the IPCC 
procedures were wanting or the IPCC had departed from those procedures. 
Either way, given the climategate revelations, EPA should have (at a 
minimum) afforded the public an opportunity to comment on whether EPA's 
reliance on the IPCC was justified.
    Moreover, in attempting to show that climategate did not affect the 
conclusions reached in the Endangerment Finding, EPA relied on studies 
prepared after the Endangerment Finding was finalized and then placed 
those studies in the Endangerment Finding docket. EPA thus attempted to 
shore up the rationale for the Endangerment Finding based on new 
information, but did not allow the public an opportunity to comment on 
such information or the conclusions EPA reached from it.
    Fifth, EPA held separate rulemaking proceedings for making the 
Endangerment Finding and for promulgating the motor vehicle regulations 
triggered by that finding. EPA did not identify any other precedent 
involving an endangerment finding in which it had bifurcated the 
endangerment finding proceeding from the proceeding to issue 
substantive regulations. \37\ As a result, in considering whether to 
make the Endangerment Finding, EPA never considered whether the cost of 
regulating outweighed the benefit. Thus, although EPA took the view 
that the Endangerment Finding automatically triggered an obligation by 
EPA to regulate motor vehicle GHG emissions, and that EPA regulation of 
motor vehicle GHG emissions automatically triggered regulation of GHG 
emissions from stationary facilities under the Prevention of 
Significant Deterioration (PSD) and Title V permit programs, EPA failed 
to undertake an assessment of the costs and benefits of GHG regulation 
of stationary sources.
---------------------------------------------------------------------------
    \37\  According to EPA, ``[t]ypically, the endangerment and cause 
or contribute findings have been proposed concurrently with proposed 
standards under various sections of the CAA.'' Proposed Endangerment 
and Cause or Contribute Findings for Greenhouse Gases Under Section 
202(a) of the Clean Air Act, 74 Fed. Reg. 18,886, 18,888/3 (Apr. 24, 
2009).
---------------------------------------------------------------------------
    Instead, EPA took the position during the Endangerment Finding 
proceeding that it was not required to assess the costs and benefits of 
the regulation that its Endangerment Finding triggered because the 
Endangerment Finding itself was non-regulatory. \38\ But EPA also 
refused to study the costs and benefits of regulation of stationary 
source GHG emissions during the motor vehicle regulatory proceedings on 
the ground that such issue was more properly addressed in further 
proceedings EPA would have on GHG regulation under the PSD and Title V 
programs. \39\ Yet EPA again refused to study the impacts of such 
regulation even during those proceedings. \40\ To this day, EPA still 
has not conducted any study of the costs and benefits of the stationary 
source GHG regulation that the Endangerment Finding triggered.
---------------------------------------------------------------------------
    \38\  Proposed Endangerment Finding, 74 Fed. Reg. at 18,90911-2.
    \39\  Light-Duty Vehicle Greenhouse Gas Emission Standards and 
Corporate Average Fuel Economy Standards EPA Response to Comments 
Documentfor Joint Rulemaking (Apr. 2010) at 7-66--7-77.
    \40\  See Prevention of Significant Deterioration and Title V GHG 
Tailoring Rule: EPA's Response to Public Comments (May 2010) at 163-65. 

---------------------------------------------------------------------------
    Sixth, in developing the Endangerment Finding, the Administrator 
did not conform to several provisions of the Agency's own IQA 
guidelines and those of the Office of Management and Budget (OMB) \41\ 
for the ``Utility'' and ``Quality'' of information. The OMB Guidelines 
define ``Utility'' as ``the usefulness of the information to its 
intended users, including the public. In assessing the usefulness of 
information that the agency disseminates to the public, the agency 
needs to consider the uses of the information not only from the 
perspective of the agency but also from the perspective of the 
public.'' \42\ EPA's IQA Guidelines amplify this requirement by 
providing that the Agency will subject ``influential'' scientific 
information to a ``rigorous standard of quality.'' \43\ ``Influential'' 
information is defined to include the following:
---------------------------------------------------------------------------
    \41\  OMB's guidelines are set forth in Guidelines for Ensuring and 
Maximizing the Quality, Objectivity, Utility, and Integrity of 
Information Disseminated by Federal Agencies; Notice; Republication, 67 
Fed. Reg. 8,452 (Feb. 22, 2002).
    \42\  Id. at 8,459/1-2 (emphasis supplied).
    \43\  EPA Information Quality Guidelines at 20.

        Information disseminated in support of top Agency actions 
        (i.e., rules, substantive notices, policy documents, studies, 
        guidance) that demand the ongoing involvement of the 
        Administrator's Office and extensive cross-Agency involvement; 
        issues that have the potential to result in major cross-Agency 
        or cross-media policies, are highly controversial, or provide a 
        significant opportunity to advance the Administrator's 
        priorities. Top Agency actions usually have potentially great 
        or widespread impacts on the private sector, the public or 
        state, local or tribal governments. This category may also 
        include precedent-setting or controversial scientific or 
        economic issues. \44\
---------------------------------------------------------------------------
    \44\  Id.

    Plainly, the Endangerment Finding qualifies as ``influential'' 
scientific information within the meaning of EPA's guidelines, since it 
triggered GHG regulation of automobiles, regulation of all major 
stationary sources of GHG emissions under the PSD and Title V programs, 
and likely other far-reaching regulation. As a result, EPA should have, 
but failed in several respects to, apply a ``rigorous standard of 
---------------------------------------------------------------------------
quality'' in making the Endangerment Finding:

        <bullet>  As discussed in a number of comments in the 
        rulemaking process, EPA failed to discuss a large number of 
        peer-reviewed studies that contradict the Administrator's 
        conclusions. According to EPA's Guidelines, EPA must ``ensure 
        and maximize the quality of `Influential' scientific risk 
        assessment information'' by, among other things, discussing 
        ``peer-reviewed studies known to the Administrator that 
        support, are directly relevant to, or fail to support any 
        estimate of risk and the methodology used to reconcile 
        inconsistencies in the scientific data.'' \45\
---------------------------------------------------------------------------
    \45\  Id. at 22-23 (emphasis supplied).

        <bullet>  As also discussed in comments, EPA's discussion did 
        not include a proper context of other peer-reviewed studies 
        that conflict with EPA's conclusions. OMB's IQA Guidelines for 
        Objectivity, however, require information to be ``presented in 
        an accurate, clear, complete, and unbiased manner,'' including 
        presenting the material within its proper context, with 
        dissemination of other information ``in order to ensure an 
        accurate, clear, complete, and unbiased presentation.'' \46\
---------------------------------------------------------------------------
    \46\  OMB IQA Guidelines, 67 Fed. Reg. at 8,459/3.


        <bullet>  As discussed above, EPA failed to provide for 
        independent and objective peer review of the Endangerment 
---------------------------------------------------------------------------
        Finding.

        <bullet>  Climategate revealed that the information underlying 
        the IPCC reports on which EPA relied did not conform to IQA 
        standards for transparency. Yet, for the reasons discussed 
        above and in the attached Petition for Reconsideration, the 
        climategate material revealed that the information used in the 
        IPCC reports did not meet these standards regarding 
        transparency as to data sources, assumptions used, analytic 
        methods applied and statistical procedures employed. \47\
---------------------------------------------------------------------------
    \47\  According to EPA's IQA Guidelines, ``EPA recognizes that 
influential scientific, financial, or statistical information should be 
subject to a higher degree of quality (for example, transparency about 
data and methods) than information that may not have a clear and 
substantial impact on important public policies or private sector 
decisions. A higher degree of transparency about data and methods will 
facilitate the reproducibility of such information by qualified third 
parties, to an acceptable degree of imprecision . . . It is important 
that analytic results for influential information have a higher degree 
of transparency regarding (1) the source of the data used, (2) the 
various assumptions employed, (3) the analytic methods applied, and (4) 
the statistical procedures employed.'' EPA IQA Guidelines at 20-21.

    In sum, the process used by EPA to develop the Endangerment Finding 
was flawed, and these flaws undermine confidence in the Agency's 
substantive finding that GRGs may reasonably be anticipated to endanger 
---------------------------------------------------------------------------
public health or welfare.

C. EPA's Process for Establishing a NAAQS

    The expedited and abbreviated process EPA used to make its 
Endangerment Finding may be contrasted with the methodical process EPA 
uses to develop NAAQS, a process that involves numerous opportunities 
for public comment on successive draft scientific and policy 
assessments. The example I will use is EPA's promulgation of the NAAQS 
for particulate matter (PM) in September 2006. \48\
---------------------------------------------------------------------------
    \48\ The information below is taken from EPA's PM NAAQS website.
---------------------------------------------------------------------------
    The key scientific documents prepared in connection with a NAAQS 
review are the Criteria Document (CD) and Staff Paper. The CD is 
prepared by EPA's Office of Research and Development and is a 
compilation and evaluation by EPA scientific staff and other expert 
authors of the latest scientific knowledge relevant to assessing the 
health and welfare effects of the air pollutant. The Staff Paper is 
prepared by EPA's Office of Air Quality Planning and Standards. Its 
purpose is to evaluate the policy implications of the key studies and 
scientific information contained in the CD and to identify the critical 
elements that EPA staff believes should be considered in establishing a 
NAAQS. It is intended to help ``bridge the gap'' between the scientific 
review contained in the CD and the judgments required of the EPA 
Administrator in determining whether it is appropriate to revise the 
NAAQS. CDs and Staff Reports each run to many hundreds of pages, much 
longer than the Endangerment Finding TSD.
    In October 1997, EPA published its plans for the current periodic 
review of the PM NAAQS. As part of the process of preparing the PM CD, 
EPA's National Center for Environmental Assessment (NCEA) hosted a peer 
review workshop in April 1999 on drafts of key chapters pf the CD. The 
first external review draft CD was reviewed by the Clean Air Science 
Advisory Committee (CASAC) and the public at a meeting held in December 
1999. Based on CASAC and public comment, NCEA revised the draft CD and 
released a second external review draft in March 2001 for review by 
CASAC and the public at a meeting held in July 2001. A preliminary 
Draft Staff Paper was released in June 2001 for public comment and for 
consultation with CASAC at the same public meeting. Taking into account 
CASAC and public comments, a third external review draft CD was 
released in May 2002 for review at a meeting held in July 2002. EPA 
released a fourth external review draft CD in June 2003, which was 
reviewed by CASAC and the public at a meeting held in August 2003.
    The first draft Staff Paper, based on the fourth external review 
draft CD, was released at the end of August 2003, and was reviewed by 
CASAC and the public at a meeting held in November 2003. EPA held 
additional consultations with CASAC at public meetings held in 
February, July, and September 2004, leading to publication of the final 
CD in October 2004. This second draft Staff Paper, released for comment 
in January 2005, was based on the final CD. The Staff Paper was 
released in June 2005 and then another and final version was released 
in December 2005 following further consultation with CASAC.
    The proposed standard was published in the Federal Register on 
January 17, 2006. \49\ A ninety-day comment period was provided for. 
The final PM NAAQS was published in the Federal Register on October 27, 
2006. \50\
---------------------------------------------------------------------------
    \49\  National Ambient Air Quality Standards for Particulate 
Matter; Proposed Rule, 71 Fed. Reg. 2,620 (Jan. 17, 2006).
    \50\  National Ambient Air Quality Standards for Particulate 
Matter, 71 Fed. Reg. 61,144 (Oct. 27, 2006).
---------------------------------------------------------------------------
    The 2006 PM NAAQS is now under review for possible revision, and 
the process is equally as extensive. Without going into detail, just 
since the new Administration took office, EPA has published 15 notices 
in the Federal Register of meetings, comment periods and review drafts 
in connection with this review process. These include: Notice of CASAC 
Teleconference-August 25, 2010, Notice of Extension of Public Comment 
Period for Chapter 4-Second Draft Policy Assessment, Notice of 
Availability-Quantitative Health Risk Assessment (Final Report) and 
Urban-Focused Visibility Assessment (Final Report), Notice of 
Availability and Request for Public Comment-Second Draft Policy 
Assessment, Notice of CASAC Meeting-July 26-27, 2010, Notice of CASAC 
Teleconference-May 7, 2010, Notice of Extension of Public Comment 
Period-First Draft Policy Assessment, Notice of CASAC Meeting March 10-
11, 2010 and Upcoming Public Teleconference(s), Notice of CASAC Ambient 
Air Methods and Monitoring Subcommittee (AAMMS) Meeting-February 24-25, 
2010; Public Teleconference-March 26, 2010, Notice of Availability and 
Public Comment Period for Draft Documents Related to the Review of the 
PM NAAQS, Notice of Availability-Integrated Science Assessment for PM 
(Final Report), Notice of Extension of Public Comment Period-Second 
Draft lntegrated Science Assessment, Notice of Extension of Public 
Comment Period-Draft Assessment Documents, Notice of CASAC Meeting 
October 5-6, 2009 and Upcoming Public Teleconference(s), Notice of 
Availability and Public Comment Period for Draft Assessment Documents, 
Notice of Extension of Public Comment Period-Second Draft Integrated 
Science Assessment, Notice of Availability and Public Comment Period 
for PM ISA-Second External Review Draft, Notice of Planning Documents 
for Public Review and Comment, Notice of CASAC Meeting-April 1-2, 2009. 
\51\
---------------------------------------------------------------------------
    \50\  See http://www.epa.gov/ttn/naaqs/standards/pm/
s_m_2007_fr.html.
---------------------------------------------------------------------------
    In sum, the process that EPA used to develop the Endangerment 
Finding was considerably shorter and involved much less intensive 
review and a far more limited comment period than typifies the process 
for establishing a NAAQS. Yet GHG regulation is just as important, if 
not more so, that PM regulation, and climate science is considerably 
more complex than the science behind PM effects on health and welfare.

CONCLUSION

    EPA's process for developing the Endangerment Finding was 
characterized by a number of flaws that undermine confidence in the 
substantive conclusions reached in that finding.
    I appreciate the opportunity to provide this testimony.

    Chairman Hall. Mr. Glaser, thank you very much. I recognize 
now Dr. Kerry A. Emanuel, Professor of Atmospheric Science, 
Massachusetts Institute of Technology, for his testimony.

          STATEMENT OF DR. KERRY EMANUEL, PROFESSOR OF

               ATMOSPHERIC SCIENCE, MASSACHUSETTS

                    INSTITUTE OF TECHNOLOGY

    Dr. Emanuel. Thank you, Chairman Hall and Ranking Member 
Johnson, for this opportunity to speak to the integrity of the 
field of climate research.
    The basic physics of climate were established more than 100 
years ago by distinguished scientists such as Jean Baptiste 
Fourier, John Tyndall, and in particular they established that 
our planet is habitable thanks to gases that comprise less than 
three percent of our atmosphere.
    Already in 1897, the Swedish chemist Svante Arrhenius 
projected that fossil fuel combustion would increase carbon 
dioxide levels in the atmosphere, and estimated, by hand, that 
doubling CO<INF>2</INF> would increase surface temperatures by 
between 5 and 6 degrees Centigrade.
    Analysis of paleoclimate records suggest that natural 
climate change is caused by variations in solar output, the 
Earth's orbit around the sun, aerosols, and in greenhouse 
gases. In particular, elevated greenhouse gases are the primary 
suspect in explaining the very warm climates of some of the 
Earth's past.
    The scientific basis for the existence of significant risks 
from anthropogenic climate change is solid and rests on the 
principles of physics established more than a century ago as 
well as on records of the Earth's climate as recorded by 
instruments and in the geological record.
    The conclusions of the scientific community that warming of 
the climate system is unequivocal and that most of the observed 
increase in global temperatures since the mid-20th century is 
very likely due to the observed increase in greenhouse gas, 
rests on sound scientific research. I need not review for you 
the fact that virtually every major scientific organization 
that deals with climate around the world has issued strong 
statements warning of the risks of climate change.
    Many government agencies and private enterprises are taking 
the risks of climate change quite seriously. For example, our 
own Defense Department has recently issued a report expressing 
concern about political instability arising from water and food 
shortages in several locations around the globe.
    Historically, science, including climate science, have 
tended to be conservative and to underestimate risk. I could 
give you many examples, but a recent and tragic example is the 
earthquake and tsunami in Japan caused by a magnitude 9 
earthquake. The best projections before the earthquake of the 
largest earthquake that that region should experience was 8.3, 
many, many times lower than what was observed.
    Notwithstanding anything I have just told you, there is 
universal agreement among scientists that current assessments 
of the risk of climate change are highly uncertain. In my view, 
it is unlikely that these uncertainties will decline 
appreciably over the next decade. Because of this uncertainty, 
there is no scientific basis for the confidence expressed by 
some that the effects of climate change will be benign. In 
respect to the stolen emails, and I know something about that, 
Mr. Chairman, because I served on the scientific advisory panel 
put together by the Royal Society in England to investigate 
such allegations. While there is general agreement that the 
preparation of a particular graph by a few scientists shows 
poor judgment in omitting a part of the record that was 
demonstrably false, there is no evidence for an intent to 
deceive. Efforts by some to leverage this into a sweeping 
condemnation of a whole scholar endeavor should be seen for 
what they are.
    Now, all scientific endeavors entail some diversity of 
views, including mavericks who challenge accepted science. 
There are biomedical researchers who do not think that HIV 
causes AIDS, although surprisingly, recently, there were 
geologists who thought that the theory of plate tectonics is 
incorrect. While usually wrong, such mavericks are 
indispensible to the progress of science, forcing others to 
constantly test their assumptions, evidence and results. But 
politicians who make mascots out of mavericks are invariably 
engaging in advocacy. They are fond of saying that science is 
not done by consensus. This is true, but if policy is not 
formulated on the basis of a sound scientific consensus, then 
it is almost certainly based on political considerations.
    Dealing with risks entailed in climate change will be 
extraordinarily difficult, and reasonable people will differ on 
questions of strategy. But citizens expect their 
representatives to confront this issue in an open and honest 
way. Making mascots of scientific mavericks or shooting the 
messengers are not rational options. Nations that are first off 
the mark in developing new technologies and policies that 
address the risks, selling those technologies to rapidly 
developing countries will prosper.
    Now, let me finish by speaking to you more as a citizen 
than as a scientist. We properly revere our forefathers for 
making material and mortal sacrifices for our benefit. One only 
hopes that our descendants will hold us in similar regard. 
Thank you.
    [The prepared statement of Mr. Emanuel follows:]
   Prepared Statement of Dr. Kerry Emanuel, Professor of Atmospheric 
             Science, Massachusetts Institute of Technology
    I am Kerry Emanuel, the Breene M. Kerr Professor of Atmospheric 
Science at the Massachusetts Institute of Technology, where I have been 
on the faculty for almost 30 years. I have taught atmospheric science 
and climate physics for nearly 33 years and am a member of the National 
Academy of Sciences. I am here today to affirm my profession's 
conclusion that human beings are influencing climate and that this 
entails certain risks. If we have any regard for the welfare of our 
descendents, it is incumbent on us to take seriously the risks that 
climate change poses to their future and to confront them openly and 
honestly.
    By the closing decades of the 19th Century, science had firmly 
established that the main constituents of our atmosphere, molecular 
nitrogen and oxygen--which together comprise about 97% of the mass of 
the atmosphere--are almost completely transparent to solar and 
terrestrial radiation. Without the handful of trace gases that do 
interact with radiation, notably water vapor, carbon dioxide, and 
methane, our planet would be a snowball. Of these so-called greenhouse 
gases, water vapor is the most important, but cycles through the 
atmosphere on a time scale of roughly two weeks. Its concentration is 
highly variable and is controlled mostly by temperature; warming the 
atmosphere increases its concentration. The other important greenhouse 
gases include carbon dioxide, methane, and nitrous oxide. These gases 
have atmospheric lifetimes of decades to thousands of years and have 
concentrations that are approximately constant over the globe. It is a 
remarkable fact that these long-lived gases, though they constitute a 
tiny fraction of our atmosphere, make life as we know it possible. I 
reiterate that these basic facts of physics and chemistry were 
established more than a century ago and are not remotely controversial 
among scientists.
    Already in 1897 the Swedish chemist Svante Arrhenius predicted that 
industrial activity would increase carbon dioxide concentrations and 
calculated (by hand) that doubling the concentration would cause global 
surface temperatures to rise by 5-6 degrees centigrade. Modern science 
projects somewhat lower temperature increases, but Arrhenius's estimate 
is remarkably close to modern estimates considering the information and 
techniques at his disposal. Today, students at MIT and elsewhere can do 
hand calculations or use simple models of radiative and convective heat 
transfer to explore climate physics, and they find climate 
sensitivities in the same range as those reported in the first National 
Academy of Sciences report on anthropogenic climate change in 1979. 
Global climate models were first developed in the 1960s and have 
advanced rapidly over the past few decades; they are used as tools to 
help us understand and predict climate, but it is not the case that 
they are the single or even most important tool for these purposes. 
Even before the advent of global models, there was enough science to 
warrant concern, and already in 1965 President Lyndon Johnson warned 
Congress that we were changing the composition of our atmosphere at our 
peril.
    Understanding of climate physics was such that, by 1950 or so, we 
could state with confidence that doubling carbon dioxide concentration 
would increase global surface temperatures by just over 1 degree 
centigrade if there were no feedbacks in the system. The most important 
feedback--increasing water vapor with temperature--serves to amplify 
the warming. Other feedbacks involving clouds, aerosols, ocean 
currents, and many other attributes of the complex system remain 
somewhat uncertain, and when codified in the form of climate models are 
the principal sources of the still considerable uncertainty in climate 
projections.
    Highly accurate measurements of carbon dioxide began in 1958 and 
show beyond doubt that concentrations have been increasing from their 
pre-industrial value of around 280 parts per million to over 390 parts 
per million today. Analysis of gas bubbles trapped in ice cores show 
that current levels have not been experienced on our planet for at 
least a million years.
    It is hardly surprising the doubling the concentration of the most 
important long-lived greenhouse gas will lead to noticeable climate 
change. Paleoclimate studies inform us that climate change over the 
history of our planet has been caused primarily by changing sunlight, 
owing to changes in the sun itself and to the earth's orbit around it, 
to aerosol particles injected into the atmosphere by volcanoes, and by 
changing concentrations of greenhouse gases. For example, increased 
levels of greenhouses gases remain the only plausible mechanism for 
explaining very warm climates such as that of the Eocene around 50 
million years ago, when tropical plants and animals lived near the 
North Pole.
    Over the past few decades, when solar output, as measured by 
satellites, has been decreasing slightly, there is little doubt that 
increasing global temperature is attributable to ever more rapidly 
increasing concentrations of greenhouse gases. We are undertaking an 
enormous experiment, and so far the response of the planet has been 
pretty much along the lines predicted more than a century ago.
    And yet our understanding of the climate system is far from 
perfect. We do not fully understand such issues as the feedback effects 
of clouds and the cooling effect that manmade aerosols have on climate. 
These uncertainties are reflected in climate projections, which at 
present range from benign to catastrophic.
    It is in such a scientific environment that our generation 
confronts the various risks associated with climate change. These risks 
have been well catalogued and endlessly discussed, but let me here 
focus on just one: the changing distribution of the supply of water. 
One of the more robust consequences of a warming climate is the 
progressive concentration of rainfall into less frequent but more 
intense events. Dry areas of the world, such as the Middle East, are 
expected to become drier, while flash floods should become more 
frequent. We are already seeing evidence of these changes in rainfall 
data. Reductions in rainfall in semi-arid regions lead to decreasing 
agricultural production, which in turn leads to food shortages. The 
potential for political destabilization of these regions is large and 
is matter of great concern to our Department of Defense, as outlined in 
their 2007 report National Security and the Threat of Climate Change. 
\1\ To quote directly from that report:  Unlike most conventional 
security threats that involve a single entity acting in specific ways 
and points in time, climate change has the potential to result in 
multiple chronic conditions, occurring globally within the same time 
frame. Economic and environmental conditions in already fragile areas 
will further erode as food production declines, diseases increase, 
clean water becomes increasingly scarce, and large populations move in 
search of resources. Weakened and failing governments, with an already 
thin margin for survival, foster the conditions for internal conflicts, 
extremism, and movement toward increased authoritarianism and radical 
ideologies. The U.S. may be drawn more frequently into these 
situations, either alone or with allies, to help provide stability 
before conditions worsen and are exploited by extremists. The U.S. may 
also be called upon to undertake stability and reconstruction efforts 
once a conflict has begun, to avert further disaster and reconstitute a 
stable environment. And, The U.S. and Europe may experience mounting 
pressure to accept large numbers of immigrant and refugee populations 
as drought increases and food production declines in Latin America and 
Africa.
---------------------------------------------------------------------------
    \1\  Available from the CNA Corporation, 4825 Mark Center Drive, 
Alexandria, Virginia, 22311, or http://securityandclimate.cna.org/
report/
---------------------------------------------------------------------------
    Among the recommendations of this report is one that states that 
The U.S. should commit to a stronger national and international role to 
help stabilize climate change at levels that will avoid significant 
disruption to global security and stability.
    In assessing risk, scientists have historically been notably 
conservative. It is part of the culture of science to avoid going out 
on limbs, preferring to underestimate risk to provoking the charge of 
alarmism from our colleagues. A good example is the recent tragic 
earthquake and tsunami in Japan. Examination of seismic risk maps 
prepared before that earthquake show that the seismologists had 
estimated that the magnitude of the largest earthquake that one could 
reasonably expect to encounter in the region was about 8.2, 
substantially weaker than what actually occurred. For this reason, the 
Fukushima-Daiichi nuclear power plant was not designed to withstand the 
magnitude of earthquake and tsunami that disabled it. In our own 
country, the levees that protect New Orleans were designed for storm 
surge events somewhat less severe than we now believe are likely there. 
And, in the climate arena, summertime arctic sea ice has been declining 
somewhat more rapidly than had been projected.
    Far from being alarmist, scientists have historically erred on the 
side of underestimating risk.
    In recognition of the potential importance of manmade climate 
change, scientists organized one of the largest efforts ever made to 
communicate science to the public and to policy makers. I speak of the 
Intergovernmental Panel on Climate Change, developed under the auspices 
of the World Meteorological Organization in 1988. It is strictly a 
communications enterprise (it neither performs nor supports research) 
and involves large numbers of climate scientists. In my view, the four 
assessment reports it has issued so far continue the conservative 
tradition in science. For example, in its second report, issued in 
1995, fully seven years after climate scientist James Hansen told 
Congress he was 99% certain that increasing greenhouse gas 
concentrations were causing the earth to warm up, the IPCC said rather 
more cautiously that ``The balance of evidence suggests a discernible 
human influence on global climate.'' But by the time it issued its most 
recent report, in 2007, the large amount of evidence that had 
accumulated in the interim forced it to conclude that warming of the 
climate system is unequivocal, and that most of the observed increase 
in global average temperatures since the mid-20th century is very 
likely due to the observed increase in anthropogenic greenhouse gas 
concentrations. The report, which includes the input of more than 1,200 
authors and 2,500 scientific expert reviewers, goes on to review the 
evidence in great detail, including projections for the next century, 
likely risks, and the uncertainties involved. A great many scientists 
whom I know personally took time off from their research and devoted 
enormous effort to this enterprise whose sole aim is to provide 
information to people and their representatives.
    In addition to the work of the IPCC, essentially all of the 
professional societies around the world that deal in any way with 
climate have issued strong statements drawing attention to the risks 
associated with anthropogenic climate change.
    Now I want to speak to you not only as a scientist but as a 
citizen. I am appalled at the energetic campaign of disinformation 
being waged in the climate arena. I have watched good, decent, hard-
working scientists savaged and whole fields of scholarship attacked 
without merit. Consider as an example the issues surrounding the email 
messages stolen from some climate scientists. I know something about 
this as I served on a panel appointed by the Royal Society of Great 
Britain, under the direction of Lord Oxburgh, to investigate 
allegations of scientific misconduct by the scientists working at the 
Climate Research Unit of the University of East Anglia. Neither we nor 
several other investigative panels found any evidence of misconduct. To 
be sure, we confirmed what was by then well known, that a handful of 
scientists had exercised poor judgment in constructing a figure for a 
non peer-reviewed publication. Rather than omitting the entire record 
of a particularly dubious tree-ring-based proxy, the authors of the 
figure only omitted that part of it that was provably false. If this 
was a conspiracy to deceive, though, it was exceedingly poorly 
conceived as anyone with the slightest interest in the subject could 
(and did) immediately find the whole proxy record in the peer-reviewed 
literature.
    The true scandal here is the enormously successful attempt to 
elevate this single lapse of judgment on the part of a small number of 
scientists into a sweeping condemnation of a whole scholarly endeavor. 
When the history of this event is written, the efforts of those seeking 
to discredit climate science will be seen for what they are; why many 
cannot see it now is a mystery to me.
    It falls to our generation to confront a global problem of 
potentially enormous implications. There are three aspects of this 
problem that make it particularly difficult to deal with:
        1. It is global. All countries emit greenhouse gases to varying 
        degrees, and it is therefore politically very difficult to 
        regulate such emissions.
        2. The risks, while potentially large, are still very 
        uncertain, and in my view, the level of uncertainty is not 
        likely to drop anytime soon.
        3. While the costs of confronting these risks will fall largely 
        to our generation, the primary beneficiaries of our actions 
        will be our children and grandchildren, not us.
    In facing this highly difficult problem, reasonable people will 
differ in what approaches to take. But citizens have a right to insist 
that their representatives confront this complex problem in an open and 
honest way. In soliciting advice, we should be highly skeptical of any 
expert who claims to be certain of the outcome. I include especially 
those scientists who express great confidence that the outcome will be 
benign; the evidence before us simply does not warrant such confidence. 
Likewise, beware those who deride predictive science in its entirety, 
for they are also making a prediction: that we have nothing to worry 
about. And above all, do not shoot the messenger, for this is the 
coward's way out of openly and honestly confronting the problem.
    Finally, let me emphasize what many others have pointed out before: 
Those nations that are first to develop sensible technology and 
policies to deal with climate change and pollution will likely attain 
great economic advantages. The market for clean energy in China alone 
is of staggering proportions. Nations that invest in energy research 
and in novel ideas in such fields as carbon sequestration and that 
foster enterprises that are in a position to sell such technologies to 
rapidly developing countries will prosper.
    In her past, the U.S. helped the world confront such global 
problems as fascism and communism. As a citizen, I hope that my country 
will once again rise to the challenge and assume leadership in this 
arena too.
    Summary of Written Statement of Dr. Kerry Emanuel, Professor of 
       Atmospheric Science, Massachusetts Institute of Technology

    1. The scientific basis for the existence of significant risks from 
anthropogenic climate change is solid and rests on principles 
established more than a century ago, as well as on records of the 
earth's climate as recorded by instruments and in the geologic record.

    2. The conclusions of the scientific community that warming of the 
climate system is unequivocal, and that most of the observed increase 
in global average temperatures since the mid-20th century is very 
likely due to the observed increase in anthropogenic greenhouse gas 
rests on sound scientific research.

    3. Historically, scientists have tended to underestimate risk.

    4. Notwithstanding any of the above, there is universal agreement 
among scientists that current assessments of climate change risk are 
highly uncertain.

    5. There is no scientific basis for the confidence expressed by 
some that the effects of climate change will be benign.

    6. In respect to the stolen emails, while there is general 
agreement that the preparation of a particular graph by a few 
scientists shows poor judgment, there is no evidence for intent to 
deceive. Efforts by some to leverage this into a sweeping condemnation 
of a whole scholarly endeavor should be seen for what they are.

    7. Dealing with the risks entailed in climate change will be 
extraordinarily difficult, and reasonable people will differ on 
questions of strategy. Citizens will expect their representatives to 
confront this issue in an open and honest way; making mascots of 
scientific mavericks or shooting the messengers are not rational 
options.

    8. Nations that are first off the mark in developing new 
technologies and policies that address the climate issue, and selling 
these technologies to rapidly developing countries, will prosper.

    9. We revere our forefathers for making material and mortal 
sacrifices for our benefit. One hopes that our descendents will hold us 
in similar regard.

    Chairman Hall. Thank you. I now recognize Dr. David 
Montgomery, an economist, Ph.D., from Harvard, for his 
testimony.

          STATEMENT OF DR. DAVID MONTGOMERY, ECONOMIST

    Dr. Montgomery. Thank you, Chairman Hall, and Ranking 
Member Johnson to testify before the Committee. I am not here 
to question climate science. I am an economist, and instead 
what I intend to discuss are failures in economic analysis that 
I believe have led scientists and others to reach entirely 
unjustifiable conclusions about public policy.
    The economics of climate policy are in fact shaped by 
several generally accepted propositions from mainstream climate 
science. It is a global phenomenon, driven by global emissions, 
so it does not matter where the emissions came from. 
Concentrations of greenhouse gases in the atmosphere are what 
matter, not emissions in a single year, and these 
concentrations change very slowly. And stabilizing global 
temperatures at any level ultimately requires reducing net 
greenhouse gas emissions to zero.
    These propositions lead to some important economic 
principles. To avoid unnecessary economic harm, policy must 
involve comparable efforts by all countries. Mandates for 
emission reductions must not get out ahead of technology 
readiness, and effective R&D policy is essential.
    Now, reducing greenhouse gas emissions will have a cost. 
All of the comprehensive economic models used to study past 
proposals before this Congress have agreed on this point. Model 
results differ about the size of these costs, but the 
differences stem from the model's varied assumptions, 
particularly those about future technology and about the nature 
of the policies that are assumed to be employed. All models 
find that the deeper the emission cuts are, the higher is the 
cost of making them. Moreover, these costs are not just waiting 
a few months for GDP to catch up as EPA officials are fond of 
saying. Their loss is every year relative to the standard of 
living that would otherwise be achieved, and those costs grow 
over time.
    We keep hearing that we need emission regulations to create 
jobs and new industries. Green jobs claims are simply wrong and 
come from studies that only tell half the story. They add up 
jobs in producing green energy and ignore what happens to all 
the rest of the economy that would face higher energy costs and 
an eroded competitive position. This is so obvious to 
economists that few have even bothered to comment. Nor will 
climate regulations enable a U.S. clean energy industry to 
compete more effectively in global markets. Regulations may 
create a demand for low-carbon energy, but the evidence is 
clear that industries producing that equipment are increasingly 
being located in countries that do not bear the cost of 
reducing their own emissions.
    There are a number of additional ways in which the cost of 
policy is intended to reduce greenhouse emissions have been 
underestimated in recent studies and their benefits 
exaggerated. Two points are very important. Studies that use 
current policy baselines ignore the cost of greenhouse gas 
policies that were put in place by past legislation, like the 
Energy Security Act and the stimulus package when they look at 
the cost of, say, a proposal for cap-and-trade regulations. It 
is like celebrating how much cheaper a home improvement project 
has become because you paid half the bill in advance. You have 
to look at the whole thing, unfortunately.
    Many of these studies do not model the actual policies 
being proposed and instead estimate the much lower cost of 
idealized optimal policies, and you are going to face a very 
large problem when you hear about estimates of the cost of EPA 
regulations because there is no economic model that can really 
capture all the distortions that they are going to create in 
the economy, and they will probably assume something much more 
efficient in coming to you with cost estimates.
    Now, there are other practices that underestimate costs 
such as widespread use of what many of my colleagues and I call 
free lunch assumptions that I cover in my written testimony.
    If fears about climate change are correct, curbs on 
greenhouse gas emissions will have some benefit, but the harm 
to the United States that can be avoided directly by our action 
is often greatly exaggerated. I discuss the topic of avoided 
damages from climate regulations and how they have been 
distorted in my written testimony. Right now I would like to 
just make one point, that efforts to reduce our own emissions 
would make almost no direct difference to global temperature, 
especially if industrial production and associated emissions 
are simply exported to other countries.
    The Environmental Protection Agency's own modeling of 
climate impacts of the Lieberman-Warner bill, using a model 
developed at Pacific Northwest Laboratories in the University 
of Maryland called Minicamp shows that the Lieberman-Warner 
bill which would have had massively expensive economy-wide 
effort to reduce greenhouse gas emissions would only reduce 
global concentrations of greenhouse gases by 12 parts per 
million and that is against a target of 550 parts per million. 
By itself, the U.S. can't make a difference, and therefore 
there will be no benefits to the U.S. of unilateral action, and 
there is no sign that China, India and other rapidly 
industrializing countries would take actions that would 
undermine their economic interests.
    Unless we find a more effective approach to international 
action that brings them along, U.S. emission reductions are 
likely to have costs far greater than their benefits. Thank 
you, Mr. Chairman, and Ranking Member Johnson.
    [The prepared statement of Mr. Montgomery follows:]
        Prepared Statement of Dr. W. David Montgomery, Economist
    Mr. Chairman and Members of the Committee:
    I am honored by your invitation to testify today. I am an economist 
by profession and training and am at this moment an independent 
consultant. I will start with a brief word about my qualifications. My 
work for the past 20 years has concentrated on economic issues in 
climate policy. I have published many papers in peer-reviewed journals 
dealing with design and economic impacts of climate policies, and I was 
honored by the Association of Environmental and Resource Economists 
with their 2004 award for a ``publication of enduring quality'' for my 
pioneering work on emission trading. I taught environmental economics 
at the California Institute of Technology and economic theory at 
Caltech and Stanford University. I was a Principal Lead Author of the 
IPCC Second Assessment Reports chapter that dealt with the costs of 
climate change policy and until recently I led the group at Charles 
River Associates that developed a pioneering set of economic models and 
used them in studies of virtually every major proposal for national and 
global climate policy. My testimony today will address the Committees 
concerns about the economic analysis of climate policy. Needless to 
say, these are my own opinions.

I. Summary

    Climate change is a global phenomenon driven by global emissions. 
Concentrations of greenhouse gases in the atmosphere are what matter, 
not emissions in a single year, and these concentrations change very 
slowly. Stabilizing global temperatures at any level requires 
ultimately reducing carbon dioxide emissions from energy use to near 
zero. To avoid unnecessary economic harm, policies must involve 
comparable efforts by all countries, mandates for emission reductions 
must not get out ahead of technology readiness, and effective R&D 
policy is essential.
    Reducing greenhouse gas (GHG) emissions will have a cost. All the 
comprehensive economic models used to study past proposals have agreed 
on this point. Model results do differ about the size of these costs, 
but the differences stem from the models' varied assumptions about 
future technology and the effectiveness of a global emission trading 
system. All models also find that the deeper are the emission cuts, the 
higher is the cost of making them. Some recent studies that make claims 
to the contrary have recently garnered undue public attention, but the 
fact remains that regulatory or cap and trade policies will not lead to 
a net increase in U.S. jobs, nor will they create conditions for a U.S. 
clean energy industry able to compete more effectively in global 
markets.
    Studies that purport to show that GHG controls will produce these 
outcomes make a number of common errors. To be sure, if fears about 
climate change are correct, curbs on GHG emissions will have some 
benefit. But the harm to the U.S. that can be avoided directly by U.S. 
action is often greatly exaggerated. Most of the damage from climate 
change will occur in countries without adequate public health systems 
and with poor, undernourished and unempowered populations. Four points 
are crucial to keep in mind. First, if the U.S. were to act without 
solid assurance of comparable efforts by China, India, and other 
industrialized countries, its efforts would make almost no difference 
to global temperature, especially if industrial production and 
associated emissions are simply exported to other countries. Second, 
even global action is unlikely to yield U.S. benefits commensurate with 
the costs it would incur in making steep GHG emission cuts. Third, 
globally, even with moderate emission reductions, benefits would not be 
much greater than costs, and, fourth, conflicting economic interests 
will make international agreements on mandatory limits unstable.

II. Climate economics is driven by three features of climate change

    First, climate change is a global phenomenon driven by global 
emissions. A ton of carbon dioxide put in the air by China causes the 
same effects on Washington DC as a ton from a power plant in 
Alexandria. And China has already surpassed the U.S. as the largest 
emitter of carbon dioxide, and together with other rapidly developing 
countries will be responsible for the vast majority of emissions over 
the next century. Their growth is so rapid that even if the U.S. and 
all other industrial countries ceased all greenhouse gas emissions 
tomorrow, climate models would still predict global warming to continue 
unchecked, after a brief pause.
    Second, concentrations of greenhouse gases in the atmosphere are 
what matter, not emissions in a single year, and these concentrations 
change very slowly. Emissions today are harmless to those in the 
vicinity of their sources, and matter only because of the consequences 
of their slow buildup that are predicted by climate models. Most of the 
carbon dioxide released today will still be in the atmosphere 50 years 
from now, so that the time scales on which climate policy must operate 
are very long.
    Third, stabilizing global temperatures at any level requires 
reducing carbon dioxide emissions from energy use to near zero. The 
smaller the temperature increase society feels is tolerable, the more 
rapidly this must happen and the lower emissions must go. Achieving 
near-zero emissions is not possible with today's technology; it 
requires R&D for and deployment of technologies not known today in 
every aspect of energy production and use. \1\
---------------------------------------------------------------------------
    \1\  Martin I. Offer, Ken Caldeira, Gregory Benford, David R. 
Criswell, Christopher Green, Howard Herzog, Atul K. Jain, Haroon S. 
Kheshgi, Klaus S. Lackner, John S. Lewis, H. Douglas Lightfoot, Wallace 
Manheimer, John C. Mankins, Michael E. Mauel, L. John Perkins, Michael 
E. Schlesinger, Tyler Volk, and Tom M. L. Wigley (2002). ``Advanced 
Technology Paths to Global Climate Stability: Energy for a Greenhouse 
Planet,'' Science, 298(5595): 981-987.
---------------------------------------------------------------------------
    These three points have very important implications for the costs 
and benefits of U.S. climate policy:

        1. Reductions in U.S. greenhouse gas emissions, taken by 
        themselves, will not noticeablely lessen the impacts of climate 
        change on the United States. The Energy Information 
        Administration projects that the U.S. will contribute about 20% 
        of cumulative global emissions by 2035. \2\ But even if the 
        U.S. were to succeed in reducing its emissions to 75% of 2007 
        levels by 2035, that would make only a 3% difference in 
        cumulative global emissions between now and 2035 and have 
        virtually no effect on temperature increases. The Kerry-Boxer 
        bill that was rejected in the last Congress set the ambitious 
        goals of lowering U.S. emissions to 20% below 2007 levels by 
        2020 and 50% below by 2035. \3\ Even these ambitious targets 
        would lead to only about a 7% reduction in cumulative global 
        emissions over that time period. It is no surprise then that 
        the EPA Administrator herself has admitted that EPA's proposed 
        GHG rule will make virtually no difference to global emissions 
        or impacts on the U.S. Action by the United States cannot 
        possibly be in U.S. national interest unless it is part of a 
        larger bargain in which all other major emitters make similar 
        efforts.
---------------------------------------------------------------------------
    \2\  EIA, International Energy Outlook 2010, May 2010, Table A10.
    \3\  http://www.nicholas.duke.edu/thegreengrok/waxmanmarkey-vs-
kerryboxer.

        2. Achieving reductions in emissions at minimum cost requires 
        Where, When and How flexibility. Where flexibility means that 
        on a global and regional scale, emission reductions must occur 
        where they cost least. A system in which the United States 
        adopts costly reductions and China does nothing, in addition to 
        being insufficient to prevent the projected rise in 
        temperature, is an excessively costly way of achieving whatever 
        reductions do occur. When flexibility means that targets for 
        reducing emissions must not get ahead of the availability of 
        cost-effective technologies for achieving them. How flexibility 
        means that all sources of emissions must be included so that 
        all the lower cost opportunities to reduce emissions are used 
---------------------------------------------------------------------------
        before more costly ones.

        3. Achieving near-zero emissions will require a much more 
        effective program of incentives for R&D into low carbon energy 
        sources and energy efficiency technologies than has ever been 
        seen in U.S. energy R&D. I convened a group of the most 
        distinguished scholars who have studied the economics of R&D at 
        Stanford two years ago. They produced a set of recommendations 
        for R&D policy that would focus government funding on a much 
        more risky program of basic and applied research and leave most 
        development and all demonstration and deployment to the private 
        sector: it would use stable and credible incentives to 
        stimulate private investment in development, demonstration and 
        deployment. It would also avoid any direct funding of the white 
        elephant demonstration projects that led to failure of many 
        past energy R&D activities. \4\ This would require the 
        Department of Energy to concentrate its funding on high-risk 
        early-stage R&D and require Congress to eschew the earmarking 
        and micromanagement that has produced so little result for so 
        much wasted money on energy technology development and 
        deployment of costly and immature technologies.
---------------------------------------------------------------------------
    \4\  Arrow, Kenneth J., Linda R. Cohen, Paul A. David, Robert W. 
Hahn, Charles D. Kolstad, Lee L. Lane, W. David Montgomery, Richard R. 
Nelson, Roger G. Noll, Anne E. Smith (2008). ``A Statement on the 
Appropriate Role for Research and Development in Climate Policy,'' The 
Economists' Voice, 6(1): Article 6.
---------------------------------------------------------------------------

III. Common errors that lead to job benefits and deny the existence of 
                    costs

    I would like now to discuss a number of areas where I believe that 
there are serious problems with studies of the economic costs and 
benefits of climate policy. I start with the most questionable studies. 
These conclude that, by mandating the premature retirement of electric 
generators and increasing the cost of automobiles and most other goods 
and services climate policy would create massive numbers of new jobs 
and stimulate economic growth. I take as an example a series of studies 
by the Political Economy Research Institute on job benefits of climate 
policy and other environmental regulations. The most recent of these 
was based on studies funded by Exelon Corporation and released last 
month by the Center for American Progress and Ceres.

    Telling only half the story about jobs

    The PERI study and its like only reach their happy conclusions 
about economic benefits because they leave out of their calculations 
all the jobs lost in the rest of the economy because of environmental 
regulations and the costs they impose. In its calculations of the net 
jobs created by Clean Air Act regulations that would force retirement 
of a large number of coal-fired powerplants, PERI did not even include 
the loss in coal mining jobs that would be caused by lower coal demand. 
And it completely ignored all the jobs affected in the rest of the 
economy by higher energy costs and loss in competitive advantage of 
U.S. industries.
    Green jobs studies can make these errors because they do not use a 
model of the U.S. economy--they simply uses numbers called multipliers 
that add to the direct jobs involved in producing pollution control and 
generating equipment an estimate of jobs supplying materials used in 
that production. If PERI used any comprehensive model of the U.S. 
economy, it would be forced to account for where the mandatory spending 
on compliance with carbon limits and other environmental regulations 
came from.
    In previous testimony I described how I used CRAs model of the 
electric power sector (that supplied the estimates of investment in 
generation used by PERI), but linked it to CRA's broad model of the 
entire economy, I found exactly the opposite results from PERI. PERI 
calculated an increase of 1.5 million jobs from EPA's utility 
regulations but it ignored what happened to investment outside power 
generation. EPA's regulations would reduce, not increase, total 
macroeconomic investment, by increasing the cost burden on new 
investment. The reduction in investment would be about $150 billion 
from 2010-2015. If these numbers were used with PERI's multipliers the 
result would be net destruction of over 1 million jobs. I am not 
espousing either +1.5 million or -1 million jobs as a useful number, my 
point is that people would have had jobs doing something else if these 
regulations were not put in place, and it would be doing something that 
creates more wealth.
    Even PERI's calculations of jobs directly associated with 
compliance are exaggerated because they assume that 100% of the 
required new equipment will be manufactured in the United States. As I 
discuss later, there is clear evidence that this is not happening.

    The Luddite approach to industrial policy

    Studies like PERI explicitly recommend climate and other 
environmental regulations because they would favor industries that 
employ more employees per dollar of output and would direct investment 
away from industries that employ less workers per unit of output. This 
is nothing more than the Luddite program to save jobs by breaking up 
productivity-enhancing machines.
    More output per worker is the major indicator of technical progress 
and increasing productivity in the economy. Increasing labor 
productivity through capital investment and technology improvement is 
what drives economic growth and undergirds our standard of living. The 
overall effect of restructuring the economy toward labor intensive 
industries and processes can only be to lower output per worker and to 
lower average wages.
    Indeed, the logic of the PERI report implies that the greater the 
unproductive investment caused by a regulation, the greater its 
beneficial impact on jobs. If that logic were really valid, rather than 
seeking cost effective regulation we should seek out the highest cost 
way to achieve environmental goals. The result is absurd because the 
`logic' upon which it is based is nonsense.

    Believing there is a free lunch in energy efficiency and green 
energy

    There is a long tradition of ``bottom-up'' studies that do not 
examine macroeconomic effects or market responses, but conclude based 
on simple engineering models that greater investment in energy 
efficiency would produce direct monetary savings in excess of their 
costs. My experience with these studies goes back to the early 90s when 
a series of studies by the ACEEE, UCS and OTA produced analysis and 
conclusions virtually identical to the ``McKinsey Curve'' that has 
become so popular in recent years. Despite a series of detailed 
criticisms by economists, these conclusions are repeated over and over 
again. \5\
---------------------------------------------------------------------------
    \5\  Adam B. Jaffe and R. N. Stavins. ``Energy-Efficiency 
Investments and Public-Policy.'' The Energy Journal 15. 2 (1994): 43-
65. Mark Jaccard and W. David Montgomery ``Costs of Reducing Greenhouse 
Gas Emissions in the USA and Canada.'' In Energy Policy, Vol. 24, No. 
10. pp. 889-898. October/November 1996.
---------------------------------------------------------------------------
    All the studies contradict the basic principle that `there is no 
free lunch' unless specific market failures or government interventions 
distort the incentives that are conveyed by market prices. Unless these 
market or government failures exist, the free lunch conclusions imply 
that households and businesses are consistently mistaken in a major way 
in making choices about energy use that it is in their own economic 
interest to get right. And the policy conclusion that energy efficiency 
standards, technology mandates, or subsidies are the remedy implies 
that government agencies could do a better job of making those 
decisions for them.
    This has come to be known as the ``conservation paradox:'' simple 
engineering studies find that certain energy conservation practices and 
technologies should on balance save money while observations of actual 
behavior show that those practices and technologies are not adopted. 
The technologists' answer is that people are in general wrong or some 
hidden and unspecified market failure must exist. The economists' 
answer has been that the engineering studies are missing hidden costs, 
barriers, or other consequences of adopting more energy efficient 
vehicles, appliances, structures, and equipment that matter to people.
    Considerable research remains to be done on the conservation 
paradox. Stanford's Energy Modeling Forum is conducting a workshop in 
which leading bottom up and top down models, including that which I 
developed at CRA, are participating. An institute at Stanford 
University headed by Professor James Sweeney is conducting behavioral 
research. Perhaps the most comprehensive work has been done by my co-
author in the IPCC Mark Jaccard at Simon Fraser University in Canada, 
who finds that upon closer examination the claims of net cost energy 
savings are almost universally false.
    Any claim that a regulation or standard will on balance save money 
should be regarded with a high degree of skepticism unless accompanied 
by a well researched and peer reviewed demonstration that the specific 
action will cure a market failure, and do so without administrative 
costs great enough to wipe out the gains. As EPA and Congress move more 
and more into regulating greenhouse gas emissions through traditional 
command and control regulations and technology mandates and subsidies, 
this becomes a critical element of sensible policymaking. And the 
gutting of the agencies that provided critical review of regulatory 
analysis, such as the OIRA at OMB and OPA at EPA, has just about 
eliminated that review in the Executive Branch. \6\
---------------------------------------------------------------------------
    \6\  Randall Lutter and Richard Belzer, EPA Pats Itself on the 
Back, Regulation Vol 23, No. 3.

    Claiming that climate policy will promote a new clean energy 
---------------------------------------------------------------------------
industry in the U.S.

    Costly greenhouse gas regulations are not likely to create 
industries producing clean energy equipment for export or domestic use. 
The experience of the past decade has proven that environmental 
standards or clean energy mandates will not create industries in the 
United States that will export clean technology to the rest of the 
world. To the contrary, the cost of such mandates is borne where they 
are imposed, but the equipment may well be produced by workers in other 
countries. For instance, in 2008 U.S. wind turbine imports were $2.5 
billion and exports were $22 million; less than half the wind turbines 
installed in the U.S. in 2007 were manufactured by U.S. companies. \7\ 
China is becoming the world's largest manufacturer of wind equipment, 
\8\ and exporting that technology to the U.S. solar manufacturers, 
including some of the technologically advanced, are moving to China to 
manufacture the solar arrays. \9\ German experience has been similar; 
its huge subsidies for wind energy largely drew electric power from 
Denmark where the generation capacity had already been installed. And 
now Vestas (Denmark's largest wind producer) recently closed all or 
most of its Danish manufacturing, despite the large EU demand for such 
technologies.
---------------------------------------------------------------------------
    \7\  USITC, Wind Turbines: Industry and Trade Summary, Office of 
Industries, Publication ITS-02.
    \8\  ``With their government-bestowed blessings, Chinese companies 
have flourished and now control almost half of the $45 billion global 
market for wind turbines. The biggest of those players are now taking 
aim at foreign markets, particularly the United States, where General 
Electric has long been the leader.'' Keith Bradsher, New York Times, 
Dec 14, 2010.
    \9\  Edward L. Glaeser: Why Green Energy Can't Power a Job Engine--
NYTimes.com. http://economix.blogs.nytimes.com/2011/01/18/why-green-
energy-cant-power-a-job-engine/?ref=business.
---------------------------------------------------------------------------
    Economic theory and the experience in Europe and the United States 
with renewable energy policies show the effect is the opposite of 
stimulus to clean technology industries. Clean energy equipment will be 
produced where it is least costly to do so, and domestic policies that 
raise energy costs can shift that comparative advantage against the 
U.S. Regulations create a demand in the U.S. for that equipment, but 
leave it open to all to supply that equipment. At the same time, 
environmental regulations increase the cost of doing business in the 
U.S. relative to other countries. Thus domestic manufacturers of 
mandated equipment and its components are put at a cost disadvantage 
relative to competitors located in countries that do not incur the cost 
of regulation. The result is to shift the supply chain for pollution 
control and electric generation equipment offshore toward less 
regulated regions where companies are better able to compete in 
producing components for powerplants and pollution controls. The result 
is that regulation increases demand for pollution control equipment but 
reduces domestic supply.
    Even if the goal of industrial policy were accepted, mandatory 
reductions on greenhouse gas emissions are the wrong way to go about 
it. A study by economist Michael Spence that was discussed in the 
Washington Post \10\ confirms this point. Spence points out that what 
he calls the tradable sector--which includes manufacturing--has grown 
in output but not jobs, while the nontradable sector--principally 
government and health care--has provided the job growth. He then 
addresses the challenge of how to create U.S. job growth in the 
tradable sector--which means policies that improve the productivity of 
U.S. workers so that growth in output is not accompanied by increased 
outsourcing. Modeling of greenhouse gas regulations that I will discuss 
later shows that they increase costs and lower worker productivity, 
thus leaving U.S. workers even more vulnerable to competition from 
cheaper foreign suppliers. This is not to say that climate policy 
should be abandoned, but it does imply that it must be designed 
carefully and sparingly because it does make the task of spurring job 
growth and income equality more difficult.
---------------------------------------------------------------------------
    \10\  Steven Pearlstein, Good for GDP not good for workers, 
Washington Post March 13, 2001, G-1.
---------------------------------------------------------------------------

IV. Common errors in discussing climate benefits or avoided damages

    The most fundamental error is failing to admit how little is known 
about the direct causes of damage to human and economic systems that 
have been attributed to climate change. Climate models predict various 
geophysical consequences of increasing greenhouse gas emissions--change 
in global average temperature is the fundamental outcome of interest. 
Different models produce increasingly inconsistent results when they 
attempt to predict the regional distribution of temperatures or of 
other climatic variables such as rainfall. In order to predict effects 
on agriculture, the range of disease vectors, or other land related 
effects an even finer scale on which the models produce nothing of 
value is required, as are many other assumptions about levels of 
institutional development, public health systems, and on and on. \11\ 
Some changes may be beneficial, such as increased growing seasons and 
carbon dioxide fertilization in high latitudes, and some are negative, 
such as drought or storms in tropical areas. But the range of 
possibilities and whether it adds up to a positive or a negative in any 
particular region is impossible to predict with confidence. Therefore, 
any economic evaluation of damages is equally uncertain.
---------------------------------------------------------------------------
    \11\  See paper by Robert Mendelssohn on impacts of climate change 
on land-based activities and comment by David Montgomery in forthcoming 
book published by the Lincoln Land Institute.
---------------------------------------------------------------------------
    Another, and more intentional distortion, is describing total 
effects of climate change rather than damages avoided by actions under 
consideration. Many times the argument for action starts by describing 
all the potential damaging consequences of temperature increases above 
today's level and the costs they would impose, and then uses this image 
to support a particular action or proposed legislation that cannot 
avoid more than a fraction of that damage. In analyzing any particular 
policy the costs of that policy must be compared to the damage it 
avoids. It is shocking how rarely this fundamental economic principle 
is violated.
    Benefits are also overstated by exaggerating fears of health 
effects and other damages to the U.S. based on what is only likely to 
happen in poor countries without adequate public health infrastructure 
and with populations vulnerable due to poverty and poor diet. Concern 
about greater prevalence of tropical disease in the United States is 
the most egregious example, when the U.S. public health system already 
eliminates that risk through vaccination and vector eradication. It is 
not because of temperature that malaria stops at the US-Mexican border.
    There are a number of other more technical errors that lead to 
overestimation of damages. The first is ignoring how individuals and 
businesses will adapt to climate change in order to avoid harm. This 
error was labeled the ``dumb farmer'' approach in pioneering work by 
Robert Mendelsohn of Yale who showed the large reduction in damages 
when it is assumed that farmers adapt through changing farming 
practices rather than continuing with practices that are more 
vulnerable to changes in climate.
    Another error is including avoided damages that occur in all the 
rest of the world in estimates of the social benefits of greenhouse gas 
reductions in the United States. This approach was adopted by the U.S. 
government in its guidance for calculating the social cost of carbon 
for use in cost-benefit within the U.S. government. It leads to choices 
that have significantly higher costs than the benefits they provide in 
the United States.
    The final error that exaggerates distant benefits relative to near 
term costs is the use of low discount rates derived from ethical 
arguments rather than economically meaningful discount rates that 
represent economic costs of displacing more productive investments with 
less productive ones.

V. Common errors that lead to underestimating costs

    A review of modeling studies of costs of climate regulations 
reveals four common errors that lead to underestimating costs.
    The first I call hiding policy interventions in the baseline. This 
is particularly a problem because of the incremental approach we have 
taken to adopting a climate policy. Fuel economy and renewable fuel 
standards were adopted in ACES. Subsidies for renewable technologies 
were expanded in the stimulus package. Fuel economy standards have been 
tightened again under the Obama administration. Each time this 
happened, the EIA included the new regulations in its reference case 
and lowered its emission forecast. This means that each time it 
analyzed the cost of a cap on greenhouse gas emissions--even when it 
had exactly the same provisions as a previous year's proposal--its 
costs came down. The prior regulatory programs hidden in the baseline 
appeared to be providing emission reductions at no cost. It is only by 
stripping out all explicit climate measures from the baseline--even 
those put in place in the past--that it is possible to calculate the 
full cost of committing to mandatory limits on greenhouse gas 
emissions.
    A second common practice is assuming more efficient policies than 
are actually under consideration. This occurred in the Clinton 
Administration when the official estimate of the cost of the Kyoto 
Protocol assumed that all countries would participate in unrestricted 
emission trading, when under the actual provisions of the Protocol only 
industrial countries would do so. I observed the same thing in 
estimates in the cost of the Lieberman-Warner bill, when some of EPA's 
estimates assumed levels of availability of offsets that were not 
possible under the provisions of the law, and when estimates by other 
groups were based on earlier, less stringent legislative proposals. It 
is necessary to make sure that cost estimates are actually representing 
the policies on which a decision is to be made. This is going to be a 
major problem in evaluating EPA's proposed greenhouse gas regulations, 
because many models are incapable of incorporating the intricacies of 
those regulations and will simplify them to be no different from a 
carbon tax or cap and trade program.
    This leads to a gross underestimate of the full cost of command and 
control regulations. The reason in simple terms why command and control 
regulations cost more than cap and trade is that they are designed by 
bureaucrats who know next to nothing about the circumstances of 
individual businesses. Therefore, their orders cannot possibly lead to 
the same cost-effective solutions that managers would find for their 
own businesses when facing a price on greenhouse gas emissions. 
Likewise, no model can incorporate sufficient detail to capture all the 
costs imposed by imposing uniform mandates or standards on a highly 
diverse population of households and businesses.
    Costs are also underestimated in models that assume unproven 
``learning curves'' for all green technologies (and no others). EPA's 
recent ``Prospective'' cost-benefit of Clean Air Act regulations is a 
case in point. A substantial economics literature has arisen 
questioning whether the empirical observation that costs of some 
complex processes or equipment (semiconductors, airframes, for example) 
to decline as cumulative output increases indicates a causal connection 
that could be attributed to ``learning.'' Several alternative 
explanations are equally compelling and have more support in case 
studies of actual R&D processes. These include the hypothesis that cost 
reduction comes from a combination of R&D to create new and less costly 
processes, followed by a limited period of learning; the likelihood 
that learning is specific to the worker, company or establishment and 
not able to be transferred to an entire industry, and the fundamental 
problem that costs may be falling because of general technology 
improvement over time that cannot be accelerated by producing the item 
more quickly. \12\ Yet many studies of the cost of climate policies 
assume aggressive ``learning curves.''
---------------------------------------------------------------------------
    \12\  William D. Nordhaus, The Perils of the Learning Model For 
Modeling Endogenous Technological Change. Yale University December 15, 
2008.
---------------------------------------------------------------------------
    Finally, some studies that reach only a single optimistic 
conclusion have failed to recognize adequately the uncertainty of 
future technologies. For example, the low costs found in some studies 
by the EIA are based on a highly questionable premise of the growth of 
nuclear generation.

VI. Findings of studies based on broadly accepted models and economic 
                    principles

    Before turning to global issues, I would like to present some 
findings from broadly accepted models that have been used to estimate 
the costs of climate legislation in the United States. I will base 
these observations on presentations made at workshop held by the 
Electric Power Research Institute in May 2007 to which authors of all 
extant studies of the then-pending Lieberman-Warner bill were invited. 
This included the Energy Information Administration (EIA), the 
Environmental Protection Agency (EPA), the Congressional Budget Office 
(CBO), the Massachusetts Institute of Technology (MIT), Charles River 
Associates (CRA), the American Council for Capital Formation (ACCF) and 
the Clean Air Task Force (CATF)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although the graph that I have reproduced above \13\ of costs per 
ton of emission reduction appears to show great diversity in estimates 
of impacts, all the models found that there would be costs to adopting 
emission controls, and the costs would become larger as deeper cuts are 
made in emissions.
---------------------------------------------------------------------------
    \13\  Tom Wilson, Understanding Model Estimates of the Economic 
Costs of Climate Policy EPRI Modeling Workshop, May 8, 2008.
---------------------------------------------------------------------------
    It is striking that the variation within a single model due to 
different assumptions is far greater than across the economic models. 
Looking at 2030, CRA and MIT fall in about the same place on the cost 
per ton of emission reductions, EPA spans all the results of other 
models save those from ACCF, and EIA's model NEMS which was used by 
EIA, ACCF, and CATF spans an even wider range than EPA.
    Moreover, the Chair pointed out that ``While there are important 
differences in the modeling approaches and models used, much of the 
variation in the cost estimates appears to be driven by a handful of 
key assumptions, several of which are highlighted here:

Reference case

        Most modeling efforts rely on the Energy Information 
        Administration's Annual Energy Outlook (AEO) to develop their 
        reference case. In general, models that use an earlier 
        projection of the baseline (AEO2006 or AEO2007) have to find 
        more emission reductions to achieve the Lieberman-Warner 
        targets and have higher costs--everything else equal--than 
        those using the recent AEO2008 projection . . .

Technology Cost and Deployment

        In general, scenarios that limit the use of advanced, low and 
        non-emitting electricity generation technologies result in 
        higher costs; those that let them enter freely result in lower 
        costs. Model results presented at this workshop show dramatic 
        variations in renewable, coal with CCS and nuclear capacity 
        additions . . .

Emission Offsets

        In general, scenarios that allow for compliance using offsets 
        (emission reductions that are made outside of an emissions cap) 
        show a much lower cost than those scenarios without offsets. 
        Most groups do not model offsets in detail, but rather make 
        relatively crude assumptions about their cost and quantity. 
        Several teams did not include any international offsets in 
        their analyses based upon their interpretation of the bill.

Time Horizon

        The EIA's NEMS model runs (used by several groups) extend 
        through 2030, but most of the other models run through 2050. 
        Different time horizons can affect compliance behavior (e.g. 
        banking of extra credits), choice of technology deployments, 
        and other aspects of model economics.

Discount Rates

        The models use discount rates (which define the time preference 
        for money) ranging from 4 to 7%. This affects the time period 
        in which emissions reductions are viewed to be most attractive 
        from an economic point of view, and leads to differences in 
        total economic cost.'' \14\
---------------------------------------------------------------------------
    \14\ http://my.epri.com/portal/
server.pt?open=512&objID=342&&PageID=223366&mode=2&in_hi_userid=2&cached
=true.
---------------------------------------------------------------------------

VII. Common errors in dealing with global nature of climate change

    I have concentrated on costs of climate policies in the U.S. to the 
U.S. Let me say a few words about estimates of global costs and 
benefits of climate policy. Studies that avoid the errors and biases 
that I have described generally conclude that globally the benefits and 
the costs of even modest temperature goals would be of roughly of the 
same magnitude--if they could be achieved with perfect where, when and 
how flexibility.
    But these studies are also overly optimistic, because they ignore 
two huge obstacles to achieving where, when and how flexibility:

    <bullet>  They ignore the institutional realities that are likely 
to prevent most countries from adopting the most cost-effective 
policies to reduce missions within their borders, and

    <bullet>  They ignore clear evidence that no global agreement on 
mandatory emission reductions is likely to be in the national interest 
of the countries that must participate for it to be effective.

Excessively costly national policies

    Even national governments are complex institutions, and their 
workings can frustrate the adoption and enforcement of comprehensive 
emission limits or lead to the use of policies that are needlessly 
costly. There is good evidence that this will occur in the case of 
domestic GHG limits. In a recent study, a colleague and I used two 
examples, the United States and China, to illustrate how the systematic 
study of institutions and the political economy of choices can expand 
understanding of current policy choices and likely future progress in 
countries with very different kinds of political and economic 
institutions. \15\ This analysis suggests several conclusions:
---------------------------------------------------------------------------
    \15\  Lee Lane and David Montgomery (2010), ``Political 
Institutions and Greenhouse Gas Controls,'' AEI Center for Regulatory 
and Market Studies (Revised August 2010).

    <bullet>  There is a strong, systematic and comprehensible 
political logic that leads to choice of policies that differ widely 
from the economist's ideal of a single price on all greenhouse gas 
---------------------------------------------------------------------------
emissions.

    <bullet>  In the United States, the most cost-effective approaches, 
a carbon tax and cap and trade, were respectively never on the agenda 
and defeated in Congress. Instead we appear to be embarking on a 
piecemeal approach of command and control regulation through the Clean 
Air Act and technology mandates and subsidies through legislation. This 
outcome was completely predictable given the history of comprehensive 
energy legislation and the nature of legislative institutions.

    <bullet>  In China it is likely to be difficult or impossible for 
the central government to enforce comprehensive and binding limits on 
greenhouse gas emissions; a related finding is that the outcome of 
China's adopting a comprehensive cap-and-trade policy is likely to be 
very different from that predicted by economic models that assume 
costless enforcement and efficient markets.

Impossibility of a single global commitment to mandatory reductions

    Globally, the asymmetric distribution of costs and benefits implies 
that the national interests of even the most important states that must 
agree to a global climate regime are inconsistent with any agreement on 
mandatory emission limits. Most studies of the distribution of damages 
from climate change conclude that under the most likely scenarios the 
greatest harm will occur in poor countries located in tropical regions. 
The United States and Europe will suffer little direct harm in relation 
to the size of their economies, at least if sensible measures for 
adaptation are undertaken. Russia is very likely to benefit from warmer 
temperatures. Yet the distribution of present and future emissions is 
exactly the opposite. In other word, the countries that would have to 
undertake the largest emission reductions gain the least benefits. 
China and India are possible exceptions; they have very large emissions 
and are also threatened by great potential harm, at least in some 
regions.
    This pattern of costs and benefits is not a formula for a 
successful agreement in which industrial countries make drastic 
emission reductions while also covering the cost of emission reductions 
and adaptation in poor countries. Only a willingness to incur high 
costs for the benefit of the poor countries of the world could motivate 
the U.S. to agree to such an outcome, and our current allocation of 
resources to aid gives no indication of such willingness. China and 
India might well find an agreement in their national interests, but 
both are hard bargainers and face their own institutional and political 
obstacles to carrying out meaningful reductions in emissions. Far from 
receiving compensation and adaptation assistance, poor countries would 
have to make payments to the rich in order to make an agreement be in 
the national interests of the wealthy countries of the world.

VIII. The net result

1.  Even on a global scale, costs and avoided damages are quite 
similar.

    The global net benefits of even optimal GHG controls appear to be 
relatively modest. One recent estimate pegged their present discounted 
value at slightly more than $3 trillion over the next two hundred and 
fifty years. \16\ Compared to the size of the global economy, this is 
not a very big number. Also, controls are certain to be far from 
optimal, \17\ and costs could easily exceed benefits. \18\ The rewards 
of an agreement on controls may, then, be offer only a weak incentive.
---------------------------------------------------------------------------
    \16\  William D. Nordhaus, A Question of Balance: Weighing the 
Options on Global Warming Policies, New Haven: Yale University Press, 
2008.
    \17\  Lee Lane and David Montgomery (2008), ``Political 
Institutions and Greenhouse Gas Controls,'' AEI Center for Regulatory 
and Market Studies.
    \18\  Richard S.J. Tol (2009), ``An Analysis of Mitigation as a 
Response to Climate Change,'' Copenhagen Consensus on Climate.

2.  No global agreement to keep temperature increase to 2 deg C or less 
---------------------------------------------------------------------------
will be stable.

    The most comprehensive formal analysis of the resulting outcomes 
that I have seen concludes that

        ``Only coalitions including all large emitting regions are 
        found to be technically able to meet a concentration 
        stabilization target below 550 ppm CO<INF>2</INF>eq by 2100. 
        Once the free-riding incentives of non-participants are taken 
        into account, only a ``grand coalition'' including virtually 
        all regions can be successful. This grand coalition is 
        profitable as a whole, implying that all countries can gain 
        from participation provided appropriate transfers are made 
        across them. However, neither the grand coalition nor smaller 
        but still environmentally significant coalitions appear to be 
        stable. This is because the collective welfare surplus from 
        cooperation is not found to be large enough for transfers to 
        offset the free-riding incentives of all countries 
        simultaneously.'' \19\
---------------------------------------------------------------------------
    \19\  Valentina Bossetti, Carlo Carraro, Enrica De Cian, Romain 
Duval, Emanuele Massetti and Massimo Tavoni, ``The Incentives To 
Participate In And The Stability Of International Climate Coalitions: A 
Game-Theoretic Approach Using The Witch Model, OECD Economics 
Department Working Papers No.702.
---------------------------------------------------------------------------
    Chairman Hall.
    I thank all of you for your testimony, and I once again 
remind our Committee and the Members that I would ask you to 
limit your questioning to five minutes. I will open with some 
questions, and I thank all of you for your good testimony.
    This is a group that I have wanted from the beginning. We 
have asked for it. We asked for it in letters from the opposite 
side and been turned down, and the Ranking Member said I think 
in her closing statement that I hope this is not the beginning 
and ending of the record on climate science in the 112th 
Congress with this hearing. It won't be. We are going to have 
others because we want to finally get to those who did indicate 
that it was, as you have, that it was bad science and had the 
right to question that science and find out those that will 
question. We will have that committee at a later time here.
    Let me start mine. I don't want to call you doctor if you 
are not a doctor. Mr. Glaser, is that right? In your testimony 
you discussed the timeline of the issuance of the endangerment 
finding, and I appreciate you bringing that up. With respect to 
the promulgation of standards for reducing greenhouse gas 
emissions for motor vehicles worked out with the White House, 
automakers, California state regulators and environmental 
groups, you state that the timing of the auto rules suggest 
that the endangerment finding was predetermined. Do you want to 
enlarge on that a little bit? How often does the EPA change the 
direction of its rule-making between the issuance of the 
proposed rule and the release of the final rule?
    Dr. Glaser. Yeah, I can address that. It happens. In fact, 
it has happened very, very recently. One good example of EPA's 
substantially changing a regulation in response to public 
comments is the so-called boiler MACT rule which is a rule to 
address hazardous air pollutant emissions from commercial and 
industrial boilers. In that case, EPA made a proposal. They got 
very, very significant comments in opposition, and in the final 
rule that was just issued, EPA made very significant changes to 
the rule, and they say they are going to consider further 
changes still.
    So the integrity of the public comment period is very 
important. The process flaws that I talk about in my testimony 
are not technicalities. They are meant to protect the integrity 
of the ultimate decision that is reached. So when we have a 
situation as we had here, when the Administration came to 
office determined to regulate greenhouse gases, through the 
Clean Air Act if necessary, and therefore pretty early in the 
Administration committed to the motor vehicle regulations for 
which the endangerment finding was the necessary predicate, it 
undermines the integrity of the process. It undermines the 
ability of the public to affect that process with comments and 
therefore undermines the integrity of the ultimate decision 
reached.
    Chairman Hall. I thank you, sir. How does that 
predetermination of the final rule affect the usefulness and 
the legitimacy of the rule-making process?
    Dr. Glaser. Yeah, well, as I said----
    Chairman Hall. You touched on that, but I have a couple of 
minutes left. I hope you will give us an answer on that.
    Dr. Glaser. Yeah, sure. The whole purpose that we have 
notice and comment rule-making which EPA undertook for the 
endangerment finding is for the public to comment and to be 
able to present information and studies and affect what the 
ultimate decision would be. Keep in mind that the fundamental 
question that EPA was asking when it put the endangerment 
finding out for public comment was should we be making this 
endangerment finding? Do we have a basis for making this 
endangerment finding? There are lots of comments that were 
submitted saying no, you should not do that, but it did not 
appear to me anyway and to many others that that was an outcome 
that was possible. In other words, the EPA would change its 
mind and not make an endangerment finding. One way we know this 
is that EPA only allowed a 60-day comment period for the 
endangerment finding, 60 days to comment on this massive amount 
of scientific information. It wasn't enough time. But in my 
view, EPA had determined that it wanted to move very quickly on 
the underlying regulations which drove the endangerment finding 
process forward more quickly than it should have been and 
therefore really made it difficult for companies, members of 
the public, private institutions, public institutions to make 
comments and ultimately to affect the process.
    Chairman Hall. I thank you, sir. Dr. Montgomery, if the 
United States were to drastically reduce carbon dioxide 
emissions, electric utilities would have to rapidly retire 
traditional and coal-fired power plants which currently make up 
approximately 45 percent of America's current generation mix, 
and the EIA anticipates, that is the Energy Information 
Administration, anticipates that coal will remain an important 
part of our electricity generation producing 43 percent of our 
total generation by the year 2035. So considering the EIA 
projects, that they project electricity demand will increase in 
the United States by 21 percent by 2035, what would be the 
repercussion from removing coal, say, from the generation mix?
    Dr. Montgomery. Mr. Chairman, removing coal from the 
generation mix would impose very large costs and potentially 
disruptive effects on electricity markets. It all depends on 
how fast it is done and the extent to which technologies such 
as carbon capture and sequestration become available and make 
it possible actually to continue to use coal through clean-coal 
technologies which capture carbon and sequester it. But all of 
those technologies are unproven, in the future, at best in an 
experimental stage and are themselves subject to a number of 
regulatory and environment objections.
    We looked just at the retirements--when I was at Charles 
River Associates, we looked just at the retirements that would 
be associated with EPA's greenhouse gas regulations and 
concluded that they would produce very large increases in 
electricity costs, maybe something like and I am relying on 
memory now, 40 to 50 percent increase in whole electricity 
prices over the next ten years or so and quite large impacts on 
the standard of living. I remember something on the order of 
$500 to $1,000 say loss in income to the average worker.
    Chairman Hall. Okay. I thank you. Recognizing that China, 
Russia, Mexico, India and on and on are not going to 
participate with us financially, and that is a fact, is it not? 
Yes or no. Yes?
    Dr. Montgomery. Yes, it is. We see very little evidence 
that China----
    Chairman Hall. And does it surprise you that we spend over 
$30 billion just on research with no expectation of any money 
from them? So somebody has got to go by the cash register. Now, 
you are an economist. There is a cash register in every store 
in this town, and there will be a cash register involved here. 
And I think they ought to consider that. I think that is your 
opinion, isn't it?
    Dr. Montgomery. Yes, it is. There will be costs to what we 
do.
    Chairman Hall. Thank you. I yield back my time. At this 
time I recognize Mrs. Johnson for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman. I would 
like to pose this question to the three physical scientists on 
the panel, Dr. Christy, Dr. Muller, and Dr. Emanuel. There 
seems to be some attitudes that is an elaborate hoax 
orchestrated by the scientific community on global change, and 
I don't know that I have heard you argue whether or not there 
is global change happening and human activity as a factor. 
Instead, it is more of a disagreement over the magnitude of 
warming and the degree of which human activity plays a role.
    Based on your work, the three of you, do you agree that the 
global temperature is rising and will continue to rise and that 
greenhouse gas concentrations are at least partly to blame?
    Dr. Christy. The global temperature might continue to rise, 
it might not, but greenhouse, the extra greenhouse gases we are 
putting into the atmosphere are indeed a warming influence. The 
question is what are the other gazillion things that affect 
global temperature going to do as a result. But greenhouse 
gases in and of themselves do exert a warming influence on the 
planet.
    Ms. Johnson. Thank you.
    Dr. Muller. I agree with Dr. Christy. Greenhouse gases do 
exert a warming. I believe we are seeing that warming. The 
issue in my mind is not whether we are seeing but what is the 
degree. Is it something which, if it is at the high end, we 
really do need to move very rapidly, although we do have to 
engage the other countries because as Dr. Montgomery said, most 
of the warming is not going to come from the United States? 
Most of the carbon dioxide will come from other countries in 
the world.
    On the other hand, if the warming is a little bit less, the 
models have the ability to account for less. There are unknowns 
in the models having to do with cloud cover feedback and water 
vapor feedback, and so if the warming is a little bit less than 
we thought previously, then we have time to implement some more 
long-term solutions that currently some people object to 
because they wouldn't work within the next short period of 
time.
    Dr. Emanuel. I think all three of us are in pretty good 
agreement on this point. The planet is warming up. The bulk of 
evidence suggests that increasing carbon dioxide and other 
greenhouse gases have something to do with it, and we are all 
in agreement that unfortunately when we try to project forward, 
the risks are poorly quantified at this point. And projections 
that have been made by modelers range from the benign to the 
catastrophic. So the problem for all of us is how do we deal 
with the risk that is so uncertainly quantified?
    Ms. Johnson. Do you think we have the answers now or do we 
need to continue, do the research?
    Dr. Muller. I believe that continued research is essential 
and should be expanded. You asked about a conspiracy earlier. I 
don't believe there is a conspiracy, but I do believe that many 
of the scientists who have been involved in this field are so 
deeply concerned about what they found that they work as 
advocates. And when they work as advocates, there is a danger 
that they lose their impartiality. I fear that this is 
happening. I fear that the scientists are not trusting the 
public enough. They feel they have to make it clear how scared 
they are, and they are advocates and no longer scientists. The 
bad effect of this is that the public then loses some of its 
trust in science, and that is deeply unfortunate. In Berkeley 
Earth, our goal is to not have any political views, not to 
become advocates, simply do the best job we can on the science.
    Ms. Johnson. Thank you.
    Dr. Christy. You are asking a scientist if he wants more 
research? I will leave that answer there. But I would say this. 
One of the things I do is I test climate model output that has 
been talked about here, and what we have found is that the 
climate model output does not match up to the real world. So I 
would say we have many questions out there that do need to be 
addressed. And so that is a foundation for more research, yes.
    Dr. Emanuel. I would just chime in here that there are 
regions of disagreement between observations and models, and 
some of those disagreements have shown demonstrably that the 
model projections have been too conservative. So once again, I 
emphasize that anyone who pretends to a certainty in a benign 
outcome is probably kidding himself.
    Now, I think of course it is ridiculous that there was ever 
a notion that thousands of scientists all over the world would 
be engaged in some kind of hoax. It seems to me a hoax itself 
that that kind of statement ever got made. I don't understand 
that.
    I want to say one thing about the IPCC because I have a 
sense of widespread misperception, probably not among the panel 
but perhaps among the Members. It is not a research 
organization. It does not conduct research, it doesn't fund 
research. It was set up I think in response to requests from 
broad segments of the public as a communications exercise 
between scientists and the public. One can certainly claim that 
it hasn't been perfect in this regard, but that is what it is.
    And so when people say you shouldn't trust IPCC research, 
you are not actually speaking about that body correctly.
    Ms. Johnson. Thank you very much. My time has expired, but 
I think we can finally say that global warming is happening. 
The details of it and the various ranges of concern and opinion 
will rest with continual research.
    Chairman Hall. The Chair at this time recognizes Mr. 
Sensenbrenner, Vice Chairman of this Committee, for five 
minutes.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. I 
want to have a few questions for Dr. Emanuel, but as a 
predicate, you know, let me say that I think that the 
scientific community has wrapped itself too tightly around the 
axel rod of the fatally flawed Kyoto Protocol which let 134 
countries off the hook, and we are seeing, you know, huge 
increases in emissions from countries like China and India, and 
as a result with draconian increases in the cost of energy, 
this is no longer an environmental debate but it is a debate on 
jobs and economics and who wins and who loses in jobs and 
economics.
    Now, Dr. Emanuel, on December 10 of 2009 which was a couple 
of weeks after the release of the emails, you were at a forum 
at MIT which you kind of had very advocacy comments on that. 
And about three months afterwards, you were appointed to the 
Oxborough Panel which was supposed to look into the 
circumstances around the emails and the release of the emails 
from the Climate Research Unit at the University of East 
Anglia. And you know, I question the objectivity of that panel, 
but since you were a member of it, I want to ask you five 
questions about seriatim, and if the answer is yes to any of 
them, please let us know. If the answer is no to all of them, 
let us know.
    The first question is does the panel have any written terms 
of reference and if so, what were those terms? Did the panel 
issue a call for reference? Did they hold any public hearings? 
Did the panel interview any of the critics of the Climate 
Research Unit's scientific work, and were the panel interviews 
with CRU staff recorded and released? Now, are any of those 
questions to be answered yes?
    Dr. Emanuel. I must confess, I couldn't write them down 
fast enough.
    Mr. Sensenbrenner. Okay. Would you like me to repeat?
    Dr. Emanuel. But let me say, because I was on the panel, we 
did have clear terms of reference. That much I can tell you. We 
did write a report whose release was public, and let me say 
that the scope of that panel was very narrowly defined. As I am 
sure you are aware, there were several panels----
    Mr. Sensenbrenner. If I may interrupt you, the question 
that I asked was not whether the report was released but were 
any of the panel interviews with CRU staff recorded and 
released?
    Dr. Emanuel. No, I don't believe so.
    Mr. Sensenbrenner. Okay. Go ahead.
    Dr. Emanuel. I was going to simply say that our objective 
we were told was to determine whether there had been any sort 
of breach of scientific integrity in this particular unit, CRU. 
It wasn't a comprehensive review of the quality of the science, 
anything like that. It was a very narrowly defined objective.
    Mr. Sensenbrenner. Okay. Well, this has called into 
question the quality of the science and whether the scientific 
community put the wagons in a rather tight circle, and I have a 
press release from the British Parliament, and there is a Labor 
Party MP named Graham Stringer who said Oxborough didn't go as 
far as I expected. The Oxborough report looks more like a 
whitewash. And then I go back to the fact that Lord Oxborough 
is the Vice-Chairman of an environmental group called Globe 
International, the CEO of carbon capture and storage and 
Chairman of Falk Renewable Enterprise. All of them are advocacy 
groups. Two of them have the potential of making a lot of money 
if all of this is implemented. And isn't that a conflict of 
interest?
    Dr. Emanuel. All I can say in response to that is that as 
part of this commission which involved some very gifted 
scientists who have no ax to grind at all in this climate 
debate, the papers we read, the interviews we conducted showed 
that the entire enterprise was one of great integrity.
    Mr. Sensenbrenner. Well, that is not what the Labor Party 
MP says, Mr. Stringer, and he is a Member of the Select 
Committee on Science and Technology and has a Ph.D. in 
chemistry. He said it was a whitewash, and here the chairman of 
this group ends up, I think, having a very clear conflict of 
interest, you know. I can tell you that if the President or the 
Congress appointed somebody with those types of conflicts to 
head an investigation over something that has cropped up, I 
think that that chairman would get drummed out of office 
because of the conflict of interest. You know, I don't know how 
we can believe the report of the commission that you were on 
simply because there was no real sunshine in on the process. 
There wasn't any public hearings, they didn't interview any 
critics of their scientific work, and the interviews with the 
CR staff were neither recorded nor released. Now, you know, we 
are just saying that you who have been an advocate, witness 
your comments at MIT, should state that the commission that you 
were on is objective. And I don't think anybody who wants to be 
fair-minded of this can buy it.
    My time is up and I yield it back.
    Chairman Hall. Thank the gentleman. The Chair recognizes 
Mr. Miller, the gentleman from North Carolina for five minutes.
    Mr. Miller. Thank you, Mr. Chairman. I would like to begin 
by moving into the record a paper that comes from Professor 
Armstrong's website on predicting elections from politicians' 
faces. It concludes that surveys of voters taken a year out 
before an election are predictive of how elections will come 
out based upon voters' snap judgments of the competency of the 
politicians' faces. It appears to forecast that Hillary Clinton 
will run away with the 2008 presidential nomination and that 
the Republican nomination will be a dead heat between John 
McCain and Duncan Hunter.
    I would now move this into the record.
    Chairman Hall. Let me ask, did my staff have an opportunity 
to review it? Staff hadn't had an opportunity to review it, so 
I reserve the right to object to the inclusion.--
    Mr. Miller. I really don't think----
    Mr. Rohrabacher. Quick question at this point about the 
relevancy----
    Mr. Miller. I don't have time.
    Mr. Rohrabacher. --of what you have just put into the 
record?
    Chairman Hall. It is not in the record.
    Mr. Rohrabacher. It is not? Thank you.
    Mr. Miller. Mr. Glaser, your testimony is the most peculiar 
testimony I have ever heard before a Congressional Committee. 
You know, if you went to the Player's Retreat, a bar in 
Raleigh, tonight you can find a set of lawyers who are sharing 
a pitcher or two and complaining about the rulings that judges 
made against him the previous week, and they would say, you 
know, he didn't even listen, he had his mind made up, and on 
and on. But I have never really heard testimony by a lawyer 
before a Congressional Committee to that effect.
    Now, you take some pains to say both in your written 
testimony and in your oral testimony that you are offering your 
own personal opinions in your testimony here, that you are 
offering your personal opinions about the very same matters 
about which you have appeared as an attorney. Now, it is 
unethical for a lawyer to offer their own personal opinions in 
any matter in which they represent a client? Isn't that 
correct? I have heard judges admonish lawyers from the bench 
when they say Your Honor, I think. The judge will say, counsel, 
you are not here to tell me what you think. You are here to 
tell me your clients' position. That is correct, right?
    Dr. Glaser. Not in front of this body, sir.
    Mr. Miller. No, it is not in front of this body, but in 
front of this body you are saying now these are your personal 
opinions. I don't think many clients would really like their 
attorney going out and saying here is how I disagree with my 
client. Is there any point on which you disagree with your 
client?
    Dr. Glaser. In what respect, sir?
    Mr. Miller. Well, I mean, in any respect. I mean, you have 
offered us as your testimony today what is clearly a lightly 
edited version of a brief you wrote on behalf of your clients. 
But while you are saying to a court or to the EPA in a rule-
making matter that that is your client's opinion, you are now 
saying it is also your personal opinions. So is there any way 
in which your personal opinion that you offer here today 
differs from the opinions of your clients on facts or on law?
    Dr. Glaser. You know----
    Mr. Miller. I take that as no, isn't it?
    Dr. Glaser. Wait. You know what? I don't know the answer to 
that question because I have not reviewed the testimony in 
detail with all of my clients. I can tell you I hope they 
don't, sure.
    Mr. Miller. Well, you have submitted to this Committee 
filings that you have made with EPA and with the court.
    Dr. Glaser. Yeah, I did----
    Mr. Miller. As part of your testimony to us.
    Dr. Glaser. I did submit an attachment that I thought would 
be valuable. That of course is a public document that was 
filed, and so I did submit it. The Committee of course is free 
to review the record----
    Mr. Miller. Okay.
    Dr. Glaser. --and then----
    Mr. Miller. Certainly I will have to look at it.
    Chairman Hall. Don't interrupt. Just let him repeat and 
answer your question, please.
    Mr. Miller. Mr. Chairman, I have never heard that as the 
rule. The rule has been that it is my time and that I get to 
control my time. And if a witness is filibustering, I can cut 
them off so that I can get answers.
    Chairman Hall. All I am asking you to do is to be fair with 
these people who have given a lot of time.
    Mr. Miller. I will try to be fair----
    Mr. Miller. I will try to be polite----
    Chairman Hall. Just be fair with them is all I ask of you. 
That is not asking too much, is it?
    Mr. Miller. No. So----
    Mr. Rohrabacher. Mr. Chairman, I would move that we give 
our colleague an extra minute.
    Chairman Hall. I will give him extra five minutes because 
he is just getting more and more in trouble all the time.
    Mr. Miller. So Mr. Glaser, you have not convinced the EPA 
of the correctness of your position? You have not yet convinced 
the court of the correctness of your client's position but you 
have convinced yourself of the correctness of your position?
    Dr. Glaser. Yes, we will be bringing this to the court. I 
had been asked to come here and testify about the process under 
which the endangerment finding----
    Mr. Miller. Okay.
    Dr. Glaser. --was prepared. I have done so, sir.
    Mr. Miller. All right. And how much then have you or your 
law firm been paid by your clients for appearing on their 
behalf before the EPA and in litigation?
    Dr. Glaser. Sir, I cannot disclose confidential 
communications between myself and my client.
    Mr. Miller. Including how much they paid you?
    Dr. Glaser. Absolutely. I hope that you can appreciate 
that, that I cannot breach attorney/client privilege.
    Mr. Miller. You have said, you have told this Committee, 
that obviously we should think poorly of the EPA. They really 
didn't listen to your arguments. They didn't follow the law. 
They violated the law, on and on. If the court doesn't hold for 
you, if the court also disagrees with you, what should we think 
of the court?
    Dr. Glaser. I think that you should first of all wait and 
see what the court says, number one, but number two, I am 
offering my opinions here both on law and on proper 
administrative policy. You could say for instance is it a 
violation of law for EPA to have only allowed a 60-day comment 
period. You could differ on that. The court might say, okay, 60 
days. That is enough. Is that good policy? Is that good 
administrative policy? My recommendation would be no. That is 
not good administrative policy.
    Mr. Miller. I mean you seem to have or it is odd that you 
were asked to testify with respect to a matter pending before 
the courts and to give basically a legal argument, the same 
legal argument that you made before the courts, but one obvious 
difference between appearing before this Committee and 
appearing before the court is before the court there will be 
more than one argument. There will be another lawyer there 
representing the other point of view, isn't that right?
    Dr. Glaser. Certainly before the court there will be 
multiple points of view expressed. You do have to understand 
that the cases that you are talking about in court have been 
challenged. EPA's regulations have been challenged by a very 
large segment of the business community. There are states' pros 
and con, there is EPA on one side, there are interveners. The 
court will definitely hear a variety of arguments. I can't 
dispute that.
    Mr. Miller. All right. And another important distinction is 
before courts, you will be appearing before a neutral judge 
with no interest, not before politicians who have received 
large campaign contributions from your clients?
    Dr. Glaser. I am going to dispute that last part, but I 
would agree with you that there are definitely differences 
between the legislature and the judiciary. No question.
    Mr. Miller. Okay. Mr. Chairman, it appears I do not have 
any time, but if I do, I will yield it back.
    Chairman Hall. Thank you. The Chair at this time recognizes 
Mr. Bartlett, the gentleman from Maryland, for five minutes.
    Mr. Bartlett. By way of full disclosure, I would like to 
note that I think the EPA frequently makes erroneous 
assumptions which lead to wildly excessive regulations.
    I think that it is probably not easy to increase greenhouse 
gases without increasing general air pollution, and I am having 
some trouble understanding why everybody wouldn't like to be 
breathing cleaner air.
    I gather that most of those who are opposed to the case for 
global warming or climate change would simply like to continue 
our aggressive exploration and use of fossil fuels. There are 
three groups that have common cause and the solution that those 
who are concerned about global warming or climate change have. 
Of course, the solution to their problem is stop using so many 
greenhouse gases that emit CO<INF>2</INF> and start using 
alternatives. There are two other groups that have common cause 
in this. They have very different problems with exactly the 
same solution. One of those groups is those that are concerned 
about our national security. We have only two percent of the 
world's oil. We use 25 percent of the world's oil. We import 
about 2/3 of that and much of that from countries that don't 
like us a whole lot. The solution to that problem, of course, 
only one solution to it, that is either find more oil here, and 
we have been producing less and less oil every year since 1970, 
so that isn't going to happen in any meaningful terms here, or 
to move to alternatives. So this group has exactly the same 
solution to their very different problem.
    The third group is a group that recognizes that fossil 
fuels are finite. By the way, the first person I think to 
recognize that, probably the first person to recognize that was 
M. King Hubbard in 1956 who predicted that in 1970 the United 
States would reach its maximum oil production. We did that 
right on schedule, and in spite of drilling more oil wells than 
all the rest of the world put together, today we produce half 
the oil that we did in 1970. And by 1980 we knew that that had 
happened because looking back in 1980 we could see we were 
already over the other side of Hubbard's hypothesis.
    I cannot understand how rational people could just stand by 
and not conclude that if the United States reached its maximum 
oil production in 1970 that someday the world was going to 
reach its maximum oil production. That is a given. The only 
uncertainty is when would the world reach its maximum oil 
production, and that is a question that was not asked.
    There is now abundant evidence that the world has reached 
its maximum ability to produce oil on a daily basis at about 
84, 85 million barrels a day. Obviously, the solution to that 
problem is to move away from fossil fuels which just aren't 
going to be there in the future and to move to alternatives.
    So we have these three groups, very different problems. 
Common interest, same solution. Move away from fossil fuels to 
renewables. Why aren't these three groups locking arms and 
marching forward? Why are we sitting here today with many of us 
concerned about national security? A few of us--concerned about 
peak oil. Why are we here criticizing the premise of others? 
They may be dead wrong. It is irrelevant to me whether the 
global warming climate change people are right or wrong because 
the solution to their problem is exactly the right solution to 
two other very real problems. One of those is the national 
security problem. We have got to move away from fossil fuels in 
our country. They just aren't there. And the other is the peak 
oil people who understand that the energy just isn't going to 
be there.
    By the way, I led a codel of people. Nine of us went to 
China just a bit over four years ago to talk about energy. They 
began their discussion of energy by talking about post-oil, and 
they had a five-point plan. And that fifth point in that five-
point plan was international cooperation. They knew as many of 
you noted that we can't do it alone. Well, they plead for 
international cooperation. They planned it as if there won't be 
any.
    Very little time remaining. Sir, I would like your 
comments. And you know, why am I wrong?
    Dr. Montgomery. Thank you, Mr. Bartlett. I remember 
appearing before this Committee a couple of years ago, and I 
enjoyed an interchange with you, and I am looking forward to it 
again.
    I think the main place that I would disagree with you is 
they are not the same solutions. Climate change in the near 
term, if this body decided it wanted to make a serious 
reduction in U.S. greenhouse gas emissions, to be cost-
effective, that would have to be occurring as Mr. Hall 
suggested by reducing the amount of coal that is used for 
electricity generation. The substitute for that is likely to be 
natural gas which is itself to some extent produced 
domestically but is also something that we import.
    A cost-effective solution for climate change has next to 
nothing to do with our consumption of oil. So it is different.
    Mr. Bartlett. I think I talked about fossil fuels 
generally. Oil we have been following more precisely. Gas is 
finite, sir. That, too, will run out. So does coal.
    Dr. Montgomery. So there are three problems. The problem of 
climate change needs to be addressed over a longer term period 
with R&D and it really, largely involves getting off coal for 
power generation. That doesn't help with the national security 
part. The national security part, you are right, we need to 
produce more. We need to use Canadian oil, and we need to deal 
with the regulations like low carbon fuel standards that could 
prevent us from using an oil deposit that is larger than Saudi 
Arabia's and is sitting right north of us. We might think about 
a gasoline tax to discourage consumption. But peak oil is a 
problem that the market will take care of.
    So the problem is there are different solutions to all 
these real problems.
    Mr. Bartlett. Just in closing, Mr. Chairman, the market 
will not take care of peak oil. Remember I said it here.
    Chairman Hall. Make a note of that. Mr. McNerney, the 
gentleman from California for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman, and I personally 
want to thank the witnesses for coming today. It is a 
contentious issue, so it is good to have this interchange. 
There is going to be some moments, but I appreciate your 
attendance here this morning and your testimony.
    Dr. Christy, do you deny that the IPCC process is open and 
transparent?
    Dr. Christy. I would say the IPCC is not open and 
transparent as the experience, as a lead author and what went 
on behind my back as a lead author in that very chapter.
    Mr. McNerney. Well, there were two major reviews, including 
your comments in the 2007 report. So that doesn't agree with 
what you are saying.
    Dr. Christy. There is confusion here about what peer review 
is and what IPCC is. The lead authors of the IPCC have what is 
called review authority. They review their own material.
    Mr. McNerney. So there were no outside reviews of the IPCC?
    Dr. Christy. There were outside reviews, but remember, 
after that, there were further edits by the lead authors.
    Mr. McNerney. So in previous Congressional hearings, you 
have discussed your processing codes for generating satellite 
based estimates of tropospheric temperature change but when 
asked if you had made your codes freely available for scrutiny 
by other scientists, you said it was too complicated for other 
scientists to understand. Is that still the case?
    Dr. Christy. No, in fact we are releasing--we already 
released some of the code to the National Climatic Data Center, 
and by June they will have all the parts. There are about ten 
parts, many thousands of lines of codes that they don't 
understand. And so we are in the process of----
    Mr. McNerney. I have been a computer modeler, computer 
forecaster. I know what is involved. But it is very important 
that your code be available for others to examine. And so right 
now today you are saying that your code is going to be 
available and freely transparent for other scientists to 
examine?
    Dr. Christy. Yes.
    Mr. McNerney. Good. Now, you said that the data was 
fraudulently included in IPCC reports. I just heard you say 
that this morning. Do you still believe that?
    Dr. Christy. I don't believe I said fraudulently.
    Mr. McNerney. You said fraudulently. I heard you say it 
this morning. Fraudulent. I wrote it down. I was shocked that 
you said that.
    Dr. Christy. I will have to look at my testimony. I don't 
remember typing----
    Mr. McNerney. It is not in your written testimony, it is in 
your verbal testimony.
    Dr. Christy. Right. I have that right here. Referring to 
which part because I don't remember saying anything like that.
    Mr. McNerney. Well, your conclusion was that there is 
fraudulent data in the reports. That is what I heard you say 
this morning.
    Dr. Christy. What I said this morning was biased, false, 
overconfident and/or misleading.
    Mr. McNerney. That was one statement, and you said another 
statement and you included fraudulent.
    Dr. Christy. Well, okay. We can look at the tape on that 
but----
    Mr. McNerney. All right. I am going to----
    Dr. Christy. --if you have a question----
    Mr. McNerney. --move on here.
    Dr. Christy. --about the particular thing I was talking 
about, I would be happy to answer it.
    Mr. McNerney. Well, I am going to move on. Mr. Montgomery, 
or Dr. Montgomery, excuse me, you criticized studies suggesting 
that forward-thinking climate policies will create jobs 
suggesting that the studies are the product of a biased group. 
But it is well-documented that large oil companies spent 
massive amounts funding the studies that question climate 
science. Now isn't it true that you served as an expert 
eyewitness on behalf of Exxon Mobil and which according to one 
well-known report spent $16 million funding initiatives to 
spark doubt on climate science?
    Dr. Montgomery. I can't quite put that together, but I have 
testified as an expert witness on entirely unrelated issues 
about market shares in regard to other--sorry. I have testified 
as an expert witness on behalf of Exxon Mobil on entirely 
unrelated cases that have absolutely nothing to do with my 
opinions here, nor have I stated in, and I think I probably 
should have done as Mr. Glaser pointed out, that I am appearing 
today on my own behalf. I am not being compensated by anyone 
for this testimony. I have my----
    Mr. McNerney. Okay. Well, I----
    Dr. Montgomery. --own opinions, and I don't expect to be 
paid attention to here because of who I represent. I expected 
to because of the logic of the arguments that I present.
    Mr. McNerney. You said that there is no benefit to the U.S. 
for taking action on climate change.
    Dr. Montgomery. I believe that that is a conclusion that I 
am----
    Mr. McNerney. No----
    Dr. Montgomery. --perfectly happy to discuss with you at 
greater length. The point of that is that----
    Mr. McNerney. My personal experience----
    Dr. Montgomery. --what the U.S. will do----
    Mr. McNerney. --contradicts that because I have worked in 
the wind energy field. We created technology here in these 
United States, and it went to Germany because they had climate 
policies that encouraged local utility companies to buy those 
wind turbines. We are now buying their manufactured products, 
manufactured by Germans, we are buying that product in the 
United States. So no, I disagree with you.
    Dr. Montgomery. And you were doing exactly what I described 
in my testimony. You were telling precisely half the story. You 
are not looking at what the people who were producing those 
wind turbines would have been doing if there were not a 
renewable portfolio standard that put them to work producing 
equipment that is a more expensive way of producing electricity 
than the alternative. They would have been producing other 
things which would have led to a higher level of GDP and no 
difference in employment. That is an economic argument. I am 
perfectly happy to carry it out, but it has nothing to do with 
whether Exxon funds bad science. It is an argument about 
economics, and it is an argument about facts and data, not 
about who pays for what.
    Mr. McNerney. Well, I know that research money that was 
spent in these United States is now developing products, is now 
manufacturing products in Germany because they had policies 
that encouraged them to buy wind power and green power so----
    Dr. Montgomery. Actually, what is happening is exactly what 
I described in my testimony. The United States is creating a 
demand for renewable energy, but actually China is producing it 
because they are subsidizing their industries, and that is so 
well-documented that we filed a 301(b) case against them.
    Mr. McNerney. Right, and they are going to be importing 
their product to us as well.
    Dr. Montgomery. Yeah. They are going to be exporting it to 
us, but they are going to be exporting it to us because we have 
regulations that force people to use it and we have higher 
costs of producing it than they do.
    Mr. McNerney. Well, I guess my time is up.
    Chairman Hall. Final question you want to close with.
    Mr. McNerney. Mr. Chairman, I don't even know where to 
begin with my next question, so----
    Chairman Hall. All right. Well, thank you, Mr. McNerney. 
The Chair at this time recognizes Dr. Broun, gentleman from 
Georgia.
    Mr. Broun. Thank you, Mr. Chairman. I will direct my 
questions to Dr. Christy, but I am from Georgia, and if the 
others on the panel want an interpreter, I am sure the 
Committee will be glad to provide you an interpreter. Dr. 
Christy, in your testimony you speak in great lengths about 
process issues associated with climate science in general, the 
processes used by some at the University of East Anglia's 
Climate Research Unit and the IPCC as a whole. As a scientist 
who actually builds data sets, and as someone who has witnessed 
what you call ``my side bias'' or ``groupthink'', would you 
trust data from individuals trying to ``hide the decline'', 
refine peer review when inconvenient and destroy documents, 
rather than comply with the law?
    Dr. Christy. I wouldn't, but I would say that because the 
process has become more open that I think those doing these 
data sets now are a little bit more concerned about the fact 
that they will be exposed if they do make any mistakes.
    Mr. Broun. I hope so. We have seen all those e-mails, but 
several relating to the state of the unlined computer code 
haven't received as much attention. The desperate e-mails of a 
computer programmer offer us a glimpse into the data control 
issues at CRU with quotes such as, ``What the hell is supposed 
to happen here? Oh, yeah? There is no 'supposed'. I can make it 
up, so I have.'' Another quote, ``You can't imagine what this 
has cost me, to actually allow an operator to sign false WMO 
codes. Well, what else is there in such situations? Especially 
when dealing with a master database of dubious prominence.'' 
The next quote, ``Oh''--F-bomb--that is not what it says here. 
''Oh, F this. It is Sunday evening. I worked all weekend, and 
just when I thought it was done, I am hitting yet another 
problem that is based on the hopeless state of our databases.'' 
Next quote, ``This whole project is such a mess.''
    In his testimony, Dr. Emanuel states that all of this is 
nonsense, just as he did before any review was actually 
conducted. Does any review of the Climategate issue actually 
address the underlying science?
    Dr. Christy. Well, I think the exoneration panels that have 
occurred have not addressed the underlying science, nor the 
actions of the people there. You don't have the typical things 
you do in the legal proceedings, where you cross-examine the 
evidence and witnesses, and anyone can be called to testify, 
and so on. That has not occurred. Your description of those 
computer--as a programmer myself who has written thousands and 
thousands of lines of code on these very kind of station 
records, and Dr. Muller probably understands this too, is that 
it is a nightmare looking through data coming from different 
countries in different formats, and mistakes that are made. 
Fahrenheit, Centigrade, missing 100 or something like that, it 
is really problematic.
    Mr. Broun. So it is all a mess, obviously. Has any re-do--
review of the Climategate issue addressed the entirety of the 
allegations that were raised?
    Dr. Christy. Well, not in my opinion. I think much more 
could be done, but hopefully the peer review literature, as we 
go along, will just make that unnecessary. I hope we just get 
to the point we can trust what we publish these days.
    Mr. Broun. As a scientist myself, I hope so too. Do you 
believe an independent review of these allegations is 
warranted?
    Dr. Christy. I would rather see just an independent 
assessment of climate, as the IPCC has done, but without the 
IPCC cadre, the establishment. I think you could have a very 
reputable and credible report that would come to slight--
somewhat different conclusions than the IPCC has.
    Mr. Broun. Well, as a scientist, again, I hope we do that. 
To the best of your knowledge, has the IPCC adopted all of the 
recommendations from the IAC review conducted last summer?
    Dr. Christy. Well, obviously not, because the first thing 
they recommended was that the head leave, and he is still the 
head. So, starting from there, they have not.
    Mr. Broun. Very good. I have just a half minute left. Dr. 
Emanuel, it should be noted that MIT received 100 million from 
the Cokes for Cancer Research Institute. MIT is a prestigious 
organization, with a world class reputation in science, but 
according to logic we are witnessing here today, its research 
should be dismissed because it receives any funding from the 
organization that the party dislikes. Would you agree with 
that?  What are you asking me?
    Mr. Broun. I am asking about--have you all--have you 
received funding----
    Dr. Emanuel. Yes. MIT has, yes. I don't, of course, do 
cancer research, but I am well aware of what you are saying.
    Mr. Broun. So, in other words, the--calling in question 
people who have--entities that have received funding, seems 
that some would call their testimony in question today, and I 
just wanted to point out that you all have too. Thank you very 
much. My time has expired. I will yield back, Mr. Chairman.
    Chairman Hall. Thanks, Doctor. This time i recognize Mrs. 
Edwards from Maryland. Recognized for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman. What a shock, I 
thought I wasn't quite up yet. I just want to clarify for the 
record that I have here, and we have entered these into the 
record before, Mr. Chairman, seven scientific, you know, 
independent reports that have evaluated this question of--and 
some describe Climategate e-mails that have really exonerated 
the--these individuals in question, in terms of their research 
and research capacity. And I just think that we need to get off 
of this and really get down to the real questions in front of 
us.
    I just want to be clear, and each of you can as--answer 
this individually. I want to be clear whether any of you have 
been paid or compensated for any of your research, analyses, 
testimony or a speech in any form, at any entity, by a company 
or trade association that is represented by the oil, coal or 
energy industry? Dr. Armstrong? That is a yes or no.
    Dr. Armstrong. Well, I received $3,000 from the State of 
Alaska for a report, but that did not result in a published 
paper.
    Ms. Edwards. I asked about the industry, not a State 
government.
    Dr. Armstrong. Yeah. No, ----
    Ms. Edwards. I didn't----
    Dr. Armstrong. --my way down here.
    Ms. Edwards. Thanks so much.
    Dr. Armstrong. I have had no----
    Ms. Edwards. Dr. Muller?
    Dr. Muller. Yes.
    Ms. Edwards. And who paid you, and how much?
    Dr. Muller. I am sorry, I don't have those figures 
available----
    Ms. Edwards. Who paid you?
    Dr. Muller. I have been a consultant for BP. I have done a 
lot of work with--does the U.S. Department of Energy count? 
They have given me a lot of funding.
    Ms. Edwards. Company, trade association, with the industry. 
With the oil, coal or energy industry.
    Dr. Muller. I believe--it is really hard to pull this out 
without----
    Ms. Edwards. Okay. Please----
    Dr. Muller. --anticipating----
    Ms. Edwards. --submit for the--please submit for our record 
any compensation that you have received from the oil, coal or 
energy industry for the work that you do. Thanks so much----
    Dr. Muller. I believe----
    Ms. Edwards. --Dr.----
    Dr. Muller. I believe it was only BP, and that was----
    Ms. Edwards. Just submit it for the record. Dr. Christy?
    Chairman Hall. Ma'am, please, let him answer, please.
    Ms. Edwards. He----
    Chairman Hall. Go ahead----
    Ms. Edwards. He can't pull it out of his head, and I would 
like it for the record. And that is true, if you can't just 
remember it, I would appreciate it if you could submit it for 
the record. Dr. Christy?
    Dr. Christy. No.
    Ms. Edwards. Mr. Glaser?
    Dr. Glaser. As an attorney, I have represented and been 
compensated by energy industry companies.
    Ms. Edwards. Thank you.
    Dr. Glaser. That is a fact.
    Ms. Edwards. Dr. Emanuel?
    Dr. Emanuel. No.
    Ms. Edwards. Dr. Montgomery?
    Dr. Montgomery. As an individual, I cannot remember ever 
being compensated directly. Of course, I have made my living 
for 20 years as a consultant doing a very large number of 
things, and my company had as clients just about every company 
in the United--in--just about every large company in the United 
States, including energy----
    Ms. Edwards. Great. I would appreciate if you would submit 
that for our record, your compensation from representatives, 
trade associations or corporations associated with the oil, 
coal or energy industry. Thank you very much.
    Dr. Montgomery. May I----
    Ms. Edwards. Let me just----
    Dr. Montgomery. --question? I believe what I said was I 
have received no direct compensation. My company's record--the 
company's records, I am no longer an employee there, and I have 
absolutely no way of providing you with information about what 
Charles River Associates received over the years, and I am sure 
they would object to it in any event. But I cannot do that.
    Ms. Edwards. And you haven't received any compensation as a 
consultant for any of those in the industry?
    Dr. Montgomery. My salary is paid by Charles River 
Associates--was paid by Charles River Associates, and I have 
not received direct compensation as an individual from anyone 
except Charles River Associates for about 20 years.
    Ms. Edwards. Thank you very much. Just as my time is 
running out, I think that in any field of science there is 
continual study of science. We see breakthroughs, we see 
setbacks. There is an evaluation process that goes forward, and 
we never stop asking questions, because that is the nature of 
science, and so I think we have to be willing to change. Change 
policy, change direction, continue that kind of analysis, 
because you never quite get to an end--to the end to it. We 
look at those things all the time here on this Committee.
    I represent a district where the county that I live in is 
the home to NASA Goddard and also to NOAA. They have--they play 
an extreme--a really important role in the analysis and use of 
climate research, and it is important to me that--and should be 
important to people here that we keep this investment in the 
field of climate research in our monitoring capacity and 
satellite capabilities and research abilities, because 
otherwise--I share the view of my colleague from Maryland, Dr. 
Bartlett, that we are never going to solve these big problems 
by just burying our heads in the sand. And just as I close 
here, for the scientists who are on the panel, Doctors Muller, 
Christy, and Emanuel, I hope that you would agree that we need 
to continue investment in climate research, even though you 
might quibble about whether your minority view was included in 
a particular evaluation or assessment. And with that, I yield.
    Chairman Hall. Gentlelady does a good job of representing 
her district. She went right exactly five minutes. Dr. 
Armstrong, did you get to answer her question?
    Dr. Armstrong. Yes, I did. The answer is no.
    Chairman Hall. You yield back, Ms. Edwards? Do you want to 
follow up anything?
    Ms. Edwards. No. Dr. Armstrong did answer the question.
    Chairman Hall. Okay.
    Ms. Edwards. Thank you.
    Chairman Hall. Dr. Harris is next, recognize you for five 
minutes.
    Mr. Harris. Thank you very much, Mr. Chairman. Thank you 
for holding the hearing today. First, Dr. Emanuel, thank you 
very much for appearing here. Your summary of written 
testimony, number five, there is no scientific basis for the 
confidence expressed by some that the effects of climate change 
will be benign. Do you believe the converse is true too, that 
there is no clear scientific basis for the confidence expressed 
by some that the effects of climate change will be risky?
    Dr. Emanuel. I don't tend to believe anybody who is 
confident about this at all. I----
    Mr. Harris. Okay. Well, then, in your--thank you. In your 
statement, though, you actually say--in your very statement, 
the first paragraph, you said, ``It is incumbent on us to take 
seriously the risks that climate change poses.'' It doesn't say 
climate change might pose, says climate changes poses. And 
actually, you also say, with regards to the report by the 
Department of Defense, that the U.S. should commit to a 
stronger national and international role to help stabilize 
climate change at levels that will avoid significant disruption 
to global security and stability, clearly implying that there 
will be significant disruption to global security and 
stability. So are you skeptical about those statements as well, 
which don't say might do it, or----
    Dr. Emanuel. Well, Representative Harris, I think there is 
a confusion between forecasts and an assessment of risk. If I 
say that I feel that there is certain risk in my house burning 
down and buying----
    Mr. Harris. Right.
    Dr. Emanuel. --an insurance policy, I am not forecasting 
either that my house will burn down or not burn down. But I 
would take seriously any actuarial information that gave me 
information about the probabilities of risk. That is what----
    Mr. Harris. Sure.
    Dr. Emanuel. --I am referring----
    Mr. Harris. Thank you very much. Mr. Glaser, you make a 
great point, I think, that, you know, public health--if you 
graph use of energy and use of greenhouse gases versus public 
health, you would probably also see, you know, an advantage in 
that. For instance, I assume that what you mean by that is 
that--when we mean increased greenhouse gas, we mean use of 
energy. We produce energy so that we do things like have energy 
for refrigeration, which has made great public health advances 
keeping food safe. We have energy to, oh, buy gas for 
ambulances, or diesel for ambulances, that actually bring 
people to a hospital a little quicker in an emergency. Or, you 
know, we have MRIs at our hospital with these huge electric 
cables going into them. I am assuming that, you know, energy 
does good things, it doesn't just do bad things. Is that your 
point, that these good things aren't taken into consideration?
    Dr. Glaser. Yes, that is--I think that is exactly my point, 
and it is not a coincidence that the 20th century witnessed an 
explosion in all of the benefits that we consider to be a part 
of modern life. At the same time, the greenhouse gas emissions 
were increasing. The underlying cause is the same. The 
underlying cause is the use of energy. 85----
    Mr. Harris. Sure.
    Dr. Glaser. --percent of the energy we use in the United 
States comes from fossil fuel.
    Mr. Harris. Sure.
    Dr. Glaser. That is where the energy comes from.
    Mr. Harris. Thank you. That is what I thought your point 
was. Dr. Montgomery, to close with, you know, we have got this 
situation in our state, and, you know, you mentioned about how 
frequently the economic costs of these subsidized, you know, 
creating these greenhouse jobs and these things like--you know, 
we have got a situation in our state where there is a move to 
put offshore wind farms, which would require an economic 
subsidy. Interestingly enough, the bill that is now in front of 
our legislature would cap somehow the cost of the--that you 
could add to someone's electric bill when you build a windmill, 
as though, you know, I guess we could pass a law that says 
everybody ought to pay $10 a month for electric. I mean, I 
guess that is the same economic sense.
    But let me summarize what it sounds like to me what we are 
doing with some of these subsidies, particularly in what we are 
going to do off our coast if this passes. We are going to 
borrow money from the Chinese to pay for these subsidies, 
because we have no money here. We are broke. We borrow money, 
China is our biggest exterior--external lender now. So we are 
going to buy these funds from the Chinese, perhaps to buy 
either German or Chinese windmills, because, as the Congressman 
from California suggested, these really aren't made in the 
United States predominantly, and then we are going to place 
them in our economy, causing our electric prices to go up, then 
placing us at competitive disadvantage to China.
    So we borrow the money from China, we buy the windmill from 
China, and then we pay more for domestic electric, putting our 
homes and our businesses at competitive disadvantage. Is that 
kind of what you are getting along when you say, you know, when 
we create these green jobs that sound good, when you scratch a 
little deeper, what you see are real problems in a global 
competitive world economy?
    Dr. Montgomery. Yes, Mr. Harris, I would say that that is 
correct, that Congress and regulators can move around who pays 
for something, but they can't make the cost disappear. And the 
cost to the United States of these subsidies is basically more 
expensive forms of generation that provide exactly the same 
service of making MRI machines work, but that are absorbing 
resources that otherwise could be used for producing something 
that people will enjoy and be able to use.
    Mr. Harris. That is what I thought. And how can you 
imagine, you know, how can you cap the cost of an--of a, you 
know, you build a windmill that costs a certain amount to 
produce energy, exactly how do you cap that cost--I mean, as an 
economist, this must be frustrating to you, because in the laws 
of the marketplace, there must be--there is no way to cap a 
cost--that your impression?
    Dr. Montgomery. If you require an--a company that is under 
your jurisdiction to do something and then say, you can only 
charge for this less than it costs you, it is either a taking, 
or you are simply saying their shareholders are going to pay 
for it, and their shareholders are everybody.
    Mr. Harris. Sure. That is what I thought. Thank you, Mr. 
Chairman. Yield back.
    Chairman Hall. All right. Chair recognizes the gentleman 
from Michigan, Mr. Clarke, for five minutes.
    Ms. Woolsey. Mr. Chairman, I have a parliamentary inquiry.
    Chairman Hall. State your inquiry.
    Ms. Woolsey. Yes. There is a letter that has been presented 
to the minority staff from the majority staff. It is a letter 
from a Mr. Anthony Watts that he requested would be read in--
read and entered into the record of the hearing. And as I 
understand it, the letter purports to try to set straight some 
errors that Professor Muller made in his testimony. This is 
highly unusual for the Committee to receive a correction to a 
witness's testimony before the testimony has even been 
delivered to the Committee.
    So my question is, is it your intention to enter this 
document into the record?
    Chairman Hall. It is my understanding we have not yet asked 
it to be in the testimony.
    Ms. Woolsey. Well, okay.
    Chairman Hall. Is that the basis of your inquiry?
    Ms. Woolsey. We would like to know if it is--because--since 
we heard his testimony without the corrections, is this going 
to be entered into the record? And has Dr. Muller even seen 
this document? Does he want to add comment to the record, and 
how does this impact his testimony?
    Dr. Muller. Is that a question addressed to me?
    Ms. Woolsey. I am asking my--this is between the Chairman 
and myself. The Chairman that I love very much and myself.
    Chairman Hall. You are showing it.
    Ms. Woolsey. Just to keep you on edge.
    Chairman Hall. Well, I respect this lady very much, and she 
knows it. I understand that you have seen it, and you have the 
letter. Now, are you asking now to submit it into the----
    Ms. Woolsey. No, we want to know if you are going to submit 
it into the record, and if it is----
    Chairman Hall. I don't even know what it says.
    Ms. Woolsey. Well, that is the point. I mean, you--
Congressman Miller was told--his testimony--I mean, he had 
something to add into the record. You hadn't seen it yet----
    Chairman Hall. Yeah.
    Ms. Woolsey. --so you said no, you--it couldn't go into the 
record----
    Chairman Hall. Yeah.
    Ms. Woolsey. --until you had read it.
    Chairman Hall. And Congressman Miller is a very famous 
lawyer from his district, and he knows that when we say we 
haven't seen it yet, that we hadn't seen it yet. He didn't 
question----
    Ms. Woolsey. Well, you haven't seen this yet either, so----
    Chairman Hall. I haven't seen it yet, so it is not 
admissible into the record.
    Ms. Woolsey. Thank--that is what we want. Thank you.
    Chairman Hall. Now, do you want to put it in the record? 
Would you like to put it in the record?
    Ms. Woolsey. No, sir.
    Chairman Hall. All right. The lady withdraws her request. 
Who is up--who is next? Mr. Clarke, I will recognize you for 
the second time. That doesn't mean you have 10 minutes, but you 
have been very patient with us, so we recognize you at this 
time, sir.
    Mr. Clarke. Thank you, Mr. Chair. And the reason why I am 
patient, because I have firsthand have seen the pain and 
suffering caused by the decline of our market share of U.S. 
manufactured vehicles in the United States, a market share that 
we lost to Asian imports. I represent metro Detroit. I am born 
and raised in Detroit, and we knew that this threat was coming, 
and that we had to be competitive. But those concerns weren't 
effectively heated, and young guys like me back in the '80s 
couldn't even get a job in the auto plants because there wasn't 
anything available. And I am--that is why I am very grateful 
that this administration did provide aid to General Motors, and 
now they have seen four consecutive quarters of profitability, 
and I believe that that is evidence that the taxpayers' 
investment is going to pay off.
    But in the same way, I am concerned right now that we could 
be missing a huge opportunity to export great new green energy 
technology globally. And I am concerned, because of recent 
findings, that for the very first time U.S. investment in new 
green energy technology has now fallen from first place 
globally. Now China is in first place. Not only that, we are 
not even in second place, ''Germany is. We are now in third 
place.
    Some of you have indicated in your testimony that you 
believe that green jobs is just a pipe dream. Here is my 
concern with that. You have got great companies like General 
Electric, they are investing very heavily now in wind, in 
solar, in energy efficiency. You have corporate CEOs, such as 
the CEO of GE, stating that we are at risk of losing out to 
other countries, like China. Is China wrong to invest? Is 
Germany wrong? Are executives like the CEO of General Electric 
working contrary to their bottom line when they say we have got 
to invest in new green energy technology? I welcome any of your 
feedback on this.
    Dr. Montgomery. If I could start--I have spent some time in 
my career looking at various forms of industrial policy. I 
think where I would start is a quotation from Professor Richard 
Schmalensee, who was dean of the Sloan School at MIT. ``We 
can't regulate our way into prosperity.'' If we feel that--the 
United States economy does not need the government to tell each 
industry, or to provide industries with regulations and 
subsidies in order to make them succeed. Our economy grows on 
its own, and industries depend on the government to create a 
market for themselves at their own risk. And this is what we 
have seen consistently in the past when we have tried to create 
industries, the United States or other countries, through 
industrial policy.
    Denmark decided to take the lead on wind industry--on wind 
energy. Its wind energy industry has collapsed, and has moved 
almost exclusively to China. China is a--I mean, China is an 
enigma. China has clearly decided to put subsidies into one 
particular industry. But I remember the fear that we were--that 
our--that we were going to collapse as an economy if we didn't 
fight off the Japanese effort to produce high definition TVs 
back in the '80s, when I was at the Congressional Budget 
Office. It was a terrible decision for Japan to make. They have 
lost tons of money on it. The industry was nowhere near ready 
to go on technology.
    I think it is critically important for the U.S. to invest 
in R&D, but I see no reason that the--that a company like 
General Electric would want to--okay.
    Mr. Clarke. --but I appreciate what you are saying. Back 
many decades ago, after the Wright Brothers, with their great 
innovation in creating flight, we lost competitiveness to 
Europe, in terms of airplane technology. President Wilson 
decided to respond, and we subsidized air mail routes, which 
resulted in the growth of air flight technology here in the 
U.S. Same with Bell Labs and their technology in 
semiconductors. It was the U.S. military that was their 
strongest customer. So, in light of that track record, we have 
got to compete. We can't lose this opportunity. I yield back.
    Chairman Hall. Chair recognizes Mr. Cravaack, gentleman 
from Minnesota.
    Mr. Cravaack. Thank you, Mr. Chairman. Thank you for all 
our distinguished people that are involved in this today. I 
would like to start off with Dr. Christy. Dr. Christy, you seem 
to be of my genre, and back when I was graduating from high 
school, I remember the great global cooling. Is this great 
global cooling very similar to the great global warming that is 
going on today?
    Dr. Christy. Well, I don't know what you mean by genre. 
Anyway--I have four grandkids, but--in this sense, yes. Our 
ignorance about the climate system is just enormous, and we 
have much to learn and much to do.
    Mr. Cravaack. Yeah. I remember the time when I was going 
through high school the polar caps were going to expand, and 
the whole world was going to flip upside down and everything 
else. It is kind of funny how history just repeats itself, 
except instead of freezing to death, we are all going to fry. 
So it is amazing how this has gone through. I would also like 
to talk to Dr. Montgomery, if I could. Sir, I come from 
Minnesota, in the 8th District of Minnesota, which has a very 
proud tradition of mining. Can you tell me how this regulation 
of CO<INF>2</INF> is going to affect mining operations within 
the United States?
    Dr. Montgomery. For the next decade or two, there is no way 
to achieve deep cuts in greenhouse gas emissions without 
substantially cutting down the use of coal for power 
generation. Every ton of coal that is not burned in the power 
plant is a ton of coal that is not going to be mined, so it 
translates directly. Best we can see is a valley of death for 
the coal industry in which, after shrinking back as gas and 
other technologies replace coal in the short run, it might be 
able to revive, if clean technologies, like carbon capture and 
sequestration, come along in the future. That could be avoided 
with a different pace of control, but in the next decade or so, 
it is--coal mining is going to be where the reductions occur.
    Mr. Cravaack. Okay. Thank you, sir. Dr. Christy, if I can 
bounce back to you again? If everybody--if all the United 
States--we go totally green, but other countries throughout 
this world, they don't follow suit, can you tell me what kind 
of tick that is even going to put on the CO<INF>2</INF> 
emissions?
    Dr. Christy. Well, I have run those scenarios for a number 
of different situations, and you are looking, at most, at a 
tenth of a degree after 100 years.
    Mr. Cravaack. So a tenth of a degree after 100 years?
    Dr. Christy. Yes. And global temperature changes by more 
than that from month to month.
    Mr. Cravaack. Okay. And could you be positively--could you 
positively state that because of what--the United States going 
totally green would actually commit to that tenth of a degree?
    Dr. Christy. That is a good point. You might claim it is a 
tenth of a degree, but you never could devise an experiment to 
attribute it to your legislative action.
    Mr. Cravaack. Okay. All right, sir. So--Dr. Montgomery, 
back to you now, sir. So for that tenth of a degree, that we 
are not sure actually was attributed by the United States going 
totally green, can you tell me the economic impact that that 
would have upon the United States if we are the only ones that 
went green and the rest of the world did not?
    Dr. Montgomery. Yes. I have to look back in my memory for a 
study that was comparable to what Dr. Christy is talking about, 
but I would say the kind of work we did last year on the 
Waxman-Markey Bill would suggest costs in the range of 1,000 to 
$2,000 per household, a lost of one to two percentage points of 
GDP, what it would be otherwise, and perhaps a--close to a 
doubling of electricity prices.
    Mr. Cravaack. Could you even comment on the amount of jobs 
that would be lost within the United States of America?
    Dr. Montgomery. Well, I am not sure about jobs, but I can 
say that the impact on compensation to workers would be really 
substantial. Some industries it would happen in the form of 
lower wages, keeping people at work. Other industries, where 
that can't happen, people would be losing their jobs, but it 
would be a couple of percentage points off the total 
compensation to labor, and--figure out how much of that is job 
loss in the long run, and how much of it is just you have less 
money to take home in your paycheck.
    Mr. Cravaack. Okay. All right, sir, I think--Mr. Chairman, 
I think I have answered my questions. I yield back my 32 
seconds, sir.
    Chairman Hall. Thank you. And do you recollect when Dr. 
Holdren was here? He is the President's advisor on sea level 
rise, and his testimony was that it would rise 12 feet, you 
know, when the ice all falls and melts into the ocean. And the 
proper person measured it--as you know, the very next year, the 
so-called gold standard of scientific consensus by global 
warming advocates projected that the oceans would rise between 
seven and 23 inches. So that is who is advising the President. 
That is the reason we are in all the trouble we are in right 
now with all this. Does that help your record any?
    Mr. Cravaack. Well, we can't let a crisis go to waste, sir, 
so there you go.
    Chairman Hall. Thank you. Now I would recognize the 
gentlelady from California for five minutes----
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Hall. --10 minutes, whatever she wants. Ms. 
Woolsey is a very valuable Member of this Committee, and gives 
me an awful lot of trouble, but I respect her highly.
    Ms. Woolsey. Thank you. Mr. Chairman, this morning the 
Democratic caucus had the privilege of hearing from and asking 
questions of Dr. Steven Chu, the Secretary of Energy, and then 
I came right from there up here. I feel like I am living in a 
parallel universe. I mean, it has got my head going boing, 
boing, boing. It is tough.
    So, my first question is based on Dr. Armstrong's 
testimony, who--he said--Dr. Armstrong, you said, I believe 
that EPA's decision to ban DDT was based on bad science. So I 
would like to ask the rest of you, would you reintroduce DDT 
into our world now, today, if you could?
    Dr. Armstrong. You are not asking----
    Ms. Woolsey. Yes or no?
    Dr. Armstrong. You are not----
    Ms. Woolsey. Oh, no, I think I got--you said no. You 
thought it would--should--we should not have done what we did 
in the first place. I can ask you would you reintroduce it? 
Sure, I would be glad to. I just didn't want to waste your 
time. Just yes or no.
    Dr. Armstrong. Yes, I definitely would----
    Ms. Woolsey. Would reintroduce it. Okay. Dr. Muller?
    Dr. Armstrong. --DDT, yeah.
    Dr. Muller. It is way beyond my credentials to answer that 
professionally. I have read books on the subject--or read 
articles on the subject, and I think there is--I have seen a 
reasonable case that introducing it would actually save lives.
    Mr. Woolsey. Dr. Christy?
    Dr. Christy. I have lived in Africa, saw people die of 
malaria. Absolutely, yes.
    Mr. Woolsey. Mr. Glaser?
    Dr. Glaser. I have no idea, and have no opinion.
    Mr. Woolsey. Dr. Emanuel?
    Dr. Emanuel. Far beyond my expertise.
    Ms. Woolsey. Dr. Montgomery?
    Dr. Montgomery. I have read a good bit on the subject. 
Roger Bate, I think, is a great expert. I agree with Dr. 
Christy. Millions of millions of children and poor people in 
Africa are dying because of the lack of DDT to--as an effective 
way of getting rid of disease vectors.
    Ms. Woolsey. Well, okay, I didn't want to go too much 
farther on this, except I am on the--I served on the Africa 
World Health Subcommittee. We have just about, using other 
technologies and other methodologies, done away with malaria, 
if we provide the right preventions for African people, like we 
would have had to provide DDT. So I think it has proven itself, 
from my opinion.
    Dr. Emanuel, I understand that you have not always--I mean, 
that you didn't--you weren't born recognizing the link between 
greenhouse gas emissions and climate change, so how did you get 
to where you are today? How did you form your current beliefs 
on climate change?
    Dr. Emanuel. Well, Representative Woolsey, science is based 
on evidence, and evidence is often ambiguous. It evolves with 
time, it changes. Science progresses, but it doesn't progress 
monotonically. It goes up and down. In the '80s, when I first 
started to study the issue of climate change, back in those 
days I didn't feel that the evidence was conclusive. I didn't 
have the opinion that this wasn't happening or otherwise. But 
in the intervening 20 years, because of the wonderful work done 
in paleoclientology, to some extent because of models--my own 
involvement with the physics, radiative transfer, convective 
heat transfer, I and many of my colleagues came to the 
conclusion that the evidence is very strong for this.
    And let me take the opportunity to say that one has to 
distinguish between what groups of scientists come to over a 
long period of time, and what a few say that get amplified by 
the press. We heard that there was no difference between the 
scare of cooling in the '70s and the concern of warming. That 
couldn't be further from the truth. To the best of my 
knowledge, not one scientific organization back in those days 
raised any alarm. It was a few scientists that expressed some 
concern amplified hugely by a big cover in Time magazine. It is 
not comparable to today, not at all, all right? One should not 
make that mistake.
    Mr. Chairman, I think you misquoted Mr. Holdren. He was 
referring to what would happen if all of Greenland's ice 
disappeared. That is not projected to happen, but his numbers 
are correct. If it did, we would see a sea level rise of about 
22 feet. Unfortunately, it is a risk. It is way out there 
because we don't understand the physics of ice, but I think 
that is what he was referring to.
    Chairman Hall. We will add on to your time. We won't take 
from you the time, but in a recent interview Dr. Holdren was 
sitting right where you are there, and I told him--he stated 
that the Republicans needed to be educated on the issue. In an 
August of 2006 interview with the BBC News, he reportedly said 
that if the current pace of change continued, the catastrophic 
sea level rise of four meters, that is 13 feet, not 12 feet, I 
was wrong, was within the realm of possibility, and while you 
were going to the interview, how sure were you about your 
prediction? And the hard cold facts were the very next year the 
so-called gold standard of scientific consensus by global 
warming advocates projected that the oceans would rise between 
seven and 23 inches between now and 2100. How sure was the 
scientific community of their prediction? That is my 
recollection of it. You probably know more about it than I do.
    Dr. Emanuel. I mean, I would only simply add to that, the 
IPCC, in making that projection, very explicitly excluded any 
calculation of the melting of land ice. They--I think they were 
wise to do that, because we don't understand the physics very 
well.
    Chairman Hall. All I was trying to emphasize was that he 
guessed at 13 feet, and he is just 12 feet wrong.
    Dr. Emanuel. I don't--I think his statement that it was 
within--correct.
    Chairman Hall. --I am not very good at math.
    Dr. Emanuel. No.
    Chairman Hall. There are three things I couldn't do, and 
that is add and subtract.
    Dr. Emanuel. I think--but the notion that it is within the 
realm of possibility is correct on his part.
    Chairman Hall. Okay.
    Dr. Emanuel. That is different from a projection.
    Chairman Hall. All right. So you made your point. You made 
a good point. You have been a good witness. I am sorry I 
haven't been as good a Chairman.
    Ms. Woolsey. On that, Mr. Chairman, I will yield the 
remainder of my time.
    Chairman Hall. Okay. Now, let us see, we have Mo Brooks 
from Alabama. Gentleman from Alabama.
    Mr. Brooks. Thank you, Mr. Chairman. It has been most 
entertaining seeing you folks act up on the higher row. Dr. 
Christy, would it be fair to say that pretty much the one 
constant about the weather is that it is always changing?
    Dr. Christy. The climate is always changing.
    Mr. Brooks. And in looking at Earth's climatological data, 
have there been cooler periods than what we are now 
experiencing?
    Dr. Christy. Yes.
    Mr. Brooks. And do you have any way of expressing a 
judgment as to how often the world has experienced cooler 
periods of what we are now incurring?
    Dr. Christy. If you go back through the entire history of 
the world, most of the periods have not been cooler than today. 
They have been warmer.
    Mr. Brooks. Well, let us get into the warmer periods. Have 
there been warmer periods?
    Dr. Christy. Yes, much warmer, yeah.
    Mr. Brooks. And do you have any way of expressing a 
judgment as to how often, during whatever period of time you 
want to use, that it has been warmer than what it is today?
    Dr. Christy. I cannot give you a percentage of time, but it 
is--just to say most. I can't call up that graph in my brain 
right now.
    Mr. Brooks. And looking at the materials that you all 
handed to us, this one is by Dr. Christy, I am going to read a 
part of it. ``To compound this sad and deceptive situation, I 
have been quite impressed with some recent results by Doll, 
Jensen, et al, in which Greenland ice bore hole temperatures 
had been deconvolved into a time series covering the past 
20,000 years. This measurement indeed presented intercentury 
variations. Their result indicated a clear 500 year period of 
temperatures warmer than the present centered around 900 AD, 
commonly referred to as the medieval warming period.'' When it 
says ``warmer than the present'', does that mean that 
consistently for that five century period of time, according to 
the Greenland ice bore hole measurements, we had had a global 
warming period then?
    Dr. Christy. Yes, in a smooth and average period. About a 
century smoothing. Each one of those centuries are considered 
to be warmer than the present.
    Mr. Brooks. So the temperatures that we are experiencing 
right now, do you consider them to be an aberration, or just a 
part of the Earth's normal warming and cooling cycle?
    Dr. Christy. I think most of all they are part of the 
normal ups and downs of climate.
    Mr. Brooks. And do you have a judgment as to what has been 
the warmest climatological year in the past two or three 
decades?
    Dr. Christy. That would be--in the bulk atmosphere, 1998.
    Mr. Brooks. And would it be fair to say, then, that there 
has been cooling of global temperatures at least over the last 
13 years, compared to 1998?
    Dr. Christy. Well, I can say that there certainly hasn't 
been a warming of temperature since that time.
    Mr. Brooks. And the last four or five years, have they been 
cooler or warmer?
    Dr. Christy. They have been up and down. Some have been 
cold, some have been warm.
    Mr. Brooks. And Congressman Cravaack kind of jumped on some 
turf I wanted to hit on. It is nice to have these little cell 
phones where you can pull up things, and I couldn't help but 
pull up the Time magazine front page article dated April 28, 
1975, where we have a penguin on the cover, and it says, ``How 
to survive the coming ice age''. And those are the days back 
when I was on the Grissom High School and Duke University 
debate teams, back in the early '70s. Of course, this was one 
of the topics that came up from time to time in extemporaneous 
speaking, so I happen to recall that. For you young folks, I 
envy you not having that recollection, but for us older folks, 
you know, we can remember that far back. How do you compare 
that global cooling claim versus today's global warming claim? 
Is there any consistency or inconsistency?
    Dr. Christy. Well, I think the consistency there is--like I 
said before, there is a large amount of ignorance about the 
climate system, and that is just the way it is. It is such a 
complicated system. I think there has been too much jumping to 
conclusions about seeing something happen in the climate and 
saying, well, the only way that could happen is human effects. 
When you look at the possibility of natural unforced 
variability, you see that can cause excursions that we have 
seen recently.
    Mr. Brooks. Would it be fair to say, then, that within the 
scientific community it literally is asking too much of them 
for them to be able to tell us whether 10, 20, 30, 40, 50 years 
from now Earth's temperatures are going to be warmer or cooler, 
much like it is pretty unreasonable to ask a meteorologist 
whether we are going to have rain in Washington just two or 
three weeks from now?
    Dr. Christy. Well, there are some differences in that kind 
of thing, but I do yield to Dr. Emanuel over here in the sense 
I agree with him that it is very risky making predictions that 
far out.
    Mr. Brooks. Well, if I could just make this one concluding 
statement, in my judgment, based upon what I have heard and 
learned over the decades, the fact of the matter is nobody 
knows whether we are going to have global cooling or global 
warming over the next half century or century, but we are being 
asked to undermine America's economy based on this guesswork, 
speculation and surmise. And we need to be very careful as a 
Congress before we start eliminating jobs that people in our 
nation so badly need. And with that having been said, I very 
much appreciate the time each of you all have spent with us 
today.
    Chairman Hall. Yield back your time? Was Dr. Armstrong 
trying to get his attention? Okay. Anyone else? Thank you, Mo. 
Thank you for your----
    Mr. Brooks. Thank you.
    Chairman Hall. --good questions. Chair at this time 
recognizes the very patient Mr. Sarbanes. And you won't be last 
today. It is the gentleman from Maryland, five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you to the 
witnesses. Your testimony is helpful, and this is a complicated 
issue. I wonder who among you would be prepared to declare that 
climate change is not happening. Is there anyone at the table 
who would say that? Okay.
    Dr. Armstrong. Do you mean in either direction, or--I mean, 
my position is it is just as likely to go up as down, so I am 
sure it is going to change. It is absolutely certain it is----
    Mr. Sarbanes. Okay, but you are not refuting the notion 
that climate change is occurring?
    Dr. Armstrong. Definitely not.
    Mr. Sarbanes. And who among you would dispute that human 
activity has some role to play in climate change? Okay. What is 
interesting to me about the testimony is, when I look at each 
of the witnesses, Dr. Christy, you clearly have concerns about 
the IPCC, the process, whether they are taking into account all 
the things that they should, including some of the things that 
you have urged upon them and so forth. But you don't appear to 
reject out of hand the possibility that human activity can be a 
factor in climate change. You are not predicting it necessarily 
one way or the other, but you are not rejecting that out of 
hand. Is that correct?
    Dr. Christy. Yeah, that is correct.
    Mr. Sarbanes. Okay.
    Dr. Christy. Carbon dioxide is increasing. That will----
    Mr. Sarbanes. All right.
    Dr. Christy. --have some effect.
    Mr. Sarbanes. And then, Mr. Muller, you also had some 
concerns about the IPCC, but appear to recognize climate change 
is very real, as being caused or heavily driven by the 
greenhouse gas emissions. I accept your point that it is fair 
to worry about whether other countries are going to take steps 
to meet this challenge, and whether we are sort of going to be 
out there on our own if we push for it, and that is a subject 
for discussion and formulation of policy. But you have clearly 
acknowledged climate change and a human activity component to 
that.
    Dr. Muller. That is correct. I----
    Mr. Sarbanes. Okay.
    Dr. Muller. The degree of the human component----
    Mr. Sarbanes. Fair enough.
    Dr. Muller. --is, in my mind----
    Mr. Sarbanes. Fair enough.
    Dr. Muller. --quite uncertain.
    Mr. Sarbanes. Right. And, Mr. Armstrong, you also challenge 
the IPCC. Obviously that is one of the parts of the agenda here 
today is to raise questions, and I am going to come back to 
that. But, again, don't appear to be dismissing--as you just 
indicated, not dismissing out of hand the connection of climate 
change and potential human activity's influence there. Dr. 
Glaser, you are a--I mean--Dr. Glaser, you are a lawyer. Well, 
that--you are a doctor. But you are not really here to speak to 
the science so much as raise questions about the EPA and the 
Clean Air Act and all the rest of it. And Dr. Montgomery, you 
are focusing on the economics, but, again, don't appear to be 
issuing a major challenge to the underlying science when it 
comes to climate change and the potential connection to that of 
human activity.
    So I think it is important for us to recognize this. It is 
fair to raise questions and have a debate on the process by 
which we are trying to reach some good judgment as we make 
policy with respect to climate change. But the public needs to 
understand that climate change is real, that human activity is 
a contributing factor to that, and that that is--that it is 
fair to gather up that kind of information going forward.
    Now, Dr. Emanuel, I would like to ask you--what emerges to 
me from these discussion of what, you know, some mistakes that 
were made by some of the folks involved with the IPCC's--and, 
you know, we can say that, but what I get the impression of is 
that the IPCC, you know, can take it. That this is a group 
that, you know, is made up of a significant number of 
scientists that participate over almost 200 countries that 
participate. And they recognize the importance of the work they 
do, and they are going to make corrections to try to make sure 
in going forward that they are an important resources.
    My time is running out, but I did want you to confirm for 
me that, in addition to the IPCC being a robust source of 
expertise with respect to climate change, there are others that 
we rely on, because the suggestion was made earlier in the 
hearing that we are sort of putting all our eggs in one basket. 
There is the InterAcademy Council, is there not, which has 
issued some important recommendations with respect to climate 
change, and there is the U.S. Global Change Research Program, 
among many others, that are there as well. Can you just confirm 
that there is a lot of different and independent sources of 
conveying this real concern about climate change?
    Dr. Emanuel. There are indeed, and let me simply remind the 
Committee that the IPCC is not a research organization. It 
communicates published research. You could throw away the IPCC, 
throw away that one graph that some people are focused on, that 
had one piece of one curve a minute. The evidence remains very 
strong, very robust, and very worrying. And anyone who says 
that we shouldn't be worried is just kidding himself. Is the 
outcome certain? We have heard here, we all agree, it is not. 
But to suggest that we are not facing a significant risk going 
forward, and that we should not sacrifice immediate economic 
goals in order to deal with that risk, I think is being 
colossally irresponsible.
    Dr. Glaser. Mr. Chairman, if I could just respond? Mr. 
Sarbanes characterized his view of what I am saying here, and I 
just want to be precise about this. My view on the science is 
that the record that the Environmental Protection Agency 
created in the endangerment finding does not provide a basis 
for EPA to make that endangerment finding, and therefore to 
regulate. I don't want my silence otherwise--to be construed 
otherwise. Thank you.
    Chairman Hall. I think your emphasis is what I believe is 
Mr. Sarbanes is saying, that this hearing really is about 
process. And that is what we would hope it would be about, 
because that is the only honest way to approach it. And, Mr. 
Sarbanes, you can add on to any question or statement you want 
to make.
    Mr. Sarbanes. I will yield back my time.
    Chairman Hall. All right. I thank you. Gentleman yields 
back. Recognizes the gentlelady from Florida, Sandy Adams----
    Mrs. Adams. Thank you, Mr.----
    Chairman Hall. --for five minutes.
    Mrs. Adams. Thank you, Mr. Chair. And I do want to talk 
about the economics of it. Based on our economy today, and the 
fact that I don't believe that there is--I think there is some 
kind of correlation between the regulation, the unemployment 
rate, the high spending rates in the Congress, all of this is 
going up at record rates together. Our debt, our deficit, I 
think it is all correlated together.
    Dr. Montgomery, I want to discuss the questions with you, 
and it is on the economic side because, as many of my 
colleagues have said, we are broke. We are looking at it. We 
have a high record of unemployment. People are making very 
hard, tough decisions in their homes today on how to pay the 
bills, and, if they can't pay all the bills, then how to 
prioritize their bills. So, with that, I have a couple of 
questions. I want to know if any of your data that you used to 
formulate your opinions about the economic impacts of the 
climate related to regulations have ever been called into 
question?
    Dr. Montgomery. No. Economists, like other researchers, 
have disagreements about the emphasis to put on different 
things, but the models and the data that we have used have been 
accepted in major peer reviewed groups. We have published them. 
We have argued, but they have been accepted by all of our 
colleagues, and I think the academic community.
    Mrs. Adams. Okay. Does the so-called danger posed to the 
economy by not acting to reduce what some may call--some call 
man made effects on climate change outweigh the economic costs 
to the country, in your opinion?
    Dr. Montgomery. No, it does not.
    Mrs. Adams. Will the proposals that we have heard about 
from this administration, such as the cap and trade regimen 
create jobs and stimulate the U.S. economy?
    Dr. Montgomery. No, it will not.
    Mrs. Adams. Will it lose jobs, will it cost jobs?
    Dr. Montgomery. In the short run, I think you raised all of 
the right issues, that we are looking at a problem of deficits 
that are hanging over the economy and discouraging investment 
because of the prospect we have to pay them back someday, we 
have to pay more taxes. I think that the onslaught of 
additional regulatory requirements are imposing costs on 
business and making them unwilling to hire. And I think that 
adding additional regulations at this point is going to have an 
effect on employment.
    In the long run, people are going to have work. People are 
going to find work. The question is, how much will they be 
producing, and how much will they be earning for it, and how 
much does the country as a whole get out of their effort? And 
that, clearly climate change regulations will diminish.
    Mrs. Adams. And we have already been at a record high of 
months--coinciding months, side by side, of unemployment, so 
this would just add to it, is basically--on the short term?
    Dr. Montgomery. Yes, and if I could add to that, there have 
been a number of claims that we need to have environmental 
regulations because it is a way of getting more spending to 
happen. If we need more spending, which I would question in 
terms of our overall fiscal policy, then that is the issue, and 
the issue needs to be looked at in terms of fiscal policy and 
whether it makes sense or not. Using regulatory measures to 
force businesses to spend money on things that we cannot 
justify for other reasons does not make sense as a stimulus 
measure.
    Mrs. Adams. And I think earlier someone asked you about if 
we were, in the U.S., to bring our carbon emissions down to 
zero within 20 years and invest all of this, even though 
countries such as China, India and the EU do not, there would 
not be much of a difference in what is going on today, correct?
    Dr. Montgomery. We would not notice a difference to the 
U.S. in anything that was happening to us because of climate.
    Mrs. Adams. If the Kerry-Boxer Bill, which it was rightly 
rejected by last year's Congress, had passed, and we were on 
track to lower U.S. emissions by 20 percent, below 2007 levels 
by 2020, do you think the economic damage created by that bill 
would have been worth the carbon emissions decrease it was 
estimated to achieve?
    Dr. Montgomery. No, because they were very similar, very 
small reductions to ones that I mentioned, and that Dr. Christy 
mentioned, that the costs of that by itself would have far 
outweighed any benefit we could have gotten from those fiscal 
changes.
    Mrs. Adams. Okay. I am going to quickly conclude with these 
two questions. How much of an investment in research and 
development initiatives would you estimate is necessary for us 
to cut its emissions in half by 2035, our emissions, and if we 
were successful, how much would global emissions decrease as a 
result of that success?
    Dr. Montgomery. I have no idea of what it would take for 
R&D, and I am not sure that 2035 is a target that R&D would get 
us to in any event, but in none of these cases would it change 
global emissions. Where the R&D could pay off is if it 
developed over the longer term the kind of technologies that we 
need much further out in the future to get our--to get the 
world completely to a zero carbon economy. And we have to 
remember, that is the goal. It is not a little bit of change 
now, it is a wholesale change in the entire world's energy 
system that you commit yourself to when you say, we are going 
to go for preventing global warming.
    Mrs. Adams. Thank you. I yield back.
    Chairman Hall. Thank you. Ms. Lofgren? I think she just 
stepped out. Somebody tell her she is up next. Yeah. She waited 
a long time. You want to make him right now? She is asking if 
we have closing remarks, and we don't usually, but if--I have 
been waiting 30 years to be Chairman so I could make closing 
remarks, and I don't have any closing remarks, but--because you 
all have been so generous with your time, and--let me tell you, 
don't be discouraged by the empty chairs here because this is 
all taken down. The gentleman right over there is taking 
everything down, and your total testimony will be in the record 
for all the other Members to read, and they will be read, so 
you are not wasting your time on empty chairs. This is the lady 
that is worth waiting for. She has been in----
    Ms. Lofgren. You are so nice.
    Chairman Hall. --Congress for a long, long time, and we 
recognize you now for--if you are ready to go.
    Ms. Lofgren. I am ready to go, and I apologize. I was on 
the phone. This has been a--quite a busy morning. I was unable 
to be here during the delivery of the testimony because of--I 
am the ranking Member of a Subcommittee that was meeting at the 
same time, but I did have the opportunity to read the written 
testimony.
    And, you know, I--as I am listening to some of the 
questions here, Dr. Emanuel, it seems like some people are 
confused about the difference between climate and weather, and 
I am wondering if you could give us a short summary of what the 
difference is.
    Dr. Emanuel. Well, my favorite answer that I have heard to 
this question that you raise is one that was given by my late 
colleague, Ed Lorenz, the father of chaos theory, who says 
climate is what you expect and weather is what you get. It is a 
murky line. One of the things that one tries to do is to look 
in climate records at long term fluctuations, and depending 
upon what is causing the climate to change, you have to average 
over a lot of weather--a good example is the weather in 
Washington today. A few weeks ago, it was very warm, right? The 
trees were blooming. The temperature is clearly lower today 
than it was a few weeks ago, but nobody in this room would say, 
okay, because of that, we are not going to have summer here in 
Washington. They don't make that mistake. They understand that 
we are looking at a short term fluctuation. The temperature of 
the planet was very hot in 1998 because we were experiencing a 
very large El Nino that year. And people say, well, it has 
gotten cooler since then. It is true. It means nothing, on the 
other hand, about the longer term changes.
    What we are relatively sure of is to see what is happening 
with carbon dioxide, its influence, we need at least 30 years 
of time series. And looking at what has happened over the last 
five or ten years is virtually meaningless.
    Ms. Lofgren. One of the things that--the--in terms of my 
reading--and I read as a lay person. I mean, I am not a 
scientist, but if you take a look at some of the historical 
records, it seems that the influence--temperature influence in 
global climate change does relate to sunlight and variability 
of the sun, but right now we have got a decrease, and yet an 
increase, an up ramp. And I remember about a decade ago, decade 
and a half ago, I went to Stanford, and the analysis that they 
were doing is--just look at the planet chemistry. Don't worry 
right now about measuring the temperatures, look at the planet 
chemistry. And everybody, I think, agrees that the amount of 
carbon dioxide in the atmosphere has spiked.
    And--but one of the concerns I have is how conservative 
scientists are by nature. You don't want to predict something 
that you can't prove. And yet, if these things are occurring--I 
worry about methane. When you take a look at the melting of 
permafrost, I mean, if we were to stop all emissions today, we 
are still going to have a very large spike in carbon dioxide, 
methane, and other greenhouse gases.
    Let me ask you about whether the scientific community is in 
a posture where--I mean, you can't prove that the ice on 
Greenland will melt. I mean, no one knows that. And yet, were 
that to happen, that would be a rather catastrophic event. Can 
you explain to me where the scientific community is, relative 
to risk analysis, when you can't prove an unknown such as that?
    Dr. Emanuel. You have put your finger on what makes the 
whole enterprise so difficult. So one thing we do know beyond 
much doubt is that current levels of carbon dioxide in the 
atmosphere have not been experienced for at least a million 
years on our planet. We also know that that Greenland ice 
disappeared naturally in one of the previous interglacial 
periods over the last 800,000 years, so we know it can happen.
    And you had mentioned, and I think it is true, that science 
tends to be conservative. I personally think that, you know, 
people say the IPCC will turn out to be wrong. Yes, but with 
equal probability it will turn out that they have 
underestimated the effect, rather than overestimated. So in the 
last IPCC report, scientists who were the authors of that 
report concluded that they understood the Greenland ice problem 
so poorly that they weren't even able to venture. And I said, 
well, we are going to project an increase in sea level just 
based upon what we know reasonably well, which is the thermal 
expansion of sea water. And they said, we are not going to 
consider the ice.
    But if you want to consider the full range of possible 
outcomes, given that Greenland ice has largely disappeared in 
the past, one has to regard that as John Holdren correctly did, 
as a possibility. You are talking about seven meters of sea 
level rise. I think it is these issues that keep us all awake 
at night.
    Ms. Lofgren. Well, it certainly does me. And I will--I know 
my time is up, but I would just like to say, I come from 
Silicon Valley and, you know, some--the hottest part of our 
economy right now is green technology. I mean, it is employing 
thousands of people. It is a fast expanding part of technology, 
venture backed. And so when I hear, gosh, you know, this is an 
economic problem, wow, where I come from, it is an economic 
opportunity. So--and I just think it is important that someone 
point that out. I thank you, Mr. Chairman, for allowing me to 
come back and still ask my questions, and I yield back.
    Chairman Hall. Thank you. You are always worth waiting for. 
And then--yeah. Mr. Rohrabacher, the gentleman from California, 
recognized for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr.----
    Chairman Hall. And you have been patient too.
    Mr. Rohrabacher. Well, this is a very significant issue, 
and deserves the type of honest debate that--we have seen some 
of that here today, but we have also seen examples of some of 
the type of debate that we have had in the past on this issue. 
Let me note that Dr. Emanuel's statement earlier about the 
disinformation and some of--have been going on in terms of 
posturing and--which had not been conducive to a good 
scientific discussion.
    There is some validity to what you had to say there, Dr. 
Emanuel, but let me just note, I have sat through two decades 
of having those people who disagree with your position--seen 
them belittled, seen their arguments dismissed without having 
to address the actual scientific judgments that is based--we 
have all heard case closed. How many of us have not heard the 
phrase case closed, which is nothing more than an attempt to 
shut off debate and honest discussion? Over and over again we 
have seen these tactics. During the Clinton Administration, we 
saw this even reach the extent where people who I know were 
complaining that research grants were not available to people 
in the scientific community unless they had a predisposition 
towards proving man made global warming.
    Mr. Chairman, what we have needed in this issue is an 
honest debate and an honest discussion. I think today was a 
first good step. Let me note that even with this first good 
step, my colleagues on the left have been unable to prevent 
themselves from trying to call into question the integrity of 
the people who disagreed with them. One of my colleagues from 
North Carolina just mentioned that--basically talking about 
unethical lawyers or whatever, but could not prevent himself 
from suggesting that campaign donations have something to do 
with people's honest disagreement with his position. Well, 
people could honestly disagree with this. And what is the 
central issue? The central issue is whether or not mankind is 
causing a change in the climate, especially with mankind's use 
of fossil--what is called fossil fuels, and whether or not man 
made CO<INF>2</INF> is actually having a major impact on the 
climate of this planet. And it is not whether it has some 
impact. Everything has some impact. It is whether or not it has 
a major impact.
    And I would just like to ask our scientists here, Dr. 
Armstrong, do you believe that the sun and natural causes may 
have more to do with the climate cycles that the Earth is going 
through, including the current one, than mankind's use of 
fossil fuel?
    Dr. Armstrong. I work with Willie Soon, who does a lot of 
research on this particular topic, and that is what he tells 
me. I actually try not to learn a lot about climate change. I 
am the forecasting guy.
    Mr. Rohrabacher. All right. Well, I would ask that 
everyone--I would like to make a couple more points before we 
ask--by the way, just so you will note, again, asking people 
whether or not they have received any money--research money 
from any corporation I think, again, is an attempt to basically 
steer away from the arguments as to whether someone has a 
scientifically based argument, and what that argument is, and 
trying to instead poison the well so you don't have to confront 
the actual science.
    And that is why, frankly, Dr. Emanuel, when you started 
belittling people as making mascots out of scientific 
mavericks, well, no, you can't dismiss someone as a mascot. 
Maybe some of these scientific mavericks have something to say 
worthwhile without having to be belittled by calling them 
mascots. And I have been--we have been sitting through this 
dishonest debate on this issue for 20 years. And thank God we 
have at least one forum that present--is presenting the other 
side today. What about you, Dr. Christy and Dr. Muller? Do you 
think that the sun and natural causes has at least as great an 
impact as humankind on climate change that has always existed?
    Dr. Christy. Well, actually, the natural unforced 
variability, which is not really the sun or volcanoes or 
anything, but just the complexity of the system itself can 
create those variations on its own.
    Mr. Rohrabacher. Dr. Muller?
    Dr. Muller. The amount of global warming we have had so 
far, one degree Celsius, is hardly enough for anybody to even 
notice, other than scientists who are bringing together large 
numbers of instruments and measurements. I would say that 
claims that global warming has harmed the Earth so far as not 
scientific.
    What worries me, however, is not that we have had global 
warming which has impacted us. I worry that the excess reported 
by the IPCC, this fact that the solar activity has turned down 
a little bit, but the warming has gone up, is simply a risk. It 
is a risk for the future. We have not had significant global 
warming, enough to have many of the effects that are attributed 
to it. But that doesn't mean that the carbon dioxide is going 
up on a way that has been unprecedented during human existence.
    Mr. Rohrabacher. Um-hum.
    Dr. Muller. And that concerns me, and I think it means we 
need to take a measured look at it and take--have a measured 
response.
    Mr. Rohrabacher. Well, we have had a--and by the way, Dr. 
Emanuel, you are just excusing the manipulation of information, 
calling it poor judgment rather than unethical activity on the 
part of the----
    Dr. Emanuel. Absolutely correct.
    Mr. Rohrabacher. It is shocking.
    Dr. Emanuel. And many panels----
    Mr. Rohrabacher. Hold----
    Dr. Emanuel. --who are in much better position to know than 
you----
    Mr. Rohrabacher. Doctor----
    Dr. Emanuel. --concluded the same thing.
    Mr. Rohrabacher. It is my time, let me just note, and I am 
going to give you a chance to answer that, but I do want--I--I 
am running out of time right now because I wanted to get to a 
science thing, but--an actual science question.
    Chairman Hall. We will give the witness time to answer, if 
he chooses----
    Mr. Rohrabacher. Okay. Thank you. Dr. Christy, there was a 
period--this--what we call this medieval warming period. Is 
there any suggestion that that was caused by an increased level 
of carbon--CO<INF>2</INF>, especially by human beings? And if 
not, if the use of CO<INF>2</INF> was actually less than it is 
now, how can we then--and it was warmer then, how can we say 
that, scientifically, that today's cycle, it seems to be a 
little bit warming anyway, is caused by CO<INF>2</INF>?
    Dr. Christy. I think you are thinking like a lawyer. It is 
hard to convict carbon dioxide of warming back then when it 
wasn't there.
    Mr. Rohrabacher. Right.
    Dr. Christy. So the crime happened without the presence of 
carbon dioxide. If you think of it as a crime, I think the----
    Mr. Rohrabacher. Okay.
    Dr. Christy. --we might like warmer, actually.
    Mr. Rohrabacher. And I will be happy to let Dr. Emanuel 
answer my challenge to his dismissal of the significance of the 
alteration of information by scientists in presenting their 
case to the American public and the world.
    Dr. Emanuel. Thank you for the opportunity to make some 
clarifications. Let me first state that, if you read my 
testimony, I was very careful to say that mavericks are a very, 
very important part of the scientific enterprise. I, in other 
issues, am a maverick, and I know many of them, they 
appreciate----
    Mr. Rohrabacher. But you are not a mascot.
    Mr. Emanual. I was criticizing extra-scientific 
organizations who made mascots out of mavericks, and that is a 
very different matter. And I just simply want to be clear about 
that. Now, on the issue of this one proxy record, let us talk 
about what it is. It was a tree ring proxy record, and the--
there is a well known problem that had been published for 
several years before this report came out that noted that 
several of the tree ring proxies diverged from the instrumental 
record in modern times. There is clearly a problem. It is 
discussed all over the literature. It is called the divergence 
problem.
    And the graph in question, the authors chose--and this was 
not part of a peer reviewed report, by the way. It was supposed 
to be kind of a popular report. They chose to take away that 
part of one proxy record that was demonstrably false. I think 
what they should have done, and what we all feel they should 
have done, was taken that whole proxy away because it was 
provably wrong, all right? There is no question that that was 
scientifically wrong.
    What we concluded, that there was not, on the other hand, 
an intent to deceive anyone. If it was, it was very poorly 
conceived, because anybody who wanted to could immediately 
find, and did find, the original records. You could throw all 
of that away. You could take away all the science done by 
anybody in that group that you thought was questionable, and it 
wouldn't change anything about the conclusions, because the 
weight of the rest of the evidence is so large.
    Chairman Hall. --have an answer from any of the others, 
have you? Do you want to answer, Doctor?
    Dr. Christy. I would just say I think that minimizes what 
actually happened in that situation. It was the icon of the 
TAR, the third assessment report. And what the tree ring record 
did, in showing that it did not agree with temperatures, 
indicated that the icon itself, which was based primarily on 
tree rings prior to the 16th century, was therefore not very 
good at explaining what the temperature was. So both were 
improperly shown as--one was cut off, and one was shown as a 
correct representation of temperature when it really wasn't. 
Had no scale on that thing.
    Chairman Hall. Go ahead.
    Dr. Muller. Thank you. I was trained in science by Luis 
Alvarez, who not only won the Nobel Prize and lots of other 
discoveries, but is sort of a hero. He was over Hiroshima, 
measuring the size of the blast when it happened. Luis Alvarez 
taught me the fundamental scientific rule, which is you have 
got to show everybody your dirty laundry. I remember vividly 
the first time I was at a seminar in his home when Lena 
Gautieri, a great physicist, got up there, and I heard she had 
made a discovery. And she spent the first 35 minutes of her 45 
minute talk showing all of the evidence against what she was 
going to claim. In the end, when she showed her evidence, it 
was compelling because it was stronger than everything else.
    My problem with the way the hockey stick was derived was 
that there was none of this. Luis Alvarez taught me that if you 
hide something, if you don't show something, that you are 
afraid people will draw the wrong conclusions, the person you 
are most likely to fool is yourself.
    Chairman Hall. Thank you.
    Dr. Glaser. May I respond too, Mr. Chairman? I think--a 
couple of things here. First of all, Climategate was about a 
large number of things. The hockey stick has gotten all the 
publicity, as rightly it should, because the hockey stick was 
the fundamental way--it was the fundamental piece of evidence 
on which climate change was presented to the public in the IPCC 
report. So Climategate is about that, that is fundamental, but 
Climategate is about a bunch of other things as well. It is a 
large pattern of activity. And I think we have heard discussion 
today about the various review panels that were undertaken, 
mostly in England, and there are a few things that you need to 
understand about those review panels.
    First of all, the fact that the English felt that it was 
necessary to investigate what had happened is something that we 
wish EPA had done as well. They felt that there was enough here 
to take a look and to have some kind of process, and that is 
all that we have asked EPA to do here, is just take a look at 
this, let the public comment. EPA looked at it and said, 
nothing here. We are not even going to let the public comment. 
That is a process flaw. That is number one.
    Number two, none of these review panels, including the 
Oxboro panel, operated according to any kind of procedures that 
would even remotely approach the standards that we would use 
here in the United States. We have heard about interviews that 
weren't made public, failure to hear dissenting points of view. 
That is all important also.
    And then the third thing I would have to say is that 
although this doesn't get publicized very much, all of those 
review panels, in fact, were very critical of a lot of the 
procedures that were used by the scientists that they were 
reviewing, including the review panel that Dr. Emanuel served 
on that said in specific that they were actually very 
surprised. And that the statisticians in question, or the 
climatologists in question that were producing material like 
the hockey stick, which is fundamentally a statistical 
analysis, did not think it necessary to consult with 
disinterested professional statisticians.
    There was concern expressed across all of these review 
panels about failure to respond to Freedom of Information 
requests, operating in a culture of secrecy, not providing 
information to scientists who didn't share their views. That is 
ultimately what Climategate is all about, and that is why it is 
created so many questions.
    Chairman Hall. Does that do it? Mr. Montgomery?
    Dr. Montgomery. Just one thought, which is that even if all 
of the climate science was accepted as good science, we still 
need to worry about the bad economics and bad policy analysis 
that have been used to leap from conclusions--to leap to 
conclusions about what should be done from that basis.
    Chairman Hall. Okay. Mrs. Woolsey is--wants to make a 
closing remark. Recognize you for----
    Ms. Woolsey. A minute.
    Chairman Hall. --for a couple or three minutes. Whatever 
time you take, as long as you don't take over five minutes.
    Ms. Woolsey. I won't, I won't. Thank you, Mr. Chairman. I 
would like to respond to Mr. Rohrabacher about today's panel 
representing the other side, because I don't think that that is 
the conversation we have had today, because every single person 
said that global warming is happening. Every single person said 
that human activity is a factor, and that science must be 
continued. I think there is agreement in that. And I think the 
challenge is exactly how we are going to have science that is 
understandable and acceptable. So--without giving up real 
science.
    So--now, you know, it is clear, Mr. Chairman, this debate 
has focused a lot on the IPCC, but, you know, even if you 
reject the report--I don't, but I need to point out that there 
are many other reputable sources of scientific information, 
like the United States National Academy of Sciences, and we 
have to--we accept their reports. In addition, every 
significant relevant scientific society has put out statements 
that are in agreement with the mainstream view of climate 
science. And, obviously, all of those groups cannot be wrong.
    So as I said when I came in, after hearing the esteemed 
Secretary of Energy, Secretary Steven Chu, this morning at nine 
o'clock, and then came in here, I really could be living in a 
parallel universe, and I thank you for keeping me sane through 
it.
    Chairman Hall. Gentlelady's time has finally expired.
    Dr. Armstrong. Could I make a comment on that? I think I 
was misrepresented by her.
    Chairman Hall. I recognize you for a minute, two minutes if 
you need it.
    Dr. Armstrong. She said every single person was recognizing 
that global warming was happening. I did not say that. I said 
it had happened, and that we would have no idea whether the 
temperature is going to go up or go down. Secondly, the whole 
notion of voting by scientists is not scientific method. In 
fact, it is anti-scientific method. It is the way that 
scientists prevent change.
    Chairman Hall. Okay. Let me just say that this is a group 
that I had heard had some questions about the science. You have 
expressed that somewhere, or you wouldn't be here. We have 
asked you to come. Dr. Montgomery, your testimony has been very 
valuable because in a mile of here there is probably 1,000 
places of business. Every one of them have a door people walk 
through. They go in there and they pick out something, and what 
is the next thing they have to do? They have to pay for it. 
They have got to go by a cash register.
    And I ran into some witnesses about five or six weeks ago 
had they ever been to Wal-Mart, and had they--they said yes. 
Did you buy anything? Yes. And what did you next do? They 
didn't know, or they just didn't say anything. Did you see 
anything unusual? And--did you see a thing called a cash 
register? And I had a dictionary with me, and I wrote--I called 
out to these Phi Beta Kappa people what a cash register was, 
read them two or three paragraphs of it, still didn't agree.
    You know, we have spent 30 billion dollars, and we are in 
debt 14 trillion right now on our children, and we have only 
got pamphlets to show for this since it came out in the '90s. 
And we needed this hearing today, and we are going to have 
other hearings that will give those other folks a chance to 
justify their findings and answer the question just like you 
all have. We are going to put them under oath. I hope they will 
come. I hope they are as kind as you all have been in giving us 
your time. And I certainly want to thank you for that.
    And I will just close with this. I was a paperboy in the 
'30s, and I served Bonnie and Clyde one time from a drugstore. 
I gave them curb service. They wanted two Coca-Colas, a carton 
of Old Golds and all of the newspapers we had. And--anyway, I 
called the Greenville Police--it was just one road from Los 
Angeles to Miami then, that was Route 66, came right through my 
town--told them that they were headed in that direction. And 
they said, well, dogs been killing some sheep out on the north 
part of town. We are going out there and shoot them dogs, so--
you can always do the wrong thing with good information.
    But we also had--let me finish. I haven't used up all my 
time. We also had a fellow named Dr. Something that came to 
Dallas with something that we had never heard of before. He was 
a weather predictor, and he had a sling cyclometer. My God, I 
had no idea what it was, but he would use that sling cyclometer 
six o'clock every morning on WORR and tell what the weather 
was.
    Now, we used the word maverick up there. There was a 
maverick projector up at Paris, Texas. He listened to him, and 
he predicted just the opposite. He didn't have a sling 
cyclometer or anything, and he was right 80 percent of the 
time. I guess that is the way it goes.
    Thank you very much for your time. Thank all of you, and I 
thank you for your valuable testimony and answering the 
questions. The Members of this Committee may have additional 
questions for any one of you, and we will ask you to respond to 
those in writing. Record will remain open for two weeks for 
additional comments from Members. Witnesses are excused, and 
this hearing is adjourned.
    Whereupon, at 1:05 p.m., the Committee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. J. Scott Armstrong, Professor of Marketing,
the Wharton School, University of Pennsylvania.

[GRAPHIC] [TIFF OMITTED] 65306.338

[GRAPHIC] [TIFF OMITTED] 65306.339

[GRAPHIC] [TIFF OMITTED] 65306.340

[GRAPHIC] [TIFF OMITTED] 65306.341

[GRAPHIC] [TIFF OMITTED] 65306.342

[GRAPHIC] [TIFF OMITTED] 65306.343

Responses by Dr. Richard Muller, Professor of Physics, University of 
        California,
Berkeley and Faculty Senior Scientist, Lawrence Berkeley Laboratory

[GRAPHIC] [TIFF OMITTED] 65306.384

[GRAPHIC] [TIFF OMITTED] 65306.385

[GRAPHIC] [TIFF OMITTED] 65306.386

[GRAPHIC] [TIFF OMITTED] 65306.387

[GRAPHIC] [TIFF OMITTED] 65306.388

[GRAPHIC] [TIFF OMITTED] 65306.389

[GRAPHIC] [TIFF OMITTED] 65306.390

Responses by Dr. John Christy, Director, Earth System Science Center,
University of Alabama in Huntsville

Questions submitted by Chairman Ralph Hall

Q1.  In your testimony, you describe that lead authors of IPCC chapter 
are usually experts in the field the chapter discusses. While this 
would make sense on its face, you also state that since the lead author 
has essentially the final say on what goes in the chapter, it creates a 
conflict of interest if there is information submitted that is counter 
to the views of the lead author.

a.  How could the process be changed to remove that conflict of 
interest and allow for differing views to be incorporated into the 
final product?

A1 (a) I have suggested a number of ways to improve the process. First 
is to remove the controlling bureaucracy from being led out of the U.N. 
Second is to create an electronic climate assessment system in which 
there is much greater transparency and acceptance of alternate views 
with the decision-process for conclusions made visible to the 
community. Third, is to explicitly provide a means, i.e. a chapter or 
two, whereby alternate views to be expressed (which to date have been 
shut out) by credentialed scientists which deal with the scientific 
evidence for, as examples, low climate sensitivity, inappropriate 
paleo-reconstructions, the role of natural unforced variability, and 
the lack of evidence for catastrophic weather and climate developments. 
Oversight would be governed by those who do not have an agenda to 
promote (i.e. no conflict of interest), but are careful to see that 
fairness is adhered to. For an issue that has such tremendous impact on 
the economy, the Congress needs to see the full range of evidence 
regarding climate change. Given the lack of diversity in the current 
IPCC process, I would recommend the U.S. congress ask for its own 
assessment developed along the lines above. Please note that those who 
perform research under federal programs may be viewed as ``conflicted'' 
because the current system is biased to support those trying to make a 
case for dangerous human-induced climate change rather than 
understanding natural, unforced variability.

b.  Has there been anything suggested to or adopted by the IPCC that 
would alleviate this conflict of interest problem?

A1 (b) I understand that there is a new document that appears to make 
some effort at reducing conflict of interest problems (see discussion 
here http://rogerpielkejr.blogspot.com/2011/04/ipccs-proposed-coi-
policy.html). However, as suggested in Pielke's report, rulings 
regarding COI will be rather non-transparent. And, as mentioned, one 
wonders if scientists who are government employees or do research on 
government grants (of governments with strong agendas regarding 
greenhouse-gas controls) would ever qualify as not having COI. I 
suspect not much will actually change here as the IPCC continues to be 
led by an establishment of scientists and bureaucrats who believe 
humans are having a catastrophic impact on the climate system and who 
desire strong greenhouse gas controls. It is important to remember that 
the IPCC provides one view of climate change and that there are other 
views equally backed-up by evidence but which have been marginalized or 
eliminated from the IPCC venue. As such, at least one other venue 
independent from the IPCC, such as a ``Red Team,'' is necessary.

c.  Have other lead authors expressed this concern or pointed out this 
deficiency as well?

A1 (c) I would point to Dr. Richard Lindzen and Dr. Richard Tol as two 
former Lead Authors of the IPCC and Roger Pielke Sr as a former CCSP 
Lead Author who are critical of the methodology and conclusions of the 
IPCC. This may seem to be a small group, however, scientists critical 
of the IPCC process are, in effect, excluded from the opportunity to 
serve as Lead Authors since the IPCC itself selects whom they want. 
There are certainly many other scientists who were never asked to serve 
as Lead Authors whose credentials are exemplary and are well-qualified 
to provide climate science information.

Q2.  You discuss in your testimony Climategate email exchanges between 
the lead author in the third assessment report with other scientists 
regarding the Hockey Stick graph.

a.  Are you aware of any group discussion about this matter with all 
the lead authors and coauthors present?

A2 (a) To my knowledge, the elimination of the ``decline'' in Briffa's 
tree-ring data was not discussed with all of the Lead Authors in an 
open session--I certainly don't recall such a discussion. From the now 
exposed email evidence, the deletion of the Briffa data (because it 
disagreed with the Hockey Stick) occurred in late Sept. 1999 -after the 
IPCC meeting in Arusha Tanzania and before the meeting in Auckland NZ--
through behind -the-scenes email discussions. These behind-the-scenes 
exchanges were never entered into the formal review process.

b.  Does the IPCC spell out a process requiring discussion of an issue 
like this between all the authors or is there no process at all thereby 
allowing a great amount of discretion to the lead author?

A2 (b) Controversies were intended to be discussed in the open. 
However, much of what the Lead Authors did for the IPCC was rather ad 
hoc, and of course done on a voluntary basis (if one is not a 
government scientist.) At the time of the writing of the TAR, the Lead 
Authors had considerable authority over the text and the review 
process, and there was really no serious oversight on what individuals 
did relative to formal review procedures. In this case a Lead Author 
with some close associates somehow managed to truncate data without the 
rest of the Lead Authors' knowledge.

c.  The IPCC has stated it has changed some of its processes in 
response to the report by the Interacademy Council. Was this process 
deficiency addressed in the changes recently implemented?

A2 (c) Yes and no. The IPCC has announced changes, but it remains to be 
seen how openly and honest the authors will be or how well they will 
adhere to the new guidelines including rules about conflict-of-
interest. It must be understood that the IPCC is a well-established 
organization with a need to affirm its past activity and to bolster the 
perception that its documents are the best science on climate change 
available today. The IPCC will continue to control its own message, and 
will do so by selecting Lead Authors who will support this emphasis. 
That basically implies that they will not address past failures and 
will seek to make ever-more confident announcements about their view of 
climate change. This is one of the reasons that a separate climate 
science assessment be initiated with one of its missions to expose past 
IPCC failures (which the IPCC will not do on its own, e.g. the Hockey 
Stick and the Yamal paleo-record.)

Q3.  I'd like to ask you about the ``hide the decline'' trick referred 
to in the Climategate emails.

a.  Am I correct in saying that this trick was to use tree ring data to 
show temperature changes, but only up to a certain date, after which 
satellite or surface temperature data was used to finish the graph?

A3 (a) There are three issues tied up together here that are discussed 
to some extent in the Climategate emails. (1) The first issue concerns 
the problem created when Mann's Hockey Stick and the Briffa's tree ring 
result did not agree--Briffa's result showed a decline in temperatures 
after 1960. But, Briffa's result was legitimately constructed and 
published. To avoid showing this disagreement, the Briffa result was 
simply chopped off after 1960 to ``hide the decline'' so it wouldn't 
disagree with the Hockey Stick. (2) The second issue then dealt with 
the splicing of thermometer readings into the various proxy depictions 
in one way or another even though the proxy records didn't agree with 
the thermometer records. This gave the impression of a rapidly rising 
temperature after 1960 even though the proxy records did not have such 
a feature. To describe this as a ``trick'' is accurate. (3) The third 
issue deals with the Hockey Stick itself and the poor mathematics and 
data utilized in that product.

b.  How would one be able to discern what part of the data set was from 
proxy data and what part was from real measurements?

A3 (b) One would never know about the real measurements from the Briffa 
proxy dataset because they were amputated after 1960. The intentional 
splicing-in of instrumental data was done in various ways at various 
times during this period, so I can't be more specific here. However, 
the splicing was a relatively minor problem compared with the brutal 
truncation of data after 1960 in Briffa's dataset and the poor analysis 
that went into the Hockey Stick.

c.  Is this accepted scientific practice?

A3 (c) Eliminating data which were never shown to be ``wrong'' is not 
acceptable scientific practice, indeed this is the antithesis of the 
scientific method. Splicing instrumental data onto proxy data in this 
way is comparing apples to oranges, and not acceptable in my view.

Q4.  The IPCC describes itself as a scientific organization. Would you 
agree with this characterization? If not, how would you describe the 
IPCC and the assessment reports it generates?

A4. The IPCC is an organization of IPCC-selected authors and editors, 
many of whom are scientists. The IPCC is not a scientific organization 
in the sense that it does not sponsor or perform scientific research. 
See also response to 2.c. above. The assessment reports by the IPCC are 
simply one version of climate science generated by a U.N. body and do 
not represent the complete view of evidence on climate change.

Q5.  The 2006 National Academies report on temperature reconstructions 
indicated that there were methodological problems in reconstructions 
that have led to uncertainties which were subsequently underestimated. 
Although you did not participate in the Fourth Assessment Report, did 
you find that these methodological problems were addressed by the IPCC 
when they reviewed temperature reconstructions? Or did the 
reconstructions used in the IPCC report reflect the same deficiencies 
identified by the National Academies report?

A5. I participated in the AR4 (Fourth Assessment Report) as a 
``Contributing Author'', however, I did not participate in the section 
referred to in this question (reconstruction of paleo-temperatures.) 
What was disappointing in the AR4 was the fact they did not address the 
problems from the previous IPCC report (outlined in the NAS report) 
concerning the Hockey Stick and ``hide the decline'' even though they 
were asked to do so in the review process. In AR4, they continued to 
NOT show the full Briffa tree ring series, (i.e. continuing to ``hide 
the decline.) This truncation of data was done over and over -see 
Briffa and Osborn (Science 1999), Jones et al (Rev Geophys 1999), 
Briffa et al (JGR 2001) Plate 3, Jones et al 2001 Plate 2A, Briffa et 
al 2004 Figure 8, Hegerl et al Figure 5b. (CRU conceded most of this in 
their March 1, 2010 submission to Muir Russell, see page 38). [From 
http://climateaudit.org/2011/03/31/disinformation-from-kerry-emanuel/ ]

 There continued to be another important deficiency, only obliquely 
mentioned in the NAS report, regarding proxy reconstructions and the 
common practice of selective use of tree rings (Yamal) which bolstered 
a Hockey Stick shape while ignoring much larger and robust tree ring 
samples (Polar Urals and Taimyr) which did not support Hockey Sticks 
(see http://climateaudit.org/2011/04/09/yamal-and-hide-the-decline/ ). 
This amounts to selective use of input data to provide an output that 
is agreeable to the researcher. The IPCC AR4 did not address this 
selective use of data. As one paleoclimate researcher (Jan Esper) 
astoundingly admitted, ``The ability to pick and choose which samples 
to use is an advantage unique to dendroclimatology.'' Picking and 
choosing allows the bias of the scientist to create the result he/she 
desires but this is not the way science should be performed.

Q6.  In your testimony, you describe a situation where text was 
inserted by the lead authors after the close of peer review. Could you 
please elaborate how the peer review process in the IPCC is supposed to 
work and its importance to the legitimacy of the overall assessments?

A6. Fundamentally, the way the IPCC review process works is ``trust us, 
we are Lead Authors.'' In this sense, the IPCC peer-review process 
boils down to whether a Lead Author can be completely objective about 
the material. As indicated elsewhere, this was not to be.

 It must be understood that the IPCC is not a peer-reviewed document in 
the classical sense. The Lead Authors of the IPCC KNOW that their work 
will be published, largely as they wish it to be published. One would 
hope that the Lead Authors would accommodate the reviewer comments in 
fairness, even if they did not agree with them. However, having the 
``final word'' after the review is closed prevents this fairness from 
occurring. Then, one would hope that the handful of IPCC Review Editors 
would raise red flags when something was amiss. However, Review Editors 
were largely ineffective since the Lead Authors were the main 
authorities for determining the content. Indeed, in an email from IPCC 
Chair Susan Solomon who responded to a question (arising out of a FOI 
request from David Holland) states on 14 Mar 2008 the following:

    The review editors do not determine the content of the chapters. 
The authors are responsible for the content of their chapters and 
responding to comments, not REs [Review Editors]. Further explanations, 
elaboration, or re-interpretations of the comments or the authors 
responses, would not be appropriate.

 In the way that the IPCC operates, it really comes down to whom the 
IPCC selects to serve as Lead Authors as to the type of content and 
emphasis contained in the final report. As I've noted several times in 
the past, there was a disturbing homogeneity-of-thought in those who 
were selected in the AR4 and now AR5.
 In the case referred to here concerning Ross McKitrick, the IPCC 
authors made a specific, but unsubstantiated, statistical claim in 
response to criticism of their own dataset. This was done perhaps to 
give them the comfort of providing cover for their own work, but to 
which they knew there would be no rebuttal since the IPCC ``expert 
peer-review'' process was over. It was only through the incredible 
efforts of McKitrick that the information was eventually published 
(McKitrick, R., 2010: Atmospheric oscillations do not explain the 
temperature-industrialization correlation. Statistics, Politics and 
Policy, Vol 1, No. 1, July 2010) which demonstrated the IPCC authors 
apparently fabricated their response for the official text (see also 
McKitrick, Ross R. (2011) ``Bias in the Peer Review Process: A 
Cautionary and Personal Account'' in Climate Coup, Patrick J. Michaels 
ed., Cato Inst. Washington DC.)
 During the Muir Russell Inquiry in the UK, IPCC Author Jones was asked 
if he could produce the statistical basis of the claim he and his 
chapter coauthors had inserted. He was unable to do so, and even 
claimed no such evidence was necessary (http://www.cce-review.org/
evidence/15%20April%20Jones%20follow%20up.pdf). The peer review process 
at academic journals would almost surely have prevented unsubstantiated 
material like this from going into print. By contrast the IPCC process 
shielded it from review. For this reason the current IPCC process 
should be seen as detracting from the legitimacy of the overall 
assessment, and certainly does not qualify as peer-reviewed science in 
the traditional sense.

Q7.  Dr. Christy, you state that the current establishment dismisses 
information that questions the belief that greenhouse gases are the 
dominant cause of observed climate change. Would you agree that a 
generally accepted methodology of the scientific process is that 
theories gain credibility if they are rigorously tested, supported by 
multiple lines of evidence and can rule out competing explanations? If 
that is the case, can the actions of the climate establishment of 
dismissing contrary information be considered as ruling out competing 
explanations? How is this not adhering to the accepted process of 
scientific inquiry?

A7 Dismissing contrary evidence based on opinion does not qualify as 
rigorous hypothesis testing of multiple lines of evidence. If the 
question here refers to the disagreement between models and 
observations regarding temperature trends in the tropics, the evidence 
is substantial that models fail a direct hypothesis test. Multiple 
publications and multiple lines of evidence have demonstrated this 
disagreement. However, the IPCC establishment seems to be impenetrable 
to these results because they demonstrate a critical model failure - 
and models are the basis for the IPCC alarm.

Q8.  For its endangerment finding, EPA relied heavily on the IPCC and 
the U.S. Climate Change Science Program and the U.S. Global Change 
Research Program.

a.  Are these groups independent of each other?

A8 (a) Absolutely not. If one reads the authorship and those who had 
key roles in drafting these various reports, one will find the same 
names again and again and the same material used in all three.

b.  Can you tell us how much of the information generated for the IPCC 
came from the U.S. programs and vice versa?

A8 (b) With regard to the one CCSP (U.S. Program report) addressing 
surface and upper air trends, the CCSP report came out first, and the 
IPCC adopted it almost entirely.
 Regarding the EPA report in general, the Finding indicates at the 
outset that it relied on the IPCC for the basis of its conclusions.

Q9.  During the hearing, you mentioned that you have estimated the 
impact of the proposed reductions in U.S. greenhouse gas emissions on 
the global temperature. Can you provide your analysis for the record?

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


a.  What climate sensitivity is assumed in your analysis? Why did you 
choose that level?

A8 (a) The result above uses the IPCC median climate sensitivity (about 
+3.0 +C for CO<INF>2</INF> doubling) and shows virtually no impact even 
with drastic emissions reductions from the United States and even if 
one accepts the IPCC model simulations. This climate sensitivity was 
selected as it was the ``best estimate'' used in the IPCC assessment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 This result uses the sensitivity that is closer to that which has been 
observed (about +1.5 +C for CO<INF>2</INF> doubling), and shows even 
less impact from drastic U.S. emission reductions (0.07 +C by 2100 for 
50% reduction and 0.11 +C for 80% reduction.)

 Both studies utilize the MAGICC climate model tool also used by the 
IPCC.

Questions submitted by Representative Randy Neugebauer

Q1.  Supporters for a political action sometimes utilize extreme and 
alarmist actions to gain favor with the public in order to encourage 
government officials to act. Does the science currently available to us 
prove, beyond a reasonable doubt, that human activity will result in 
catastrophic and irreversible climate changes and disasters in the very 
near future?

A1. In my opinion the evidence does not support catastrophic and 
irreversible climate changes due to enhanced greenhouse gas 
concentrations. I have examined numerous datasets of such ``change'' 
parameters (i.e. temperature, storms, tornadoes, snowfall, hurricanes, 
etc.) and do not find remarkable changes outside of natural 
fluctuations. Indeed, direct calculations of one key aspect of climate 
sensitivity indicate the climate is not very sensitive to rising 
greenhouse gases.

Q2.  Even if one believes that human activity makes some contribution 
to changes in the environment, is it possible to be fully confident 
that it is the one driving force behind those changes or is the 
modeling of such change too complicated?

A2. The climate system is extraordinarily complex, and no one can say 
for certain what the cause and effects are when it comes to any 
particular observation or whether greenhouse gases might be partly 
responsible. Thus attributing an observed change in climate to 
greenhouse gases is almost impossible to do. This is so because similar 
events (i.e. a few-decade rise in temperature, a series of storms, 
etc.) have occurred in the past so that an increase in greenhouse gases 
can't be blamed. This provides evidence that greenhouse gases might not 
be the guilty party in any current ``change.'' Fundamentally, natural, 
unforced variability is a key and large uncertainty in any attribution 
exercise. The climate system contains within it all of the freedom to 
generate extreme events or long-term trends through natural, unforced 
variability. And, since such variability is poorly modeled, one cannot 
assume climate models tell the truth about cause and effect.

Questions submitted by Representative David Wu

Q1.  If you surveyed climate scientists in 1990 and then again in 2010, 
would the results indicate:

a.  an increased consensus that climate change has been occurring?

A1 (a) ``Consensus'' is a political notion, not a scientific notion, 
thus the question deals with a political idea and is mostly irrelevant 
to science. I would speculate that every scientist would say that 
climate change is occurring because the climate is never stationary - 
it is always changing (with or without human intervention.) No matter 
what period one might choose from the history of our planet, one would 
find a changing climate.

b.  that climate change is due to an increase in greenhouse gases?

A1 (b) What scientists believe as expressed in polling exercises and 
what is real can often be two different things. I have not seen 
specific polling data on this question (nor do I suspect the term 
``climate scientist'' is ever accurately assessed.) This is a rather 
odd question as it asks for survey of opinion rather than hard facts. 
However, I can speculate that a majority of those individuals who 
thought of themselves as climate scientists in 1990 and still do in 
2010 would tend to think that increasing GHG concentrations is at least 
partly a cause of some temperature rise (whether that might be called 
``climate change'' is another matter.)

c.  that the increase in greenhouse gases is primarily due to human 
activity?

A1 (c) Without any regard for what the climate might be doing, it is 
clear that the increase in GHG concentrations is due primarily to human 
progress through (again primarily) carbon-based energy production which 
is directly related to the improvement of human civilization and the 
reduction of the terrible consequences of energy poverty. The human 
desire to be free from the poverties of food, health care, light, 
transportation, etc. is exceedingly strong, and it is energy that 
alleviates those poverties.

Questions submitted by Representative Donna F. Edwards

Q1.  Have you ever received either direct or indirect compensation for 
any of your research, analyses, publications, testimony or a speech in 
any form, at any entity, by a company, trade association, institute or 
foundation that is represented, supported or funded by the oil, coal or 
energy industry?

A1.: 

    Research-No.

    Analysis-No.

    Publications-I don't believe so.

    Testimony-No.

<bullet>  Speeches-My policy is that I do not take honoraria for 
speeches that may be viewed as supported by the energy industry. It is 
possible that in 2003 I received an honorarium from participating in a 
debate (i.e. not a speech) sponsored in part by the CATO Institute.

Q2.  If you answered yes to question number one above please indicate:

A2 I have not found records of the 2003 event noted above, but will try 
to answer.

a.  The name of the entity that provided this compensation?

A2 (a) CATO

b.  The year it was provided?

A2 (b) 2003

c.  The amount of compensation?

A2 (c) I don't remember

d.  A brief description of what specifically you were compensated for 
doing?

A2 (d) I participated as one side of a debate about climate change.

Q3.  Please indicate if you have ever appeared as an expert witness in 
a civil or criminal court case?

A3. Yes, as an expert witness in U.S. District Court, Case Number 2:05-
CV-302 and 2:05-CV-304.

Q4.  If you answered yes to question #3 above please indicate:

a.  The name of the court case?

A4 (a) Green Mountain Chrysler-Plymouth-Dodge-Jeep v. George Crombie, 
et al.

b.  The name of the court where the case was held?

A4 (b) United States District Court for the District of Vermont

c.  The name of the plaintiff or defendant that you testified for?

A4 (c) Green Mountain Chrysler Plymouth Dodge Jeep; Green Mountain Ford 
Mercury' Joe Tornabene's GMC; Alliance of Automobile Manufacturers; 
Daimlerchrysler Corporation; and General Motors Corporation

d.  Please indicate the amount of compensation you received either 
directly or indirectly for your testimony in each case mentioned above 
and the name of the entity that paid your compensation.

A4 (d) No compensation for the testimony.
Responses by Mr. Peter Glaser, Partner, Troutman Sanders, LLP

[GRAPHIC] [TIFF OMITTED] 65306.357

[GRAPHIC] [TIFF OMITTED] 65306.358

[GRAPHIC] [TIFF OMITTED] 65306.359

[GRAPHIC] [TIFF OMITTED] 65306.360

[GRAPHIC] [TIFF OMITTED] 65306.361

[GRAPHIC] [TIFF OMITTED] 65306.362

[GRAPHIC] [TIFF OMITTED] 65306.363

[GRAPHIC] [TIFF OMITTED] 65306.364

Responses by Dr. Kerry Emanuel, Professor of Atmospheric Science,
Massachusetts Institute of Technology

Questions submitted by Chairman Ralph Hall

Q1.  You state in your testimony that the controversy over the ``hide-
the-decline'' email is much ado about nothing, and that data excluded 
by scientists was ``provably false.'' Dr. Muller had a different take, 
stating in a widely circulated Internet video that the ``justification 
[for erasing the data] would not have survived peer review in any 
journal that I'm willing to publish in.''

a.  Please explain how the ``hide the decline'' data is ``provably 
false.''

A1. The ``hide the decline'' remark appeared in an informal email 
communication and has been widely taken out of context. The graph that 
it was referring to was published in Science, among other places, and 
Richard Muller has published in that journal. The heart of this issue 
is the comparison between directly measured temperature and temperature 
inferred from proxies, in this case, tree rings. Proxy inferences are 
almost never perfect, and often multiple proxies are used to make the 
best possible estimates of temperature in the period before the 
instrumental record begins in the middle of the 19th century. There are 
certain tree rings, especially in the northern part of Russia , that 
agree well with the instrumental record up until about 1960, at which 
point they ``decline'' while the directly measured temperature 
increases. No one in the climate profession would prefer a proxy-
derived inference to a direct measurement, so when I said that the 
proxy records in question were ``provably false'', I meant that they 
would be regarded as false by anyone in the profession when they 
disagree with directly measured temperature.

 The serious question in publishing a proxy with problems such as that 
mentioned above is whether to exclude the whole proxy record when it is 
demonstrably false for part of the period in question. A case can be 
made to omit only the false part of the record, if, for example, there 
was something unusual about the period during which the proxy fails. If 
the graph is published, it is imperative to state carefully that a part 
of the record has been dropped and to state the reasons for dropping 
it. In the peer-reviewed literature on this subject, for the most part, 
such descriptions were either made explicitly or were implicit, in that 
other graphs in the same paper showed the whole record. But in a (non 
peer-reviewed) report published by the World Meteorological 
Organization in 1999, a graph was presented without such qualifiers. 
While graphs are often simplified for non peer-reviewed reports 
directed at broader cross-sections of the public, one might 
legitimately question the judgment of omitting the qualifiers in this 
case. But if this was a conspiracy to deceive, it was poorly conceived 
since the graph with the qualifications was (and is) readily available 
in published literature for anyone with a serious interest in the 
subject.

Q2.  In response to comments questioning the independence and 
objectivity of the people selected to peer review the EPA's 
endangerment finding, the Administrator said that she relied on people 
who were familiar with the assessment literature, even if those people 
participated in the creation of that assessment literature.

a.  Would you consider an editor of a journal having a co-author of a 
paper review their own paper and calling it peer review since that co-
author was familiar with the paper an analogous situation to the 
actions of the Administrator?

A2 (a) I would not. If I understand the question correctly, the EPA 
sought peer review of the EPA's endangerment finding from scientists 
some of whom were authors of assessment literature (and not authors of 
the endangerment finding). I am not sure why being an author of an 
assessment disqualifies one from peer-reviewing an endangerment 
finding.

b.  Does this practice fall within the normal and accepted processes of 
peer-review?

A2 (b) Again, I am not sure how to compare the normal process of peer 
review of scientific literature with peer review of a finding by the 
EPA. If the peer review of the finding had been conducted by authors of 
the finding, this surely would have been outside normal accepted 
practice.

Q3.  The National Academy of Sciences' (NAS) Guide to Responsible 
Conduct in Research states that ``When a scientific paper or book is 
published, other researchers must have access to the data and research 
materials needed to support the conclusions stated in the publication 
if they are to verify and build on that research . . . [G]iven the 
expectation that data will be accessible, researchers who refuse to 
share the evidentiary basis behind their conclusions, or the materials 
needed to replicate published experiments, fail to maintain the 
standards of science.'' (http://www.nap.edu/catalog.php?record 
id=12192)

a.  What steps can the Federal government take to ensure that these 
scientific data sharing standards are upheld and enforced?

A3 (a) In my view, the culture of and policies concerning sharing data 
and research materials work quite well in this country. For a more 
comprehensive statement of current policy, I refer you to the American 
Meteorological Society's statement on this issue, Free and Open 
Exchange of Environmental Data:

 http://www.ametsoc.org/policy/freeopenexch--final.html

 This statement does not cover the issue of the availability of such 
items as computer programs and other tools that researchers might 
develop in the course of their work. This is murkier territory. For 
example, it would be unreasonable for a researcher in chemistry to 
demand that another researcher make available his entire experimental 
apparatus, though it would not be unreasonable to request a detailed 
description of the apparatus. At the moment, most of us consider 
computer programs we write to be our own property, but many of us share 
them on request anyway.

 There are more serious problems in other parts of the world, and in 
Europe in particular. In many western European nations, environmental 
data collected by governments are regarded as proprietary, and members 
of the public, of other nations, and even of scientific research 
communities are often forced to purchase the data, sometimes at very 
high cost. At the time they purchase the data, they are usually forced 
to sign nondisclosure agreements that prevent them from redistributing 
the data. Thus they are legally prohibited from giving the data they 
purchased to another researcher. Most American scientists (and indeed 
many European scientists) hold these policies to be destructive of the 
ends of science, and at various times since these policies originated 
in the 1980s the U.S. government has pressured governments of western 
Europe to abandon them in favor of the U.S. model of free and open 
exchange of research data.

b.  Should researchers that refuse to uphold the Academies' standard 
requiring sharing of data and materials necessary to support research 
conclusions continue to receive Federal funding?

A3 (b) In my view, it would be counterproductive to move these issues 
into the legal arena. There are some delicate cases where judgment is 
called for, so that upholding a simple standard is not always 
straightforward. Here is an example: A scientific researcher devotes 
many years of his professional life to the development of an instrument 
to fly on a space mission. Finally, the mission is flown, and 
scientifically valuable data are collected using the researcher's 
instrument. Should that data become immediately available to all 
researchers, so that the fruits of the instrument designer's labors are 
reaped by another researcher? It is the practice, at least here in the 
U.S., for the federal agencies that fund the instrument development to 
grant the developer a short period of exclusive rights to the data. 
This issue is addressed in the above-quoted AMS policy on free and open 
exchange of environmental data. I believe that handling issues like 
this is best left up to the agencies. I might add that a hypothetical 
gross violation of the National Academy policy you quoted in your 
question would cast the offender in a very poor light and would almost 
certainly induce the agency that funded the collection of the data to 
take action. I do not personally know of any instances of this nature 
here in the U.S.

c.  Should such research be excluded from use in authoritative 
scientific assessments such as those prepared by the Academies or the 
IPCC?

A3 (c) I find it difficult to imagine that an authoritative assessment 
would quote research results that were regarded by the scientific 
community as unreproducible. If they did, they would soon be taken to 
task for it.

Q4.  Dr. Emanuel, you strongly defend the IPCC in your testimony. Our 
other witnesses are much more critical. For example, Dr. Christy notes 
that ``after the close of peer review, the lead authors inserted text 
into the IPCC report that was simply an assertion with no evidence, and 
that the assertion was later quoted by the EPA in its Endangerment 
Finding.

a.  Do you believe it is acceptable for IPCC lead authors to insert 
text into IPCC reports outside of the peer review process?

A4 (a) It is important to understand that the IPCC reports are reviews 
and syntheses of published articles and reports, and is contributed to 
by about 1,200 authors and 2,500 scientific expert reviewers. Without 
asking Dr. Christy directly, I cannot be sure what he was referring to, 
but I suspect he was talking about the summary for policymakers that is 
included in the reports and is the main content on which policy makers 
rely as they seldom have time to read the entire report. The authors 
and expert reviewers typically contribute to small pieces of the whole 
report. The topic of climate science is so broad that there are few if 
any individual scientists whose expertise allows them to 
comprehensively review the whole report. The summary for policy makers 
(to which I think Dr. Christy must be referring) is written after the 
main body of the report and summarizes only that material from the body 
of the report that the vast majority of contributors agree to, leaving 
out the more detailed or controversial aspects. While the language is 
necessarily original, it does not introduce any science that is not 
contained in the body of the report. Before being accepted by the IPCC, 
the summary for policy makers must be agreed to by representatives of 
all the governments present at a meeting where the report is finalized. 
This makes the summary rather bland, since any points that any 
country's representatives regard as controversial or incorrect cannot 
be included. Consequently, the summary is frequently criticized by 
those representing minority views, but it does contain findings that 
are robust enough to be used by policy makers.

b.  If it is not acceptable, shouldn't such text be avoided for use by 
policymakers? If the IPCC process itself is broken with respect to 
peer-review and inclusion of data, why should we have any confidence in 
the product that is the result of a broken process?

A4 (b) Please see my response to (4) above. The contributions to the 
IPCC report from so many scientists make the report rather 
conservative, overly so in the opinion of many scientists. For example, 
the most recent report omitted any projected contribution to sea level 
rise from oblation of land ice (mainly Greenland and Antarctica). This 
may prove to be the main contribution to sea level rise over the coming 
centuries.

Q5.  You state in your testimony that the four assessment reports 
issued by the IPCC continue the conservative tradition of science.

a.  Did you believe the IPCC was conservative in its estimate of 
Himalayan glacier retreat prior to the discovery and admittance that 
this information was incorrect?

A5 (a) The inclusion of an erroneous number in the report is of course 
highly regrettable. However, a mistake of this kind should not be 
regarded as either a ``liberal'' or a ``conservative'' estimate; it is 
simply a wrong number. As I am sure you are aware, the IPCC has taken 
concrete steps to reduce the probability of errors of this kind in its 
future reports.

b.  Did you believe the IPCC was conservative with its inclusion of the 
hockey stick in the third assessment report, a graph that has been 
subsequently discredited?

A5 (b) While the graph in question has been challenged by a number of 
groups and corrections have been made, including in the more recent AR4 
report of the IPCC, this does not amount to discrediting the figure in 
question. Here is the figure, as published in the IPCC third assessment 
report:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 By the time of the IPCC Assessment Report 5, criticisms of some of the 
proxy-based records of the Third Assessment Report had been addressed, 
and other proxy data not available to the TAR had been added:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Comparing the updated figure to the figure published in the IPCCTAR, 
it is a subjective judgment whether the TAR figure has been 
``discredited''. Certainly, the most important findings, that the 
recent temperatures are almost certainly unprecedented over the past 
1000 years, and that the recent rate of increase is also unprecedented, 
remain intact.

Q6.  You note in your testimony that you investigated scientists 
working at the University of East Anglia Climate Research Unit (CRU) as 
a result of the Climate Gate emails and that you couldn't find any 
evidence of scientific misconduct. Below are portions of three emails 
out of dozens sent by Phil Jones, the head of CRU, to other climate 
scientists:

a.  ``Can you delete any emails you may have had with Keith re AR4? .. 
Keith will do likewise. Can you also email Gene and get him to do the 
same?''

b.  ``If they ever hear there, is a Freedom of Information Act now in 
the UK, I think I'll delete the file rather than send to anyone . . . 
We also have a data protection act, which I will hide behind.''

c.  [email from Phil Jones referencing inclusion of papers from rival 
scientists in IPCC report]: ``Kevin and I will keep them out somehow-
even if we have to redefine what the peer-review literature is!''

  T1These emails are just a sampling, but they include clear actions to 
hide scientific information from review, including deleting data in 
violation of the Freedom of Information Act, and conspiring to ``re-
define'' peer review literature to block publication of unwanted 
science.

  Did you consider this correspondence as part of your investigation? 
Please explain how each of examples a, b, and c reveal ``no evidence'' 
of scientific misconduct?

A6. We did not consider this correspondence as part of our 
investigation. The investigation of the activities of the CRU was 
divided into three parts: the investigation by the House of Commons 
Science and Technology Committee, the independent Science Assessment 
Panel, and the Independent Climate Change Email Review, headed by Sir 
Muir Russell. I served on the second of these, the Science Assessment 
Panel, whose charge was to review CRU science as reported in a set of 
peer-reviewed publications. As I noted in my testimony, our panel found 
no evidence of scientific misconduct. The third investigative body, the 
Independent Climate Change Email Review, was charged with investigating 
any misconduct revealed by the emails, some of which you quoted above.

 Here are the main findings of the Muir Russell Commission quoted 
directly from their report \1\ (emphases are as in the original 
report):
---------------------------------------------------------------------------
    \1\ The Independent Climate Change E-mails Review. http://www.cce-
review.org/pdf/FINAL%20REPORT.pdf

<bullet>  Climate science is a matter of such global importance, that 
the highest standards of honesty, rigour and openness are needed in its 
conduct. On the specific allegations made against the behaviour of CRU 
scientists, we find that their rigour and honesty as scientists are not 
---------------------------------------------------------------------------
in doubt.

<bullet>  In addition, we do not find that their behaviour has 
prejudiced the balance of advice given to policy makers. In particular, 
we did not find any evidence of behaviour that might undermine the 
conclusions of the IPCC assessments.

<bullet>  But we do find that there has been a consistent pattern of 
failing to display the proper degree of openness, both on the part of 
the CRU scientists and on the part of the UEA, who failed to recognise 
not only the significance of statutory requirements but also the risk 
to the reputation of the University and, indeed, to the credibility of 
UK climate science.

 And,

<bullet>  On the allegations that there was subversion of the peer 
review or editorial process we find no evidence to substantiate this in 
the three instances examined in detail. On the basis of the independent 
work we commissioned (see Appendix 5) on the nature of peer review, we 
conclude that it is not uncommon for strongly opposed and robustly 
expressed positions to be taken up in heavily contested areas of 
science. We take the view that such behaviour does not in general 
threaten the integrity of peer review or publication.

 But the Commission did find that CRU scientists were not always 
helpful in responding to FoIA and EIR requests:

<bullet>  On the allegation that CRU does not appear to have acted in a 
way consistent with the spirit and intent of the FoIA or EIR, we find 
that there was unhelpfulness in responding to requests and evidence 
that e-mails might have been deleted in order to make them unavailable 
should a subsequent request be made for them. University senior 
management should have accepted more responsibility for implementing 
the required processes for FoIA and EIR compliance.

 Personally, I find the language of the scientists you quote to be 
vulgar, but talking about taking certain actions in what was considered 
to be private and informal email correspondence is not the same thing 
as actually taking such actions, and the Muir Russell commission found 
no evidence that such actions were taken, though there was on occasion 
some unresponsiveness to FoIA requests. As is well known in the U.S. 
legal profession, FoIA is frequently used as an instrument of 
harassment and there is some indication it was being used this way 
against CRU and other scientists. While the language of the CRU 
scientists you quoted in your question is certainly unpleasant, it does 
not by itself rise to the level of scientific misconduct.

Questions submitted by Ranking Member Eddie Bernice Johnson

Q1.  As it has been noted, science is an ever-evolving field and we 
should be willing to be flexible in our thinking as the findings of 
science change. Dr. Emanuel it is my understanding that you have not 
always believed in the linkage between greenhouse gas emissions and 
climate change.

a.    As a political conservative atmospheric scientist, Dr. Emanuel 
please explain your journey to accepting the scientific findings of 
climate change.

A1. First let me state that I do not think science is about belief; it 
is about evidence. Nor do I think that one's personal politics have 
much if anything to do with one's activities as a scientist. When I 
first became involved in climate science in the late 1980s, I did not 
at the time judge that the evidence then available pointed conclusively 
to anthropogenic causes of climate change as it had been delineated at 
that time. I recognized, as did all of my peers, that climate theory 
had long ago demonstrated that adding long-lived greenhouse gases to 
the atmosphere should warm the climate, but the feedbacks were not well 
understood, the models at the time were fairly primitive, and proxies 
for past climate change were not very well developed. In the mean time, 
there have been enormous advances in the field of paleoclimate, in both 
simple and complex models, and in satellite-based observations of the 
earth. At the same time, another 25 years have been added to the 
instrumental record of the earth's climate. The evidence for an 
anthropogenic contribution to climate change is now very compelling.

Q2.  Dr. Emanuel, in your testimony you stated ``Those nations that are 
first to develop sensible technology and policies to deal with climate 
change and pollution will likely attain great economic advantages. The 
market for clean energy in China alone is of staggering proportions. 
Nations that invest in energy research and in novel ideas in such 
fields as carbon sequestration and that foster enterprises that are in 
a position to sell such technologies to rapidly developing countries 
will prosper.''

a.    Indeed, there is more we need to learn about climate change but 
in your opinion, with what we already know, should we start developing 
clean technologies now?

A2. I will answer your question as a citizen who, by profession, knows 
something about climate, but I do not claim to be an economist. The 
evidence points to an increasing demand for clean energy technology, if 
not here in the U.S., then abroad. One does not have to accept the 
compelling evidence for anthropogenic climate change to recognize the 
growth in this demand. To the extent that enterprises in the U.S. can 
meet this demand competitively, they, and by extension the U.S. 
economy, should benefit.

Questions submitted by Representative Donna F. Edwards

Q1.  Have you ever received either direct or indirect compensation for 
any of your research, analyses, publications, testimony or a speech in 
any form, at any entity, by a company, trade association, institute or 
foundation that is represented, supported or funded by the oil, coal or 
energy industry?

A1. No.

Q2.  If you answered yes to question #1 above please indicate:
      a.  The name of the entity that provided this compensation?
      b.  The year it was provided?
      c.  The amount of compensation?
      d.  A brief description of what specifically you were compensated 
for doing?

Q3.  Please indicate if you have ever appeared as an expert witness in 
a civil or criminal court case?

A3. No.

Q4.  If you answered yes to question #3 above please indicate:
      a.  The name of the court case?
      b.  The name of the court where the case was held?
      c.  The name of the plaintiff or defendant that you testified 
for?
      d.  Please indicate the amount of compensation you received 
either directly or indirectly for your testimony in each case mentioned 
above and the name of the entity that paid your compensation.

Questions submitted by Representative James Sensenbrenner

Q1.  On page 2 of your written testimony you stated: ``Global climate 
models were first developed in the 1960s and have advanced rapidly over 
the past few decades; they are used as tools to help us understand and 
predict climate, but it is not the case that they are the single or 
even most important tool for these purposes.'' Please list what, in 
your view, are the main tools for understanding and predicting climate, 
and which one is the most important.

A1. The contemporary understanding of climate rests on a number of 
important tools:

    <bullet>  Basic physics. The physics of radiative and convective 
heat transfer were well established more than a century ago. By 1896 
the Swedish chemist Svante Arrhenius was able to do a calculation that 
doubling the carbon dioxide content of the atmosphere would lead to a 
global annual mean temperature increase of 5-6 degrees centigrade. He 
did these calculations entirely by hand. Also, the physics governing 
the earth's orbit and rotation have established very precisely how the 
distribution of sunlight across our planet has changed over geologic 
time; together with paleoclimate records (discussed below), this has 
allowed us to come to understand the underlying cause of the great 
glacial cycles over the past 2 or 3 million years.

    <bullet>  The instrumental records of meteorological variables such 
as temperature and precipitation. Such records tell us how climate is 
changing and together with theory and models allow us, to some degree, 
to attribute changes we observe to purely natural, random variability 
and to changes in radiative forcing of climate by both natural agents 
(such as changing sunlight and volcanic eruptions) and manmade agents 
such as greenhouse gases and aerosols.

    <bullet>  Paleoclimate records.There have been rapid advances in 
paleoclimate techniques and applications over the past few decades. We 
have learned, for example, how to use the isotopic composition of ice 
and of the fossil shells of microorganisms to estimate temperature and 
sea levels of the past. We now have detailed records of sea level and 
atmospheric composition going back many hundreds of thousands of years. 
We have also started to learn how to use such proxies as tree ring 
width and density and coral characteristics to reconstruct records of 
temperature going back hundreds of years.

    <bullet>  Simple models. Relatively simple models that embody the 
basic physics of climate have been used for many decades to help 
understand and predict climate change. Some of these are so simple that 
they can be solved with paper and pencil; others require very small 
computers (e.g. laptops). Among the most important of these are 
``single-column'' models that treat the globally averaged atmosphere as 
a function of time and altitude. Models like these were a basis for the 
first comprehensive study of climate change by the National Academy of 
Sciences in 1979 \1\. These models give predictions of the response of 
global mean temperature to changing atmospheric composition that are in 
good accord with those produced by far more complicated global models.
---------------------------------------------------------------------------
    \1\ Carbon Dioxide and Climate: A Scientific Assessment. National 
Academy of Sciences, Washington, D.C., 1979.

    <bullet>  Global climate models. As mentioned in my testimony, 
these are relative newcomers and allow one to explore the roles of 
atmospheric and oceanic transports of heat, water, and momentum and to 
---------------------------------------------------------------------------
make predictions of the spatial patterns of climate change.

    All of these tools are important in understanding climate and so it 
is difficult to rank their importance. But the scientific community 
would be concerned about human-induced climate change even if there 
were no such thing as a global climate model, based on evidence from 
the other approaches listed above.

Q2.  On page 3 of your written testimony, you say: ``One of the more 
robust consequences of a warming climate is the progressive 
concentration of rainfall into less frequent but more intense events.''
    a.  Are you referring to model projections or observations, or 
both? 

A3 (a) I am referring to observations, theory, and model projections.
    b.  Please cite some published literature indicating whether 
observed rainfall events have become less frequent and more intense in 
the United States over the past century.

A2. Observational evidence that rainfall is becoming more concentrated 
into more intense events:

    a.  Karl, T. R., and R. W. Knight, 1998: Secular trends of 
precipitation amount, frequency, and intensity in the USA. Bulletin of 
the American Meteorological Society, 79, 231-241.

    b.  Groisman, P. Y., R. W. Knight, D. R. Easterling, T. R. Karl, G. 
C. Hegerl, and V. N. Razuvaev, 2005: Trends in intense precipitation in 
the climate record. Journal of Climate, 18, 1326-1350. doi:10.1175/
JCLI3339.1.

    Basic theory and the robust response in precipitation in climate 
models:

    a.  Held, I. M., and B. J. Soden, 2006: Robust responses of the 
hydrological cycle to global warming. Journal of Climate, 19, 5686-
5699. 1 Carbon Dioxide and Climate: A Scientific Assessment. National 
Academy of Sciences, Washington, D.C., 1979.

Q3.  On page 3 of your written testimony, you state: ``The potential 
for political destabilization of these regions is large and is matter 
of great concern to our Department of Defense, as outlined in their 
2007 report National Security and the Threat of Climate Change.'' But, 
the inside cover of the report states: ``This document represents the 
best opinion of The CNA Corporation at the time of issue''.
    a.  Is it not true this report was prepared The CBA Corporation, 
and not the Department of Defense as implied by your testimony?

A3. Yes, I did quote from a report prepared by the CNA corporation and 
thus I stand corrected. (I assume that ``CBA'' in the question is a 
typo.) But here is what the Department of Defense had to say in their 
February 2010 Quadrennial Defense Review \2\:
---------------------------------------------------------------------------
    \2\  http://www.defense.gov/qdr/images/QDR_as_of_12Feb10_1000.pdf
---------------------------------------------------------------------------
      "Assessments conducted by the intelligence community indicate 
that climate change could have significant geopolitical impacts around 
the world, contributing to poverty, environmental degradation, and the 
further weakening of fragile governments. Climate change will 
contribute to food and water scarcity, will increase the spread of 
disease, and may spur or exacerbate mass migration.

      While climate change alone does not cause conflict, it may act as 
an accelerant of instability or conflict, placing a burden to respond 
on civilian institutions and militaries around the world. In addition, 
extreme weather events may lead to increased demands for defense 
support to civil authorities for humanitarian assistance or disaster 
response both within the United States and overseas.''

Q4.  On page 4 of your written testimony you say ``In assessing risk, 
scientists have historically been notably conservative. It is part of 
the culture of science to avoid going out on limbs, preferring to 
underestimate risk to provoking the charge of alarmism from our 
colleagues.'' At the same time, on page 3 of written testimony you 
quote at length from pages 6 and 7 of the CNA Corporation report 
''National Security and the Threat of Climate Change,'' as follows:

A4. Economic and environmental conditions in already fragile areas will 
further erode as food production declines, diseases increase, clean 
water becomes increasingly scarce, and large populations move in search 
of resources. Weakened and failing governments, with an already thin 
margin for survival, foster the conditions for internal conflicts, 
extremism, and movement toward increased authoritarianism and radical 
ideologies. And, The U.S. and Europe may experience mounting pressure 
to accept large numbers of immigrant and refugee populations as drought 
increases and food production declines in Latin America and Africa.
Q4(b.)  Do you personally endorse these forecasts? Would you describe 
them as ``conservative''?

A4. Estimating the political and social consequences of climate change 
is far removed from my own field of expertise, and so I am not in a 
position to assess whether the authors of the CNA or DoD reports cited 
in this question and in my response to the previous question are 
conservative or not. It has not been my personal observation that, 
historically, DoD concerns have been overblown.

Q5.  On page 5 of your written testimony you state: ``Consider as an 
example the issues surrounding the email messages stolen from some 
climate scientists. I know something about this as I served on a panel 
appointed by the Royal Society of Great Britain, under the direction of 
Lord Oxburgh, to investigate allegations of scientific misconduct by 
the scientists working at the Climate Research Unit of the University 
of East Anglia.'' Please provide a copy of the terms of reference for 
the Oxburgh Panel established by the Royal Society, together with a 
copy of the letter or any other correspondence from the Royal Society 
appointing you as a member of the panel.

A5. I attach all the relevant material in my possession as a zip file. 
I did not include email correspondence but am happy to do so if 
requested.

Q6.  Page 1 of the ``Report of the International Panel set up by the 
University of East Anglia to examine the research of the Climatic 
Research Unit, (Oxburgh Report) states that ``the eleven representative 
publications that the Panel considered in detail . . . were selected on 
the advice of the Royal Society.'' However, subsequent inquiries have 
demonstrated that the eleven publications were selected by Trevor 
Davies, Pro-Vice Chancellor for Research and Knowledge Transfer at the 
University of East Anglia. Please explain the basis for the Oxburgh 
Report's claim that the eleven publications had been selected by the 
Royal Society.

A6. As a member of the Scientific Assessment Panel (SAP), I was indeed 
asked to review eleven publications and was told that they had been 
selected with the advice of the Royal Society. I had no reason to 
question this information. In the event, we went beyond this mandate 
and asked questions based on other material we reviewed.

Q7.  During the hearing you were asked if the Oxburgh Panel interviewed 
any outside critics of the Climatic Research Unit of the University of 
East Anglia (CRU).
 a.  Can you confirm that neither you nor any other member of the 
Oxburgh Panel conducted any such interviews, and that none of the 
information supplied to you by CRU scientists was shown to outside 
critics for response or rebuttal?

A7 (a) Prior to the meeting, I informally sent emails to two critics of 
the CRU work asking for their input. Specifically, I sent emails to 
Roger Pielke, Sr. and Stephen McIntyre, on March 27th 2010. (I am 
willing to supply the Committee with copies of these emails.) Dr. 
Pielke responded very soon thereafter with material that I found very 
helpful in querying CRU members about corrections to individual 
meteorological station data. Mr. McIntyre did not respond until after I 
had returned from Norwich, and then only to say that he would see what 
he could do.

 b.  If, as you state on page 5 of your written testimony, the Panel's 
task was to ``investigate allegations of scientific misconduct,'' did 
any member of the Panel, at any time, recommend that, as part of the 
investigation, interviews should be conducted with critics of the CRU 
or with individuals making the allegations of misconduct?

A7 (b) The allegations of misconduct at that time focused on comments 
by CRU staff contained in email correspondence. Reviewing such emails 
was not in the purview of the SAP on which I served but rather on the 
Independent Climate Change Email Review, headed by Sir Muir Russell. 
(Please see by response to Question 6 of Representative Hall.) I do not 
remember hearing a specific suggestion that we conduct interviews of 
critics of CRU, though we were familiar with the points raised by such 
critics.

 c.  Did any member of the Panel request that interviews with the 
scientists under investigation be recorded and released?

A7 (c) No, not that I remember.

 d.  Can you also confirm that the Panel did not issue a call for 
evidence or hold public hearings, and if not, why not?

A7 (d) There was never any discussion by anyone involved about a call 
for evidence or a public hearing. Having participated on both sides of 
academic department reviews at MIT, these have never been open to the 
public; doing so would have greatly impeded the frank discussion and 
questions that are necessary to the conduct of a review of this nature. 
This was an investigation, not a trial.

 e.  Do you believe that you, as a member of the Panel, were 
sufficiently knowledgeable about the work of CRU scientists and the 
specific allegations of misconduct to evaluate the truthfulness of the 
information given to you by CRU scientists without seeking input from 
any of their critics?

A7 (e) As mentioned in my response to 7a) above, I did seek information 
from critics, though only one of the two responded. Moreover, the 
criticisms were made public at an early stage, so that in my 
preparation for the panel review, I became well acquainted with most of 
them. Therefore, yes, I feel that by the time of the panel meeting, I 
was sufficiently knowledgeable about at least some of the work of the 
CRU scientists to participate in the Panel.

Q8.  Did Phil Jones tell the Oxburgh Panel (or any members of Panel) 
that it was ``probably impossible to do the 1000-year temperature 
reconstructions with any accuracy''? 

 a.  If so, why was this admission not cited in the Oxburgh Report?

A8 (a) I do not remember Phil Jones saying that.

 b.  If this is Jones' view, do you agree that this caveat should have 
been included in articles published by CRU scientists, and that the 
failure to include this caveat is not ``compatible with a fair 
interpretation-of the original data''?

A8 (b) The published, peer-reviewed literature of the CRU group and 
their collaborators is mostly about uncertainties. As the review panels 
have consistently noted, there was no failure to communicate these 
uncertainties. Please look at Figure 1 in my response to the questions 
posed by Representative Hall; this is the famous ``hockey stick'' graph 
from the IPCC Third Assessment Report; the gray shading shows the range 
of uncertainty in the estimates. Indeed, the title of one of the 
original and most cited papers on the temperature reconstructions, 
published in 1999, is ``Northern hemisphere temperatures during the 
past millennium: Inferences, uncertainties, and limitations''.

Q9.  Upon the completion of the Oxburgh Report, did you tell a 
colleague that there were some ``real issues with TAR that needed to be 
investigated, but that these were beyond the purview of the 
committee.'' If so, please identify these issues.

A9. I do not remember saying that, but if I did say anything like that 
I must have been referring to the ``hockey stick'' figure in the IPCC 
TAR and whether that figure had been adequately documented.

Q10.  On page 5 of your written testimony, you stated that CRU 
scientists had ``omitted that part of [a particularly dubious tree-
ring-based proxy] that was provably false'' in a ``figure for a non 
peer-reviewed publication'' and that this was a ``single lapse of 
judgment''.
 a.   Are you referring to the graph prepared by Phil Jones for the 
cover of a 1999 World Meteorological Organization (WMO) report?

A10 (a) Yes.
 b.   Can you confirm that the ``particularly dubious'' tree ring proxy 
is the ``Briffa'' temperature reconstruction?

A10 (b) Yes.

 c.   Can you confirm that the part of the Briffa reconstruction that 
CRU scientists ``omitted'' in the WMO diagram was the portion of the 
Briffa reconstruction after 1960 when tree ring densities declined?

A10 (c) Yes.

 d.   You say that this was a ``single lapse of judgment''. At the 
interviews of the Oxburgh Panel that you attended, did you or any other 
Oxburgh Panel member ask CRU scientists asked whether they had 
``omitted'' the declining part of the Briffa reconstruction in any 
peer-reviewed publication? If so, what was their answer?

A10 (d) Discussion of the ``divergence problem'' was a focus of our 
meeting.

 e.   Did the Oxburgh Panel perform any due diligence to determine 
whether CRU scientists had ``omitted'' the declining part of the Briffa 
reconstruction in their peer reviewed publications? If so, what were 
the results?

A10 (e) It was well known prior to the meeting that they had done this, 
but we re-confirmed it with them.

 f.   When you made your testimony that the omission in the WMO report 
was a ``single lapse of judgment,'' were you aware that CRU scientists 
had ``omitted'' the declining part of the Brfffa reconstruction in 
figures in numerous peer reviewed publications, including P.D. Jones et 
al., Rev. Geophys., 37(2), 173 (1999); K.R. Briffa and TJ. Osborn, 
Science 295, 2227 (1999); K.R; Briffa et al., J. Geophys. Res. 106, 
2929 (2001); K.R. Briffa et al., Global Planet. Change 40, 11; and S. 
Rutherford et aI., J. Clim. 18, 2308 (2005)?

A10 (f) Yes, certainly.

 g.   When you made your testimony that the omission in the WMO report 
was a 'single lapse of judgment'', were you aware that the declining 
part of the Briffa reconstruction had been omitted in figures in the 
IPCC Third Assessment Report and the IPCC Fourth Assessment Report?

A10 (g) Yes, certainly.

 h.   Do you still maintain that the deletion of data was a ``single 
lapse of judgment'' and that it was only in connection with one ``non 
peer-reviewed publication'' and if so, what is your justification?

A10 (h) The error in judgment was not the omission of the data from the 
graph. There are many instances in the published proxy literature in 
which authors omitted data that in their judgment was flawed. The error 
in judgment was the failure, in the case of the 1999 WMO report to 
explain that that had been done and the basis for doing so, either 
explicitly in the report or paper or by virtue of the context in which 
the graph is presented. As far as I can tell, this failure was confined 
to the 1999 WMO report and possibly the IPCC TAR. My opinion is shared 
by the Muir Russell Commission (which I did not participate in); here 
is what they had to say about this in their report (emphasis theirs):
    <bullet>   On the allegation that the references in a specific e-
mail to a ``trick'' and to ``hide the decline'' in respect of a 1999 
WMO report figure show evidence of intent to paint a misleading 
picture, we find that, given its subsequent iconic significance (not 
least the use of a similar figure in the IPCC Third Assessment Report), 
the figure supplied for the WMO Report was misleading. We do not find 
that it is misleading to curtail reconstructions at some point per se, 
or to splice data, but we believe that both of these procedures should 
have been made plain--ideally in the figure but certainly clearly 
described in either the caption or the text.

 i.   On page 5 of your written testimony you described the editing of 
the Briffa tree ring record as follows: ``Rather than omitting the 
entire record of a particularly dubious tree-ring-based proxy, the 
authors of the figure only omitted that part of it that was provably 
false.'' Did the Oxburgh Panel carry out any due diligence to establish 
that this portion of the Briffa reconstruction was ``provably false''? 
Please provide support for your claim.

A10 (i) I do not recall whether we did or did not, but at any rate when 
proxy inferences and direct measurements disagree, one concludes that 
the proxies are in error.

 j.   In your testimony, you state that the Briffa tree ring data was 
``particularly dubious'' and that it would have been a valid 
alternative not to show the Briffa reconstruction at all. Did the 
Oxburgh Panel carry out any due diligence to establish that the Briffa 
data was ``particularly dubious,'' and if, what did it do?

A10 (j) Yes, we did. We spent considerable time with Keith Briffa 
discussing the methodology, the environment in which the trees in 
question were found. We even examined some tree sections under a 
microscope. A great deal of the meeting was spent discussing the so-
called ``divergence'' problem, which is well known in the community and 
discussed extensively n the peer-reviewed literature. By no means all 
of the tree data show the divergence problem.

 k.   In light of the failure of the large Briffa proxy network to show 
increases in tree ring density and width in line with warming in the 
last half of the 20th century (the ``divergence problem ''), how do you 
rule out the possibility that proxy data in the preinstrumental period 
might also fail to record historical warming intervals?

A10 (k) This is an excellent question and drives to the heart of the 
true scientific controversy as well as the judgments that were brought 
to bear in portraying this information in the IPCC report and other 
reports intended for a broad audience. The simple answer is that one 
cannot rule out the possibility that the proxy data in question in the 
preinstrumental period might also fail to show a warming. There is no 
such thing as a perfect proxy for past climates; all of the ones I am 
familiar with have their own drawbacks. This provides a strong 
motivation for looking at many different proxies based on different 
techniques and comparing the results; by doing this one gains some idea 
of the probable uncertainties in the temperature reconstructions. The 
last two IPCC reports presented information based on many proxies, and 
by showing these different proxies explicitly (in the case of the IPCC 
AR4) or indirectly by presenting error bars (in the case of the IPCC 
TAR), the uncertainty is conveyed. Please examine the two figures I 
provided in my responses to Representative Hall.

 l.   By deleting the most conspicuous modern divergences between 
proxies and temperatures in IPCC and WMO reports, would you agree that 
the CRU scientists concealed this problem from readers of the IPCC 
report and from policymakers?

A10 (l) I see no evidence that there was any intent to deceive, as 
implied by your question. We scientists are increasingly strongly 
encouraged to communicate with the public and policy makers and are 
frequently chastised for failing to simplify our points and for making 
our discussions too technical. In trying to simplify material for 
reports such as the two you quote above, intended for a broad audience, 
judgments must be made in how far to go to simplify the material. Had 
the graphs in the two reports you quote been based on information from 
the problematic tree proxies alone, then I think a case could be made 
that the graphs are deceptive. But taken in their actual entirety, they 
do a good job in summarizing our best estimates of the 1000-year 
history of northern hemisphere temperature, including the uncertainties 
in those estimates. I do not believe that any rational person examining 
these graphs could fail to appreciate the large uncertainties in the 
estimates, especially in the preinstrumental era.

Q11.  The Oxburgh Report (page 2) states that tree ring chronologies 
``are subject to change when additional trees are added'' and 
``commended'' CRU for ``continuously updating and reinterpreting their 
earlier chronologies.'' The Polar Urals and the regional chronology 
combining Yamal, Polar Urals and other chronologies were issues of 
controversy immediately prior to Climategate and were identified as 
important topics of investigation in submissions to the House of 
Commons Science and Technology Committee by prominent CRU critics.

 a.   If CRU had calculated an updated version of the Polar Urals 
chronology presented in K.R. Briffa et al., Nature 376, 156 (1995) that 
differed materially from the published version, in your opinion; would 
CRU scientists have an obligation under acceptable scientific practice 
to report the updated version?

A11 (a) Yes, if by ``updated'' you also mean superior.

 b.   If CRU had calculated a regional chronology combining the Yamal, 
Polar Urals and other shorter chronologies, in your opinion, did CRU 
scientists have an obligation under acceptable scientific practice to 
report this calculation either in connection with the publication of 
regional chronologies in K.R. Briffa et al., Phil. Trans. R. Soc. B 
363,2271 (2008) or otherwise?

A11 (b) If they found errors in the original analysis then yes, they 
would have an obligation to publish the corrections. If they examined 
different data that led to differing conclusions, they should also 
publish that unless, in their judgment, the new data is flawed or 
inferior to the previously published data.

 c.   Did any member of Oxburgh Panel ask CRU scientists whether they 
had ever calculated an updated version of the Polar Urals chronology? 
If so, what was their answer?

A11 (c) Not that I recall.

 d.   Did any member of the Oxburgh Panel ask CRU scientists whether 
they had ever calculated regional chronology combining the Yamal, Polar 
Urals and other shorter chronologies? If so, what was their answer?

A11 (d) Not that I recall.

Questions submitted by Represenative David Wu

Q1.  If you surveyed climate scientists in 1990 and then again in 2010, 
would the results indicate:

 a.   an increased consensus that climate change has been occurring?

A1 (a) Yes, certainly.

 b.   that climate change is due to an increase in greenhouse gases?

 c.   that the increase in greenhouse gases is primarily due to human 
activity?

A1 (c) Yes, certainly.
This fact was already well accepted in 1990.
Responses by Dr. W. David Montgomery, Economist

Questions submitted by Chairman Ralph Hall

Q1.  In your testimony, you note that access to affordable and abundant 
energy, in fact, is clearly correlated with the quality of life enjoyed 
by a society. This appears obvious throughout our society. For example, 
inexpensive electricity allows refrigerators to prevent food from 
spoiling and energy-consuming hospitals save lives with all of their 
electronic equipment.

a.  Can you provide some other examples of the social benefit of 
affordable and abundant energy?

A1 (a) The most important necessities often are the cheapest. Most 
people in the United States pay little for water and yet could not live 
without it. That is a very desirable state of affairs, as long as the 
use of water is not subsidised to encourage wasteful use. Thus we can 
say with confidence that what water is worth far exceeds what it costs. 
The same is true of energy. Although on the margin, there are 
discretionary uses of energy, most of the energy we use makes 
contributions to our lives far greater than what we pay for it. Coming 
into a warm home in winter is worth far more than the fuel bill, the 
flexibility and freedom of travel that we gain from readily available 
energy is ``priceless'' as the credit card advertisement puts it, and 
raising the price of energy means we must make do with less of these 
enjoyments or less of something else. With forces we cannot control 
driving up the price of some forms of energy, any government action 
that will raise those costs further needs to be scrutinized very 
carefully to make sure that it provides more than it takes away from 
the American consumer.

b.  Do economic models that calculate the cost of climate-related 
policies adequately take into consideration the higher social cost 
resulting from more expensive energy?

A1 (b) Some do and some do not. Mainstream economic models like EPA's 
ADAGE model and the MRN-NEEM model that my colleagues and I have used 
in studies of climate policy do so. This class of models recognize that 
society's resources are limited, and that choosing to make energy more 
expensive will divert those resources away from producing other goods 
and services that consumers want. The loss of other good things--or 
having to make do with less comfort and convenience from using energy--
is the social cost of more expensive energy. Other models do not. The 
kind of models used by organizations like PERI to support claims that 
regulations that make energy more expensive also create jobs completely 
ignore the social costs of more expensive energy.

Q2.  Over 1.6 billion people--25 percent of the world's population--do 
not have access to electricity. Many of them soon will, thanks to 
expanded use of coal, which is forecast to increase 50 percent by 2030. 
The affordable electricity provided by coal will enable economic 
development and help alleviate poverty in places such as China, India, 
and Africa.

a.  How will U.S. efforts to reduce greenhouse gas emissions have any 
impact on climate change give the expected dramatic increases globally? 
Should the U.S. impose higher energy costs on its citizens if the 
benefits are negligible?

A2. Unilateral actions by the U.S. will not have a noticeable impact on 
climate change worldwide, and therefore they can only provide 
negligible benefits to U.S. citizens. We do have a responsibility 
toward the poor, in the U.S. and worldwide, but policies to reduce 
greenhouse gas emissions will do the poor in the United States no good 
at all, and worldwide we would do far better to spend what climate 
regulations would cost us on direct aid to the neediest.

Q3.  Some advocates of international action have pointed to China's 
commitment to reduce greenhouse gas emissions as an indication they are 
willing to participate in a binding international agreement. Do you 
agree with this hypothesis?

A3. No, nor do I see any evidence of a real commitment by China to 
undertake effective policy measures to reduce their emissions below 
levels that are already in their economic interest. What we have is a 
political statement in the Copenhagen Accords that is neither binding 
nor, in terms of its magnitude, likely to represent any sharing of real 
costs by China.

Q4.  Should China, in response to an international treaty, commit to 
some sort of carbon restriction; is there reason to believe China would 
adhere to their commitment, given their repeated disregard of other 
international agreements, such as enforcement of intellectual property 
rights?

A4. No. Indeed there is no reason to believe that any nation will 
adhere to the kinds of commitments that are now being discussed in 
negotiations to extend the Kyoto Protocol, because just about every 
study of how those commitments relate to national interests find that 
such an agreement would be unstable. Moreover, it is far from clear 
given the nature of the Chinese political system that the central 
government could enforce such a commitment even if it did believe it 
was in China's national interest. Regional governments in alliance with 
their regional industries seem to be the real power in China's economy. 
This alliance of government and industry has directed China's growth 
since market reforms in the direction of massive investments in heavy 
industry, which are largely responsible for the continuing growth in 
China's greenhouse gas emissions. They can do so despite creating 
massive overcapacity because of the access of local governments to 
loans from State banks, which they use to support uneconomic local 
industries. Without some way of breaking up this crony capitalism there 
is little chance that Beijing could greatly change the direction of 
emissions growth in China.

Q5.  A lot of discussion relating to mandating a ``clean energy'' 
market surround the increased manufacturing base that would appear due 
to the newly mandated market. Yet, if energy costs increase 
substantially, as expected from such a mandate, is there reason to 
believe energy-intensive manufacturing companies wouldn't follow 
previous industries across the border or overseas?

A5. Absolutely not. Mandating purchases of ``clean energy'' through 
regulation is ineffective in creating an increased manufacturing base. 
Manufacturing will take place in the region that has the greatest 
comparative advantage, and raising energy costs through clean energy 
mandates only reduces the U.S. advantage in manufacturing. We are 
seeing this already, as a large share of the wind and solar equipment 
now being installed in the U.S. as a result of renewable energy 
standards is being manufactured overseas. And Europe, despite its 
massive subsidies to use of renewable energy, is having the same 
problem keeping manufacturing of the equipment at home.

Q6.  President Obama recently proposed instituting a ``Clean Energy 
Standard'' of 80% energy from clean sources by 2035, presumably with 
the goal to reduce greenhouse gas emissions. As an expert economist, 
how do you anticipate such a standard would impact the economy?

A6. First, it would be exceptionally difficult to meet because getting 
from the current level of renewable use to 80% requires an 
unprecedented and premature turnover of the capital stock, the adoption 
of very costly or technically unproven technologies, and a level of use 
of intermittent and uncontrollable resources like wind and solar that 
would threaten the reliability of electricity supply. Moreover, being 
renewable does not mean that an energy source is without environmental 
problems of its own or that the indirect effects would be benign. The 
continued support for corn-based ethanol despite its making global 
warming worse and raising the cost of food is a case in point. Taking 
all this into account, the result would be a large increase in energy 
costs and likely massive unanticipated environmental problems and 
impacts on food supply.

Q7.  A key assumption in the process of economic modeling is the 
availability of carbon offsets. Presumably, widespread availability of 
offsets would allow for a reduction in greenhouse gas emissions to be 
achieved at a cheaper cost by having another entity do so.

a.  Can you outline why you believe carbon offsets will not be as 
widely available as assumed by many economic models?

A7. Carbon offsets can either be plentiful or valid, but it is hard to 
devise a system that can achieve both those goals. Any carbon offset 
represents the difference between what is actually happening and what 
would have happened otherwise, and determining that counterfactual is 
always to an extent arbitrary and likely to create moral hazards that 
lead to gaming the system. Moreover, the most prolific source of 
offsets is expected to be from reduced deforestation in developing 
countries. But the reason for that deforestation is largely the lack of 
adequate institutions like property rights in land and effective 
governance in the countries where deforestation is occurring, and 
without fundamental institutional change those countries will be unable 
to deliver credible offsets. Finally, valid offsets from forestry and 
prevented deforestation are likely to be competing with use of land for 
food production, and therefore will be costly to the world's food 
supply and likely to run into severe opposition when that is realized.

b.  Outside of the availability of such offsets, can you comment on the 
concept of ``additionality'' and its impact on the ability to produce 
tangible environmental benefits?

A7 (b) ``Additionality'' is the requirement that a program bring about 
reductions in emissions that would not be achieved in its absence. Some 
such requirement is necessary to make sure that there are tangible 
environmental benefits, but it is an area where ``the best is the enemy 
of the good.'' The tighter the requirement to demonstrate 
``additionality,'' the less likely it is that useful real world 
measures will be credited with reducing emissions. For example, nuclear 
power in the U.S. is an accepted technology so that building additional 
nuclear powerplants might not count as ``additional'' emission 
reductions, even though significant policy aid is required. Also, in 
programs like the Clean Development Mechanism (CDM) a project will 
satisfy additionality only if it is not economically feasible without 
CDM credits. But if a host country adopts a broader policy, such as 
raising gasoline taxes, that make some projects economic, they will no 
longer qualify. The opposite kind of gaming has been observed in 
countries that use different feed-in tariffs to pay for electricity 
from different sources; those countries can make any project comply 
with the ``additionality'' rules by lowering the feed-in tariff until 
it is uneconomic without CDM credits. Thus additionality is a worthy 
idea that has produced great mischief in application.

Q8.  In your discussion of economic impacts, you neglect to mention the 
often-cited ``Stern Report,'' conducted by British economist Nicholas 
Stern. Can you mention some of the flaws in the process of the Stern 
Report?

A8. Despite the charge to the Stern Commission to review the economic 
issues, the Stern Report turned into an advocacy report supporting a 
particular set of attitudes toward climate policy. Although there is 
some good thinking buried in the body of the report, the overall 
summary and in particular its conclusion that the benefits of radically 
reducing emissions far exceed the cost are highly misleading. Numbers 
are twisted and distorted in ways that have no support in the economics 
profession to come up with the conclusion about benefits versus costs, 
largely because the report fails to mention that the benefits will 
accrue to future generations far richer than ourselves, while the costs 
fall on current generations, and that as a percentage of income we give 
up far more than the future generations gain. Sir Nicholas organized 
reviews of his draft report by leading American environmental 
economists, among which I was included, and the universal message to 
him was that the calculations in the report were absurd and would 
destroy its usefulness in enlightening policy. He ignored that advice.

Q9.  A recent report by an English business consulting firm examined 
the costs and benefits of government policy to support the renewable 
energy industry in United Kingdom. It found that for every job created 
in the UK in renewable energy, 3.7 jobs are lost. [http://
www.bbc.co.uk/news/uk-scotland-12597097]

    The primary reasoning in support of this conclusion is that the 
opportunity costs associated with pushing consumers to more expensive 
renewable energy greatly outstrips any benefit from the creation of 
``green jobs.''

a.  What is your reaction to this conclusion that the push for ``green 
jobs'' is economically damaging?

A9. It is correct. To the extent that renewable energy makes economic 
sense, either because it can be produced more cheaply than fossil fuels 
or is a cost-effective way to comply with environmental performance 
standards, it will be adopted without specific support for renewable 
energy. For the most part, neither of these conditions hold. There are 
more cost-effective ways to meet environmental goals, and renewable 
energy costs significantly more than available alternatives to meet 
energy needs.

Questions submitted by Representative Randy Neugebauer

Q1.  Dr. Montgomery, even President Obama has said that under his 
climate change policies, ``electricity prices would skyrocket.'' Some 
estimates of the benefits of even the most drastic climate change 
initiatives find that we would abate global temperature increases by 
less then one degree Fahrenheit by 2100. Based on the scientific and 
economic information we have available to us, how would you describe 
the cost-benefit analysis of imposing massive subsidies and mandates on 
energy producers and consumers?

A1. The costs are high and the benefits are nearly non-existent. 
Although there are many uncertainties and disagreements about climate 
science, there is no dispute about two calculations: the U.S. will be 
contributing a declining share of global emissions over the next 
century no matter what we do, and President Obama's climate policies 
will make next to no difference in global concentrations of greenhouse 
gases and temperature change. No matter how costs are minimized by 
proponents of specific positions, including the frequent statement by 
EPA that ``even 1% of GDP is only half of a year's growth'' or Al Gore 
that ``it's a postage stamp a day,'' the clear conclusion from the 
numbers is that the benefits to the U.S. of those actions are even 
smaller.

Questions submitted by Representative David Wu

Q1.  If you surveyed climate scientists in 1990 and then again in 2010, 
would the results indicate:

a.  an increased consensus that climate change has been occurring?

b.  that climate change is due to an increase in greenhouse gases?

c.  that the increase in greenhouse gases in primarily due to human 
activity?

A1. I have seen so many widely differing ``surveys'' purporting to 
state the views of ``climate scientists'' that I have no clear answer. 
Looking just at historical data, there does appear to be an increasing 
likelihood that recent temperatures are not just normal random 
fluctuations but it is by no means an unambiguous signal. That an 
increase in greenhouse gases in the atmosphere will lead to an increase 
in temperature has never been in dispute, at least since Arrhenius. 
Whether the increase in greenhouse gases up to now is primarily due to 
human activity is a question that I never thought was worth worrying 
about, since it is clear that there will at some point in the future be 
large increases that are attributable to human activity.

Questions submitted by Representative Donna F. Edwards

Q1.  Have you ever received either direct or indirect compensation for 
any of your research, analyses, publications, testimony or a speech in 
any form, at any entity, by a company, trade association, institute or 
foundation that is represented, supported or funded by the oil, coal or 
energy industry?

A1. I was employed for most of the past 21 years by a consulting firm, 
Charles River Associates, and received all my compensation from that 
company. CRA had many clients from the oil, coal and energy industry, 
but overall its energy practice represented only a small fraction of 
its business.

Q2.  If you answered yes to question #1 above please indicate:

a.  The name of the entity that provided this compensation?

b.  The year it was provided?

c.  The amount of the compensation?

d.  A brief description of what specifically you were compensated for 
doing?

A2. I cannot answer this question. All client engagements were covered 
by a confidentiality agreement between CRA and the client, and I am 
bound by my own confidentiality agreements with CRA. Even if I were not 
under that obligation, I no longer have access to information about 
CRA's revenues from any engagement because I am no longer employed by 
CRA.

Q3.  Please indicate if you have ever appeared as an expert witness in 
a civil or criminal court case?

A3. I have.

Q4.  If you answered yes to question #3 above please indicate:

a.  The name of the court case?

b.  The name of the court where the case was held?

c.  The name of the plaintiff or defendant that you testified for?

d.  Please indicate the amount of compensation you received either 
directly or indirectly for your testimony in each case mentioned above 
and the name of the entity that paid your compensation.

A4. All the information requested in questions a, b, and c was provided 
in my resume delivered to the Committee before my testimony. I am 
unable to answer question d. for the same reason that I am unable to 
answer question 2. Moreover, since I was paid a salary and bonus at the 
discretion of my employer, I have no knowledge of what the connection 
between my compensation and any of these engagements might have been. 
Nor would it matter, because I have always conducted my own independent 
research in every engagement, and stated my own conclusions objectively 
and honestly no matter who my client was.
                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                   Additional Material for the Record
Material Submitted by Chairman Ralph M. Hall

[GRAPHIC] [TIFF OMITTED] 65306.326

[GRAPHIC] [TIFF OMITTED] 65306.327

[GRAPHIC] [TIFF OMITTED] 65306.328

[GRAPHIC] [TIFF OMITTED] 65306.329

[GRAPHIC] [TIFF OMITTED] 65306.330

[GRAPHIC] [TIFF OMITTED] 65306.331

[GRAPHIC] [TIFF OMITTED] 65306.332

[GRAPHIC] [TIFF OMITTED] 65306.333

[GRAPHIC] [TIFF OMITTED] 65306.334

[GRAPHIC] [TIFF OMITTED] 65306.335

Material Submitted by Mr. Peter Glaser, Partner, Troutman Sanders, LLP

[GRAPHIC] [TIFF OMITTED] 65306.001

[GRAPHIC] [TIFF OMITTED] 65306.002

[GRAPHIC] [TIFF OMITTED] 65306.003

[GRAPHIC] [TIFF OMITTED] 65306.004

[GRAPHIC] [TIFF OMITTED] 65306.005

[GRAPHIC] [TIFF OMITTED] 65306.006

[GRAPHIC] [TIFF OMITTED] 65306.007

[GRAPHIC] [TIFF OMITTED] 65306.008

[GRAPHIC] [TIFF OMITTED] 65306.009

[GRAPHIC] [TIFF OMITTED] 65306.010

[GRAPHIC] [TIFF OMITTED] 65306.011

[GRAPHIC] [TIFF OMITTED] 65306.012

[GRAPHIC] [TIFF OMITTED] 65306.013

[GRAPHIC] [TIFF OMITTED] 65306.014

[GRAPHIC] [TIFF OMITTED] 65306.015

[GRAPHIC] [TIFF OMITTED] 65306.016

[GRAPHIC] [TIFF OMITTED] 65306.017

[GRAPHIC] [TIFF OMITTED] 65306.018

[GRAPHIC] [TIFF OMITTED] 65306.019

[GRAPHIC] [TIFF OMITTED] 65306.020

[GRAPHIC] [TIFF OMITTED] 65306.021

[GRAPHIC] [TIFF OMITTED] 65306.022

[GRAPHIC] [TIFF OMITTED] 65306.023

[GRAPHIC] [TIFF OMITTED] 65306.024

[GRAPHIC] [TIFF OMITTED] 65306.025

[GRAPHIC] [TIFF OMITTED] 65306.026

[GRAPHIC] [TIFF OMITTED] 65306.027

[GRAPHIC] [TIFF OMITTED] 65306.028

[GRAPHIC] [TIFF OMITTED] 65306.029

[GRAPHIC] [TIFF OMITTED] 65306.030

[GRAPHIC] [TIFF OMITTED] 65306.031

[GRAPHIC] [TIFF OMITTED] 65306.032

[GRAPHIC] [TIFF OMITTED] 65306.033

[GRAPHIC] [TIFF OMITTED] 65306.034

[GRAPHIC] [TIFF OMITTED] 65306.035

[GRAPHIC] [TIFF OMITTED] 65306.036

[GRAPHIC] [TIFF OMITTED] 65306.037

[GRAPHIC] [TIFF OMITTED] 65306.038

[GRAPHIC] [TIFF OMITTED] 65306.039

[GRAPHIC] [TIFF OMITTED] 65306.040

[GRAPHIC] [TIFF OMITTED] 65306.041

[GRAPHIC] [TIFF OMITTED] 65306.042

[GRAPHIC] [TIFF OMITTED] 65306.043

[GRAPHIC] [TIFF OMITTED] 65306.044


Full document can be found at: http://science.house.gov/hearing/full-
committee-hearing-climate-change
Material Submitted by Representative Dana Rohrabacher

[GRAPHIC] [TIFF OMITTED] 65306.391

[GRAPHIC] [TIFF OMITTED] 65306.392

[GRAPHIC] [TIFF OMITTED] 65306.393

[GRAPHIC] [TIFF OMITTED] 65306.394

[GRAPHIC] [TIFF OMITTED] 65306.395

[GRAPHIC] [TIFF OMITTED] 65306.396

[GRAPHIC] [TIFF OMITTED] 65306.397

[GRAPHIC] [TIFF OMITTED] 65306.398

[GRAPHIC] [TIFF OMITTED] 65306.399

[GRAPHIC] [TIFF OMITTED] 65306.400

[GRAPHIC] [TIFF OMITTED] 65306.401

[GRAPHIC] [TIFF OMITTED] 65306.402

[GRAPHIC] [TIFF OMITTED] 65306.403

[GRAPHIC] [TIFF OMITTED] 65306.404

[GRAPHIC] [TIFF OMITTED] 65306.405

[GRAPHIC] [TIFF OMITTED] 65306.406

[GRAPHIC] [TIFF OMITTED] 65306.407

[GRAPHIC] [TIFF OMITTED] 65306.408

[GRAPHIC] [TIFF OMITTED] 65306.409

[GRAPHIC] [TIFF OMITTED] 65306.410

[GRAPHIC] [TIFF OMITTED] 65306.411

[GRAPHIC] [TIFF OMITTED] 65306.412

[GRAPHIC] [TIFF OMITTED] 65306.413

[GRAPHIC] [TIFF OMITTED] 65306.414

[GRAPHIC] [TIFF OMITTED] 65306.415

[GRAPHIC] [TIFF OMITTED] 65306.416

[GRAPHIC] [TIFF OMITTED] 65306.417

[GRAPHIC] [TIFF OMITTED] 65306.418

[GRAPHIC] [TIFF OMITTED] 65306.419

[GRAPHIC] [TIFF OMITTED] 65306.420

[GRAPHIC] [TIFF OMITTED] 65306.421

[GRAPHIC] [TIFF OMITTED] 65306.422

[GRAPHIC] [TIFF OMITTED] 65306.423

[GRAPHIC] [TIFF OMITTED] 65306.424

[GRAPHIC] [TIFF OMITTED] 65306.425

[GRAPHIC] [TIFF OMITTED] 65306.426

[GRAPHIC] [TIFF OMITTED] 65306.427

[GRAPHIC] [TIFF OMITTED] 65306.428

[GRAPHIC] [TIFF OMITTED] 65306.429

[GRAPHIC] [TIFF OMITTED] 65306.430

[GRAPHIC] [TIFF OMITTED] 65306.431

[GRAPHIC] [TIFF OMITTED] 65306.432

[GRAPHIC] [TIFF OMITTED] 65306.433

[GRAPHIC] [TIFF OMITTED] 65306.434

[GRAPHIC] [TIFF OMITTED] 65306.435

[GRAPHIC] [TIFF OMITTED] 65306.436

[GRAPHIC] [TIFF OMITTED] 65306.437

[GRAPHIC] [TIFF OMITTED] 65306.438

[GRAPHIC] [TIFF OMITTED] 65306.439

[GRAPHIC] [TIFF OMITTED] 65306.440

[GRAPHIC] [TIFF OMITTED] 65306.441

[GRAPHIC] [TIFF OMITTED] 65306.442

[GRAPHIC] [TIFF OMITTED] 65306.443

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
